<html>
<title> - EMERGENCY PLANNING FOR THE YEAR 2000: PREPARATION OR PANIC?</title>
<body><pre>[Senate Hearing 105-895]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 105-895


 
                 EMERGENCY PLANNING FOR THE YEAR 2000:
                         PREPARATION OR PANIC?

=======================================================================

                                HEARING

                               before the

                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

 THE PREPAREDNESS OF EMERGENCY SERVICE AGENCIES AT THE STATE, COUNTY, 
                      AND LOCAL GOVERNMENT LEVELS

                               __________

                            OCTOBER 2, 1998

                               __________

                  Printed for the use of the Committee


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
                          Washington, DC 20402

                    U.S. GOVERNMENT PRINTING OFFICE                    
51-565 cc                  WASHINGTON : 1999



                        SPECIAL COMMITTEE ON THE

                      YEAR 2000 TECHNOLOGY PROBLEM

         [Created by S. Res. 208, 105th Cong., 2d Sess. (1998)]

                   ROBERT F. BENNETT, Utah, Chairman

JON KYL, Arizona                     CHRISTOPHER J. DODD, Connecticut,
GORDON SMITH, Oregon                   Vice Chairman
SUSAN M. COLLINS, Maine              JEFF BINGAMAN, New Mexico
TED STEVENS, Alaska, Ex Officio      DANIEL PATRICK MOYNIHAN, New York
                                     ROBERT C. BYRD, West Virginia, Ex 
                                     Officio

                    Robert Cresanti, Staff Director

              T.M. (Wilke) Green, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                 ------                                

                 OPENING STATEMENT BY COMMITTEE MEMBER

Robert F. Bennett, a U.S. Senator from Utah, Chairman, Special 
  Committee on the Year 2000 Technology Problem..................    18
Christopher J. Dodd, a U.S. Senator from Connecticut, Vice 
  Chairman, Special Committee on the Year 2000 Technology Problem    20

                    CHRONOLOGICAL ORDER OF WITNESSES

John A. Koskinen, Chairman, President's Council on Year 2000 
  Conversion.....................................................     2
Lacy Suiter, Executive Associate Director for Response and 
  Recovery Directorate, Federal Emergency Management Agency......     5
Hon. Michael O. Leavitt, Governor of the State of Utah...........    25
Ellen Gordon, president, National Emergency Management 
  Association....................................................    27
Maj. Gen. Edward J. Philbin, USAF [Ret], Executive Director, 
  National Guard Association of the United States................    30
John Thomas Flynn, President, National Association of State 
  Information Resource Executives................................    33
Bruce Romer, Chief Administrative Officer, Montgomery County, MD, 
  on behalf of the National Association of Counties..............    40
Bob Cass, City Manager, Lubbock, TX..............................    42
John S. Powell, University of California Police Department, on 
  behalf of the Association of Public Safety Communications 
  Officers.......................................................    44

                                APPENDIX
              Alphabetical Listing and Material Submitted

Bennett, Hon. Robert F.:
    Opening statement............................................    18
    Prepared statement...........................................    53
Cass, Bob:
    Statement....................................................    42
    Prepared statement...........................................    58
    Responses to questions submitted by Chairman Bennett.........    60
Collins, Hon. Susan M.: Prepared statement.......................    61
Dodd, Christopher J.:
    Statement....................................................    20
    Prepared statement...........................................    62
Flynn, John Thomas:
    Statement....................................................    33
    Prepared statement...........................................    63
    Responses to questions submitted by Chairman Bennett.........    86
Gordon, Ellen:
    Statement....................................................    27
    Prepared statement...........................................    87
    Responses to questions submitted by Chairman Bennett.........    89
Koskinen, John A.:
    Statement....................................................     2
    Prepared statement...........................................    90
    Responses to questions submitted by Chairman Bennett.........    92
Kyl, Hon. Jon: Prepared statement................................    94
Leavitt, Hon. Michael O.:
    Statement....................................................    25
    Prepared statement...........................................    95
    Responses to questions submitted by Chairman Bennett.........    97
Moynihan, Hon. Daniel Patrick: Prepared statement................    98
Philbin, Maj. Gen. Edward J.:
    Statement....................................................    30
    Prepared statement...........................................    99
    Responses to questions submitted by Chairman Bennett.........   100
Powell, John S.:
    Statement....................................................    44
    Prepared statement...........................................   102
Romer, Bruce:
    Statement....................................................    40
    Prepared statement...........................................   122
Smith, Hon. Gordon: Prepared statement...........................   132
Suiter, Lacy:
    Statement....................................................     5
    Prepared statement...........................................   133
    Responses to questions submitted by Chairman Bennett.........   136

              Additional Material Submitted for the Record

Statement of R. Michael Amyx, Executive Director, Virginia 
  Municipal League, on behalf of the National League of Cities...   140

Note: Responses to questions submitted by Chairman Bennett to Mr. 
  John S. Powell and Mr. Bruce Romer were not received at the 
  time the hearing was published.


      EMERGENCY PLANNING FOR THE YEAR 2000: PREPARATION OR PANIC?

                              ----------                              


                        FRIDAY, OCTOBER 2, 1998

                               U.S. Senate,
                 Special Committee on the Year 2000
                                        Technology Problem,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 192, Dirksen Senate Office Building, Hon. Robert F. 
Bennett (chairman of the committee), presiding.
    Present: Senators Bennett, Collins, Smith of Oregon, and 
Dodd.
    Chairman Bennett. The committee will come to order.
    We are very pleased this morning to have John Koskinen and 
Lacy Suiter with us as our first panel. I have an opening 
statement, copies of which are available to members of the 
press, which I will not read, out of deference to the fact that 
Mr. Koskinen has an airplane to catch a little later in the 
morning and I think the committee would be better off hearing 
from him than from me. That's usually the case with every 
committee chairman, but usually not observed on Capitol Hill. 
So I will delay making comment about some of the issues in my 
opening statement until after we have heard from Mr. Koskinen.
    I will make this general introduction. Those who have 
followed the committee know that we set out in the beginning a 
series of priorities, listing them in the order in which we 
thought failure because of Y2K problems would cause the 
greatest impact. The first priority was the power grid, 
utilities, and then we talked about telecommunications. We have 
talked about transportation--we had a full hearing on that--the 
financial system, and now we come to general government.
    We have divided the responsibilities in the committee among 
the seven members, because we ended up with seven priorities. 
Senator Collins has the lead on the committee for today's 
priority, which is general government activities. We're 
delighted with the line up of witnesses that we have.
    We will start with the Federal Government, with Mr. 
Koskinen and Mr. Suiter, and then we'll have State 
governments--the lead witness will be Governor Leavitt, the 
Governor of Utah, and the potential, incoming, prospective, 
whatever the appropriate adjective is, chairman of the National 
Governors Conference, and then we will go to local government, 
county, and city. So that's the outline for today's hearing.
    While Mr. Koskinen has appeared before the committee 
before, we wanted to give him this opportunity to describe to 
us where we are at the Federal Government level, and then 
interact on the panel with Mr. Suiter, who will have much of 
the responsibility of dealing with Federal Government 
coordination with State and local governments in those areas 
where any kind of emergency may arise. So that's the format for 
today's hearing.
    Senator Collins, we appreciate your leadership on this 
portion of the committee's work, and you're willingness to 
accept this assignment. I will recognize you for any opening 
comments you may have. Senator Collins. Thank you very much, 
Mr. Chairman. I do have a fairly lengthy opening statement. 
It's my understanding that one of our witnesses is under a time 
constraint. If you would like to hear from the witness first, I 
could then do my opening statement afterwards.
    Chairman Bennett. Yes. I said just before you came in that 
I'm going to postpone my opening statement for the same reason, 
so I'm grateful to you for your willingness to do that.
    Mr. Koskinen, we will go directly to you, then. We welcome 
you.
    I must make this comment. John Koskinen's responsibility is 
in the executive branch, but he has been called as far away as 
Japan to talk to the people about their Y2K problems. He's just 
getting over jet lag.
    Mr. Suiter is just recovering from coming back from dealing 
with immediate emergency problems relating to the current 
hurricane and got in very late last night. So we're grateful to 
both of you for your willingness to appear before the 
committee.
    Mr. Koskinen.

STATEMENT OF JOHN A. KOSKINEN, CHAIRMAN, PRESIDENT'S COUNCIL ON 
                      YEAR 2000 CONVERSION

    Mr. Koskinen. Good morning, Mr. Chairman, and thank you for 
the kind comments. I am pleased to appear again before the 
committee to discuss the role of the President's Council on 
Year 2000 Conversion in dealing with this problem. With your 
permission, I will submit for the record my full statement and 
summarize it here.
    In the past, as you have noted, I have described our 
general approach to this issue, including the formation of the 
Council, with representatives from 35 agencies across the 
Government, including the regulatory agencies.
    As you know, we have divided the world into 34 sectors that 
we are concerned about. We are dealing with a review of the 
Federal Government's operations as it attempts to remediate its 
systems. We're focused on the interfaces between the Federal 
Government and State governments which administer many of our 
most important programs. Most importantly, in each of the 34 
sectors, we're involved in reaching out to public and private 
entities in the United States, as well as countries around the 
world, both to increase the level of awareness, and promote 
activity on the Year 2000 problem.
    This morning I would like to discuss the Council's role in 
the development of contingency plans and appropriate emergency 
responses to any difficulties that may arise as we make the 
transition to the Year 2000.
    Before I discuss this issue though, let me express the 
administration's appreciation for the strong support this 
committee has provided in the development and passage of the 
Year 2000 Information and Readiness Disclosure Act. In 
particular, the assistance you, Mr. Chairman, Senator Dodd, and 
Senator Kyl have provided has been an indispensable part of the 
success we have achieved. As the President has said, this 
bipartisan legislation provides us with an important 
opportunity to help our Nation prepare its computer systems for 
the new century.
    I would also note that this committee has made a major 
contribution in promoting awareness of, and action on, the Y2K 
problem with hearings that have examined, as the chairman 
noted, public and private sector progress in important economic 
sectors that range from electric power to transportation to 
telecommunications.
    But even with the best efforts of all of us, we need to 
understand and expect that not every system and embedded chip 
will be found and fixed. To minimize disruptions caused by 
these failures, businesses and government agencies must focus 
on contingency planning in addition to their remediation 
efforts.
    Federal agencies are developing continuity of business 
plans for their core business functions. OMB, in its quarterly 
reports, has asked the agencies to report on their progress in 
this area, and is looking closely at their planning activities 
as it develops the President's fiscal Year 2000 budget.
    Through the outreach efforts of our more than 30 sector 
working groups, the Council is encouraging agencies and 
organizations outside the Federal Government to prepare two 
types of contingency plans. First, we are stressing the need 
for organizations to develop a plan that addresses internal 
system failures. The second type of plan needs to address the 
potential for failures in external systems upon which 
organizations depend for their day-to-day activities. These 
systems can run the gamut from those that help to provide basic 
services, such as water or power, to those that support the 
activities of key vendors or suppliers.
    Federal agencies have had to confront the second type of 
contingency planning in their relationships with the States. As 
I said, States help to carry out several important Federal 
programs, such as Medicaid and unemployment insurance. These 
programs depend upon Federal-State data exchange points, and 
agencies have been working with their State counterparts to 
ensure that these exchange points are compliant. But even if 
the exchange points are ready for the Year 2000, service 
delivery could still be jeopardized if the State systems behind 
the data exchanges fail. Federal agencies like the Labor 
Department, for the unemployment insurance program, are now 
working with States to ensure that backup plans are ready to 
support continued service delivery should State systems or 
other non-Federal systems fail.
    One of the Council's most important roles in the coming 
months will be to develop assessments of what is likely to be 
the impact of the Year 2000 problem in key sectors of the 
economy. This information will be important to organizations as 
they develop and refine their contingency plans. For example, 
everyone is concerned about having electric power, but that 
doesn't mean that they should all immediately buy their own 
generators without having a better sense of where outages are 
possible and what their likely duration will be.
    The Council has established cooperative working 
relationships with umbrella groups in electric power and other 
important sectors. The focus initially has been on increasing 
awareness and the level of activity by those operating in each 
sector. We are also, however, developing assessment processes 
whereby the umbrella groups will be surveying their members on 
a regular basis to determine their state of readiness. Summary 
reports will then be provided to the Council and the public. 
Over time, such information will allow everyone to adjust their 
contingency plans appropriately.
    I might note that the Year 2000 Information and Readiness 
Disclosure Act will increase our ability to obtain such 
assessments, since it provides protection to the information 
provided by individual companies to their umbrella groups, 
thereby increasing the likelihood of candid responses.
    As you know, the Federal Government, in coordination with 
State and local governments, plays a key role in responding to 
disasters and other emergencies, and is looked to for 
leadership at those times. I will let Mr. Suiter of FEMA 
describe in more detail the Federal Government's role, but I 
would point out that the Year 2000 problem provides a unique 
emergency response challenge.
    With most major emergencies, such as hurricanes or 
blizzards, authorities are dealing with one localized problem 
in a town, county, State or region. With the Y2K problem, 
however, it is possible that emergency response systems could 
face multiple system failures occurring at roughly the same 
time and in different places.
    For example, in a worst case scenario for a city or a town, 
authorities could face the failure of the power plant, water 
treatment plant, and transportation systems. While no one of 
them alone may be a major problem, simultaneous failures will 
test the capacity of our emergency response systems, and I am 
pleased that FEMA has agreed to chair the Council's Emergency 
Services Working Group.
    The Federal Government has separate response systems 
related to specific types of emergencies. Internationally, we 
have an apparatus for responding to emergencies such as famine 
and refugee assistance, as well as military threats. 
Domestically, we have the systems and relationships that FEMA 
will discuss with you. We are presently reviewing our inventory 
of emergency response mechanisms and authorities to ensure 
there is no confusion across organizational lines on January 1, 
2000, and that we can handle the possibility of multiple 
requests for the same resources.
    In addition to FEMA, the Council is working with the 
National Security Council, the Departments of State, Defense, 
and Justice, and others who are responsible for meeting the 
challenges we may face, internationally as well as 
domestically, as we try to coordinate Federal emergency 
response efforts.
    In particular, we are beginning to look at scenarios that 
may involve disruptions in key foreign countries, as well as 
difficulties at home, so that we can map out plans for 
appropriate Federal action. In foreign countries, we are 
concerned about how Y2K-related disruptions may affect the 
operation of our embassies, American citizens living abroad, 
and American businesses. At home, we anticipate that multiple 
burdens placed upon State and local disaster authorities may 
result in an increased demand for Federal assistance.
    The American people have confidence in our ability to 
respond in the wake of natural disasters. Our objective is to 
ensure that the American people have the same level of 
confidence in the Federal Government's ability, and that of our 
State and local officials as well, to respond to any Year 2000-
related disruptions.
    We all want to ensure a smooth transition to the Year 2000. 
For most organizations, including Federal agencies, the primary 
Year 2000 focus up to this point has been on fixing or 
replacing noncompliant systems and embedded chips. But as we 
enter 1999, that will change.
    The Council is committed to encouraging businesses and 
helping Government agencies to prepare for likely problems and 
develop viable contingency plans. We have to expect some 
problems on January 1, 2000. If we share information and plans, 
however, we can generate public confidence in our preparedness 
and minimize the impact of those problems on everyone.
    Thank you, Mr. Chairman. I am delighted to respond to 
inquires, either now or after Mr. Suiter presents his 
testimony.
    [The prepared statement of Mr. Koskinen can be found in the 
appendix.]
    Chairman Bennett. Thank you. Let's hear from Mr. Suiter and 
then we can get the two of you going back and forth.

  STATEMENT OF LACY SUITER, EXECUTIVE ASSOCIATE DIRECTOR FOR 
RESPONSE AND RECOVERY DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT 
                             AGENCY

    Mr. Suiter. Thank you, sir. I appreciate the opportunity to 
be here, and it's good to see you again, Senators, under more 
pleasant circumstances than the last time we met on the 
battlefields of Maine.
    I am Lacy Suiter. I represent FEMA's Emergency Response and 
Recovery Directorate. My directorate coordinates the Federal 
family's emergency response, as well as its disaster recovery, 
and to specific and identifiable emergencies and disasters when 
requested to do so by a State's governor, or in those very rare 
instances--this has only occurred once--when directed to do so 
by the President until a governor can concur.
    In any event, with or without a Presidential determination, 
a Governor must both request and concur with any Federal 
disaster assistance to be provided within their State. If one 
views governmental relationships as vertical, then, indeed, 
FEMA's programs represent a bottoms up approach as opposed to a 
top down activities.
    Y2K assessments, preparedness and emergency response begins 
at home, in the community and with local governments, and with 
the governor. Federal consequence management response and 
recovery essentially is by invitation only, and that invitation 
must be issued through the governor. It is requested by and 
coordinated through the governor and never independently by the 
Federal family.
    FEMA's Y2K efforts for fire and emergency services include 
the following. We are one of 34 sectors, coordinated by John 
Koskinen. We chair the emergency services sector. We're in the 
process now of assessing that sector's awareness, its 
preparedness and readiness to respond, were there to be 
catastrophic failures of systems at the State or local 
government level. We're developing an outreach plan for the 
States and for the States to use with the locals, if they so 
choose, and a monitoring process. We are preparing for 
disruptions as they are identified to us. In other words, 
FEMA's outreach includes awareness, assessment and 
preparedness.
    We will provide reports in the coming weeks that, when 
combined with the reports of the other Federal agencies, should 
give us our best indication of the extent of total governmental 
emergency preparedness.
    Y2K presents a couple of sets of response needs. First, 
obviously, is the technical support to operators of disrupted 
systems and business continuity planning. FEMA's systems 
critical to interagency response are ready. We have 49 mission-
critical systems, 34 are compliant. There are 15 left to do. We 
are replacing seven of those systems and we're coming up with 
work around options on the other eight. All of our classified 
programs are all operational at this time as far as the 
continuity of government is concerned.
    The second set of response needs is emergency assistance to 
State and local governments. FEMA manages the Federal response 
through the President's Federal Response Plan with supplements 
which are tailored specifically for certain types of disasters. 
Y2K will be one of those plans.
    The regional interagency steering committees meet 
periodically, and they are about to get instructions to begin 
meeting more frequently, with the State agencies, at the 
regional level. These committees support the bottoms up 
approach of intelligence, of warning, of assessment, of 
preparedness, all leading to whatever the appropriate response 
and recovery effort might be for a particular event. We intend 
to exercise and do some evaluations of those activities later 
this winter or in early spring.
    While it is difficult to define the truth on the nature and 
extent of the Y2K threat, planning must be based on credible 
assessments of specific vulnerabilities that describe the areas 
at highest risk and consequences. The Council's report will 
help us prioritize those risks and describe a plausible, worst 
case scenario. I meet monthly with the Federal response 
community to prepare our response to the Y2K problem and other 
disasters that occur in the country. However, the efforts of 
the emergency management community and fire services cannot be 
viewed as a substitute for personal responsibility and 
community preparedness. We will continue to keep you informed, 
sir, as we meet with your committee, on our progress as we 
march towards the millennium.
    Thank you.
    [The prepared statement of Mr. Suiter can be found in the 
appendix.]
    Chairman Bennett. Thank you both very much.
    Mr. Koskinen, you made reference to the passage of the bill 
in the House, and naturally we take credit for all of the 
passage here in the Senate. But we will be happy to 
congratulate you for your leadership in getting it done in the 
House.
    Seriously, this is a significant piece of legislation. 
Everyone involved in working on it I think deserves 
congratulations. As Mr. Koskinen and I were talking about this 
the day before yesterday, when we started on this, everybody 
told us it couldn't possibly happen. We didn't have time, it 
was too complicated, there are too many competing interests, 
everybody would stand up and say, ``Well, I can't accept this, 
I can't accept that.''
    Now it has happened. It has been an incredibly interesting 
exercise in the present atmosphere of Washington, which might 
be described as somewhat polarized, where both parties, both 
branches of Government, the Legislative and Executive branches, 
both Houses, got together and said, ``We are facing a genuine 
emergency. We must put our parochial interests completely aside 
to do the right thing.'' And while there's much that I might 
want that's not in the bill, that is not there, the fact that 
we have as much as we have and that we have accomplished what 
we have is, I think, a demonstration that our system still will 
rally to a challenge of an emergency.
    I would be derelict, Mr. Koskinen, if I did not acknowledge 
your leadership in this, and your dogged determination to see 
to it that it did not die. You can take great satisfaction in 
the fact that this bill has now passed both houses and is on 
its way to the President, and I think it will make a 
significant difference.
    Mr. Koskinen. Thank you, Mr. Chairman.
    Chairman Bennett. One of the things we hear so often in 
this committee--we've had 70 witnesses now--a common refrain 
from the witnesses is that it's very difficult to plan while so 
much is unknown. We need better information. The passage of the 
bill, I think, will help us get better information from people 
who have been hiding behind the threat of their lawyers, that 
they might get sued if they're forthcoming with information. 
But I would hope today, and if not today, at some time soon, we 
can begin to get some specific information out of your Council, 
Mr. Koskinen.
    Can you give us some idea of when we will see sector 
assessments from the President's Council, and if anything can 
be done to accelerate the release of these assessments?
    Mr. Koskinen. As I noted in my written testimony, we 
already have two significant assessments that have been 
provided to us and are available to the public. One is from our 
electric power working group, is working with the North 
American Electric Reliability Council, and the other is from 
our oil and gas working group, which is working with a broad 
number of industry umbrella and trade associations.
    Approximately 2 weeks ago, they provided their first 
assessment of the status of both of those industries. We expect 
these industry umbrella and trade associations will continue to 
provide us that information, which we will continue to make 
available to the public. We have been most aggressive with 
these areas at the outset, because, as I noted in my testimony, 
everybody is very concerned about the availability of power and 
fuel.
    We hope to have a similar process, especially now that the 
bill passed, for the telecommunications industry and other 
areas. In health care, for example, the American Hospital 
Association has been surveying its members about the status of 
hospitals so we know that other industry organizations have 
begun these assessments. Now with the bill's special provisions 
protecting information provided for special data requests, I 
think that we should be able to accelerate the process.
    Our plan all along has been to have at least initial 
assessments from the sectors by the end of this year. We chose 
that time because most industries have plans where by they are 
now completing their remediation and are beginning the testing 
phase. The information that all of us are most concerned about 
is where they are once they have completed their testing.
    During the summer, the major issue was: Were people paying 
attention to the problem? Were they working on it? But 
ultimately, for emergency and contingency planning purposes, we 
must have the clearest possible idea as to how many people are 
actually going to complete the process in a timely manner. So 
our goal is to have, by the end of this year, as many working 
groups as possible produce their first preliminary assessments. 
But we expect to continue to receive their initial assessments 
as we move into early 1999.
    Chairman Bennett. For those who are watching television or 
who are listening and don't want to wade through your prepared 
testimony, will you summarize where you think we are with 
respect to the power grid and the availability of fuel?
    Mr. Koskinen. Anybody who has access to the web can find 
them on our web site, which is www.y2k.gov. The assessments are 
provided in our groupings for industry sectors. And we will 
continue to make assessments available to the public as we 
receive them.
    As a general matter, the NERC report for electric power was 
a balanced document. NERC was pleased to note that there 
appeared to be less of a challenge than originally thought with 
regard to embedded chips in electric power, both in generation 
and distribution processes.
    On the other hand, NERC said that significant portions of 
the industry needed to accelerate their rate of progress to 
meet their goals of finishing work by the spring of next year, 
and they issued guidelines to help facilitate greater progress.
    The oil and gas assessment report shows that half the 
industry is well into remediation and compliance, and the other 
half is still working through planning and assessment. the 
industry groups that produced that report also noted that there 
is an urgent need for the members of those industries to 
increase their rate of progress.
    What we have asked these working groups to do, and we will 
ask this of all the working groups, is to prepare an analysis 
that divides those responses by the size of companies 
reporting, because both reports indicate that the concern we've 
all had about smaller organizations still holds true. In these 
industries and others, the large organizations, almost by 
definition, have built-in capacity to deal with this problem. 
So whether you're looking at financial services or 
telecommunications or power, you find that large companies tend 
to be working on the problem aggressively, and are deploying 
substantial financial and personnel resources toward solving 
it.
    The concern we all have--and these reports mirror that 
concern--is with the status of small and medium-sized 
enterprises. In telecommunications, we have 1,400 small 
telephone companies that deliver services to small towns and 
rural areas. In fact, as a general matter, the Rural Utility 
Service advises me that 20 percent of all utility services are 
actually provided in rural areas of this country, generally by 
small and medium-sized organizations. So we are focused, and 
have been for some time, on trying to increase the level 
awareness and activity in smaller organizations. I think the 
advantage of these assessments is that we will be able to 
quantify the magnitude of the challenge and hopefully increase 
the level of activity in smaller organizations.
    I should put a plug in here for National Year 2000 Action 
Week. The SBA had started a program that designated the week of 
October 19 as Year 2000 Action Week, with SBA field offices 
holding educational events across the country. We have expanded 
upon that, focusing on both small and medium-sized businesses, 
by inviting local offices from other agencies to hold Y2K 
events during the week as well.
    The Department of Commerce will be participating. The 
Department of Transportation's regional offices will be 
participating. The Social Security Administration's offices 
will be participating. The goal is to make a full court press 
in local communities across the country, to get small and 
medium-sized organizations to understand that it's critical for 
them to solve this problem.
    Chairman Bennett. That assessment will be very valuable.
    The Small Business Committee on which I sit, in the next 
Congress, is going to have to address the question of whether 
or not a new category of SBA loan needs to be created for the 
purpose of helping smaller enterprises deal with the financial 
challenge here.
    One of the reasons that the bigger enterprises, as you 
indicate, are in better shape is that they have the financial 
muscle to tackle this. I say to people, you know you're dealing 
with the CEO who understands the problem, when he or she tells 
you that it's costing far more than was originally anticipated. 
Many small businesses that are on the edge of profitability all 
the time simply don't think they have the resources to deal 
with this. They're going to have to borrow somewhere, and many, 
many banks will say we won't accept Y2K as collateral for an 
SBA loan. It may be an emergency, but how are you going to pay 
it back.
    So the quicker we can get this kind of information from 
you, the better off we, the Congress, will be in fashioning 
some kind of emergency loan program through SBA or elsewhere, 
to help small businesses that simply cannot solve their problem 
for financial reasons with some financial emergency money.
    I know FEMA doesn't normally deal in that kind of issue. 
You come along, or the Federal Government comes along, with 
loans after the fact, when there's an earthquake and something 
has to be rebuilt. But here's one where we know the earthquake 
is coming, we know exactly when it will hit, and maybe we had 
better deal with the financial services before the fact, to try 
to shore up the structure so they don't collapse with the 
earthquake.
    I had better get away from that analogy in a hurry.
    Senator Collins, I would appreciate your questions.
    Senator Collins. Thank you, Mr. Chairman. Again, I want to 
commend you, Mr. Chairman, for your leadership on this very 
important issue. Good morning, gentlemen. I want to take this 
opportunity to thank Mr. Suiter for all of the assistance that 
FEMA gave to the State of Maine during our ice storm in 
January, which was the biggest natural disaster in Maine's 
history.
    In many ways, State, Federal and local disaster authorities 
worked very well together to cope with the ice storm's 
aftermath in Maine. But the ice storm also pointed out 
vulnerabilities in our emergency response system.
    One of those vulnerabilities, to me, is very similar to the 
kinds of problems that a Y2K failure could create. For example, 
because the electric grid in Maine was essentially knocked out 
for many days for much of the State, the State's emergency 
broadcasting system was also inoperative for at least a week. 
That system is maintained by Maine Public Radio, which lost its 
transmission facilities completely for several days. Some 
Republicans thought that was a good thing, that Maine Public 
Radio was off the air. [Laughter.]
    I am not one of those who did. But on a serious note, it 
really was a problem, that the State lost completely its 
capacity to have an emergency broadcasting system during that 
time.
    Has FEMA taken the experience in Maine and other areas of 
the Northeast, where there was a widespread failure of the 
electrical system, and drawn any lessons from that experience 
as far as emergency response systems and the need for a 
coordinated response at all levels of government?
    Mr. Suiter. Of course. Most of the missions that we deal 
with following earthquakes, major floods, or hurricanes, which 
I've just been down on the Gulf Coast reviewing, deals with 
what happens when major systems fail. They usually fail because 
of some natural cause. Y2K happens to be something else. So, 
yes, we always evaluate what we did, how we it, and what do we 
have to do to improve in the next disaster, and then try to 
apply those lessons to our long-term planning.
    In this particular instance on the Gulf Coast, we 
discovered that we didn't have the right size generators, and 
the prime power assets that we needed to get them hooked up as 
quickly as we possibly could.
    Obviously, we're leaning forward in the foxhole for Y2K so 
to speak, in terms of our readiness to inform the public about 
what's going on, which systems have failed, and certainly using 
the media to get the word to the people, is one of our most 
important efforts. Senator Collins. I'm going to talk later in 
my opening statement about the 911 system, and the potential 
vulnerabilities that have been identified in the 911 system.
    Has FEMA done any work in this area yet, to assess the 911 
systems that are so important in our States and local 
communities?
    Mr. Suiter. We haven't finished it yet, but we're in the 
process. There are three or four different agencies who are 
working on that. The United States Fire Administration, a part 
of FEMA, is working directly with the fire service 
organizations, the fire chiefs and so forth, as well as the 
suppliers of these particular groups. Second is the Department 
of Justice, which is working with the law enforcement side of 
the 911 system, and third is the Department of Transportation, 
which has responsibility for the emergency medical services.
    FEMA is reviewing all of this and coming out with a report, 
which is not complete, and we will be advising back to those 
districts in the country about the 911 system and what we need 
to do to fix it, or be ready if it fails.
    Senator Collins. When do you expect your assessment to be 
completed?
    Mr. Suiter. We're working with the Federal agencies right 
now, on a monthly basis. We were supposed to have met this past 
Wednesday, but unfortunately I was on the Gulf Coast dealing 
with the hurricane so we had to postpone that a couple of 
weeks.
    We expect to finish our initial assessment, of the Federal 
Government's capability to respond, in the next few weeks.
    We plan to have our evaluations ready for John's Council by 
December: Federal response planning should be based on what we 
know at that point in time.
    The Director of our agency, James Lee Witt, plans to make a 
report specifically to the governors at the NGA meeting here in 
Washington in February of 1999. FEMA will be conducting, in 
cooperation with John Koskinen, some exercises and evaluations 
in April 1999, followed then with specific corrective actions--
such as pre-deployment, if that's what it takes, a warning 
system to monitor Y2K as it works around the world so that we 
see what's happening and could get as much advance warning to 
our local governments, through our State governments, as we 
can.
    So yes, I think we're doing quite a bit. We're going as 
rapidly as we can. Given all the rest of the disasters going 
on--there are 31 open disasters as we speak right now in the 
United States that we're dealing with--we're stretched kind of 
thin. But we think we're making good progress and I don't think 
Mr. Koskinen is too unhappy with me yet.
    Senator Collins. Thank you, Mr. Suiter.
    Mr. Koskinen, in the Federal response plan, Executive 
branch agencies play an important role in the emergency support 
systems, such as transportation, health and medical services, 
public works, et cetera. Yet it's my understanding that the 
agencies that are responsible for some of these emergency 
support systems--the Department of Transportation, for example, 
Health and Human Services, Defense--are listed as Tier 1 
agencies. It is my further understanding that Tier 1 agencies 
are those that face the greatest challenges in becoming Y2K 
compliant.
    That troubles me because, if we're relying on those 
departments in an emergency situation to provide emergency 
support services, and if they are having the greatest 
difficulty, what does that suggest for our ability to respond 
to an emergency?
    Mr. Koskinen. It's an important question and I am happy to 
answer it.
    While the OMB Tier 1 agencies face challenges, it's because 
of particular aspects of their operations. In no case is the 
ranking reflective of their emergency response capabilities. In 
fact, as Mr. Suiter noted, one of the first things our 
emergency services working group did was pull the Federal 
response agencies and others together to review the status of 
their own systems as they relate to the Government's ability to 
provide emergency response.
    Lacy knows the details better than I--but as a general 
matter, agencies, particularly Transportation and HHS, are in 
good shape with their emergency response capabilities. They're 
either up to speed or will be by the end of this year, so there 
will be no problem with emergency response capacity.
    But you're right. Agencies like HHS, with the Health Care 
Financing Administration, and the Department of Transportation, 
with the FAA, face significant challenges and are focused on 
overcoming them.
    Senator Collins. Thank you, Mr. Chairman.
    [The prepared statement of Senator Collins can be found in 
the appendix.]
    Chairman Bennett. Thank you very much.
    Vice Chairman Dodd.
    Vice Chairman Dodd. Thank you very much, Mr. Chairman. I 
thank our witnesses.
    It may have already been said, Mr. Suiter, but I'm sure all 
of us express our tremendous appreciation on how well FEMA has 
been responding over the years.
    Lower New England has not been faced with the problems of 
my colleague from Maine, but I know an awful lot of people in 
my State went up to Maine during the ice storms and I think 
there's a general sense that your agency is doing a tremendous 
job across our country in responding to these natural disasters 
that have occurred.
    I'm really very grateful. I hear it all the time. We don't 
hear a lot about Federal agencies, but we do hear it about FEMA 
today. I want to commend you and the people who work for you 
for the tremendous job you're doing.
    Mr. Suiter. Thank you, sir. We have a great Director in 
James Lee Witt in providing that leadership.
    Vice Chairman Dodd. I know you do. He's very vocal and 
outspoken, and I have referred to that on numerous occasions.
    I guess I find myself again in that sense of--maybe I'm the 
frustrated member up here, I guess. We have 15 months, five 
quarters, 455 days to December 31st. I'm very uneasy about the 
fact we don't have assessments. Generally, we've had 70 
witnesses before this committee. The chairman has done a 
terrific job in trying to expedite a lot of hearings. Generally 
what we hear from witness on this, their response is that it's 
very difficult to plan while so much is unknown. We need better 
information.
    We hear from Federal agencies and are frequently told that 
they're waiting for guidance from the President's Council. We 
hear this all the time from people that come up, that we're 
going to wait for the President's Council to get back and so 
forth on these assessments. I'm just very uneasy that time is 
moving along here and we're not getting these assessments laid 
out so that we have a much clearer plan as to how to respond to 
potential problems.
    You said you were hoping by the end of the year to have 
these, but could we get a better feeling? You know, that's 
going to shorten up that calendar even more, about whether or 
not we can get these assessments, so that these agencies can 
start making very specific plans to minimize the potential 
impact of this. It might seem like I'm hounding on this, but 
you understand my frustration here. It seems vague, and I watch 
this calendar go by day after day. I'm just uneasy about it, to 
put it mildly.
    Mr. Koskinen. On behalf of those of us who have clocks on 
their desks that count down the days, I'm uneasy as well.
    Vice Chairman Dodd. I know that.
    Mr. Koskinen. And it's a critical issue.
    As I mentioned earlier, we already have two significant 
assessments that are provided to the Council and are now in the 
public domain, one for electric power and the other for oil and 
gas. These are two critical parts of our infrastructure and 
we're pleased to have assessments on progress in these areas.
    We continue to encourage umbrella groups to provide us 
assessments for other areas as well. As you know, we have no 
authority to require those assessments by industry, but the 
legislation is a critical lynch pin in making them possible, 
because it provides specific protection to companies and 
umbrella groups who collect this information for us. We think 
it will improve the ability of those groups to gather candid 
information from individual companies, and to ultimately 
provide us accurate assessment information.
    Part of the difficulty--and we're all frustrated by this--
is that everyone, both in the Federal Government and in the 
private sector, is now moving through the remediation phase and 
into the testing phase. Virtually no industry will have 
compiled significant testing results until the end of this 
calendar year.
    Right now, our assessments give us a picture of the level 
of activity. But what we really are looking for, and we hope to 
begin receiving this in hard terms, are assessments of actual 
readiness. Who has completed their tests? What is the level of 
compliance? Our ultimate goal across all of the working groups, 
through voluntary working relationships with umbrella groups 
and industry associations, is to get detailed assessments that 
will tell us the state of preparedness.
    Even without detailed assessments we do now know of several 
areas of concern, and we are focused on them accordingly. One 
is international, in terms of the lack of preparedness in many 
countries. Domestically, as I said, we are very concerned about 
small and medium-sized organizations, both in the public sector 
as well as in the private sector. So we are mounting a full 
court press, to increase the level of activity in those areas, 
to the extent we can. At the same time, we are also continually 
trying to refine our assessment of the severity of the problem 
in these areas.
    I think, when we get to the end of next year, our 
difficulties are going to come not from the major companies but 
from small and medium-sized organizations, which have the 
capacity to create substantial disruptions on the local level. 
While they may not bring down the entire country, if you're 
living in an area that suddenly finds that its local power 
company or telecommunications company or water treatment plant 
doesn't work, you have the equivalent of a major disaster on 
your hands. That's what we're trying to isolate as best we can.
    Vice Chairman Dodd. I appreciate that, and I understand you 
don't have legislative authority. Maybe it's something we 
should have thought about. But aside from that----
    Chairman Bennett. If we get past S. 2000, we would have. We 
tried, but we ended up with what we could get.
    Vice Chairman Dodd. Yes.
    You know, there is the power and authority that we sort of 
extended, if not de jure, de facto, to you, as sort of our 
``Tsar'' of this. I don't know if other members of the 
committee feel this way, but you certainly would not hear any 
complaints from me if you were to set dates. There's nothing 
like having a mark out there, saying to people, ``Look, I 
expect by December 15, or January 10--'' and I realize there 
might be different dates for different agencies, depending upon 
the complexity. It's not a one size fits all.
    You know, I'm expecting that back. When it's a little vague 
out there as to when it comes--I suspect it's not a whole lot 
different when you're dealing in these agencies than it is with 
sort of the reaction we get from colleagues and others when we 
bring up this matter. We get a bemused look on faces of people.
    I don't know if that's something you feel comfortable in 
doing, and if anyone complained about it, I would be more 
prepared to go to your defense and suggested that we do need 
time tables here, and to let agencies know we're expecting them 
to get back so that those assessments can be made by certain 
dates.
    For instance, I don't know--Mr. Suiter, can you plan 
effectively without an assessment?
    Mr. Suiter. Well, we have to respond to the unknown at all 
times. We need the assessment. It would focus what we're doing, 
but in the things we do, we deal with the unknown, the 
unexpected.
    I'm sitting here right now, but very well, by this 
afternoon at 6:00 o'clock, I could be in San Francisco dealing 
with a catastrophic earthquake. We know the parameters of what 
a major earthquake would do in San Francisco, so we plan 
backwards from there. Yes, we need the assessment.
    Vice Chairman Dodd. I understand that. My point is that 
here you need to assessments in order to----
    Mr. Suiter. Yes, we do.
    Vice Chairman Dodd. That's what we're talking about here. 
That's what we have got to get if we're going to move 
effectively on this.
    It may have been asked by the Chairman or someone else 
already, but do you have any plans to preposition core reserves 
of personnel, equipment, in anticipation, for instance, on 
December 31, where you may have power outages and shortages, 
not because of an act of God but because of this very 
predictable problem? You don't have to worry tomorrow on 
whether or not January 1, 2000 is coming. I promise you, it's 
going to come. We know there's a potential here for some 
serious problems. We all hope it doesn't happen, but we know--
we're sitting here today, with 455 days to go, and we know that 
there's a real potential for serious disruption in this country 
and elsewhere. You don't have your assessments so you really 
can't plan that effectively, but there are some things that can 
be done.
    Are such things such as the prepositioning of personnel and 
equipment to deal with this potential problem in place?
    Mr. Suiter. Yes, sir.
    Vice Chairman Dodd. Thank you, sir.
    We have a vote coming up, so I would yield to my 
colleagues. I do have more questions.
    Chairman Bennett. Senator Smith.
    [The prepared statement of Senator Smith can be found in 
the appendix.]
    Senator Smith. Thank you, Mr. Chairman. Gentlemen, thank 
you for being here.
    Last evening on ABC national news there was a story that 
caught my attention about Lubbock, TX, who prepared to simulate 
as many Y2K tests as possible. When the city moved the calendar 
ahead to December 31, 1999, the story indicated that the fire 
departments, radio communications, and gas to homes just shut 
down. The story also indicated that 80 percent of American 
communities are not even doing anything about Y2K at this 
point, or at least working on solving the problem.
    Is Lubbock unique in that they actually tried to simulate a 
test and demonstrate what would happen?
    Mr. Koskinen. They are unique in the sense that they're the 
most visible community that has done it, and we applaud them 
for it. As I noted earlier, the Federal Government doesn't even 
have direct lines of communication with many local communities, 
but we are working with national organizations representing 
city executives, county executives, the National Governors 
Association, to urge them to, in effect, replicate what Lubbock 
is doing. We need to have people at the local level, at the 
grassroots level, ask the questions that Lubbock is asking 
itself.
    What does happen if these failures occur? What are we doing 
to avoid them and, if we can't, how are we going to respond? 
One of my great concerns is--and whether it's 80 percent or 
not, I don't know--that a lot of small and medium-sized cities 
and counties at this stage have not yet understood that this 
problem could have an immediate and important impact on their 
citizens as we move into the Year 2000.
    Senator Smith. If Lubbock is any indication, then we'll 
have a serious problem. You know, I've been saying in Oregon 
that we should be prepared, we shouldn't panic, but if 
Lubbock's experience is any indication of what can happen, 
maybe it's time to panic.
    Are there any States, any regions of the country, where you 
are particularly alarmed, that would suggest this 80 percent 
may be accurate?
    Mr. Koskinen. I think the 80 percent is probably on the 
high side, based on the anecdotal information and surveys I've 
seen. If you look at surveys done on small businesses, they 
generally show that about 40 percent of those surveyed aren't 
planning on doing much, which I have said is rolling the dice 
on whether or not they're going to stay in business. My 
expectation is we're at a similar level with small and medium-
sized cities and counties.
    But clearly, our dealings with States, counties, and cities 
have demonstrated that they too are concerned about the 
difference in preparations among larger entities compared to 
their smaller counterparts.
    Large, industrialized cities and States understand the 
problem and are dealing with it. They haven't solved it 
necessarily, but they're dealing with it. But when you start to 
get to smaller organizations, the initial problem has been the 
perception of applicability. People think, if they're not 
running a major mainframe operation, processing millions of 
transactions, that somehow it's not their problem. But they 
haven't understood the impact of integrated circuits, 
microprocessors that affect virtually everything that runs in 
this country. So we are trying to encourage more communities 
and community action groups to focus on the issue at that 
level.
    As I have said--and the chairman and I have talked about 
this--the Federal government faces substantial challenges, and 
we need to focus on them. But this story is more than just a 
Washington story. We have to expand it. It has to be a question 
of what's going on in cities and counties across the country, 
and those issues have to be raised by public citizens as well 
as political officials in those areas.
    Senator Smith. Thank you.
    Can Y2K be declared a special event, those words of art, 
and if so, what will that allow us to do? Is there a category 
under FEMA called a special event.
    Mr. Suiter. We don't have a category called special event, 
per se. The President could make that determination. That would 
allow us to respond, if requested to do so by the Governor.
    If I might comment on Lubbock, TX, if I could for a moment, 
Lubbock, TX for years has been a leader in any number of 
emergency management and fire service responses and have set 
the mark for other cities and communities across the country to 
follow. They had a catastrophic tornado there many years ago, 
and they learned those lessons at that time and they haven't 
repeated those lessons. It's a model for the rest of the 
country to follow.
    I don't know how many other cities are doing that to that 
extent now, but that will be a part of our report for you.
    Senator Smith. Thank you, Mr. Chairman.
    Vice Chairman Dodd. Coming up on the next panel, by the 
way, we have the city manager of Lubbock, so you may want to--
--
    Mr. Koskinen. It's called a well-organized hearing.
    Vice Chairman Dodd. I'm sure his ears were perking up over 
there.
    Chairman Bennett. Mr. Suiter, when did FEMA begin the Y2K 
annex to the Federal response plan, and how are you ensuring 
agencies such as DOD, which will play critical roles in the 
plan, will be ready?
    Mr. Suiter. We've been planning our part of this, as far as 
the supplement to the Federal response plan, about 4 months. 
The last report would have been September 30. But as I said, I 
had to postpone that for a couple of weeks here.
    What we have asked all the Federal agencies to do, 
including the Department of Defense, is to report back to us in 
convincing terms that they will have the ability to communicate 
up, down and sideways with their resources when asked to 
provide some specific response to our governors' request and to 
the President. That's precisely where we're working.
    All of this begins at the local government level, and how 
we communicate up and down and sideways with each other are the 
interdependencies, the critical part of it. So that's a part of 
the response that we plan to have ready by the 1st of December 
here. We will have a better evaluation by that time.
    The initial reports, sir, are not that bad, and they're in 
the very narrow focus of interoperability and how they move 
their resources to get our part of the mission done. I don't 
know about the rest of their agencies.
    Chairman Bennett. The more I hear about DOD, the more 
sympathetic I become, and at the same time, the more worried I 
become. DOD has so many internal problems of their own, and 
then here you come along and say we're going to draw on DOD 
resources to deal with emergencies.
    We have had some testimony with respect to their readiness 
impact as well as the impact of Y2K on national security with 
respect to military readiness, and now we're aware that they 
play a role in other places. Being sympathetic with their 
problems doesn't mean that we can allow them to slide by, 
however. We're going to have to keep pressure on them.
    Mr. Suiter. I think you would be very proud of the response 
of the Department of Defense in helping people of the 
Commonwealth of Puerto Rico right now. We have planes landing 
and taking off many times a day, and they're bringing in 
critical supplies such as water, ice, baby food and other 
products that we could not get in there without the resources 
of the Department of Defense. There are C-5A's, 141's, 
constantly responding around the clock. We know that part of it 
is going to work OK for us. I don't know about the other parts.
    Vice Chairman Dodd. As an aside to that, the northeast 
utilities in my State, one of the companies has volunteered to 
send personnel and equipment down. I called last night and they 
were told the trucks they want to send down has to be sent by 
barge, which takes about five days to get down there. Since 
you're here I'll make a pitch and appeal. I wonder if there's 
any way you could fly some of those vehicles in down there.
    Mr. Suiter. I'll look into it for you, sir. I can't report 
off the top of my head.
    Chairman Bennett. Senator Collins, anything further?
    Senator Collins. No, Mr. Chairman.
    Chairman Bennett. All right. We promised Mr. Koskinen we 
would get him out of here by 10:30, and we're 2 minutes in 
advance. I think we have a vote scheduled at 10:30, do we not?
    Vice Chairman Dodd. We do. We haven't scheduled----
    Chairman Bennett. I'm told it is 10:45.
    Vice Chairman Dodd. May we submit some additional 
questions? I know John has to be moving along, but some of this 
gets pretty technical in terms of follow up and so forth. Like 
the 17 hour rule--is it 17 days or 17 hours?
    Chairman Bennett. 17 hours. I didn't get into that; I 
thought I would now as we're waiting for the vote.
    Mr. Koskinen. That sounds like a good question for Mr. 
Suiter to answer. [Laughter.]
    Let me express my appreciation to the Chairman and the 
panel for accommodating my schedule which allowed me to appear 
with you this morning. I think it's another in a series of very 
critical issues that you're dealing with, and we look forward 
to continuing this dialog and working together as we move 
through, as Senator Dodd noted, the remaining 455 days.
    Than you all.

  OPENING STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR 
    FROM UTAH, CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Chairman Bennett. I had made reference to the First Alert 
system in my opening statement, which I deferred until now. Let 
me go through that so that everyone can understand what we're 
talking about.
    We have noted a potentially serious oversight and at the 
same time unique opportunity with respect to the millennium 
change. We tune into the National Weather Service and say 
what's going to happen with the hurricane and hope that they 
can give us an advance alert. But with respect to Y2K, because 
of the way the world is organized, we will have an advance 
alert in the form of one hour at a time moving through the 
world's clocks.
    With the vice-chairman, Senator Dodd, and Senator Collins, 
I am announcing the committee's pledge to establish a Y2K First 
Alert system that will enable citizens of the United States to 
have up to 17 hours of advance warning of the nature of the 
Year 2000 disruptions. Just think about the time zones around 
the world. Citizens living west of the Eastern Standard Time 
zone will have progressively more advanced notice. In Utah, 
we'll have 19 hours of advanced notice, and citizens in Hawaii 
and those in the farthest reaches of Alaska would have almost a 
full day advance warning.
    Vice Chairman Dodd. How much do Susan and I get?
    Chairman Bennett. You're stuck with 17 hours.
    The new day begins at a spot in the middle of the Pacific 
Ocean, 17 time zones earlier than Eastern Standard Time. If the 
Y2K bug is potent enough to cause immediate problems in 
information systems and embedded chips, you will have a 17-hour 
description of what those problems are and it will move 
progressively around the world.
    The stroke of midnight in Wellington, New Zealand won't 
occur in the United States until 17 hours later, and then in 
California 3 hours after that and so on.
    We think it's foolish not to use this advance notice and 
we're going to do what we can to make sure that the 
implementation of a 17-hour advance watch system is created. 
Frankly, Mr. Suiter, we'll be working closely with FEMA to have 
you work with us within the context of your existing authority 
to achieve this goal.
    Now, we've been talking about preparedness. I have had a 
chart prepared, over here to my right. I will just walk you 
through it so that everybody can understand why we are focusing 
on that here today.
    Let's take a fire, as depicted in this picture, that occurs 
in a high-rise building. I will walk through the various places 
where we could have problems.
    Vice Chairman Dodd. Just let me say that I thoroughly 
endorse the Chairman's idea here on this. He has announced it 
for all of us, but I think it's really the kind of far-
sightedness that I think is going to be tremendously helpful. 
So before you move your charts, I just wanted the record to 
reflect that I think this is a very sound and wise suggestion. 
Hopefully we'll discover early on that there's not much to 
worry about, but if there is, it will be of some help to us. I 
commend you for it.
    Chairman Bennett. Thank you.
    On this burning building, the alarm on the premises would 
have to operate correctly to warn that a fire had broken out. 
Has the alarm system been certified as Y2K compliant? Then it 
would automatically alert the fire department through a 911 
call. Does the telecommunications system that handles the 911 
call have Y2K problems, and has the 911 system that receives 
the call been remediated to be Y2K compliant?
    Now, the computer aided dispatch. The call comes in from 
the building, everything is compliant, and now we dispatch the 
fire truck. That system has computers in it. Is it Y2K 
compliant in order to make the right kind of dispatch, or is 
there a contingency plan in place in case that fails?
    The emergency vehicles start on their way. They have to be 
fueled. How about the city government fuel pumps, are they 
compliant, so that the emergency vehicle can get there? If not, 
again, is a contingency plan in place with alternative 
agreements struck between the city and local gas stations?
    Now, there needs to be personnel on that truck, and the 
scheduling tool that sets shifts for people to come to work 
probably is computer operated and it needs to be checked so 
that the personnel are scheduled properly.
    The traffic signals along the route to get there need to be 
compliant so that you don't have gridlock that the emergency 
vehicle can't get around. Has the local transportation 
department examined these?
    So let's assume that all of those are proper and you get to 
the scene, the firefighters now need a reliable source of 
water. What about the local water supply, is it dependent on 
any kind of central pumping system and will there be water in 
the fire hydrant?
    Medical equipment on the scene. This harks back to the 
hearing that Senator Dodd spearheaded for us, is all of the 
medical equipment in the paramedic's truck Y2K compliant and 
will it work? Of course, we have already gone through the very 
basic question of whether we have power overall. Was the fire 
department able to check its database to see if the hazardous 
inflammable equipment stored at this location was compliant? 
And so on and son on.
    So here we have a single burning building, but it 
illustrates the complexity of the Y2K difficulty that could hit 
us everywhere.
    [The prepared statement of Chairman Bennett can be found in 
the appendix.]
    Chairman Bennett. Now, the vote has been called.
    Mr. Suiter, do you have a comment on this one example of a 
disaster out of your experience?
    Mr. Suiter. Only that if you add the thousands of buildings 
all across the United States that might experience the same 
thing at the same time, you're exactly correct in your 
characterization of the problem.
    The only thing to add is the additional unknown of what is 
the Y2K impact on that if these systems fail. If we were to 
take you from Baton Rouge, LA all the way to Fort Walton Beach, 
FL right now, you would have seen that almost all of those 
systems failed in terms of what we depend upon for as single 
house fire or a single building fire, in terms of all the power 
outages. We had no traffic control system; water pumps were 
down to pump the water. So the whole system is dependent on 
manual back-up systems, that someone who knows that community, 
understands their responsibility, can operate even if some of 
these critical systems fail.
    The part that we have to really be reporting back to you 
on, and soon, though, is what is the impact of Y2K if all these 
systems fail simultaneously and communities don't have a back-
up plan for how they're going to respond to this.
    We agree with you 100 percent. It was from your staffs that 
we got the idea of the advance warning program. That's why our 
people are working on it, and we plan to continue to work with 
you and to get suggestions from you, but also to offer to you 
what we plan to do in that area. We will be speeding it up. 
That's a very important characterization and I would like to 
use it.
    Chairman Bennett. It's not copyrighted.
    Mr. Suiter. Thank you.
    Chairman Bennett. You can have the picture and the chart 
and, as far as I'm concerned, drop it out of B-29's over the 
local populace.
    Mr. Suiter. We plan to do just about that, sir, in our 
outreach program.
    Chairman Bennett. OK. A vote has been called, so the 
committee will stand in recess until we can----
    Vice Chairman Dodd. Mr. Chairman, I have an opening set of 
remarks. Maybe I could do that while you go vote, instead of 
taking the time later, and then when we come back we can go 
right to the questions. All right.
    Vice Chairman Dodd. I would like to make some opening 
comments in support of what you're suggesting.
    Chairman Bennett. OK. Very good. We will turn the gavel 
over to you and we'll get back in time for you to go vote.
    Vice Chairman Dodd. And I promise not to pass any 
legislation in your absence. [Laughter.]
    Chairman Bennett. Since we don't have any legislative 
authority, that's probably a safe promise.

  STATEMENT OF HON. CHRISTOPHER J. DODD, A U.S. SENATOR FROM 
CONNECTICUT, VICE CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Vice Chairman Dodd. Well, that has never stopped committees 
around here from trying anyway.
    I thank you, Mr. Chairman. Again, I want to commend FEMA, 
and I know all of our colleagues have been doing just a great 
job. I wanted to begin and end my remarks with that and 
emphasize what I think is important in this area as well and 
sort of encourage you. I'm looking forward to hearing from 
Governor Leavitt and some of our local folks as well.
    Getting people to think about this is really, about 80 
percent of it is getting people to think this and asking each 
other the questions about how do we respond to this stuff, it 
really takes us a good distance down the road of addressing the 
potential problems we face here.
    Again, with the various sectors that we're all aware of 
here--in fact, we will be holding soon a general business 
hearing, with an emphasis on small business, just another 
aspect of this.
    Today, of course, as we have heard already, we are going to 
review emergency preparedness and disaster relief at the 
national, State and local level. Indeed, few functions of 
government are more fundamental and important than our 
government's readiness to respond to the needs of its citizens 
in emergencies.
    These emergencies, again as we've all noted today, can be 
on a grand scale, such as floods, tornadoes and earthquakes, or 
they can be personal emergencies, where one person may need the 
police, the fire department, or an ambulance. In all of these 
situations, there is a shared common denominator, and that is 
communication systems that receive the calls and direct the 
responses to those emergencies. Most importantly, these systems 
may be very vulnerable to Year 2000 problems.
    Sophisticated information technology systems serve as 
important tools for law enforcement today. Systems such as the 
National Crime Information Center, or NCIC, the National Law 
Enforcement Telecommunications System, or NLETS, and individual 
criminal information data system operated by each State, enable 
officers to obtain the most updated information on wanted 
persons, stolen vehicles, criminal histories, and Department of 
Motor Vehicle records. The ability to dependably and quickly 
access such information is essential both to officer safety and 
to the speedy and effective administration of justice at all 
levels.
    A recent survey--and I found these statistics interesting--
conducted on the effectiveness of NCIC indicates that during a 
1-year period, 81,750 ``wanted'' persons were found, 113,292 
individuals were arrested, 39,268 missing juveniles and 8,549 
missing adults were located, and 110,681 cars valued at over 
$570 million were recovered as a result of NCIC's use.
    The good news is that we have been assured that this system 
will be fully able to meet its Year 2000 challenge, and that 
its links to the systems of all 50 States will remain fully 
operational. The challenge for local law enforcement agencies 
is to be sure that their own links to these vital information 
systems, and any similar systems which they might operate on a 
regional or agency wide level, are both compliant and 
compatible with the larger systems.
    Also, at the local agency level, there often is a great 
deal of interconnectivity between some of the emergency service 
department's records systems and those of other city agencies, 
such as the court system, the corrections department, and even 
local utility companies, thus increasing the potential for Y2K 
related problems in this area.
    As we have found to be true in so many other areas, Y2K's 
presence is insidious in the area of emergency services. One 
major police department related to our staff that its city 
government was required to remediate their gasoline pumps in 
order to assure that gasoline would continue to flow to its 
patrol cars on January 1, 2000. I wonder how many departments 
have made a similar assessment.
    This problem had the potential effect of an entire fleet of 
city government-owned vehicles being shut down. In this 
particular case, the computerized gasoline pumps perform a time 
and date calculation based upon the last time a particular gas 
credit card was used to fuel a vehicle and, therefore, was 
vulnerable to the Y2K issue. In other case, the sheriff of a 
large western county related that his department was currently 
examining its computerized detention files which are used to 
track ``time in'' and ``time out'' of the county jail facility, 
as well as hearing date information for inmates.
    According to the Bureau of Justice Statistics, there are 
over 17,000 police and sheriff departments in the United 
States. The International Association of Fire Chiefs estimates 
that there are 32,000 fire departments in this country. We also 
should not overlook the fact that approximately 65 percent of 
our country's Emergency Medical Service agencies reside within 
the organizational structure of our Nation's fire departments.
    I think these statistics clearly indicate to all that the 
potential scope of the emergency service sector at the State, 
county and local levels of our Nation is enormous. The task of 
assuring that each of these agencies meets the challenge of 
providing uninterrupted and reliable service in the Year 2000 
is an immense one. It is a task that must be tackled at each 
and every city, township, county and State government in the 
Nation.
    In addition to the technical aspect of Y2K vulnerabilities, 
we must also consider the possibility that January 1, 2000 may 
bring with it an enormous increase in the demand for service 
from our emergency response agencies. Will there be an increase 
in the need for additional traffic control personnel in the 
event of certain Y2K failures in the transportation sector? How 
many additional elevator extrications will the fire departments 
be called upon to perform? None, we hope, but these are all 
things that we must consider as we plan.
    While the preparedness of emergency service agencies is the 
most vital aspect of Y2K preparation for State, county and 
local governments, we must recognize that it surely is not the 
only Y2K problem that those governments will face. It is, in 
fact, only one aspect of the much larger Y2K challenge 
confronting the mayors, city and county executives, as we'll be 
hearing from shortly from around our Nation.
    Again, I want to commend FEMA for what it has done in these 
other emergencies, the natural disasters. But there are a lot 
of these questions that I hope are being raised at the local 
level as they think through and examine--I wouldn't have 
thought that a gasoline pump or county vehicles would be an 
issue, but yet this smart town made that assessment and found 
out it was a problem, and had they not fixed it, would have 
faced a situation of those pumps shutting down. It might mean 
nothing if nothing else happened. If you had a major problem in 
your city, it could really be a serious, serious issue.
    Again, I'm not an alarmist about this. We have time on our 
hands. But I think what Senator Bennett has been doing will 
raise the level of awareness, to get people to think about 
this. It doesn't take much time to think about it and take a 
good hard look at what exists, what potential problems exist. I 
think it's just the wise thing to do.
    Again, I appreciate the patience of the audience in listing 
to this, but I wanted to share those statistics, which I 
thought were fascinating, in terms of the numbers of 
interconnections that exist around the country.
    With that, the committee will stand in recess for a few 
minutes until the Chairman comes back.
    [Recess.]
    [The prepared statement of Vice Chairman Dodd can be found 
in the appendix.]
    Chairman Bennett. The committee will come to order.
    We apologize for the fact that the Senate has a way of 
intruding on our business. They require us to vote and that is, 
of course, what we're here for. So we appreciate the indulgence 
of the witnesses. The other Senators will be back, I'm sure, 
after they have voted.
    We now turn our attention to governmental activity outside 
the Federal level. I would like to lead a discussion with those 
at the State and local levels who must respond to the challenge 
of the Year 2000.
    I would like to refer to another chart in anticipation of 
our witness for the Governors, entitled ``The Year 2000 Status 
of the 50 States''. It's right next to the burning building 
over there. That's not a deliberate juxtaposition; that's just 
kind of the way it got placed.
    It shows the state of readiness of the 50 States. The first 
blue block, for those of you who can't read the label, says 
``Uncertain''. That is just under 10 percent. Level I means 
they're getting started, they have identified a champion or 
tsar, working on awareness, and beginning an inventory of the 
problem. Again, that's just under 10 percent.
    At Level II, developed a detailed inventory of operational 
dependencies. That's the third block over from Uncertain and 
Level I.
    Level III, or the fourth block over, has a project plan 
completed, resources assigned, made detailed risk assessment, 
they remediate and test 20 percent of the mission critical 
systems, reviewing their vendors, and they are completing 
contingency plans. That, of course, is up to almost half the 
States.
    The next two levels, while there is a small blue square 
there, in fact, are at zero. Level IV would be completing 
remediation and testing of the remaining 80 percent of mission 
critical systems, with contingency strategies implemented for 
mission critical dependencies. In Level V, remaining systems 
and dependencies completed and policies in place to avoid 
noncompliant issues after compliance is reached.
    Now, the source for this information is the Gartner Group. 
If Senator Dodd were here, he would point out that they are 
located in Connecticut. We don't know that these numbers are 
exactly precise, but that's the first cut that has been made by 
a group who have spent a great deal of time on this issue and 
that's their assessment of where we are.
    [The referred chart can be found in the appendix.]
    Chairman Bennett. We will hear from Governor Leavitt. We 
understand the self-reported numbers from these States are 
different from the numbers from the Gartner Group, and we will 
explore that.
    I am also happy to point out that the National League of 
Cities and the National Association of Counties is putting out 
this packet called ``Y2K and You''. It consists of a folder 
with some useful information in it, and this little bulge in 
the packet is a videotape that addresses it. Here is the 
folder. It has a ``Guide to Y2K and You'', and then in the 
other part of the folder an overview of frequently asked 
questions, hot buttons, Y2K dos and don'ts, and cooperating 
organizations. This is useful information from the National 
League of Cities and the National Association of Counties.
    Then here is an example of a Metropolitan Washington 
Council of Governments publication, ``Year 2000 Best Practices 
Manual.'' This shows the kind of effort that is being made, at 
least in the greater Washington area. The one question I keep 
getting asked and can't answer, which may be in this: ``Is 
Metro going to work in the Year 2000?'' We will try to find 
that out, and as soon as we do, we will report it.
    I do not have a corresponding chart for cities and 
counties. This kind of information is very encouraging, but I 
do not know anyone who has attempted to assess the state of 
awareness in cities and counties the way the Gartner Group has 
done for the States. I share that with you to set the stage for 
the conversations that we are now going to have.
    We welcome to the panel Gov. Michael Leavitt. He comes from 
a State that I consider enormously outstanding. He is the 
Governor of my home State of Utah. He and I share the 
distinction of both having finished second in the party 
conventions, where we sought our party's nomination in 1992. He 
was a close second; I was a very distant second. In the primary 
that was subsequently created by that, he won his primary very 
handily and I did it just by a hairs breadth. But close only 
counts in horseshoes and hand grenades. If you win, you win, in 
politics.
    Governor Leavitt has been an outstanding chief executive of 
the State, and sometimes we get together and reminisce on our 
days in the political trenches. Governor, we're delighted to 
have you here. He will be the Chairman of the National 
Governors Conference during the year that the governors will be 
discussing and grappling with Y2K problems, so he is a logical 
spokesman for the governors.
    Senator Smith. Mr. Chairman, as one whose paternal ancestry 
is also from Utah, I would like to say that I think Utah is at 
least the second-best State in the Union. [Laughter.]
    Chairman Bennett. I think we had better move on before the 
other members of the committee get here. But we appreciate 
that.
    Governor Leavitt. That wasn't a logical follow up to 
Senator Bennett's suggestion that second was attractive, I 
guess. [Laughter.]
    Chairman Bennett. With the Governor on the panel we will 
have Maj. Gen. Edward Philbin, who is the Executive Director of 
the National Guard Association; John Thomas Flynn, who is the 
chief information officer of the State of California and 
president of the National Association of State Information 
Resource Executives; and Miss Ellen Gordon, who is 
administrator of the State of Iowa's Division of Emergency 
Management, and she is president of the National Emergency 
Management Association.
    Miss Gordon, I understand you have an airplane to catch, 
too, so if the other gentlemen will indulge us, we will hear 
first from the Governor and then go directly to Miss Gordon so 
that she can meet her schedule.
    Governor Leavitt, again we're honored and delighted to have 
you here. If you have the wherewithal to argue with the Gartner 
Group, we'll be glad to hear that, too.

STATEMENT OF HON. MICHAEL O. LEAVITT, GOVERNOR OF THE STATE OF 
                              UTAH

    Governor Leavitt. Thank you, Senator.
    I think, while there may be some variety in the numbers, I 
think the conclusion of the chart and the report of the Gartner 
Group is consistent with the testimony that I will present to 
you today.
    Among the States there is substantial progress, but 
progress has varied. For some it is significant, advanced to 
the point where testing is already underway, including testing 
of law enforcement and emergency management systems; other 
States are just getting started.
    There is also a variety of degrees of collaboration between 
State and local jurisdictions. Most States, I think, are 
entirely conscious of this dilemma, and they understand the 
need to work cooperatively with local jurisdictions. They are 
working very feverishly now, and I think the pace is increasing 
as we get closer to continue that function.
    The National Governors Association, like many other 
organizations of its type, are doing what they can to help 
their members. We had a summit in July of this year, the ``Year 
2000 State Summit'', attended by senior-level policy people 
from nearly every State. We have also provided a lot of written 
material and papers that are available.
    We welcome, as an association, I might add, the passage of 
the ``Good Samaritan'' legislation that was authored and 
sponsored by members of this committee, as being an important 
step forward in our preparation.
    It may be valuable for me to take a moment or two and talk 
about some of the things that are happening in Utah, simply 
because those are the ones that I know the best. And while in 
my judgment there is no State that stands head and shoulders 
above as a sterling example of its preparation, I think we are 
doing things that other States may share in and we're looking 
very anxiously to learn from them.
    Utah is moving forward. In essence, we have concluded that 
we can cover the problems that we know about. As in every other 
case, it's the problems we don't know about that worry us.
    In the realm of the known, while we are not yet compliant, 
it is measurable for us. We are measuring it on a month-to-
month basis. Among those areas that we have identified as known 
problems, or known systems of potential problems, we deem 
ourselves at this point to be 51 percent compliant among those 
systems. We are currently testing 600 different information 
technology systems within our State.
    One of the most important things that we have done--and it 
happened really in a way that was not intended simply to deal 
with the Year 2000 programs--we have developed an alternative 
site where we have literally duplicated all of our systems for 
the purpose of emergency management. We have developed that 
``alternative site'' in a little town called Richfield, which 
is 130 miles south of Salt Lake City, as a testing center.
    All of our major systems now are being taken to that 
testing center and we are rolling it forward to the Year 2000, 
to two/zero/zero/zero, and testing the system to see what 
occurs. We are finding that there are problems, some that would 
be anticipated and many that would not be. This has been a very 
helpful facility, one that as we finish our testing we're 
anxious and willing to make available to local government 
jurisdictions as well.
    Half of the State's database and mainframe resources, as I 
mentioned, we have found to be compliant, and we're working on 
the others. We are going through a prioritization system, 
obviously to make certain that the systems we work on first are 
the most important. Those pertaining to public health and 
safety and so forth are being prioritized.
    Obviously, the unknown component of Y2K is what we're the 
most worried about. We are developing contingency plans, what 
the State will do if information technology systems are not 
remedied in time, and then how we will deal with the systems 
during a breakdown in the infrastructure, if that were to 
occur.
    Now, we have directed all of the State agencies to provide 
contingency plans. We have set a deadline of December 31, 1998. 
Again, I think this is consistent with what many other States 
are doing. My colleagues on the panel will be able to validate 
or tell about their suggestions.
    One rule we have found is that, the more we look, the more 
we find, and the more we find, the more it costs. We have 
identified costs on Y2K in our relatively small State in excess 
of $50 million already.
    Gratefully, we began some years ago working on the re-
development of some of our major systems. As we have done that, 
we have made them Y2K compliant. We have not included the 
entire cost of that resystemization in that $50 million, so we 
and other States are developing a substantial amount of 
resources to go into this.
    We are working very closely with every State agency dealing 
with Comprehensive Emergency Management. We are working closely 
with FEMA and others to make certain that we are there. I might 
just say--and my time is rapidly coming to a close--that 
perhaps one of the most important things we're doing is 
coordinating in our State the work of local governments, not 
just in terms of their own Y2K compliance, but their 
interaction with us and Federal agencies.
    We have also called together all of the financial 
institutions in our State, all of the utilities in our State, 
all of the major public systems, and asked them to demonstrate 
to us their compliance--all on a voluntary basis. I must say 
that, for the most part, they have been very willing to do 
that. This is a problem that is so broad in its scope that no 
government agency is able to solve it. We all have to do our 
share. I think it's safe to say, Mr. Chairman, that the States 
are doing that, to varying degrees, and hopefully they will be 
compliant by the Year 2000.
    Thank you.
    [The prepared statement of Governor Leavitt can be found in 
the appendix.]
    Chairman Bennett. Thank you very much, Governor. We 
appreciate that. We will be back to you with questions.
    Miss Gordon.

   STATEMENT OF ELLEN GORDON, PRESIDENT, NATIONAL EMERGENCY 
                     MANAGEMENT ASSOCIATION

    Ms. Gordon. Thank you. Good morning, Mr. Chairman, and 
members of the committee.
    My name is Ellen Gordon and I represent and appear before 
you today on behalf of the National Emergency Management 
Association, and Governor Branstad, as his emergency management 
director.
    On behalf of the association, I thank you for this 
opportunity to provide input and to appear before you today to 
discuss this very serious issue as it relates to emergency 
preparedness, response and recovery. We commend you on the 
seriousness with which you're taking on this issue, because we 
understand and realize that there will be consequences that we 
potentially could be faced with in responding.
    I will summarize my remarks in the interest of time.
    NEMA represents the State directors, as you mentioned 
earlier, of all emergency management in the States and 
territories and we are responsible to our Governors for 
ensuring that the public's life and safety is taken very 
seriously and to protect it from disasters and emergencies. 
State emergency managers are well aware of the Year 2000 issue, 
particularly the possibility that we may be called upon to 
respond to those consequences of Y2K technology failure or 
disruption.
    NEMA recently conducted a very quick survey, just asking 
some very basic questions of our State emergency management 
agencies on the overall awareness of Y2K issues. It yielded the 
following information. Again, I stress that it was very basic 
questions that we asked, in a very quick survey. This is just 
to get a feel for what's going on out there as it relates to 
emergency management.
    All of our State emergency management directors reported 
that the Y2K programs for State agencies and the State Y2K 
programs differ in organization and implementation strategies, 
as Governor Leavitt just pointed out. Many of these agencies, 
however, are working with the emergency management agencies 
within each of the States and are coordinating, marrying each 
other up with information technology departments and emergency 
management, so that is occurring, which is good news.
    All State emergency managers indicate their emergency 
operation centers will or are currently compliant for the Y2K 
technology issue. We find that to be a very serious issue for a 
State to be able to respond to any disruption, because if our 
State centers are not operational, we will not be able to 
coordinate effectively the State resources.
    All States believe that their emergency management systems 
that are owned and operated by the State will be Y2K compliant. 
At this time most States cannot assure that the emergency 
management systems being utilized by local governments will be 
Y2K compliant. For example, what you were discussing earlier 
this morning, the 911 centers, and all the critical 
infrastructure it takes to protect public health and safety.
    NEMA believes that the Y2K issues in emergency management 
systems, especially at local government levels, needs some 
focused leadership from State government. We are going to be 
working closely with our local governments throughout our 
States, as Governor Leavitt stated, to provide some leadership 
and some coordination, and make sure the information flow is 
going to local governments.
    Since all disasters typically involve local emergency 
management agencies first, NEMA believes it is important to 
determine the impact of Y2K on local emergency management 
systems which could produce deficiencies in providing for the 
public health and safety. As President of NEMA, I am urging all 
State emergency management directors to provide information and 
assistance, as appropriate, to their local emergency management 
agencies. It is imperative that capabilities be in place and 
ready to respond to the consequences of a potential Y2K 
technology disruption.
    As we find significant problems in emergency management 
systems, I intend to immediately advise the Director of FEMA of 
any major shortfall in local government emergency management 
systems and seek assistance and solutions to preclude adverse 
impact on the public. Hopefully, the partnership of NEMA and 
FEMA can help local governments avoid significant adverse 
consequences of the Y2K dilemma--not that all the answers lie 
there, but that's at least one major step that we are working 
on and working very closely with FEMA.
    As I stated, local government has the front line of 
authority and responsibility for events or emergencies. 
However, if the emergency overwhelms local resources or 
capabilities, the State then provides assistance and resources 
as determined in our State Emergency Operations Plan. The role 
of State emergency management is to coordinate and provide the 
State assistance as required during a disaster or emergency, 
regardless of whether the disaster is a tornado, hurricane, 
blizzard, civil riot, or a Y2K-related disaster.
    These responsibilities are common to every State's 
emergency operations plan. Most State agencies, not only the 
emergency management agency, but most State agencies have 
disaster preparedness plans that include all hazards 
preparedness, response and recovery procedures. Almost all 
State and local government emergency management agencies have 
infrastructures in place to coordinate their agency's role in 
disaster response and recovery.
    As I alluded to earlier, there are emergency operations 
centers throughout the country. However, the degree of that 
capability varies. Some States, some local governments, will 
have a better capability than others.
    As such, NEMA anticipates the Y2K problem will be dealt 
with much the same as any other disaster, through an integrated 
and coordinated emergency response system. The resources and 
types of people needed may differ for a Y2K event, but the 
emergency response system itself will remain the same from the 
information that we know today.
    Regarding interstate cooperation, NEMA administers the 
national Emergency Management Assistance Compact, EMAC, an 
interstate mutual aid agreement, a system for us to provide 
resources rapidly to supplement Federal assistance, when 
merited, or to replace Federal assistance when it is not. The 
EMAC agreement establishes our legal mechanism and operational 
procedures to facilitate the rapid disaster response, using 
personnel, equipment and materials from 23 States and 1 
territory.
    The compact has been tested extensively this year during 
the Florida wildfires and Hurricane Bonnie and has proven to be 
an efficient and effective system for States to help each other 
during disasters. As we speak, a number of our EMAC member 
States are providing assistance to the Gulf States impacted by 
Hurricane Georges.
    Interstate mutual aid may prove extremely beneficial should 
the infrastructure fail in a Y2K scenario, particularly if only 
a few areas within a State or region are impacted. However, 
should all States be impacted in a significant manner, mutual 
aid between States may not be possible. Individual States would 
not be able to spare limited personnel or resources outside 
State boundaries. So these are some things that we're taking 
into consideration as we're working with FEMA on what we can 
expect the Federal emergency response plan will be able to 
deploy if a State needs Federal assistance.
    In conclusion, NEMA, with the support of its member States 
and territories, and in partnership with FEMA, is working to 
determine that Statewide emergency management systems are Y2K 
compliant and, if not, what needs to be done to be responsive 
to disruption or failure. Many State emergency management 
agencies already have plans to activate their emergency 
operations centers on December 31st, and watching the reference 
to the 17-hour issue that you talked about earlier. Many of us 
will activate our EOC's on whatever the appropriate time is 
back from an event when we start being able to get information 
based on the alert information.
    These Y2K preparedness activities are a part of our mission 
to coordinate and facilitate resources to minimize the impact 
of disasters and emergencies on people, property, the economy 
and the environment.
    The most immediate need is for States to work with their 
local governments to identify potential system failures and 
make sure the contingency plans are there to manage the 
consequences of those failures. In addition, the States need 
more information and guidance from the Federal Government as to 
what assistance will be made available to State and local 
governments in a Y2K emergency, particularly if it becomes 
multi-state.
    Thank you again for inviting NEMA to provide this 
testimony. I will be happy to answer questions. I don't have to 
leave for about a half an hour.
    [The prepared statement of Ms. Gordon can be found in the 
appendix.]
    Chairman Bennett. Thank you very much.
    General Philbin.

STATEMENT OF MAJ. GEN. EDWARD J. PHILBIN, USAF [RET], EXECUTIVE 
   DIRECTOR, NATIONAL GUARD ASSOCIATION OF THE UNITED STATES

    General Philbin. Thank you, Mr. Chairman, Senators. I am Ed 
Philbin, the executive director of the National Guard 
Association of the United States, based here in Washington. I 
am here today to offer opinions on the problems that may arise 
as a result of noncompliant computers and computer-dependent 
systems that are unable to transition through midnight, 31 
December, 1999, and also to address the role the National Guard 
could and probably will play in managing emergencies arising 
from those problems.
    My testimony generally reflects the opinions of the 
association and its members, who are the commissioned and 
warrant officers of the Army and Air National Guard. It should 
not be construed as representing the official positions of the 
Department of Defense or of the National Guard Bureau within 
the Department of Defense.
    It is increasingly evident that an appreciable part of the 
Nation's infrastructure could be adversely affected in some way 
by what is commonly referred to as the Y2K problem. In general, 
the National Guard has the capacity to provide military support 
to civilian authorities, and can contribute a myriad of human 
and equipment resources to restore essential operations 
disrupted by Y2K generated incidents.
    Considering the possibilities of a large-scale disruption 
of governmental, commercial and other routine daily activities, 
it is certain that the National Guard will be among the first 
organizations activated to assist in the revitalization of the 
Nation's computer dependent infrastructure. As with hurricanes, 
floods and other incidents requiring quick reaction by a well-
trained and well-equipped on-site team, no other organization 
will be able to respond in support of police, fire fighting, 
and other civilian emergency responders to major crisis 
situations that may be caused by Y2K disruptions as well as the 
National Guard. The National Guard's practiced interaction with 
State and local organizations, and its connections to the 
National Command Authority, provide a unique emergency response 
capability not found in any other Federal or State 
organization.
    The immediate need, as Senator Dodd pointed out, is to 
determine what responsibilities the Guard will be expected to 
assume in the management of the Y2K related problems, that many 
analysts have forecast, will have the potential to trigger the 
destabilization of societal functions. The National Guard needs 
to be prepared to assist in maintaining or reestablishing 
essential stability in the civil sector.
    I suggest that the Department of Defense must develop a 
clear concept of how the National Guard will be required to 
respond to the spectrum of problems that could be created by a 
Y2K disruption. The DOD, through the Chief of the National 
Guard Bureau--who by law is the channel of communication 
between the Federal Government and the States--must now 
coordinate with the Adjutants General and the Governors to 
determine the likely, locality specific scenarios that may 
arise in a Y2K situation.
    The DOD should also assist the Governors and State 
emergency response coordinators to ensure that the National 
Guard itself will not be impaired by the effects of a Y2K 
incident at a time when it will be most needed.
    I suspect that, to date, this has not been a priority 
effort on the part of the DOD, even though to properly prepare 
for possible Y2K disruptions, the Office of the Secretary of 
Defense must be cognizant of the necessity of ensuring that the 
National Guard is fully capable of responding to any such 
technical breakdown.
    We must be certain that the National Guard will not itself 
be a victim of any Y2K disruption. All National Guard units in 
3,200 locations throughout the Nation must possess computer 
dependent equipment that is Y2K compliant. Responding to the 
consequences of these disruptions will be futile if the 
National Guard's operations are plagued by the very 
consequences the Guard is attempting to manage.
    It is critical that the Y2K response requirements of the 
National Guard be fully funded to ensure that it is able to 
respond quickly and effectively to the needs of the community. 
I respectfully request, Mr. Chairman, that this committee urge 
the Senate to provide full funding for Y2K compliance upgrading 
of National Guard equipment as one of the highest priorities 
for such funding, since the Guard will be among the first 
responders to a Y2K incident, together with police, fire 
fighting and other civilian emergency response personnel.
    The critical first step in ensuring that the National Guard 
will be fully prepared for a possible Y2K calamity is the 
collection and sharing of information. When I was Commander of 
the New Jersey Air National Guard, the State Adjutant General 
for the first time requested all of his commanders to conduct a 
survey to identify all of the Army and Air Guard resources that 
could be made available in response to a State emergency.
    My survey of the New Jersey Air National Guard identified 
what was to me a surprisingly long list of both mundane and 
sophisticated equipment which could be useful in responding to 
a State emergency. I strongly recommend that such a survey of 
the available resources of both the Army and Air National Guard 
of each State and territory be conducted prior to midnight on 
31 December, 1999.
    Equally important, we must determine how the National Guard 
will interact with the Federal Emergency Management Agency and 
the DOD in response to Y2K induced emergencies. Command and 
control of multiple agencies must result in mutual support 
rather than multiple collisions in addressing emergency 
situations. Therefore, a comprehensive study should be 
conducted on the potential roles of and the interaction between 
the FEMA, the DOD, and the National Guard of the various States 
and territories in response to Y2K induced problems.
    I applaud the recent inclusion of the National Guard for 
the first time in the President's Y2K subcommittee on emergency 
response, chaired by FEMA, and I believe that the subcommittee, 
with the DOD, National Guard Bureau and the Adjutants General, 
must develop a cohesive strategy that prepares this country for 
any event of mass effect leading up to and after midnight, 31 
December, 1999.
    Mr. Chairman, let me stress the need for the Adjutants 
General to play an important role in the development of this 
strategy. In most cases, it will be the Adjutants General who 
will integrate the planning efforts for their respective States 
with those to be developed by the National Command Authority.
    As you are aware, the Quadrennial Defense Review 
highlighted the role of the National Guard in homeland defense 
of the United States. While the Guard stands ready to meet the 
needs of the citizenry during any Y2K incident, it is important 
that, in preparing for that eventuality, the National Guard's 
ability to respond to its Total Force mission of rapidly 
expanding our Army and Air Force in response to a national 
threat not be denigrated.
    Funding for current combat readiness resources should not 
be the source of enhancing the Guard's ability to respond to a 
Y2K event. As an example, it is becoming increasingly evident 
that the current structure of the active duty Army cannot 
execute the current two Major Theater Wars strategy without the 
assistance of the Army National Guard combat divisions and 
brigades. This increased dependency on the National Guard 
requires increased, not decreased, combat readiness resourcing 
to enable the Guard to accomplish its historic combat mission. 
Mere reallocation of current funding to Y2K missions will have 
a negative effect upon the National Guard's ability to recruit, 
train and keep our soldiers and airmen combat ready to respond 
at a moments notice to a national threat.
    The Year 2000 challenges present an emergency scenario 
unlike any other in our Nation's history. Our technological 
society has grown extremely dependent upon the continuity of 
computer driven systems and networks and, as a consequence, the 
Nation's vulnerability has increased appreciably. Any 
significant disruption of our computer dependent infrastructure 
could result in a significant societal disruption. However, 
with the cooperative interaction of Federal and State 
governments, the military, the private sector, and with serious 
advance preparation, the impact of such an event on the 
American people can be significantly reduced, if not totally 
eliminated.
    Mr. Chairman, thank you very much for the opportunity to 
offer the opinion of the National Guard Association on the 
readiness of the Guard to deal with these potential 
emergencies. As we have for over 3\1/2\ centuries, the National 
Guard of the United States, both Army and Air, stands ready to 
protect the Nation against military threats and local 
disasters.
    I would be happy to answer any questions you might have, 
sir.
    [The prepared statement of General Philbin can be found in 
the appendix.]
    Chairman Bennett. Thank you very much.
    Mr. Flynn, you represent the largest State in the country, 
and perhaps the one we're focusing on the most.

STATEMENT OF JOHN THOMAS FLYNN, PRESIDENT, NATIONAL ASSOCIATION 
            OF STATE INFORMATION RESOURCE EXECUTIVES

    Mr. Flynn. Thank you. My name is John Thomas Flynn, and I 
speak before you today as President of the National Association 
of State Information Resource Executives, which represents the 
chief information officers of the States, and also as Governor 
Pete Wilson's chief information officer in California.
    First of all, I want to express my appreciation for the 
opportunity to update this committee on Year 2000 readiness, 
and particularly as it affects emergency preparedness.
    I'll get right to the point. As to the States overall 
remediation efforts, compliance among the 50 States with all 
aspects of mission critical systems ranged individually from 
below 10 percent to over 90 percent. I would point out that 
these figures are based upon NASIRE's self-reporting online 
survey, a hard copy of which I have provided to this committee.
    This report, the latest results of the survey, which in 
many cases were done just in the last several weeks, just under 
half, 24 of the States, have completed remediation of at least 
50 percent--that's 50 percent of their mission-critical 
systems. There is no State that I know of that has announced 
itself to be 100 percent complete, and in addition, due to the 
various interpretations surrounding this term ``completeness'', 
as well as the legal ramifications involved, we may not see 
total compliance claimed until after January 1 of the Year 
2000.
    I have also submitted a column that I wrote on this topic 
of completeness for Government Computer News for the committee.
    Chairman Bennett. That will be included in the record. Mr. 
Flynn. That's right.
    As the remediation process has evolved from addressing 
software applications and interfaces, desktop systems and 
embedded technologies, a key focus of activity in the States 
has involved contingency planning, operational recovery and of 
particular importance to this hearing today, emergency 
preparedness.
    As to the general condition of the States' emergency 
preparedness and the readiness of State emergency response 
agencies, I would offer the following. Disaster relief services 
are facets of a civilized society that citizens should be able 
to depend on. Obviously, we could imagine the residents of New 
Orleans or the Florida Keys managing without State emergency 
and disaster assistance as a result of the hurricane. Also, you 
may recall that earlier this year there was a total blackout, a 
power blackout, that occurred for weeks in the central business 
district of Auckland, New Zealand. Or you might recall the 
Galaxy 4 satellite that put 50 million pagers out of 
commission, with one satellite and 50 million customers 
affected. When you think about how many lives are touched by 
one action or, in this case, inaction, you understand the 
magnitude of the Year 2000 situation.
    Regarding specific emergency preparedness issues, 11 States 
responded to a NASIRE survey, which I have also listed in my 
written report to this committee.
    The NASIRE Chief Information Officers reported that close 
working relationships have been established with their 
emergency management organizations, and their mission critical 
system remediation for those particular emergency agencies has 
been given the highest priority in the States.
    I could give a few specifics. Governor Leavitt already 
mentioned some of the fine work that's going on in the State of 
Utah under his Chief Information Officer, David Moon. The State 
of Arizona, with John Kelly the CIO there, has biweekly 
meetings with their Y2K coordinators from the Public Utility 
Commission, the Attorney General's office, the Office of the 
Courts, and the Department of Emergency and Military Affairs. 
Staff representatives from both Senators McCain and Kyl were 
recently invited to these meetings.
    The Colorado 2000 Council has asked the Colorado Office of 
Emergency Management and the Federal Emergency Management 
Association to participate in Colorado's Council. This council 
is a coalition of public and private industries representing 
critical service sectors such as telecommunications, public 
safety, and water, just to name a few.
    I would also point out that New York's Governor Pataki, his 
Office of Technology and State Emergency Response Offices are 
working closely on a statewide Y2K emergency response plan, 
which they expect to have in place during the first quarter of 
1999.
    In California, the Governor's Office of Emergency Services, 
OES, is a stand-alone cabinet level agency, like the Department 
of Information Technology, which reports directly to the 
Governor.
    Having this kind of authority naturally leads to quicker 
and more comprehensive responses. As you know, California, 
during this decade, has suffered through flood, fire, drought, 
riots, and other natural disasters with responses coordinated 
by this department.
    As CIO for California, my office is partnering with 
California OES Director, Dr. Richard Andrews, along with our 
California Year 2000 Intergovernmental Task Force, which is 
comprised of State, county, and city CIO's, for a Western 
States Y2K Summit on Emergency Preparedness and contingency 
planning scheduled for this fall. Dr. Andrews and I have been 
in contact with the emergency directors, State CIO's and Y2K 
managers of these States who have all voiced unanimous 
enthusiasm for this endeavor. We believe that the model and 
subsequent action plan we develop for this summit will be of 
value to States, not only in our region but beyond.
    In summary, the emergency management services, while they 
do not fall directly under the responsibility of our IT 
organizations, those who work in the IT environment are working 
very closely with their sister agencies who are directly tied 
to providing support and order during a disaster.
    I thank you for the opportunity and look forward to your 
questions.
    [The prepared statement of Mr. Flynn can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. I appreciate the 
testimony of all of you.
    Governor Leavitt, we are very interested in the Year 2000 
State summit that you referred to in your testimony. Could you 
tell us a little bit more about that, and then prospectively, 
during your term as the head of the National Governors 
Association, is there anything specific that you can see that 
the Federal Government ought to be doing to help the States, 
that we either are not doing or not doing well enough?
    Governor Leavitt. You can get your own systems compliant. I 
think the States recognize the need for us to do ours, that 
local governments ought to do theirs. But the national 
government systems we're all dependent upon in various ways. I 
would say the national government's highest priority ought to 
be getting its own house in order.
    I don't say that in an accusatory way----
    Chairman Bennett. Oh, no.
    Governor Leavitt. I say it simply as a matter of fact.
    With respect to the summit that was held, it was really a 
method of being able to share among senior policy staff the 
perspectives of other States. What's being done by the chief 
information officers I think is a corollary to that.
    It has been my experience that there is no dearth of 
information about this. There is just simply a dearth of 
action. Everyone has to do their part in order to this not to 
have broad, social consequences.
    Chairman Bennett. Do you agree that the National Guard 
might well play a key role in terms of challenges with respect 
to civil disorder? I can imagine a metropolitan area where the 
welfare checks don't go out, turning into a really ugly 
situation rather quickly if the local computers that handle the 
welfare checks don't get remediated.
    Governor Leavitt. As I mentioned in my testimony, Senator, 
there are two levels of planning that we're going through. One 
is to find those systems where we know there's a problem and to 
deal with it. I think most States are going through that 
process. The piece that we don't now understand is what the 
implication could be for a system where we can't contemplate 
the impact.
    Every State, I believe, is using whatever their emergency 
management method is. In our State, the National Guard has a 
different role than it would in another State. In some States, 
the National Guard actually handles the comprehensive emergency 
management function. In other States, it is basically an 
adjunct and participates. So clearly the National Guard will 
play some role in every State. The issue is the degree to which 
they will play a role will depend entirely on what role they 
play in their individual State.
    Chairman Bennett. Do you expect to have another summit?
    Governor Leavitt. We expect to have an ongoing discussion 
with--we are creating a network now with people who have 
responsibility and are in charge, as Mr. Flynn has suggested. 
One of the things that I believe has been most helpful in our 
State is the creation of a very sophisticated web site that is 
available not just to local governments and State agencies, but 
also the private sector. The creation of user groups within the 
State, our Economic Development Office, has begun to develop 
user groups among small business to give them access to 
information.
    But the very technology that at this point imperils us also 
provides us the tools of disseminating the information for 
compliance. We are working mostly to create information 
availability.
    We have had a summit with our--we have the benefit of 
having one of the great sponsors of this dilemma in our State. 
Senator Bennett, you have been a voice, a voice that started 
off as a voice in the wilderness, and you have come to the 
point where you are well known for your early warning. But we 
have had the benefit of that for some time.
    So we're having meetings with our utilities, meetings with 
our banks, meetings with our police and public safety people, 
and we're in the process of completely redoing our system for 
communication.
    Another challenge right now, which has also turned out to 
be an opportunity in our State, is the 2002 Winter Olympic 
Games. It is causing us all to work together. So I think every 
State has their own approach to it, and we will continue at the 
national level at the National Governors Association to provide 
information between States.
    Chairman Bennett. We passed the legislation that we were 
congratulating ourselves about all morning today, which will 
allow businesses to share information in ways that their legal 
departments may have counseled them not to do prior to the 
legislation.
    Do you see any impediments to the sharing of information 
between States, or between the State and local government, that 
we might address on the Federal level, or are you in an 
atmosphere where the antitrust laws or the trial lawyers suing 
you for liability is not as big a problem as it is for some 
businesses?
    Governor Leavitt. They are a significant worry to us, 
because of the broad public responsibility we carry. For that 
reason, we joined in your applause for the ``Good Samaritan'' 
legislation that was passed.
    There may be additional legislation that I am not able to 
articulate at this moment, but we will not hesitate, given the 
scope of that problem, to come back to you to ask, if that's 
the case. Perhaps the State CIO's would be able to respond to 
that better than I.
    Chairman Bennett.
    Vice Chairman Dodd.
    Vice Chairman Dodd. Thank you, Mr. Chairman. Welcome to all 
of you. Governor, it's nice to have you with us.
    Governor Leavitt. Thank you, Senator.
    Vice Chairman Dodd. I appreciate the fine job you're doing.
    I was just thinking, I suspect you've got to do a fine job 
with Bob Bennett watching over your shoulder here, watching 
what's going on.
    Governor Leavitt. We have no excuse.
    Vice Chairman Dodd. You're doing well.
    I would point out that the national excitement over the 
2000 Winter Olympics coming to Utah is obviously of great 
interest in your home State, but also the Nation. So I suppose 
that's an added incentive to get this all working.
    You've maybe heard that Senator Bennett and I have been 
constantly pushing, with 70 witnesses--and I don't know how 
many hearings we've had with our Federal agencies, including 
this morning. I don't know if you were in the room at the time, 
but even with Mr. Koskinen and others--to try to get these 
assessments in earlier and push them on the date to complete 
it, so we can start dealing with agencies like FEMA, which is 
of critical importance, and the National Guard. You have to 
have an assessment to determine what can be done in order for 
you to start making the determinations of what you are going to 
need and, of course, it trickles down here to local government.
    So that chart prepared by the Gartner Group--and I 
appreciate the Chairman making note of the fact that it's a 
fine Connecticut company, the Gartner Group, and has been a 
great asset to all of us in this as they have done surveys 
here. But that is a pretty low performance rate by our States. 
I don't know where my own State fits into this scheme. We have 
had some hearings up there, and I know John Rowland has been 
interested in it. We ought to raise the profile of this a bit.
    I don't know if they have a State-by-State assessment done, 
but maybe we will be reaching a point where we want to do a 
State-by-State assessment and let that be known. It would be an 
added incentive for people to kind of get ``back on the 
horse''.
    Governor Leavitt. Senator, I might defer some to Mr. Flynn, 
who indicated that the CIO's in the country are doing ongoing 
assessments. I have required my own CIO to report to me 
monthly. In all of the areas where we have identified potential 
problems, we have quantified our progress. In our State we are 
51 percent, as of this month, but that started in the low teens 
and each month continues to increase. We believe we will be 
compliant in all major systems by the Year 2000.
    But we are only one State. As the Gartner report indicates, 
there is a wide variety of progress. But it's important, I 
believe, to acknowledge that virtually every State now is 
moving forward and the trajectory is a good one.
    Vice Chairman Dodd. I'm glad to hear that. As you point 
out, others have as well.
    There is an interconnectability here on this, with the 
transportation system beginning the long list of items, where 
the towns, counties and States and the national government are 
so interwoven here that the collapse of a system even in a 
county could have national reverberations. So I think it's 
important to cite that.
    This is not an easy question to ask you, and I don't know 
if there is one. But if I asked you as a governor, and based on 
your conversations with your colleagues, what is the single 
largest concern? If there is a single large concern you have as 
a governor, in your own State, or what you hear from other 
governors, is there one particular item that sort of gathers 
more attention than any other item, or maybe two?
    Governor Leavitt. We have had some discussion about this. I 
think there is a sense of confidence among governors that, 
among the problems we know about, we will get them solved. I 
think it is the unknown problem that haunts us all.
    Obviously, there's the cost that goes into this. One of the 
characteristics of the job of governor is that it takes a very 
broad spectrum of responsibility. It could be education, it 
could be law enforcement, all of those things. So I can't say 
there is one. But if there is one area that haunts us, I think 
it's maybe the problem we haven't thought of.
    I would say a second might be the systems we don't control, 
which potentially could be a Federal system. It could be the 
IRS not being prepared. Many of our tax systems are very 
interrelated with the Federal tax system. It could be anything. 
So I think the interrelationships is probably what worries me, 
and I think that would be consistent with my colleagues.
    Vice Chairman Dodd. I appreciate that.
    Let me ask this of Miss Gordon. The prepositioning issue I 
raised very quickly with FEMA, about the prepositioning of 
personnel and equipment in areas around the country in 
anticipation of some more widespread problem we would like to 
think about. Is that a reasonable request, in your view, Miss 
Gordon?
    Ms. Gordon. I cannot speak for all 50 States at this point 
because we do not have any solid information as to who is going 
to be doing what, but I can pretty much expect that the States 
will preposition equipment, perhaps personnel and equipment, in 
strategic locations throughout the State for response time, to 
cut down on response time. Of course, in January, in the 
winter, your travel time is prohibitive in some States. Iowa, 
for example, will be looking at that very thing.
    Vice Chairman Dodd. Mike, do you want to comment?
    Governor Leavitt. We intend to use the 19-hour advantage 
that was spoken of earlier with great care.
    Vice Chairman Dodd. You notice how he already started that 
clock, so I lose two on this.
    Governor Leavitt. We will be, in fact, as a part of our 
contingency planning, be prepositioning equipment. But 19 hours 
is a lot of time to see a problem starting to develop and be 
able to dispatch equipment, so we will be using that to the 
fullest extent possible.
    Vice Chairman Dodd. You may have heard me mention with the 
FEMA people that the northeast utilities in my State have 
really stepped up to the plate on the Puerto Rican problem, the 
disaster with Hurricane Georges. They have gone down there to 
help out.
    One of the problems they had, they were told the only way 
to get it down there was by barge, by boat, which takes five 
days. One of the problems was, it's not that they wouldn't fly 
it; it's just they had a higher priority level of materials 
they wanted to get in by aircraft--I gather that was the case--
because they said they didn't have the aircraft to get it down 
there. That is obviously the unanticipated disaster.
    But if all of a sudden we find our ability to move 
equipment--and that is one place. Imagine you have multiple, as 
I presume you would here, there is a failure here that's going 
to be in multiple places. You're starting to marshal resources, 
and the capacity to deliver those resources is something we 
ought to be thinking about. So prepositioning to some extent, 
where you can, would be wise.
    General, we thank you immensely. General Gay is a great 
friend of mine, the Adjutant General in Connecticut. He does a 
great job and comes down here with some frequency. Usually he's 
not bringing me money. He's usually asking for a little money--
--
    General Philbin. Usually.
    Vice Chairman Dodd. I wonder if you have done any 
assessment--Senator Bennett and I thought we heard, we 
commented to each other, that we thought we heard a request. 
This would make you unique, General, coming to Washington with 
a request. [Laughter.]
    Is there any assessment that the Guard has done in terms of 
potential additional cost factors? I know you have suggested 
resource allocation, which I think deserves to be repeated. The 
primary goal of our National Guard, having served in it, is to 
obviously be prepared to respond to military situations. Every 
State I know of is very grateful, by the way and, in addition 
to that, the resources that the Guard has provided, I'm certain 
in every single State, at one point or another, in recent 
years, during times of natural disaster or other crises.
    Obviously, this cost factor is a major one. We're looking 
at it from the standpoint of how do you provide resources to 
Federal agencies, State governments and so forth, to try and 
become compliant. But I have a feeling here that you've already 
done some work on this, in terms of what may be requested from 
our National Guard in potentially dealing with this issue. I 
wonder if you have, and if so, what are the numbers?
    General Philbin. To make the National Guard Y2K compliant, 
I don't think that anybody really knows what the actual number 
is. I have heard wags of $25 million for the Army Guard and $25 
million for the Air Guard. In my viewpoint, that's probably a 
bare minimum.
    I would point out that all of the equipment we would use, 
and have been using for local emergencies, comes out of the 
equipment we were given by the Federal Government from the 
combat structure, both the Army and Air Guard. That's what we 
use for local operations. There are some cost-sharing formulas 
that are used for that, but basically, it's combat-related 
equipment that will be used.
    Vice Chairman Dodd. Thank you all very much. Governor, it's 
a pleasure to have you here with us.
    Mr. Flynn, if I have any additional questions, I will be 
certain to send them along.
    Mr. Flynn. Senator, if I could just point out to you, I did 
submit with my written testimony a survey of the 50 States.
    Vice Chairman Dodd. Great. We do have it, then, State-by-
State.
    Mr. Flynn. And I think it will show a little bit better 
light than the Gartner Group did.
    Vice Chairman Dodd. Connecticut is 50 percent. I would 
announce here that Connecticut is just like Utah. We're getting 
right along on that. John Rowland will be happy to know I made 
reference to that.
    Thanks very much. I appreciate that. Let's put that in the 
record.
    Chairman Bennett. It is in the record.
    I should comment that, for the Gartner Group, they could 
not provide State-by-State data because they have State-level 
clients and have contractual agreements, which makes that 
difficult.
    Thank you all.
    We will now have the third panel. We have Bruce Romer, who 
is the chief administrative officer of Montgomery County--maybe 
he knows whether the Metro is going to work or not; Bob Cass, 
the city manager of Lubbock, TX, and we've heard a great deal 
about Lubbock so far; and John Powell, with the Association of 
Public Safety Communications Officers.
    Gentlemen, we appreciate your patience. We hope it has been 
enlightening for you to sit through this morning's activities. 
We look forward to having you enlighten us in your areas of 
responsibility.
    We will go in the order in which I introduced them. Mr. 
Romer, you can go first.

    STATEMENT OF BRUCE ROMER, CHIEF ADMINISTRATIVE OFFICER, 
MONTGOMERY COUNTY, MD, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                            COUNTIES

    Mr. Romer. Thank you, and good morning, Chairman Bennett, 
and members of the committee.
    I am Bruce Romer, chief administrative officer for 
Montgomery County, MD, and also representing the National 
Association of Counties.
    I guess if there's one message that I would deliver today, 
at least from my fellow local government officials, it is that 
the Y2K issue is not a technology problem. In fact, it is a 
business management problem. It really should be addressed at 
the highest levels of any organization. It's a problem of large 
proportions competing for very precious resources. In our case, 
it may impact the delivery of local government service and 
public safety, health, human services and traffic management, 
just to name a few.
    Now, while the Federal challenge for the Year 2000 is 
sizable, the local governments' Y2K challenge is even greater. 
Local governments, some 87,000 nationally, have more 
interdependent information technology systems than the Federal 
Government. We employ more individuals and we spend more for IT 
than the Federal Government by far.
    Local governments are the direct providers of services that 
enable the rest of our government and business economy to 
function. IT systems at Federal installations in Washington, 
Denver or Chicago may be functioning perfectly--at least we 
hope they will--but if the Federal employees who run those 
systems can't get to work safely, or have no basic services 
when they get there, all of us will have failed in our 
responsibilities. We think that a Federal and local government 
partnership is required.
    Montgomery County, MD has a population of approximately 
840,000. We have an annual operating budget of over $2 billion. 
We maintain a AAA bond rating from all three credit rating 
agencies, who have indicated that our Y2K program is, in their 
opinion, a model for other jurisdictions.
    In 1996, Montgomery County formulated a plan to resolve its 
Y2K problem by December 31, 1998, thereby reserving the entire 
1999 calendar year for testing and contingency planning. Our 
program is very broad in its scope because it involves the 
coordination of all seven independent county agencies, 
including our public schools, the community college, and the 
water utility, all of which are managed through our Year 2000 
project office.
    Our compliance program has four phases: system compliance, 
business continuity, contingency planning, and community 
awareness. We think that our progress has been substantial, but 
obviously more work remains. We have identified 204 systems 
that are in need of attention, of which 36 are today certified 
as complete. That would put us at about Level III, gaining 
pretty well on Level IV.
    The county has appropriated to date $35 million. We have 
allocated significant staff resources. We have also passed 
special legislation to employ fast-track procurement and 
budgeting processes to help us. Some of our original estimates 
were in excess of $40 million, and we were roundly criticized 
as overstating the problem, and today we have appropriated and 
are spending $35 million.
    The Y2K projects, I monitor them biweekly through the use 
of a high-level management team. A management tracking 
scorecard was developed to ensure accountability and to 
properly address impediments.
    Our community outreach program was initiated when we hosted 
all of the county's municipal governments for an information 
session, and a meeting with our chambers of commerce is 
scheduled next.
    We have also begun to apply our very strong regional role 
in emergency preparedness to the Y2K problem. We plan to 
conduct an emergency management training exercise in December 
of this year to test the entire community's readiness, 
Montgomery County's community readiness, for the next year. We 
plan to identify the resources, including personnel and 
equipment, that may be necessary as the calendar turns.
    And then, under the auspices of our Metropolitan Washington 
Council of Governments, we are now committed to test our 
region's readiness, probably in the first quarter of 1999. We 
hope that the scenario planning that we do in the Washington 
Metropolitan Area will be useful to local governments around 
the country.
    Finally, we have recommended some seven initiatives to 
Congress in our more complete testimony that we hope you will 
consider. Some highlights include: establishment of a FEMA-like 
national emergency fund that might assist local governments to 
provide perhaps seed funding for cities and counties to apply 
the best practices that have been developed here as a part of 
our emergency management exercise. NACo, through Public 
Technologies, Incorporated, could serve as the vehicle for 
rolling this information out.
    Also, of course, as has been talked about, is the passage 
of the immunizing legislation that we have all celebrated here 
rightfully this morning, and perhaps the establishment of a 
national program office to complement the President's Advisory 
Council and, of course, continued congressional leadership to 
highlight the issues before us.
    In summary, the nationwide extent of Y2K failure is still 
unknown, but certain things we know for sure. The deadline is 
immovable and that there is no apparent ``silver bullet'' 
solution. Many of our Nation's local governments have not 
started in their testing and remediation. For many local 
governments, local resources, both human and financial, are 
what's keeping us from getting further along. Hopefully, 
Federal assistance for this unique challenge can be applied.
    Thank you very much for having us.
    [The prepared statement of Mr. Romer can be found in the 
appendix.]
    Chairman Bennett. Thank you, sir. I appreciate the 
testimony and the suggestions of specific Federal steps that we 
can take.
    Another vote has been called, so I am required to put the 
committee in recess. I will do my best to sprint over and 
sprint back. I apologize to our other two witnesses.
    The committee will stand in recess.
    [Recess.]
    Chairman Bennett. The committee will come to order.
    I think that's the last interruption we will have, but one 
never knows around here. Again, my apologies to our witnesses.
    Mr. Cass, we will now hear from you. You have been very 
patient and we are grateful.

        STATEMENT OF BOB CASS, CITY MANAGER, LUBBOCK, TX

    Mr. Cass. Thank you, Mr. Chairman. I am very glad to be 
here.
    We have gone through a number of the processes that have 
already been described to you, so I will not reiterate those 
types of analyses we've already undergone. I believe the 
primary reason the Senate staff asked us to be present was the 
fact that we ran a simulation Wednesday night that anticipated 
various Y2K failures on December 31st, 1999, so if it pleases 
the committee, I will simply give you some of the results of 
that, some of the lessons that we learned.
    I would also point out we're going through detailed 
debriefings today back in Lubbock and we'll certainly be able 
to provide you with more detailed debriefing documents later, 
if you so desire.
    One of the first lessons that became readily apparent was 
that it's going to be extremely critical for us to pay close 
attention not only to our own processes and systems, but also 
to those business partners on whom we're hugely dependent.
    We had small consolation in our simulation exercise when we 
found out that although our electric utility system, Lubbock 
Power & Light, which we control, was ready, the simulation 
assumed that the natural gas suppliers which fuel our boilers 
would fail. We had anticipated that problem and, in fact, have 
already begun meetings at not only the policymaking level but 
at the operating level with the key partners that will impact 
us, the area power suppliers on whom we are somewhat dependent, 
the natural gas suppliers on whom we are somewhat dependent.
    I would certainly urge any other community to begin those 
discussions now. Again, it's important that it take place not 
only at the policymaking level, the senior management level, 
but probably more important, at the operational level. It is 
one thing for the city manager to know you're compliant; it is 
more important, I believe, on the night of December 31st, for 
the guy that's flipping the switches to know what his 
counterpart is thinking and what he's doing.
    I would say we are also very concerned and very interested 
not only in what is going on at the FEMA level--and we 
certainly want to salute that agency; they've been tremendously 
helpful to us--but also other Federal agencies, such as the 
National Weather Service, the air traffic control system, those 
types of things which are going to heavily impact our 
operations.
    Another lesson that we learned was that it is important 
that we not overlook and immediately discard the low-tech 
solution. We believe that most of our systems are already 
compliant and will be compliant. We are not going to assume 
that they will. I would offer as an example our traffic control 
system. I had been assured by our traffic control engineers 
that it will be compliant. I had been equally assured that, if 
it is not, there is not a single embedded chip in any stop sign 
in Lubbock, Texas, and that they will have the ability to 
spread additional signs to control our major signalized 
intersections.
    We learned that in our Lubbock Power & Light, a highly 
sophisticated system which controls our boilers, which are 
natural gas fired, we do have on hand very inefficient, very 
low tech diesel generators which we do not use except in 
peaking capacity times. We also have a million gallons of 
storage capacity left in our diesel tanks. We intend to have 
those filled to the brim and will be, in the case of an 
emergency, able to utilize our old diesel generators to keep 
the basics of government going and the basics of our citizens' 
lives going, in the event we have problems either in the 
natural gas suppliers or our more high-tech equipment that is 
fueled by natural gas.
    Our simulation pointed out what many of you already know, 
that the key systems which will impact us are going to be our 
emergency communications systems, not only those which enable 
us to communicate with the firefighter and the police officer 
in the street--and let me tell you, they are very concerned 
about our ability to do so--but also our ability to communicate 
with our water control system. It is small consolation to 
communicate with the firefighter if we can't get water to him.
    We think that it's important--The fourth lesson we learned 
is that it's extremely important to take advantage of the one 
advantage this particular incident will offer us, and that is 
the ability to know when it will occur. I have been in this 
business for 22 years and I have handled numerous emergencies. 
Rarely have they had the courtesy to announce they're coming. 
In this situation, we were able to preplan and to deploy men 
and material in appropriate situations, as Senator Dodd so 
aptly pointed out, and that was extremely beneficial to us.
    Finally, I would say a lesson we learned is that there is 
no substitute for an educated citizenry. As we were putting the 
simulation together, unfortunately some invalid information got 
out in the local media, and the local radio station broadcast 
some information indicating that major systems were being shut 
down, which prompted a series of very concerned calls on the 
part of a few citizens to city hall. It felt very much like 
``War of the Worlds,'' the sequel. We were able to scotch that, 
to scotch those rumors fairly quickly, but again it did point 
out to us the probable lack of knowledge in the general 
citizenry about this particular issue.
    We have already made plans to begin a public education 
campaign that will take place over the course of the next year. 
I salute the committee for the work it's doing in that regard, 
too, and I would be happy to answer any questions.
    [The prepared statement of Mr. Cass can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. We appreciate the 
first-hand information. I think your observations are right on.
    Mr. Powell, you get to be the clean up hitter.

 STATEMENT OF JOHN S. POWELL, UNIVERSITY OF CALIFORNIA POLICE 
   DEPARTMENT, ON BEHALF OF THE ASSOCIATION OF PUBLIC SAFETY 
                    COMMUNICATIONS OFFICERS

    Mr. Powell. Thank you and good morning. I guess it's not 
still morning yet. Good afternoon.
    Chairman Bennett. It's morning in Chicago. [Laughter.]
    Mr. Powell. And they have 1 further hour of warning.
    My name is John Powell. I'm with the University of 
California Police Department at Berkeley. I'm a past president 
of the Association of Public Safety Communications Officials 
International. Your staff also directed some questions to me 
with regard to the International Association of Chiefs of 
Police, as I sit on their Communications and Technology 
Subcommittee.
    I would like to thank you for this opportunity to provide 
information on the state of our Nation's local public safety 
agencies with respect to the Year 2000 technology problem.
    The United States has nearly 19,000 State and local law 
enforcement agencies. Ninety percent of these have fewer than 
24 sworn officers, and about 50 percent have less than 12 sworn 
officers. There are over 32,000 fire departments. Eighty 
percent of these are staffed entirely by volunteers. Yet nearly 
every agency has at least one system that needs to be checked.
    Senator Dodd earlier mentioned the NCIC system. Virtually 
every law enforcement agency in this country has a terminal to 
access their State and Federal criminal justice information 
system. Senator, these police and fire departments are where 
Americans turn first for help.
    We have heard horrific predictions being made by millennium 
fundamentalists. At the opposite end of the spectrum, it 
appears that the majority of Americans, if they are aware of 
the Y2K issue at all, consider it to be only a computer 
problem.
    The state of local public safety agencies appears to spread 
across this entire range, with thousands of smaller agencies 
not yet aware of the potentially major problems they could face 
in less than 15 months.
    Two wake-up calls this year highlight our dependence on 
telecommunications services. In April, AT&T's frame relay 
network failed. Twenty-four hour outage caused by a software 
glitch in a single card dropped service to major ATM and credit 
card systems across the country. Then, as mentioned earlier, on 
May 19 the Galaxy IV satellite failed, disrupting service to 50 
million pagers, including critical alerting systems used by 
Federal, State, and local governments.
    Let me highlight the major points in my written response to 
the questions you posed.
    First you asked about the APCO and IACP role in assessing 
the vulnerability of emergency service agencies to your 2000 
problems and our efforts to increase awareness. Such 
associations generally do not have specific roles in assessing 
vulnerability. Yet we often serve as a statistical resource to 
those responsible for such assessments. Associations do play a 
major role in promoting awareness and providing education, and 
they are the keys, I believe, to dealing with Y2K.
    APCO and the IACP annually host the world's largest public 
safety conferences in their respective fields. In August, APCO 
conducted a number of Y2K seminars in Albuquerque. IACP holds 
its annual conference in Salt Lake City later this month, and 
Y2K will be a topic in several venues. John Clark, Deputy Chief 
for Public Safety at the Federal Communications Commission, 
specifically will address the forum on issues regarding Y2K.
    Second, you asked me to address ways that Y2K might impact 
local law enforcement. Agencies will be impacted in four ways, 
two internal and two external. First, internal systems must be 
made compliant. State and local radio communication systems, 
these [indicating] appear to be in excellent shape. 
Unfortunately, our computer-aided dispatch and records 
management systems don't fare so well. Many of these are Legacy 
systems that will be cheaper to replace than to make compliant.
    Critical considerations for governments include long 
procurement lead times, coupled with potential overload on 
vendors, during the next 15 months.
    The other internal problem--and this is one that's going to 
be hard to deal with--is preparing to meet the special needs of 
agency employees during the period of impact. All of us that 
have been involved in disasters know that people simply don't 
perform at 100 percent if they're worried about their families. 
Externally, agencies must deal with the potential disruption of 
services, primarily utilities providing electrical power and 
telephone services, especially 911. The critical 72 hours of 
self-reliance that disaster planners promote as the average 
time before help arrives does not apply if the problem is, 
indeed, nationwide.
    Last, and clearly the most difficult to judge and plan for, 
is additional workload caused by impact of the Year 2000 
problem on the public. If even minimal disruptions occur, the 
additional workload on law enforcement in particular could be 
significant.
    With respect to a university campus environment, let me 
simply say that our issues are identical, except that, like 
military bases, campuses are cities unto themselves--in my 
case, a city of 50,000. We are responsible for all buildings, 
all housing, all operations, all services.
    Finally, you asked for recommendations. As a Boy Scout, and 
later serving as the emergency preparedness officer at UC 
Berkeley during the Loma Prieta earthquake, the drought, the 
floods, and the Oakland Hills fire, I learned the critical 
meaning of two words: Be Prepared.
    The most important issue facing us is clearly education for 
the American public in general, and those of us in government 
specifically. APCO and the National Institute of Justice are 
discussing a series of Y2K seminars targeted at public safety 
chief officers and upper level management to specifically 
address the four impact areas I just mentioned. To promote 
maximum attendance by small agencies, a number of these must be 
held quickly and at little or no cost to the attendee. To 
sponsor such critically needed seminars, the National Institute 
of Justice will need a budget augmentation.
    Last, from these halls to the Oval Office, elected 
officials must make the Year 2000 problem a top public 
priority. The American people need to be aware and be involved. 
We must have ongoing and realistic assessments of the potential 
for problems across the plethora of impacted services. A public 
caught off guard by major failure on January 1, 2000 would 
result in devastating, long-term impact on this great Nation.
    Thank you.
    [The prepared statement of Mr. Powell can be found in the 
appendix.]
    Chairman Bennett. Thank you very much.
    I should note that Sergeant Powell participated in the 
arrest of several armed robbers just a few nights ago. That's a 
low tech solution, but I'm sure you had high tech help. I 
congratulate you on your courage and hope that we can keep the 
high tech equipment that you used to track that particular 
incident working properly.
    Now, I understand you have two radios here, one that works 
and one that doesn't. Can you give us an example of----
    Mr. Powell. This is a cell phone and I'm not going to count 
on it working. Our telephone industry across the country has 
embedded processors everywhere, be it land wire, and particular 
our cellular telephones.
    You can talk to any public safety dispatch center around 
the country. We are getting tremendous numbers of our calls for 
service now coming via cellular or other wireless devices.
    This one--indicating--this is our mainstay of 
communications between our dispatchers and our field officers, 
be they fire, law enforcement or medical. I am very confident 
that these are going to continue to work. Some of the new 
systems that have very fancy management software may not 
properly report statistics across the Year 2000 boundary, but 
it's not going to stop us from being able to dispatch our 
officers in the field, at least any place that I'm aware of.
    Chairman Bennett. As is often the case in these hearings, 
the final panel usually ends up with the most practical 
information. We've had a lot of theory at high levels, but I 
think the information we have gotten from the three of you has 
been extremely valuable.
    Mr. Cass, do you know of any other city that's planning the 
kind of test that you have done? Has anybody been in touch with 
you to say ``We would like to do it''?
    Mr. Cass. We've had several indications of individuals that 
want to do one. After doing ours, several communities found out 
about it and asked to attend ours, and we allowed them to do 
so. But much to our surprise, we were apparently the first to 
do a simulation.
    Chairman Bennett. Do any of you know of any other cities 
that will----
    Mr. Romer. We're planning to do that in December, and we're 
going to share information with Bob. That would be very useful. 
We have our planning underway so we could probably benefit from 
each other.
    Chairman Bennett. We have talked about the legislation that 
allows businesses to share information. Governor Leavitt said 
it was useful in his situation as well.
    Are any of you aware of any impediments to getting 
information that might be removed by Federal legislation or 
Federal action?
    Mr. Romer. We've experienced that very directly, and that's 
why we applaud what's been done with the legislation. We did 
our business continuity planning and challenged all of our 
departments to identify all the relationships up and down the 
supply chain.
    We sent out 3,500 letters to those folks up and down the 
chain, and to date we have received about 500 responses. But 
they really run the gamut. Of course, they are pre-legislation. 
Some of them are simply not filled out at all, and some of them 
simply say ``our attorneys told us not to answer this.'' And 
others have very useful information.
    So I think, at least from Montgomery County's standpoint, 
one of the biggest impediments you have taken care of, or are 
one the way to taking care of, with the legislation that allows 
that information to be shared without fear of penalty. I think 
that's very important.
    Chairman Bennett. One of the other things I have discovered 
as we've held these hearings is that the people who come 
forward and are the witnesses are almost always the people who 
have done the best job and are in the best position, so we get 
a little bit of a distorted, overly optimistic attitude. I 
think it's inevitable that there will be cities that are not 
ready. I don't know where they are, and we're doing everything 
we can to deal with it.
    Mr. Powell.
    Mr. Powell. One of the things I found, and my biggest 
concern with regard to failures, is the loss of our power grid 
for any length of time. For a period of time, we'll be OK. What 
I found is----
    Chairman Bennett. Mr. Cass has got a whole bunch of diesel 
fuel. [Laughter.]
    Mr. Powell. We do, too, but if you can't get power, you're 
not going to get more delivered.
    One of the things I found from our utility in Northern 
California is that we're getting conflicting information. Their 
web site will tell us one thing. They'll be interviewed by a 
newspaper or they'll be quoted someplace else with different 
information. So I'm hoping that this legislation will allow 
them to standardize some of the answers that they're giving, so 
we'll get what the real answer is.
    Chairman Bennett. Let's assume that Y2K was this weekend, 
not 455 days away but this weekend. Where would you think the 
main failures would come, in your own system or----
    Mr. Romer. I guess the way I would look at that is there's 
a threshold question, at least for us in our contingency 
planning, and that is, is it a ``no power, no dial tone'' 
environment, versus the opposite----
    Chairman Bennett. Let's assume that it's not a ``no power, 
no dial tone'', that the national infrastructure works. What 
would be your problem if you didn't have the additional time 
that you do have, what would happen in your county, in your 
city?
    Mr. Romer. One of the things that we're concerned about is 
some systems that we are integrated with or depend upon over 
which right now we feel we have no control. A good example is 
the health care system in our county. We have multiple 
hospitals of various specialties, and we, of course, are part 
of that emergency care system when we have to transport injured 
people or sick people. We want to deposit them at a competent 
place and then go on about our business.
    We have a concern that we don't have enough information 
that gives us the comfort that we're going to be able to do our 
mission and pass it off to the other element of that chain. So 
that's one area that we're concerned about.
    In a have power/have dial tone environment, we're 
reasonably confident that our emergency management systems are 
part of that compliance already, or will be. So we're really 
not that concerned about traffic management and E 911 dispatch 
and things like that.
    What we are concerned about is some of the systems that we 
are responsible for. Let's take permitting, the whole 
construction permitting process, or business permitting 
process. While it may seem like a governmental function, it can 
have ripple effects throughout a local economy if we aren't 
prepared to discharge our duties, from the homeowner who wants 
to just do something on the weekend to the restaurant that was 
planning to open the day after New Years. So we had that 
concern about an internal permitting system.
    That would be two examples I would give you there.
    Mr. Cass. Senator, I would say that, accepting your 
premise, the two other concerns we would have would again be 
those areas in which our agency abuts up against other 
agencies. We simply need to be certain that the linkages will 
work out.
    Second, we're very concerned about--for example, that fire 
truck you have on your graphic here. If my other systems work, 
I still lack certain assurances about the embedded chips to 
make sure that the ladder goes up, to make sure that the wand 
that my firefighters use that detects poisonous gases when they 
enter a dangerous scene, that the embedded chip in that is 
going to work.
    We think we've hit the major systems. We think we've 
checked out the major systems. There are many other minor 
pieces of equipment that fill the air packs that my 
firefighters use, on which we are not able to receive the types 
of assurances we would like to have. We're going to be putting 
people into life-threatening situations and that's of great 
concern to us. Mr. Powell. The one system that I'm concerned 
about, which I think impacts all of us, is our fire alarm 
reporting systems. In recent years, we've had really complex 
systems going in, and the very minimum that all of them have is 
a clock on them. We had one system where the clock was almost 
for show, except that it was an integral function of the 
microprocessor that went around and scanned all the points. 
What happened when it hit 00 on the year, the accumulator 
overflowed and the micro stopped and it didn't go running 
around and around every so often to check all the points again. 
Those interface not necessarily with our system, but they may 
interface to a third party that then calls in the alarm.
    In California, as I'm sure is true in many States, 
specifically in high-rise buildings, if you don't have a 
working fire alarm, it's against the law for there to be anyone 
working in that building.
    Chairman Bennett. Mr. Romer, will the Metro work? 
[Laughter.]
    Mr. Romer. Senator, I chair the COG/CAO committee for 
Washington COG. We were at the White House on Tuesday of this 
week, kind of giving a ``state of the region'' report to some 
members of the President's Advisory Council. We did include a 
Metro report.
    The answer is they have done their triage. They have 
established a hierarchy of concerns, not surprisingly customer/
passenger safety being at the highest level, and they reported 
that they were confident that they could guarantee that. The 
other two levels they were still working through, that being 
customer convenience and the internal support mechanism of the 
system.
    Of some concern to us locally is they reported about a $5 
million gap in terms of their ability to meet their 
requirements. Now, that is of concern because, in Washington, 
like so many other regions, we as a regional agency support 
them. Montgomery County is a major contributor, as is the State 
of Maryland. So we were somewhat concerned to learn of that 
gap. I don't know what their plan is to meet it.
    But to answer your question, they felt that they had the 
safety and operational end of a triage to the point where they 
felt they could get there on time.
    Chairman Bennett. So it wouldn't work if Y2K was this 
weekend, but they think it will work----
    Mr. Romer. At least in that meeting, everybody was counting 
on the 440 days yet to come.
    Chairman Bennett. What about mailing out welfare checks?
    Mr. Romer. We're concerned about that, from a variation of 
that. That is partially a State and county function in 
Maryland.
    But similar to that, we're concerned about the fact that we 
have changed over our assistance recipients to using debit 
cards as a good, solid management move that made a tremendous 
amount of sense when we did it. But now we are concerned--and 
here again is a system that we don't control, but I know, if 
the debit cards don't work, where the complaints are initially 
going to be lodged. They'll be lodged at the county building 
and city halls across the country.
    So yes, that is a concern, because we have not received the 
level of assurance from the people who take those debit cards 
from the local Giant supermarket through the bank system that 
supports that, that they're going to be able to deliver that 
yet.
    Chairman Bennett. You heard Governor Leavitt and the other 
officials talk about the level of readiness in the State arena. 
Do you feel you're getting the kind of appropriate support from 
State governments that you need?
    Mr. Romer. We've had a couple of good meetings with the 
Maryland Emergency Management Agency. We intend to draw them 
into our simulation that we're going to do in December. I want 
to learn from Bob about how they did that in Lubbock, because I 
think that's going to be our opportunity to so draw them into 
our process that we will then get the comfort level that we 
don't have yet. It may be simply a lack of information.
    So I don't want to characterize it as being inadequate at 
this time, but we have developed that strategy to draw them 
into our process, to place certain demands on the State system 
and see how it performs for us.
    Chairman Bennett. Mr. Cass, how about Texas?
    Mr. Cass. I would agree with that, Senator Bennett. As Mr. 
Romer has pointed out, I wouldn't want to characterize them as 
being unprepared. I would say we involved the National Weather 
Service in our simulation and they performed wonderfully, and I 
anticipate that other State and Federal agencies will be well-
equipped. We simply need to establish the linkages now to be 
certain that that takes place at the operating level.
    Chairman Bennett. Sergeant Powell, the FBI database and 
other kinds of electronic connections between local law 
enforcement and the Feds, do you think that's going to work, or 
is that an area where we should put attention?
    Mr. Powell. I am confident--In fact, I'm going over to the 
FBI Headquarters later this afternoon. I'm confident that their 
systems are going to work. I'm confident that the linkages to 
the States will work, and that, for the most part, the States 
will continue to work.
    My worry is at the local terminal level, where that small 
agency with three or four officers may not have the resources 
to get the corrections made, if they need to be made. 
Unfortunately, in recent years, we have all upgraded those 
terminals, and now almost every one of them is at least a 
personal computer, if not more. A lot of them are in the 5-to 
7-year-old area and they're not going to be compliant, unless 
somebody touches them and fixes them.
    Chairman Bennett. I see a parallel here, and correct me if 
I'm wrong. The big businesses seem to have the financial muscle 
and the technological resources to, with brute force, work 
their way through this problem, so that we're getting 
information back that says General Motors will function, City 
Bank will function, and all the rest of it.
    And then they say, now, the small community bank may have 
some trouble. NCUA told us flatly there will be credit unions--
and they're talking primarily about smaller ones--that will 
fail.
    The statistics you gave us about how many law enforcement 
areas have less than 12 officers--I think Montgomery County 
will probably be all right, and Lubbock, Texas will probably be 
all right. But a law enforcement activity with half-a-dozen 
officers is very much like a small business, where they're not 
paying any attention to it, don't plan to pay any attention to 
it, and just hope when it comes that everything will be OK.
    Is that a fair characterization of what you see out there?
    Mr. Powell. Although I have to note that I drove through my 
local community bank window earlier this week, and they had a 
big sign on the front window that said ``We're Y2K Compliant''.
    Chairman Bennett. Without disclosing any names, I got a 
note from a bank saying ``We are Y2K compliant'', and at the 
same time one of the people working on the problem cornered me 
and said, ``There's no way this bank is going to make it.'' So 
we'll just have to wait and see, I suppose.
    Mr. Powell. I found it refreshing just to see that they 
were aware of the issue.
    Chairman Bennett. Yes.
    Mr. Romer. Senator, one of the strategies that we had 
proposed in the seven suggestions was to fill that very gap, to 
provide some funding. We had provided two packages, a local 
package that would fund the regional readiness test, and a one 
or one point five billion dollar fund nationally that could be 
used to address some of the smaller municipalities needs. I 
would just refer you to that proposal in our material.
    Chairman Bennett. Well, we thank you for that, and for the 
specificity of your proposals.
    I will say now, in general terms, we have one more hearing 
scheduled for this committee prior to the adjournment of the 
Congress. Given today's model, we may be interrupted a great 
deal by votes because it is scheduled to take place as we get 
closer to the end of the session, that we're supposed to 
adjourn sine die on the 9th of October and we're scheduled on 
the 7th of October. So that does not auger well for our ability 
to go on uninterrupted.
    Assuming my reelection and Vice Chairman Dodd's reelection, 
we will be back at this same stand in the next Congress. We 
will be addressing many of these same issues all over again, to 
try to get an update on how much progress there has been, and 
we will be talking about some of the specific challenges that 
you have raised in your testimony, Mr. Romer.
    [The prepared statement of Mr. Amyx can be found in the 
appendix.]
    Chairman Bennett. We thank you and the other members of the 
panel. This has not disappointed or broken the tradition that 
says the last panel very often comes up with some of the most 
interesting material.
    The committee will stand adjourned.
    [Whereupon, at 12:43 p.m., the committee adjourned.]
                            A P P E N D I X

                                ------                                


              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

                                 ______
                                 

            Prepared Statement of Chairman Robert F. Bennett

    Before we proceed with our hearing today, I would like to make an 
important announcement. The committee has marked a potentially serious 
oversight in the national response to the millennium change. Just as we 
expect the National Weather Service to warn us about hurricanes, the 
Department of Defense to alert us of sneak attacks, and the Food and 
Drug Administration to guard against foreign pests and parasites, so 
should we expect the Federal Government to provide us with the earliest 
possible warning of Y2K events that may threaten our public safety or 
national infrastructure.
    Therefore, today, with the vice-chairman, Senator Dodd, and Senator 
Collins, I am announcing the committee's pledge to establish a Y2K 
First Alert system that will enable citizens of the United States to 
have up to 17 hours of advance warning of possible Year 2000 
disruptions. Citizens living west of the Eastern Standard Time zone 
will have progressively more advanced notice. Citizens in my home state 
of Utah will have up to 19 hours of advanced notice, while citizens of 
Hawaii and some citizens of Alaska could benefit from almost a full 
day's notice.
    The new day begins at a spot in the middle of the Pacific Ocean 17 
time zones earlier than Eastern Standard Time in the United States. If 
the Y2K bug is potent enough to cause immediate problems in information 
systems and embedded chips, the effect will not occur all at once. 
Rather, the problems will happen repeatedly in one time zone after 
another for one full day. For example, Y2K problems that occur at the 
stroke of midnight, December 31, 1999, in Wellington, New Zealand, 
won't occur in the U.S. until 17 hours later, when our own clock 
strikes 12:00 a.m. here on the east coast. Similarly, Y2K disruptions 
occurring in Tokyo, Japan at ``zero hundred hours'' on January 1, 2000, 
occur at that location while it is still only seven o'clock in the 
morning on December 31, in New York City. This provides us with a full 
17 hours of advance notice regarding what we might expect to happen 
when our own clocks strike midnight later that night.
    My colleagues and I feel it is absolutely foolish not to use this 
advance notice for the good of the nation. Wouldn't it be useful to 
know that utility and transportation problems are likely to occur, 
based on information we received as a result of our Y2K First Alert 
System, before everyone is already out and about celebrating on New 
Year's Eve? The committee is prepared, if necessary, to introduce 
legislation in the event that the existing authorities and mechanisms 
are not sufficient to accomplish the implementation of the Y2K early 
warning system. We look forward to working in partnership with FEMA 
within the context of its existing authority to achieve this goal.
    One of the themes of our hearing today is preparedness of emergency 
service agencies at the state, county and local government levels. To 
illustrate some of concerns in this area, I refer you to this 
photograph and chart. I will go through a step by step analysis of all 
the Y2K bugs which would have to be overcome before the fire and police 
department personnel pictured here would be able to make it to the 
scene to render emergency assistance.
[GRAPHIC] [TIFF OMITTED] T2OC98G.001

    1. The alarm on the premises would have to operate correctly to 
warn that a fire had broken out. Have these systems been certified as 
Y2K compliant?
    2. The alarm would either automatically alert the fire department, 
or someone nearby or in the building would call 9-1-1.
    3. The telecommunications system would have to be viable for an 
emergency call to be placed, and the 9-1-1 system and Public Safety 
Answering Point or PSAP receiving the call would need to be compliant.
    4. The Computer Aided Dispatch or ``CAD'' System would have to be 
compliant in order for the call to be dispatched in the most rapid and 
efficient or as a contingency, a manual dispatch system would need to 
be in place.
    5. The emergency vehicles called to respond need to be fueled. Are 
the city government fuel pumps compliant? If not, has an alternative 
agreement been struck between the city and local gas stations?
    6. The scheduling tool utilized by the police and fire departments 
would need to be compliant so that personnel would be present at work 
to answer the call.
    7. The traffic signals along the route would need to be compliant 
so that the responding units would not be delayed. Has the local 
transportation department examined these?
    8. Once on scene, firefighters would need to have access to a 
reliable source of water to be used to fight the fire. What is the Y2K 
status of the local water company?
    9. Any medical equipment on scene would need to be compliant in the 
event it needs to be used to treat potential victims. Has all this 
equipment been checked for Y2K compliance?
    10. Another very basic issue not to be overlooked every step of the 
way here is, do we have power?
    11. In the information technology/data systems area, has the fire 
department been able to check its data base to see if any hazardous 
materials are stored at this location?

    While this example may appear to overstate the case in its detail, 
it highlights the broad array of Y2K preparation issues facing city, 
county and local governments.
    I have often said I need to be as Paul Revere in spreading the word 
about the Year 2000 Problem. Today, I'd like to lead a discussion about 
those who must assume the role of the Minute Men--those in government 
at the federal, state, and local levels who must be ready to respond to 
emergencies on a moment's notice. I am talking about our nation's 
emergency preparedness and disaster relief agencies, which include FEMA 
and the Red Cross; our state emergency management offices and the 
National Guard; and local emergency response departments--the police, 
fire, and Emergency Medical Services upon which our citizens rely every 
day of the year.
    I must admit that as the senator who has earned the moniker Paul 
Revere, not Chicken Little, this is a very sensitive topic. The call 
today is for preparation, not panic. We must recognize however, that 
with 15 months left to go before January 1, 2000, to fail to plan will 
be to plan to fail!
    Due to continuing concerns about the complete readiness of our core 
sectors such as electrical power and telecommunications, we are at this 
point unable to accurately describe how the world will look after we 
greet the New Year on January 1, 2000. Therefore, we must begin a 
dialogue on our preparation for potential Y2K disruptions, as well as 
our efforts to assess the preparation level of the emergency services 
and emergency planning organizations upon which we depend at every 
level of government.
    We are not yet sure of what the scope or the nature of Y2K 
disruptions will be due to the lack of firm assessments about the 
status of certain industry sectors. I suspect that we will have a 
better idea as time goes on, but it is endemic to the hidden and 
invasive nature of the Y2K problem that we may not know for certain 
what the difficulties will be until they are actually upon us. We are 
challenged to plan in some new ways, and to exercise flexibility as we 
engage in emergency preparedness.
    I want to express my confidence that we will continue to progress 
in every major sector in terms of Y2K remediation, and that the 
prospects for wide scale disruptions will be greatly lessened over the 
next 15 months. However, responsible leaders at every level of 
government owe it to their citizens to engage in planning for a wide 
range of possible events. There is a greater likelihood of the 
occurrence of numerous small and diffused disruptions and minor 
annoyances which could combine to form a sort of loud din of Y2K 
``noise'' across the country, than there is for large scale disruption. 
We must begin to develop strategies for dealing with that type of 
situation as well. We hope that the presence of officials from across 
the broad spectrum of federal, state, county, and city government will 
promote discussions about such strategies at our hearing today.
    Regarding the overall Y2K preparation level of state governments on 
the whole, some of the news I have to deliver is not terribly 
optimistic. Data recently provided to this committee by Gartner Group 
of Stamford, Connecticut indicates that only 50 percent of the states 
are evaluated as Level 111 Status under Gartner Group's scale. A Level 
III rating indicates the state has completed its project plan, has 
assigned resources, has completed a detailed risk assessment, 
remediated, and tested 20 percent of mission critical systems, 
conducted vender reviews, and completed contingency plans. Thirty 
percent of the states are listed at Level 11, indicating that they at 
least have developed an inventory of operational dependencies. Ten 
percent of the states are evaluated as Level 1, indicating that they 
had begun their projects, had identified a champion, were aware of the 
problem, and began conducting their inventories. The remaining 10 
percent are evaluated as ``uncertain'' indicating they were unaware of 
their Y2K preparedness status. I find that to be very disturbing. We 
sincerely hope that progress in this area will be accelerated.
    However, there is also some good news to be told in this area. 
Several of the largest intergovernmental councils and professional 
organizations are actively engaged in Y2K awareness programs. The 
National League of Cities, the National Association of Counties, and 
the International City/County Management Association, in conjunction 
with Public Technology Inc. are sponsoring a Y2K awareness program 
entitled ``Y2K and You.'' The Metropolitan Washington Council of 
Governments has published a Year 2000 Best Practices Manual. These 
programs are good examples of what an effective dialogue among state, 
county, and local governments can achieve.
    Let me express my personal gratitude to Senator Susan Collins, 
whose strong interest and dedication to this issue have made this 
hearing possible. I also want to extend the committee's thanks to all 
of our witnesses, especially to those who traveled long distances on 
relatively short notice to be here today. And finally, I want to 
express the committee's enthusiasm to those of you who will be bringing 
forth some ideas today that truly place you and your organizations on 
the cutting edge of Y2K emergency preparedness and planning.
                                 ______
                                 

 Bennett's Y2K Disclosure Bill Clears Last Legislative Hurdle, on its 
           way to White House Where Clinton Expected to Sign

    landmark legislation will encourage industry disclosure on y2k 
  solutions, promote sharing of critical information for y2k readiness
    Washington, DC.--Clearing the way for presidential signature, the 
House of Representatives today passed landmark legislation sponsored by 
Senator Bob Bennett (R-Utah), chairman of the Senate Year 2000 
Committee, which will allow U.S. businesses to share essential 
information for Y2K preparation and solutions.
    ``Because of the late date in this session, and the complexity of 
the issue, we were all told there was no chance of passage of this 
legislation during this Congress,'' said Bennett.
    ``The fast track of this legislation's passage shows what can be 
done when the administration and the Congress work together in good 
faith.
    ``The type of disclosure which will result from this bill will move 
us significantly toward a Y2K solution. Today's action is an important 
first step, but that's all it is. We will aggressively address other 
vital Y2K demands when the Congress reconvenes next year. In the 
meantime, I'm extremely pleased with today's important progress.''
    The purpose of the ``Year 2000 Information and Readiness Disclosure 
Act,'' S. 2392, is to help break the silence and encourage full 
disclosure and exchange of Year 2000 computer problems, solutions, test 
results, and general readiness. Bennett maintains that the reason for 
this stony silence, according to the 70 witnesses who have appeared 
before the Special Committee on the Year 2000, is fear of litigation 
that can arise from the good faith sharing of information believed to 
be correct and true at the time shared, but which later turns out to be 
incorrect. ``All of their testimony can be reduced to this: We need 
quality Y2K information,'' Bennett said.
    S. 2392 provides limited liability protection for a limited time 
for specific types of Year 2000 information that is considered 
essential to remediation efforts. What it does not do is provide 
liability protection for failures that may arise from Year 2000 
problems. The bill thus promotes company to company information sharing 
while not limiting rights of consumers.
S. 2392 highlights
    Limited liability protection for statements.--First, note that the 
bill does not avoid liability for selling products that do not work. 
What the bill does do is encourage information sharing by protecting 
allegedly incorrect Year 2000 statements from liability, as well as the 
persons who make such statements, unless the plaintiff can prove by 
clear and convincing evidence that the information was false or 
provided recklessly, or with the intent to deceive.
    For persons who merely republish a third party's allegedly 
incorrect Year 2000 statement, the bill provides for liability in 
situations where republishers fail to provide adequate notice to 
persons with whom they share information about either the source of the 
information or its verifiability. Liability also exists for 
republishers if the information was provided either falsely or with the 
intent to deceive.
    To further encourage the free flow of information, the bill also 
provides liability protection for allegedly inaccurate defamatory or 
disparaging statements unless it can be shown by clear and convincing 
evidence that the information provided was done so either falsely or 
recklessly.
    In all the types of claims above, ``Year 2000 Readiness Disclosure 
Statements'' are further protected if a claim reaches trial by not 
permitting these statements to be admitted into evidence as actual 
proof that the statement was untrue or incorrect. These disclosure 
statements are not restricted from other uses during litigation, 
however. For example, these statements would be available for discovery 
or admissible into evidence as a business record.
Defines specific types of Y2K information
  --One broad category of protected statements is called ``Year 2000 
        Statements.'' Year 2000 Statements may appear in any format 
        including oral or written statements. Year 2000 statements, 
        however, do not include filings with the Securities Exchange 
        Commission or banking regulators, or statements made pursuant 
        to the sale of securities.
  --A subset of Year 2000 Statements are called ``Year 2000 Readiness 
        Disclosure Statements.'' Readiness disclosure statements must 
        be clearly labeled as such in written or electronic form and 
        concern one's own products or services.
  --Defines ``Year 2000 Processing'' broadly in order to clarify that 
        the ``Year 2000 Problem'' or ``Millennium Bug'' is not simply a 
        software problem related strictly to January 1, 2000, but also 
        involves other dates and hardware problems.
    Protection for information provided to the government.--In some 
cases, the federal government may feel it needs confidential 
information from the private sector to help the government repair its 
own year 2000 problems or for contingency planning in the case of 
failures. To help facilitate the flow of information from the private 
sector to the government, the bill ensures the confidentiality of 
voluntary industry or economic sector information provided to the 
federal government from being released to any third party without the 
approval of the entity giving the information.
    Antitrust.--The Justice Department does not feel that the sharing 
of information under this bill will result in antitrust concerns. 
However, we have incorporated language they supplied into the bill to 
confirm that understanding. The bill thus provides that the antitrust 
laws shall not apply to such information sharing except where a boycott 
or price fixing results. The antitrust laws will remain in full effect 
with respect to issues not related to information.
    Encourages the use of Internet Websites.--The bill promotes the use 
of Internet Websites by stating that where the adequacy of notice about 
year 2000 testing or solutions is at issue, the posting of such 
information on an Internet website is considered adequate notice, 
except under certain circumstances.
    Establishes a National Information Clearinghouse and Website.--This 
provision establishes a single government website at the General 
Services Administration as the hub for basic Y2K information for 
consumers, small businesses, and local governments. The website is to 
also serve as a central links to other government websites and 
information clearinghouses on such efforts.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2OC98G.002
                                 

                               __________

                     Prepared Statement of Bob Cass

    the city of lubbock's y2k drill--simulation of december 31, 1999
I. Major systems/areas relative to emergency operations
        A. Electric Utilities
                1. System Control and Data Acquisition system (SCADA)
                2. Inertia Switches/Breakers
                3. Generators
                4. Fuel Systems
                        a. Natural Gas
                        b. Diesel
        B. Water Utilities
                System Control and Data Acquisition system (SCADA)
        C. Computer aided Dispatch Systems
                  1. Police System (average 24 calls/hour--25 percent 
                increase in calls w/power outage)
                  2. Fire System
                  3. Texas Crime Information Center (TCIC)/National 
                Crime Information Center (NCIC) [criminal history and 
                outstanding warrants]
                  4. Mobile Data Terminals
                  5. Records Systems
        D. Communications
                  1. Telephone System
                  2. 911 System
                  3. 800 MHz Radio System
                          a. Police
                          b. Fire
                          c. Emergency Services
                          d. Public Works
                  4. Pager System
                  5. Cellular Telephones
        E. Traffic Control Systems
                  1. Traffic Signal control cabinet Testing
                  2. Prioritizing high volume intersections for Police 
                control if electricity is lost
                  3. Stop sign installations at all remaining 
                signalized intersections (i.e. portable stands, traffic 
                signal poles, sign poles, etc. * * *)
II. The Y2K exercise
    A functional exercise was developed to test the organization's 
response to possible Year 2000 failures of internal and external 
systems. The exercise was designed to test the organization's ability 
to provide services to the citizenry under several ``worst case'' 
scenarios. Managers were evaluated on their thoroughness, realistic 
approach to the exercise, and the level of coordination demonstrated in 
their responses.
Objectives
    A. Identify the internal elements that affect the services provided 
by the organization.
    B. Identify the external elements that have an impact on internal 
services provided.
    C. Ensure that contingency plans provide realistic solutions for 
potential systems failures.
    D. Instill public confidence in the organization's ability respond 
to Y2K problems.
Lessons learned
    A. The organization must continue to plan and prepare for Y2K 
through 1999.
    B. The organization must establish priorities to ensure adequate 
response to multiple issues. As we had anticipated one of the major 
points of vulnerability for Lubbock was electric power. We had several 
scenarios thrown at us that left portions of the city without electric 
service for brief periods of time. Such disruptions were ambiguous--
while typical of weather problems, Y2K problems could also be the 
culprit. As a result we experienced periods where we were without some 
of our radio systems, all cellular phones and pagers. When power 
outages occurred we also lost operation of our wastewater treatment 
plant and one sewer lift station.
    C. It is critical to have good working relationships with entities 
that we rely upon for other services (i.e. electrical power, gas 
supplies, EMS and FAA, etc.). When situations occur like during the Y2K 
drill, it is imperative that you have a method of constant 
communication with these entities. We were called upon to allow 
landings of several aircraft that were diverted from other airports 
that had lost radar service.
III. Recommendations
    Lubbock is unique in that there are three power companies serving 
the city, one of which is owned and is managed by the City of Lubbock. 
This affords the City the ability to ``island'' itself from the 
national grid system in the event of widespread power disruptions.
    While Lubbock has a unique electric power situation, most of the 
nation's cities do not. It is of utmost importance for the federal 
government, and more importantly you as members of the Senate, to urge 
the electric industry leadership to insure that their production and 
transmission systems are Y2K compliant. A failure to assure reliable 
electric service can be devastating.
    Each city should adequately address the five following basic 
questions relevant to Y2K:
          1. Is the organization Y2K Compliant?
          2. What are the basic consequences of Y2K failures for the 
        organization?
          3. Can all problem areas be addressed prior to January 1, 
        2000?
          4. Are there sufficient resources within the organization to 
        address all Y2K issues, if not, are there outside resources 
        that can provide support?
          5. Have contingency plans been developed to deal with the 
        effects of Y2K?
                                 ______
                                 

    Responses of Bob Cass to Questions Submitted by Chairman Bennett

    Question 1. Do you feel it is critical that every major city or 
local government carry out a similar simulation, or are there ways to 
more economically share the lessons learned from exercises such as your 
own?
    Answer. From our perspective, it would be very difficult for a city 
to know their level of readiness without conducting some type of 
simulation and/or developing a readiness tracking system. It is true 
however, that lessons learned from an exercise would be beneficial to 
other cities.
    Question 1A. Are you aware now of other cities and municipalities 
that plan to do a similar exercise?
    Answer. We have determined that Montgomery County in Maryland is 
planning to have a similar exercise in December 1998. Other cities have 
indicated that plans are being made to conduct an exercise, however, we 
are not aware of specific dates being set.
    Question 1B. Are organizations of municipalities such as the U.S. 
Conference of Mayors, the League of Cities, or the International City/
County Management Association prepared to capture lessons learned from 
your Y2K dry run?
    Answer. Public Technology, Inc. (PTI), the National League of 
Cities (NLC), the National Association of Counties (NACo), and the 
International City/County Management Association (ICMA) have launched 
the Y2K and YOU Campaign (http://pti.nw.dc.us/membership/y2k/) to make 
local appointed and elected officials aware of the impact of the Year 
2000 problem. The Y2K and YOU website has local government links to the 
City of Lubbock's Y2K webpage and those of thirteen other local 
government entities.
    As part of this campaign, a ``tool kit'' was delivered to over 
15,000 U.S. city and county governments. The tool kit contains a 
comprehensive package of resource materials on the Year 2000, including 
a video explaining the issue. To order a tool kit, contact 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2050554253605054490e4f52470e">[email&#160;protected]</a>
    Question 2. Have you learned anything from your simulation of a Y2K 
emergency that would indicate more Federal Government assistance is 
needed?
    Answer. Passing legislation limiting the liability for those 
entities who are performing ``due diligence'' in preparation for the 
transition to the year 2000 is beneficial. In addition, special 
legislation to allow CDBG entitlement cities to use some percent of 
their allocated funds to address the Y2K problems could help.
    Question 3. What impediments did you encounter in preparing for 
your recent Y2K exercise?
    Answer. No major impediments were encountered. The entire city 
staff as well as other agencies were more that willing to provide their 
support in the development of the exercise. Our Exercise Control Team 
was responsible for developing and administering the exercise.
    Question 4. What were the greatest problems you encountered during 
the actual exercise?
    Answer. The emergency response to the Y2K issues in the early 
stages of the event is not significantly different than any other 
natural or man made disaster. However, some of the major issues faced 
during the exercise were the loss of electric power to a major portion 
of the city, telephone systems went down, the 9-1-1 system went down, 
police and fire communications were lost, and we lost natural gas to 
approximately one fourth of the city. (See attached copy of the 
Exercise Scenario).
    Question 5. What would you consider to be the greatest challenge to 
cities overall in regard to Y2K preparedness?
    Answer. We feel the greatest challenge is to ensure the 
organization has identified and tested internal systems and developed 
realistic contingency plans based on a worst case scenario. In 
addition, the city should maintain an awareness of the community's 
readiness by conducting a community wide Y2K Community Readiness 
Assessment. The assessment will provide information as to the readiness 
of it's critical business partners (suppliers) for continued operations 
in the Year 2000.
    Question 6. What do you consider to be the most pressing Y2K issues 
for your own city's emergency service agencies?
    Answer. The most pressing issues facing emergency services agencies 
are to ensure an accurate inventory of the systems with embedded chips 
is taken and the problem areas identified are correct as early as 
possible. In addition, there are specific issues that need to be 
addressed within the public safety area. For example, the patrol 
officer could face problems with his vehicle, police radio, mobile data 
terminal, radar systems, and traffic signal systems. The fire fighter 
could have similar situation with additional problems with fire 
apparatus, fire radio systems, gas analyzers, cascade system for 
filling air bottles, and the readiness of neighboring volunteer 
agencies who have mutual aid with the city.
                               __________

             Prepared Statement of Senator Susan M. Collins

    Thank you, Mr. Chairman. Before I begin, I would like to thank the 
Chairman and his staff for their hard work on this important topic. The 
Chairman should be commended not just for his efforts on today's 
hearing, but on the entire Y2K issue. The Chairman's tireless efforts 
on the Y2K matter have helped many in this country understand the 
importance of being prepared in order to prevent serious problems at 
the turn of the century.
    One of the issues that the Committee will focus on at today's 
hearing is how the year 2000 will affect computer systems used by the 
many law enforcement departments that we have throughout our country. 
In particular, an obvious area of interest is how 911 service will be 
affected and what municipalities should do to ensure that there will 
not be coverage problems.
    The 911 system had modest origins, beginning as a simple 
``hotline'' system in 1968. In the thirty years since the system was 
first introduced, the 911 safety net has become an integral part of 
American life. Today, Americans living in 90 percent of our communities 
can take for granted the fact that if they dial 911, someone will be on 
the other end of the line to offer assistance.
    And 911 is a number that we dial often in this country--over 
300,000 911 emergency calls for assistance are placed in this country 
each day, close to 110 million calls per year.
    As the size of the 911 system has grown over the years, the 
technology that supports our emergency services has continued to 
advance at a tremendous rate. Many places in the country now enjoy the 
advantage of so-called ``enhanced'' 911 systems. These enhanced systems 
automatically pinpoint a caller's location and telephone number for the 
911 operator.
    911 calls are received at what is known as Public Safety Answering 
Points, or ``PSAPs.'' [P-Saps] There are over 4,500 of these PSAPs 
throughout the country. The person answering the phone at these PSAPs 
is often required to fill out a computer screen which looks something 
like this [Reference 30 X 40 Poster Board], particularly in the case of 
``enhanced'' 911 systems.
    Earlier this summer, FCC Commissioner Michael Powell began playing 
an active role in promoting awareness about this potential 
communications problem in the public safety community. In June, the FCC 
held a public safety roundtable which attracted many nationwide experts 
in the field of public safety communications.
    This symposium concluded that while the Y2K problem poses a threat 
to these communications, the problem is fixable. Unfortunately, the fix 
can be expensive, with some departments finding that the best solution 
to the problem is to completely replace the old non-compliant systems. 
Moreover, the Association of Public Safety Communications Officers has 
estimated that there are over 50 components in a PSAP that are Y2K-
vulnerable.
    In addition to 911 systems, law enforcement agencies use other 
sophisticated information technology systems in their day-to-day 
efforts to fight crime. Examples include the National Crime Information 
Center, the National Law Enforcement Telecommunications System, and the 
individual criminal information data systems operated individually by 
all 50 states.
    These systems enable officers to obtain the most updated 
information on wanted persons, stolen vehicles, criminal histories, and 
Department of Motor Vehicle records. The ability to dependably and 
quickly access such information is essential both to officer safety and 
to the speedy and effective administration of justice at all levels of 
government.
    The good news here is that the Committee has been assured that 
these systems will be fully able to meet its Year 2000 challenge, and 
that their links to the systems of all 50 states will remain fully 
operational. The challenge for local law enforcement agencies is to be 
sure that their own links to these vital information systems, and any 
similar systems which they might operate on a regional or agency-wide 
level are both compliant and compatible with the larger systems.
    Also, at the local agency level, there often is a great deal of 
``interconnectivity'' between some of the emergency service 
department's records systems and those of other city agencies, such as 
the court system, the corrections department, and even local utility 
companies, thus increasing the potential for Y2K related problems in 
this area.
    I am hopeful that we will be able to gain more information on these 
important issues in today's testimony. Thank you, Mr. Chairman.
                               __________

        Prepared Statement of Vice Chairman Christopher J. Dodd

    Thank you Mr. Chairman, for your leadership. This Committee 
continues to have a very active hearing schedule as we review Year 2000 
issues in a variety of industry sectors. The Committee has examined the 
energy sector, transportation, health care and financial services and 
will soon hold a general business hearing with an emphasis on small 
business. Today, we will review emergency preparedness and disaster 
relief on a national, state and local level. Indeed few functions of 
government are more fundamental and important than our government's 
readiness to respond to the needs of its citizens in emergencies.
    These emergencies can be on a grand scale such as floods, tornadoes 
and earthquakes or they can be personal emergencies, where one person 
may need the police or the fire department or an ambulance. In all of 
these situations, there is a shared common denominator, communication 
systems that receive the calls and direct the response. And most 
importantly these systems may be very vulnerable to year 2000 problems.
    Sophisticated information technology systems serve as important 
tools for law enforcement today. Systems such as the National Crime 
Information Center or NCIC, the National Law Enforcement 
Telecommunications System, or NLETS, and individual criminal 
information data systems operated by each state enable of fleers to 
obtain the most updated information on wanted persons, stolen vehicles, 
criminal histories, and Department of Motor Vehicle records. The 
ability to dependably and quickly access such information is essential 
both to officer safety and to the speedy and effective administration 
of justice at all levels. A recent survey conducted on the 
effectiveness of NCIC indicates that during a one year period, 81,750 
``wanted'' persons were found, 113,293 individuals were arrested; 
39,268 missing juveniles and 8,549 missing adults were located; and 
110,681 cars valued at over $570 million were recovered as a result of 
NCIC's use. The good news is that we have been assured that this system 
will be fully able to meet its Year 2000 challenge, and that its links 
to the systems of all 50 states will remain fully operational. The 
challenge for local law enforcement agencies is to be sure that their 
own links to these vital information systems, and any similar systems 
which they might operate on a regional or agency wide level are both 
compliant and compatible with the larger systems. Also, at the local 
agency level, there often is a great deal of interconnectivity between 
some of the emergency service department's records systems and those of 
other city agencies, such as the court system, the corrections 
department, and even local utility companies, thus increasing the 
potential for Y2K related problems in this area.
    As we have found to be true in so many other areas, Y2K's presence 
is insidious in the area of emergency services. One major police 
department related to our staff that its city's government was required 
to remediate their gasoline pumps in order to assure that gasoline 
would continue to flow to its patrol cars on January 1, 1998. This 
problem had the potential to effect the entire fleet of city government 
owned vehicles. In this particular case, the computerized gasoline 
pumps perform a time and date calculation based upon the last time a 
particular gas credit card was used to fuel a vehicle, and therefore 
was vulnerable to Y2K. In another case, the sheriff of a large western 
county related that his department was currently examining its 
computerized detention files which are used to track ``time in'' and 
``time out'' of the county jail facility, as well as hearing date 
information for inmates.
    According to the Bureau of Justice Statistics, there are over 
17,000 police and sheriffs departments in the United States. The 
International Association of Fire Chiefs estimates that there are 
32,000 fire departments in this country. We also should not overlook 
the fact that approximately sixty-five percent of our country's 
Emergency Medical Service agencies reside within the organizational 
structure of our nation's fire departments.
    These statistics clearly indicate the scope of the emergency 
service sector at the state, county, and local levels of government is 
enormous. The task of assuring that each of these agencies meets the 
challenge of providing uninterrupted and reliable service in the Year 
2000, is an immense one. It is a task that must be tackled in each and 
every city, township, county, and state government in the country.
    In addition to the technical aspect of Y2K vulnerabilities, we must 
also consider the possibility that January 1, 2000 may bring with it an 
enormous increase in the demand for service from our emergency response 
agencies. Will there be an increase in the need for additional traffic 
control personnel in the event of certain Y2K failures in the 
transportation sector? How many additional elevator extrications will 
the fire departments be called upon to perform? None, we hope, but 
these are all things we must consider as we plan.
    While the preparedness of emergency service agencies is the most 
vital aspect of Y2K preparation for state, county and local 
governments, we must recognize that it surely is not the only Y2K 
problem that those governments face. It is in fact, only one aspect of 
the much larger Y2K challenge confronting the mayors, city and county 
executives, state CIOs, and governors throughout the nation as we 
continue to move closer to our ultimate deadline.
    As I mentioned at the beginning of my statement, the federal 
government must be able to respond to earthquakes, floods and other 
natural disasters. And I share Senator Bennett's heartfelt thoughts to 
those who have suffered through Hurricane George. The destructive power 
of this hurricane must remind us how very essential it is that our 
state and national emergency response systems operate without 
impediment. The Federal Emergency Management Agency (FEMA) along with 
the Red Cross and the National Guard has always provided a safety net 
to our citizens whose lives and communities have been devastated by 
natural disasters. It is essential that these organizations maintain 
their continued readiness.
    On a final note, I want to enthusiastically endorse the creation of 
an early warning system that might give this country some notice, even 
if it is only a matter of hours, that Year 2000 failures occurring 
internationally are headed our way. January 1, 2000 dawns in the middle 
of the Pacific Ocean and comes 17 hours before our dawn in the United 
States. We should leverage this advantage that nature and chance has 
provided us, and a ``Y2K First Alert System'' is an excellent way to do 
so.
    Again, thank you Mr. Chairman, I look forward to hearing today's 
panels.
                               __________

                Prepared Statement of John Thomas Flynn

                      congressional talking points
    Good morning, Mr. Chairman. My name is John Thomas Flynn. I speak 
before you today as president of NASIRE, representing the Chief 
Information Officers of the States, and as Governor Pete Wilson's Chief 
Information Officer for California.
    I want to express my appreciation for the opportunity to update 
this committee on states' Year 2000 (Y2K) readiness, particularly as it 
affects emergency preparedness. To get right to the point: as to 
states' overall remediation efforts, compliance among the 50 states 
with all aspects of mission critical legacy systems, ranges 
individually from under 10 percent complete, to reports of more than 90 
percent complete. I would point out that these figures are based upon 
NASIRE's self-reporting online survey, Y2KRemediation in the States, 
(located at www.amrinc.nettnasire/y2k).
    According to the latest survey results, just under half (24) of 
those responding have completed remediation of at least 50 percent of 
their mission critical systems. Our NASIRE survey defines ``mission 
critical'' as:

        Systems that the state has identified as priorities for prompt 
        remediation. Such systems CAN encompass public safety, public 
        health, as well as financial and personnel aspects of 
        government services.

    No state has declared itself 100 percent complete as yet. In 
addition, due to the various interpretations surrounding the term, as 
well the legal ramifications involved, we might never see total 
compliance claimed until long after the turn of the century.
    As the remediation process has evolved from addressing software 
applications and interfaces, desktop systems and embedded technologies, 
a key focus of activity in the states has involved contingency 
planning, operational recovery and of particular importance to this 
hearing today, emergency preparedness.
    As to the general condition of the states' emergency preparedness 
and the readiness of state emergency response agencies I would offer 
the following.
    Disaster relief services are facets of a civilized society that 
citizens should be able to depend on.
    Imagine the residents of New Orleans or the Florida Keys managing 
without state emergency and disaster services with Hurricane Georges 
positioned to wreak havoc at any moment. Recall the total power 
blackout that occurred for several weeks in the business district of 
Auckland, New Zealand earlier this year. Would recovery and rebuilding 
efforts work at full capacity or at all if their systems and networks 
were nonfunctional? Would citizens have access to life-saving medical 
aid?
    Recall the Galaxy 4 satellite that put 50 million pagers and other 
telecommunications services out of commission. One satellite. 50 
million customers affected. When you think about how many lives are 
touched by one action, or in this case, inaction, the magnitude of the 
Year 2000 situation begins to take shape.
    Regarding specific emergency preparedness issues, eleven states 
responded to the NASIRE survey including:

        Arizona, Colorado, Connecticut, Florida, Georgia, Illinois, 
        South Carolina, Texas, Washington, West Virginia, Wyoming

    NASIRE CIO's reported that close working relationships have been 
established with their emergency management organizations, and their 
mission critical system remediation has been given the highest 
priority. A few specifics:
    For example, the State of Arizona holds bi-weekly meetings with Y2K 
coordinators from the Public Utility Commission, Attorney General's 
Office, Administrative Office of the Courts and the Department of 
Emergency and Military Affairs to coordinate assessment, planning and 
response activities related to Y2K failures. Staff representatives from 
both senators McCain and Kyl were recently invited to these meetings.
    The Colorado 2000 Council has asked the Colorado Office of 
Emergency Management and the Federal Emergency Management Association 
(FEMA), to participate in Colorado's Council. This council is a 
coalition of public and private industry representing critical service 
sectors such as telecommunications, public safety and water, to name 
just a few.
    In California, the Governor's Office of Emergency Services (OES) is 
a stand-alone cabinet-level agency like the Department of Information 
Technology, which reports directly to the Governor.
    Having this kind of authority naturally leads to quicker and more 
comprehensive responses. As you may know California, during the last 
decade, has suffered through flood, fire, drought, riots and other 
natural disasters with responses coordinated by this department.
    As CIO for California, my office is partnering with California OES 
Director, Dr. Richard Andrews, along with our California Year 2000 
Intergovernmental Task Force, which is comprised of state, county and 
city CID's, for a Western States Y2K Summit on Emergency Preparedness 
and contingency planning this fall. Dr. Andrews and I have been in 
contact with the emergency directors, state CIO's and Y2K managers of 
these states who have voiced unanimous enthusiasm for this endeavor. We 
believe the model and subsequent action plan we develop for this summit 
will be of value to states not only in the western region, but beyond.
    As a general rule, emergency management services do not fall 
directly under the responsibility of IT organizations. However, those 
who work in the IT environment are prepared to work with sister 
agencies with missions more directly tied to providing support and 
order during a disaster. This is and has been the case in the many 
other government entities which merit equal attention such as public 
utilities (water, electricity, telecommunications), court and criminal 
functions (prison systems) and financial benefits (retirement 
disbursements, food stamps, health care).
    I thank you for the opportunity to speak, and would be pleased to 
answer any questions.

                                                                          SURVEY ON YEAR 2000 REMEDIATION IN THE STATES
                                                          [A survice of NASIRE: Representing chief information officers of the States]


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                ALABAMA (Last updated 8/10/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             The AL Dept. of Finance has an
NA                                 AL has implemented a separate Y2K       $85-$100M                               Considering (Some current members are    integrated accounting, purchasing
                                    mainframe test bed with Y2K compliant                                           aware of the Y2K problem and may be     and personnel system for most of the
                                    operation system and tools for                                                  considering both funding and            state agencies. The accounting
                                    agencies to use for testing. There is                                           liability issues.)                      covers departmental or agency level
                                    also an AS/400 resource center.                                                                                         accounting as well as the State's
                                                                                                                                                            Comptroller. Many of the agencies
                                                                                                                                                            providing direct services and
                                                                                                                                                            benefits are utilizing the Finance
                                                                                                                                                            Department's mainframe computer. The
                                                                                                                                                            Finance Department provides fee
                                                                                                                                                            based services for agencies, but the
                                                                                                                                                            larger ones mentioned above have
                                                                                                                                                            their own programming staff.

CIO: Larkin B. Nolen, Chief Information Officer, Information Services Division, Dept. of Finance, 64 N. Union St., Ste. 200, Montgomery, AL 36130, Phone: 334-242-3800 Fax: 334-240-3228
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9af6f4f5f6fff4daf3e9feb4e9eefbeeffb4fbf6b4efe9">[email&#160;protected]</a>
Contact: Rick Boyce, Year 2000 Project Coordinator, Dept. of Finance, 64 North Union Street, Ste. 250, Montgomery, AL 36130, Phone: 334-353-3447 Fax: 334-353-5663 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3d1c1ccdac0c6e3cad0c78dd0d7c2d7c68dc2cf8dd6d0">[email&#160;protected]</a>
Contact: Dr. John H. Parsa, Manager Special Projects, Information Services Division, Dept. of Finance, 64 N. Union St., Ste. 250, Montgomery, AL 36130, Phone: 334-242-3104 Fax: 334-353-5663
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96fce6f7e4e5f7d6ffe5f2b8e5e2f7e2f3b8f7fab8e3e5">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 ALASKA (Last updated 9/9/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Governor Tony Knowles issued
86 Mission Critical Business       A number of critical enterprise-level   FY 2000 costs for Y2K are currently     Not to date. Proposals are under         Administrative Order #177 on 8/28/
 Functions (43% of 199 key          systems are already converted.          estimated at $25 million.               consideration, however.                 98, declaring Y2K to be state
 functions), including: all         Compilation of status data is                                                                                           agencies' highest priority and
 supporting automation systems,     expected to be available by 10/1/98.                                                                                    elevating the State's Y2K program to
 interfaces, embedded and process                                                                                                                           a cabinet-level office. Since then a
 control systems, supplier/                                                                                                                                 new Y2K status reporting system has
 customer dependencies, and                                                                                                                                 been implemented, with updated
 associated contingency plans.                                                                                                                              status information expected to be
                                                                                                                                                            available by 10/1/98.

CIO: Mark O. Badger, PhD, Chief Technology Officer, Information Technology Group, Dept. of Administration, P.O. 110206, Juneau, AK 99811-0206, Phone: 907-465-2220 Fax: 907-465-3450 mark2/
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e2d7c7f7a797b6c5e7f7a737770306d6a7f6a7b307f75306b6d">[email&#160;protected]</a>
Contact: Bob Poe, Year 2000 Project Manager, Office of Management & Budget, P.O. Box 110020, Juneau, AK 99811 Phone: 907-465-4660 Fax: 907-465-3008 Bob2/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f4c2f101a3f181009510c0b1e0b1a511e14510a0c">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                ARIZONA (Last updated 9/25/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
245                                60-70%                                  $103.0M (This is for data systems not   Yes, Special funding (HB2001); No,
                                                                            embedded systems. This includes         Liability hold harmless. The Arizona
                                                                            appropriated and non-appropriated       League of Cities is circulating a
                                                                            dollars. It also includes               broad based liability protection bill
                                                                            replacements and remediation, some of   for municipalities, but I have not
                                                                            these replacements are occurring for    yet reviewed a draft.
                                                                            other reasons, but Y2K makes the
                                                                            timing critical. It also includes
                                                                            personnel costs, which I believe some
                                                                            states have not included.)

CIO: John B. Kelly, Chief Information Officer, Gov't Information Technology Agency, 1102 W. Adams St., Phoenix, AZ 85007, Phone: 602-340-8538 Fax: 602-340-9044 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147e767f7178786d54737d60753a67607560713a756e3a6167">[email&#160;protected]</a>
Contact: Art Ranney, Information Technology Oversight Manager, Government Information Technology Agency, 1102 W. Adams Street, Phoenix, AZ 85007, Phone: 602-340-8538 Fax: 602-340-9044
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6a6f796a65656e724b6c627f6a25787f6a7f6e256a71257e78">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               ARKANSAS (Last updated 7/27/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             We are currently conducting y2k
50                                 40%                                     $35.0M                                  Yes. (A general use appropriation has    audits of all state agencies, higher
                                                                                                                    been made available for all Arkansas    ed institutions, and public schools.
                                                                                                                    State agencies to accomplish Y2K        This is probably the most valuable
                                                                                                                    compliance.)                            thing we have done.

CIO: Michael Hipp, Director, Dept. of Information Systems, #1 Capitol Mall, P.O. Box 3155, Little Rock, AR 72201-3155, Phone: 501-682-2701 Fax: 501-682-4310 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9af7f3f9f2fbfff6b4f2f3eaeadaf7fbf3f6b4e9eefbeeffb4fbe8b4efe9">[email&#160;protected]</a>
Contact: Stephanie Mains, Year 2000 Project Office, Division of Operations, Department of Information Systems, P.O. Box 3155, #1 Capitol Mall, Little Rock, AR 72201, Phone: 501-682-4399 Fax:
 501-682-4310 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f2c2b3a2f373e31363a71323e36312c1f323e3633712c2b3e2b3a713e2d712a2c">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              CALIFORNIA (Last updated 9/25/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Information can be found at
633                                50%                                     $239 million.                           3 Measures were proposed for the 1997-   <www.leginfo.ca.gov>.
                                                                                                                    98 legislative session, none were
                                                                                                                    successful (AB1934; AB1710 and
                                                                                                                    SB2000). 2 measures are on the
                                                                                                                    Governor's desk for consideration
                                                                                                                    (AB1345 and SB1178)The 1998-99 Budget
                                                                                                                    Act includes $20 million for the Year
                                                                                                                    2000.

CIO: John Thomas Flynn, Chief Information Officer, State of California, 801 K St., Ste. 2100, Sacramento, CA 95814, Phone: 916-445-3050 Fax: 916-445-6529 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff958b9993869191bf9b90968bd19c9ed1989089">[email&#160;protected]</a>
Contact: Claudina Nevis, Deputy Director, Special Projects, Dept. of Information Technology, 801 K St., Ste. 2100, Sacramento, CA 95814, Phone: 916-445-5900 Fax: 916-445-6524
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a39363b2f3e33343b74343f2c33291a3e35332e74393b743d352c">[email&#160;protected]</a>
Contact: Robert Dell'Agostino, Acting Chief Deputy Director, Dept. of Information Technology, 801 K St., Ste. 2100, Sacramento, CA 95814, Phone: 916-445-5900 Fax: 916-445-6524
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a6aba6eaa0a1a8a8a5a3abb7b0adaaab84a0abadb0eaa7a5eaa3abb2">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               COLORADO (Last updated 9/24/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             90% of Critical systems are planned
239 systems are rated critical of  6% are fully converted for Year 2000    $31.95M (Covers information systems     Considering                              for completion by June, 1999.
 a total of 840 systems.            functionality. The majority of the      only. Does not include higher
                                    remaining systems are in the testing    education or embedded systems.)
                                    phase.

CIO: Steve McNally, Staff Director, Commission on Information Mgmt., Dept. of Personnel/Gen. Support Svcs., 1525 Sherman St., Ste. 100, Denver, CO 80203-1712, Phone: 303-866-3222 Fax: 303-866-
 2168 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e1d1a0b180b40030d000f0202172e1d1a0f1a0b400d01401b1d">[email&#160;protected]</a>
Contact: Brian Mouty, Statewide Year 2000 Project Manager, Dept of General Support Services, 1525 Sherman St., #100, Denver, CO 80203, Phone: 303-866-3222 Fax: 303-866-2168
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f391819a929ddd9e9c86878ab38087928796dd909cdd8680">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              CONNECTICUT (Last updated 9/23/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
765 (Systems for which Y2K         50%                                     $125.0M (Although only $95.0M in        Yes.
 remediation strategies have been                                           funding is available.) Embedded
 defined.)                                                                  systems and PC exposures not fully
                                                                            known--may drive total costs higher.

CIO: Rock Regan, Chief Information Officer, Dept. of Information Technology, 340 Capitol Ave., Hartford, CT 06106, Phone: 860-566-7093 Fax: 860-566-1786 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdcfd2ded693cfd8dadcd3fdcdd293cec9dcc9d893dec993c8ce">[email&#160;protected]</a>
Contact: Peter Sullivan, Director, Year 2000 Program Officer, Dept. of Information Technology, 340 Capitol Avenue, Hartford, CT 06106, Phone: 860-566-6246 Fax: 860-566-6291
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91e1f4e5f4e3bfe2e4fdfdf8e7f0ffd1e1febfe2e5f0e5f4bff2e5bfe4e2">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            DISTRICT OF COLUMBIA (Last updated N/A.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
No answer.                         No answer.                              No answer.                              No answer.

CIO: VACANT, Chief Technology Officer, Government of DC, 441 Fourth St., N.W., Rm. 960, Washington, DC 20001, Phone: 202-727-2277 Fax: 202-727-6857 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="365b5f5d5376525551594018594451">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               DELAWARE (Last updated 7/17/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
71 (Included are public safety     62% (Complete or already compliant.)    $6.0M                                   Yes, Legislated funding.
 systems, critical general ledger/
 accounting, critical court
 systems, public health and some
 critical welfare systems,
 critical revenue systems,
 unemployment insurance, and
 payroll-but not all benefits.)

CIO: John J. Nold, Executive Director, Office of Information Services, 801 Silver Lake Blvd., Dover, DE 19904, Phone: 302-739-9628 Fax: 302-739-6251 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b5574777f5b74726835686f7a6f7e357f7e356e68">[email&#160;protected]</a>
Contact: Kathy Donovan, Year 200 Coordinator, Office of Information Systems, 801 Silver Lake Blvd., Dover, DE 19901, Phone: 302-739-9602 Fax: 302-739-9686 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="59353d2934292f3834192a2d382d3c773d3c772c2a">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                FLORIDA (Last updated 9/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Florida is conducting further
492                                74% (Using August data-this is the      $75.0-90.0M                             Yes, provides the Governor special       research into the potential impact
                                    overall percentage of work completed                                            powers in addressing a Y2K failure in   of embedded chips in products &
                                    in the remediation of mission                                                   an agency and extends the state's       services.
                                    critical systems.)                                                              sovereign immunity to include Year
                                                                                                                    2000 failures. Passed as CS/HB 3619
                                                                                                                    in the 1998 session.

CIO: P. J. Ponder, Chief Legal Counsel, Information Resource Commission, 4050 Esplande Way, Ste. 235, Tallahassee, FL 32399-0950, Phone: 850-488-4494 Fax: 850-922-5929 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea9a85848e8f989aaa839889c4999e8b9e8fc48c86c49f99">[email&#160;protected]</a>
Contact: Glenn W. Mayne, Project Manager, Executive office of the Governor, Office of Planning and Budgeting, 426 Charlton Bldg., Tallahassee, FL 32399, Phone: 850-921-2235 Fax: 850-921-2353
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6ede4efefafece0f8efe4c1ede0f2f1e3f2aff2f5e0f5e4afe7edaff4f2">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                GEORGIA (Last updated 7/15/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
375 (Business criticality as       Still developing metrics and            $152.0M                                 Yes, liability and financial (SB638).
 defined by 71 agencies.)           consolidated reporting.

CIO: Paul Mason, Director, Information Technology, Dept. of Administrative Services, 1402 W. Tower, 2 Martin Luther King Dr., Atlanta, GA 30334, Phone: 404-656-3992 Fax: 404-656-0421,
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bacad7dbc9d5d4faded5dbc994c9cedbcedf94dddb94cfc9">[email&#160;protected]</a>
Contact: Erwin Fraas, Senior Technology Analyst, Information Technology Policy Council, P.O. Box 38391, Atlanta, GA 30334, Phone: 404-657-1351 Fax: 404-657-1355 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="167462627e797b7765567f626675386562776273387177386365">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                HAWAII (Last updated 4/13/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
No answer.                         No answer.                              No answer.                              No answer.

CIO: Thomas I. Yamashiro, Administrator, Information & Communication Svcs. Div., Dept. of Accounting & General Services, 1151 Punchbowl St., Room B10, Honolulu, HI 96813, Phone: 808-586-1910
 Fax: 808-586-1922 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="24505d454945574c4d644d4757400a4c4553454d4d0a434b52">[email&#160;protected]</a>
Contact: Barbara Tom, Data Processing Systems Manager, Information & Communication Svcs. Div, Dept. of Accounting & General Services, 1151 Punchbowl St., Room B10, Honolulu, HI 98613, Phone:
 808-586-1920 Fax: 808-586-1922
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 IDAHO (Last updated 8/14/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Most mission critical applications
21                                 60%                                     $16.0M                                  No.                                      are in test mode. Testing and data
                                                                                                                                                            bridge remediation are the gating
                                                                                                                                                            issues at this time. No specific
                                                                                                                                                            legislation has been proposed or is
                                                                                                                                                            anticipated.

CIO: J. Miles Browne, Project Team Manager, Information Technology Division, Dept. of Administration, 650 W. State Street, P.O. Box 83720, Boise, ID 83720-0004, Phone: 208-334-2771 Fax: 208-
 334-2307 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147976667b637a71547570793a67607560713a7d703a6167">[email&#160;protected]</a>
Contact: Dean Pierose, Member, ITRMC Project Team, Dept. of Administration, 650 W. State Street, P.O. Box 83720, Boise, ID 83720-0089, Phone: 208-334-3535 Fax: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e286928b87908d9187a283868fcc9196839687cc8b86cc9791">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                ILLINOIS (Last updated 8/4/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
349                                59% of the Critical Systems effort.     $82.3M (For all electronic data         Yes--SB1674, establishes Year 2000
                                                                            processing efforts.)                    Technology Task Force.

CIO: William M. Vetter, Bureau Manager, Bureau of Communication & Computer Svcs., Dept. of Central Management Services, 120 W. Jefferson St., Springfield, IL 62702, Phone: 217-782-4221 Fax:
 217-524-6161 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="205756455454455260434d5310181452110e53544154450e494c0e5553">[email&#160;protected]</a>
Contact: Paul R. Lopes, Chief of Operations/ Computer Services, Bureau of Comm. & Computer Svcs., Dept. of Central Management Services, 120 W. Jefferson St., Springfield, IL 62702, Phone: 217-
 785-4037 Fax: 217-524-6161 paul2/<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b487d8dbc4d1c7f4d7d7d9d5ddd8d3c39ac7c0d5c0d19addd89ac1c7">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                INDIANA (Last updated 7/20/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
51                                 4%                                      $34.6M                                  Yes, funding.

CIO: Laura Larimer, Director of Information Technology, Dept. of Administration, Indiana Government Center, 100 North Senate Ave., N. Rm. 551, Indianapolis, IN 46204, Phone: 317-232-3171 Fax:
 317-232-0748 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caa6a6abb8a3a7afb88aa3b9aee4b9beabbeafe4a3a4e4bfb9">[email&#160;protected]</a>
Contact: William Pierce, Director, Director of Year 2000 Office, 125 West Market Street, Indianapolis, IN 46204, Phone: 317-233-2009 Fax: 317-233-8315 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe9c8e979b8c9d9bbe9a8e919d929f90d08d8a9f8a9bd09790d08b8d">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  IOWA (Last updated 9/9/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\41%                   (in millions)                           or proposed in your state?             None.
270 (Each agency in the Executive                                          $30.0M (This figure does not include    No.
 Branch determined the critical                                             the costs related to the embedded
 systems for their enterprise.                                              systems remediation.)
 This figure does not include the
 number of critical systems that
 are related to the embedded
 remediation.)

CIO: James R. Youngblood, Director, Information Technology Services, Hoover State Office Building, Level B, Des Moines, IA 50319, Phone: 515-281-3462 Fax: 515-281-6137
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4bebdb9faadbba1bab3b6b8bbbbb094bda0a7faa7a0b5a0b1fabdb5faa1a7">[email&#160;protected]</a>
Contact: Paul Carlson, Year 2000 Project Manager, Dept. of Management, State Capitol Bldg., Rm. 13, Des Moines, IA 50319, Phone: 515-281-7117 Fax: 515-242-5897 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="641407051608170b2409051c4a17100510014a0d054a1117">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                KANSAS (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)$23.0M                     or proposed in your state?             None.
827                                67%                                                                             Considering liability.

CIO: Frederick Boesch, Chief Information Architect, Information Resource Council, 300 SW 10th Ave., State Capitol Bldg., Rm. 263E, Topeka, KS 66612-1572, Phone: 785-296-3011 Fax: 785-296-2702
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c7d3c4c5c3e1c5c0d2c4c28fd6d1ce8fd2d5c0d5c48fcad28fd4d2">[email&#160;protected]</a>
Contact: John Oliver, Senior Policy Advisor, Office of the Chief Information Architect, LSOB Rm. 751-S, 900 S.W. Jackson, Topeka, KS 66612-1275, Phone: 913-296-5260 Fax: 913-296-1168
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a00050204052a0e0b0e0319095b441d1a0544191e0b1e0f440119441f19">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               KENTUCKY (Last updated 9/29/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Kentucky is on target to complete
96 (Mainframe systems only.        57%                                     $4.0M                                   Yes, Y2K contingency fund was passed     renovation by 7/1/1999.
 Critical systems under                                                                                             in the 1998 session.
 management of agencies have not
 been defined. Information has
 been extracted from May 31,
 1998.)

CIO: Aldona K. Valicenti, Chief Information Officer, Commonwealth of Kentucky, Office of the Governor, 493 Capitol Annex, Frankfort, KY 40601, Phone: 502-564-2611 Fax: 502-564-7882
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e2f5e2efeae0e6edf7eac3eee2eaefadf0f7e2f7e6ade8faadf6f0">[email&#160;protected]</a>
Contact: John Tomlinson, Year 2000 Statewide Coordinator, Information Systems, 101 Cold Harbor Dr., Frankfort, KY 40601, Phone: 502-564-8715 Fax: 502-564-6856 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="204a544f4d4c494e534f4e604d41494c0e53544154450e4b590e5553">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               LOUISIANA (Last updated 9/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
399 Mission Critical Systems as    30%                                     Not known at this time. (Although the   Considering (The state is reviewing
 of September 1998.                                                         majority of Year 2000 costs were        all legal aspects of the Year 2000
                                                                            embedded in the general operating       problem and consideration is being
                                                                            budget of state departments, the        given for introducing legislation in
                                                                            following information is available:     the next legislative session schedule
                                                                            FY97-98 Budgeted $16.4; FY98-99         for March 1999.)
                                                                            Requested $61; $5 established for Y2K
                                                                            fund pool.)

CIO: Dr. Allen Doescher, Assistant Commissioner, Technical Service & Communications, Office of Information Resources, Div. of Administration, P.O. Box 94095, Baton Rouge, LA 70804-9095, Phone:
 504-342-7000 Fax: 504-342-1057 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f1e1b101a0c1c173f511b101e510c0b1e0b1a51131e510a0c">[email&#160;protected]</a>
Contact: Chris LeBlanc, Year 2000 Project Manager, Div. of Administration, P.O. Box 44335, Baton Rouge, LA 70804-4335, Phone: 504-342-9675 Fax: 504-342-5137 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8eede2ebece2efe0ceeae1efa0fdfaeffaeba0e2efa0fbfd">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 MAINE (Last updated 9/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
180 (The number of critical        40%                                     $11.0M (This figure is for the state    No, but it was considered.
 systems out of 257 systems that                                            agencies with critical systems only.)
 we are currently tracking. The
 critical systems were determined
 by tracking data from each of
 the state agencies and only
 those agencies which have
 supplied information to the
 Department of Administration &
 Finance, Bureau of Information
 Services.)

CIO: Robert Mayer, Chief Information Officer, Bureau of Information Services, Dept. of Admin. & Financial Services, 145 State House Station, Augusta, ME 04333-0145, Phone: 207-624-7840 Fax:
 207-287-4563 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbc9d4d9dec9cf95da95d6dac2dec9fbc8cfdacfde95d6de95cec8">[email&#160;protected]</a>
Contact: Valton L. Wood, Jr., Div. Mgr. Infor, Svcs/Development Svcs., Bureau of Information Services, Dept. of Administrative & Financial Svcs., 145 State House Station, Augusta, ME 04333-
 0145, Phone: 207-287-3631 Fax: 207-287-4563 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dea8bfb2aab1b0f0a9b1b1ba9eadaabfaabbf0b3bbf0abad">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               MARYLAND (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
341                                To Be Determined (We are in the         $100.0M                                 No.
                                    process of updating our database so
                                    that an accurate assessment can be
                                    made. The state has 22 vendors as
                                    partners in this effort.
                                    Approximately $35M has been obligated
                                    to date.

CIO: Leslie E. Hearn, Chief Information Officer, Dept. of Budget & Management, Office of Information Technology, 45 Calvert St., Annapolis, MD 21401, Phone: 410-974-5236 Fax: 410-974-5045
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee2e6ebeffce0ceeaece3a0fdfaeffaeba0e3eaa0fbfd">[email&#160;protected]</a>
Contact: Alexius O. Bishop, Year 2000 Coordinator, Office of Information Technology, 45 Calvert St., Annapolis, MD 21401, Phone: 410-974-2191 Fax: 410-924-5045 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1574777c667d7a65557177783b66617461703b78713b6066">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             MASSACHUSETTS (Last updated 7/20/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None
262                                33%                                     $79.0M                                  Yes, funding.

CIO: Val Asbedian, Director, Strategic Planning, Information Technology Division, One Ashburton Place, Room 801, Boston, MA 02108, Phone: 617-973-0762 Fax: 617-727-3766
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2d4c3ce8cc3d1c0c7c6cbc3cce2d1d6c3d6c78ccfc38cd7d1">[email&#160;protected]</a>
Contact: Val Asbedian, Director, Strategic Planning, Information Technology Division, One Ashburton Place, Room 801, Boston, MA 02108, Phone: 617-973-0762 Fax: 617-727-3766
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc8a9d90d29d8f9e9998959d92bc8f889d8899d2919dd2898f">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               MICHIGAN (Last updated 8/20/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
793                                42%                                     $55.6M (This is what has been           Yes, funding.
                                                                            appropriated as supplemental funding
                                                                            for Y2K problems in executive branch
                                                                            agencies.)

CIO: George Boersma, Chief Information Officer & Deputy Dir., Director's Office, Dept. of Management & Budget, 1st Flr., Lewis Cass Bldg., P.O. Box 30026, Lansing, MI 48909, Phone: 517-373-
 1006 Fax: 517-373-7268 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096b666c7b7a64686e497a7d687d6c276460277c7a">[email&#160;protected]</a>
Contact: Gerald W. Williams, Director, Year 2000 Project Office, Dept. of Management & Budget, 1st Flr., Lewis Cass Bldg., P O Box 30026, Lansing, MI 48909, Phone: 517-373-3725 Fax: 517-335-
 1575 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f28363333363e322c356c1f2c2b3e2b3a713236712a2c">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               MINNESOTA (Last updated 9/15/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
1,300 (During the inventory phase  75% (70 percent of custom applications  As of June 1998, the Minnesota          Considering.
 of the Minnesota Year 2000         are complete. A deadline of December    legislature has appropriated $28.7M
 Project, 1,100 custom              31, 1998 has been established to        for conversion of mission critical
 applications were identified by    complete conversions of mission         systems. State agencies are also
 state agencies.)                   critical systems. Testing is an         using an estimated $22 from
                                    ongoing process that will continue      operational fund budgets to address
                                    through 1999.)                          embedded technologies and standard
                                                                            upgrades of h/w, s/w.

CIO: Beverly Schuft, Assistant Commissioner, Technology Management, Dept. of Administration, 320 Centennial Bldg., 658 Cedar St., St. Paul, MN 55155, Phone: 612-296-5320 Fax: 612-296-5800
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8defe8fba3feeee5f8ebf9cdfef9ecf9e8a3e0e3a3f8fe">[email&#160;protected]</a>
Contact: Jim Close, Year 2000 Project Manager, Technology Management Bureau, Dept. of Administration, 320 Centennial Bldg., 658 Cedar St., St. Paul, MN 55155, Phone: 612-296-5944 Fax: 612-296-
 5800 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f555652115c53504c5a7f4c4b5e4b5a115251114a4c">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              MISSISSIPPI (Last updated 7/16/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage?\1\                         are converted?\2\                       (in millions)                           or proposed in your state?             None.
30                                 50% (Should be at least 75 percent by   $8.0M                                   No.
                                    December 1.)

CIO: David L. Litchliter, Executive Director, Dept. of Information Technology Svcs., 301 N. Lamar St., Ste. 508, , Jackson, MS 39201, Phone: 601-359-1395 Fax: 601-354-6016
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a16130e191216130e1f083a130e0954090e1b0e1f541709540f09">[email&#160;protected]</a>
Contact: Teresa Karnes, Client Planning Manager, Strategic Services Division, Dept. of Information Technology Svcs., 301 N. Lamar St., Ste. 508, Jackson, MS 39201, Phone: 601-359-2615 Fax: 601-
 354-6016 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e68d8794888395a68f9295c89592879283c88b95c89395">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               MISSOURI (Last updated 9/16/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted?\2\                       (in millions)                           or proposed in your state?             None.
225                                70% Converted; 50% implemented.         $57.0M                                  Yes, funding. Liability being
                                                                                                                    considered.

CIO: Mike Benzen, Chief Information Officer, Office of Information Technology, Jefferson Bldg., Rm. 1315, 205 Jefferson St., Jefferson City, MO 65101, Phone: 573-526-7741 Fax: 573-526-7747
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294b4c47534c4469444840450746405d075a5d485d4c074446075c5a">[email&#160;protected]</a>
Contact: Dave Schroeder, Deputy Chief Information Officer, Office of Information Technology, Jefferson Bldg., Rm. 1315, Jefferson City, MO 65101, Phone: 573-526-7744 Fax: 573-526-7747
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb88989389949fbb969a9297d594928fd5888f9a8f9ed59694d58e88">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                MONTANA (Last updated 9/3/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?
211                                34%                                     $5-6                                    No.
Comments
None.

CIO: Anthony Herbert, Administrator, Division of Information Services, Dept. of Administration, 125 N. Roberts, P.O. Box 200113, Helena, MT 59620, Phone: 406-444-2700 Fax: 406-444-2701
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0d4c8c5d2c2c5d2d4e0cdd48ec7cfd6">[email&#160;protected]</a>
Contact: G. Scott Lockwood, Year 2000 Compliance Officer, Information Services Division, Dept. of Administration, P.O. Box 200113, Helena, MT 59620, Phone: 406-444-2029 Fax: 406-444-2701
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="40332c2f232b372f2f24002d346e272f36">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               NEBRASKA (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
82 (Not broken down by             30%                                     $6.0M (Initial total estimate.)         Yes, funding, liability and personnel
 criticality.)                                                                                                      (www.state.nv.us/doit/y2k).

CIO: Steven L. Henderson, Deputy Administrator, Central Data Processing, Dept. of Administrative Services, 501 S.14th St., P.O. Box 95045, Lincoln, NE 68509, Phone: 402-471-2065 Fax: 402-471-
 4864 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f7e767c6c6b7a697a5f697277706c6b317c7b6f316c6b7e6b7a31717a316a6c">[email&#160;protected]</a>
Contact: Steven L. Henderson, Deputy Administrator, Central Data Processing, Dept. of Administrative Services, 501 S.14th St., P.O. Box 95045, Lincoln, NE 68509, Phone: 402-471-2065 Fax: 402-
 471-4864 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d4dcd6c6c1d0c3d0f5c3d8dddac6c19bd6d1c59bc6c1d4c1d09bdbd09bc0c6">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                NEVADA (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
278 (Criticality was determined    86% (This number is derived from        $15.2M (This figure is the current      Yes, funding. (Legislation for partial
 by individual agency directors     project schedule information            base contract with our vendor for       funding support was passed in 1996
 in regard to which systems they    regarding both work completed and       century date change work. We have       utilizing parts of the existing
 elected to include in our CDC      work in progress.)                      also established Time and Material      Cigarette Tax.)
 project.)                                                                  work orders with CTA for an
                                                                            additional $5.5 to $6.0M for related
                                                                            work. Thus total cost around $21.0M.

CIO: Marlene Lockard, Director, , Dept. of Information Technology, 505 E. King St., Ste. 403, Carson City, NV 89701, Phone: 702-687-4090 Fax: 702-687-3846 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="224f4e4d414943504662464d4b560c51564356470c4c540c5751">[email&#160;protected]</a>
Contact: Tom Loux, Year 2000 Project Manager, Applications Design & Development Unit, Department of Information Technology, 1340 South Curry St., Carson City, NV 89701, Phone: 702-687-4091
 Fax: 702-687-1155 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="40342c2f353800242f29346e33342134256e2e366e3533">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             NEW HAMPSHIRE (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None
63 (This is number of state        10% (Several are in testing phase.)     $60.0M (This includes costs to replace  Yes (Requires agencies to develop work
 agencies, boards and                                                       outdated systems and correct Y2K at     plans and to report quarterly
 commissions.)                                                              same time.)                             compliance status, Chapter 255, Laws
                                                                                                                    of 1998: Effective June 25, 1998:
                                                                                                                    legislative bill--www.state.nh.us/
                                                                                                                    gencourt/bills/98bills/sb0464.html)

CIO: William Armstrong, Information Technology Manager, Division of Information Technology Management, Dept. of Administrative Services, 4 Hazen Dr., Concord, NH 03301, Phone: 603-271-6533
 Fax: 603-271-6531 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="691e081b041a1d1b06070e29080d040007471a1d081d0c470701471c1a">[email&#160;protected]</a>
Contact: Vicki Tinsley, Information Technology Manager, Div. of Information Technology Mgmt., Dept. of Administrative Services, 4 Hazen Drive, Concord, NH 03301, Phone: 603-271-1522 Fax: 603-
 271-531 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec9a9885829f808995ac8d88818582c29f988d9889c28284c2999f">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              NEW JERSEY (Last updated 9/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
195                                40% (back in production)                $120.0M (this is the cost to remediate  Yes, funding; considering liability.
                                                                            ALL systems).

CIO: Wendy Rayner, Chief Information Officer, Office of the Governor, State House, P.O. Box 001, Trenton, NJ 08625, Phone: 609-777-2245 Fax: 609-777-0357 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e49494c7e5d5f4e574a5152104d4a5f4a5b56514b4d5b104d4a5f4a5b105054104b4d">[email&#160;protected]</a>
Contact: John W. Longworth, Executive Branch Year 2000 Coordinator, Div. of Information & Management Svcs., Dept. of Education, 100 Riverview Executive Plaza, Trenton, NJ 08625-0500, Phone:
 609-633-9773 Fax: 609-633-9865 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d575152535a4a524f7d595258134e495c495813535713484e">[email&#160;protected]</a>
Contact: Wendy Rayner, Chief Information Officer, Office of the Governor, State House, P.O. Box 001, Trenton, NJ 08625, Phone: 609-777-2245 Fax: 609-777-0357 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="512626231132302138253e3d7f2225302534393e2422347f22253025347f3f3b7f2422">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              NEW MEXICO (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
4,436 (Only 317 were found to be   49%                                     $12.2M                                  No.
 non-Y2K compliant.)

CIO: James Hall, Chief Information Officer, Office on Information & Comm. Management, Office of the Governor, State Capitol Bldg., Rm. 400, Santa Fe, NM 87503, Phone: 505-827-3000 Fax: 505-827-
 3026 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb5b7beb3b39fb8b0a9f1acabbeabbaf1b1b2f1aaac">[email&#160;protected]</a>
Contact: Jody Larson, Office on Info. & Communication Staff, Office on Information & Communication Mgmt., Governor's Office 4th Fl., Capitol Bldg., Santa Fe, NM 87503, Phone: 505-827-3019 Fax:
 505-827-3026 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7cbc6d5d4c8c9cde7c0c8d189d4d3c6d3c289c9ca89d2d4">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               NEW YORK (Last updated 7/17/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
43 (Statewide priority systems--   73%                                     $83.0M (Plus $221.0M in other funded    Considering, liability; yes, funding &
 top ``40.'')                                                               replacement projects.)                  personnel.

CIO: Camaron Thomas, Director, Office for Technology, Executive Chamber, State Capitol, Albany, NY 12224, Phone: 518-473-5622 Fax: 518-473-3389 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4bdbab2a6b1a7b9b394b1b9bdfab7bbb9">[email&#160;protected]</a>
Contact: Gary Davis, Year 2000 Project Leader, NYS Office for Technology, State Capitol, New York, NY 12224, Phone: 518-473-5622 Fax: 518-402-2019 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="264247504f554166434b4f0845494b">[email&#160;protected]</a>
Contact: Julie Leeper, Year 2000 Project Coordinator, NYS Office for Technology, State Capitol, Albany, NY 12224, Phone: 518-473-5622 Fax: 518-473-3389 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="620e07071207100822070f0b4c010d0f">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            NORTH CAROLINA (Last updated 9/15/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Year 2000 legislation was passed to
1,147                              59%                                     $124.8M                                 Yes, centralized program office,         set up the NC Year 2000 Project
                                                                                                                    funding; considering, other issues.     Office which facilitates, supports,
                                                                                                                                                            monitors and leverages the state's
                                                                                                                                                            Year 2000 remediation efforts.
                                                                                                                                                            Additional legislation is being
                                                                                                                                                            considered regarding liability.

CIO: Richard C. Webb, Asst. Secretary for Information Technology/CIO, Information Technology Services, Dept. of Commerce, 3700 Wake Forest Rd., Raleigh, NC 27609-6860, Phone: 919-981-2680 Fax:
 919-981-5043 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbc9ccded9d9fbc8d2cbc895c8cfdacfde95d5d895cec8">[email&#160;protected]</a>
Contact: Debra C. Jones, Statewide Y2K Program Director, Year 2000 Project Office, 3900 Wake Forest Road, Raleigh, NC 27609, Phone: 919-981-5528 Fax: 919-981-5374
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0460676e6b6a617744776d74772a77706570612a6a672a7177">[email&#160;protected]</a>;<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0bdbfbb95959695b083998083de9f8393de8384918495de9e93de8583">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             NORTH DAKOTA (Last updated 9/25/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
66                                 82%                                     $1.0M                                   No.

CIO: Jim Heck, Director, Information Services Division, 600 East Boulevard Ave., Bismarck, ND 58505-0100, Phone: 701-328-3190 Fax: 701-328-3000 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b8b5b3bb90a0b9bfbeb5b5a2fea3a4b1a4b5febeb4fea5a3">[email&#160;protected]</a>
Contact: Larry Lee, Contingency Planning Specialist, Information Services Division, 600 East Boulevard, Bismarck, ND 58505-0100, Phone: 701-328-2721 Fax: 701-328-3000
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6cbd5cbc7cfca88caca9794e6d4c7c8c5ce88d5d2c7d2c388c8c288d3d5">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 OHIO (Last updated 10/1/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
These have been determined and     32% have been converted and are in      Original estimate of total cost for     No, so far only cursory discussion has
 tracked by the individual          production.                             Year 2000 remediation was about $61     been held on this subject.
 agencies. We're in the process                                             million. As of this date, we do not
 of gathering data and logging it                                           see the need for additional funding.
 into a central database. As of
 this date, 200 critical systems
 have been identified to this
 central file.

CIO: Sandra Drabik, Director, Dept. of Administrative Services, 30 E. Broad St., 40th Fl., Columbus, OH 43266-0401, Phone: 614-466-6511 Fax: 614-644-8151 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec88859ec1c1889e8d8e8587ac83848583c28b839a">[email&#160;protected]</a>
Contact: Fred Dowdy, Year 2000 Administrator, Computer ServicesDivision, Dept. of Administrative Services, 1320 Arthur E. Adams Drive, Columbus, OH 43221-3595, Phone: 614-752-7456 Fax: 614-644-
 -2858 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9b6bdb7f4f4bdb6aebda099b6b1b0b6f7beb6af">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               OKLAHOMA (Last updated 7/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None
No answer.                         No answer.                              No answer.                              No answer.

CIO: William N. Shafer, Director, Information Services Division, Office of State Finance, 2209 N. Central, Oklahoma City, OK 73105, Phone: 405-521-2804 Fax: 405-522-3042
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="06646f6a6a28756e6760637446696d6a6769756028757267726328696d287375">[email&#160;protected]</a>
Contact: Jerry G. Stillwell, Data Processing Administrator, Office of State Finance, 2209 N. Central, Oklahoma City, OK 73105, Phone: 405-521-2844 Fax: 405-522-3042
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a101f08080354090e1316160d1f16163a1511161b15091c54090e1b0e1f541511540f09">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                OREGON (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
248 (By Aug 31, a statewide list   32.2% (July 1998 data identifies over   $92.OM (State of Oregon agencies 1997   Yes, Agency responsibility,
 of mission critical systems will   32% of these systems are completed)     Statewide Year 2000 Assessment          coordination of policies and
 be confirmed. This list will be                                            identified $102M. Agencies effective    promotion of qualified workforce;
 monitored closely to assure                                                management lowered that amount to       Executive Order for compliance;
 State of Oregon Year 2000                                                  $92.0M, presented to the Oregon         Considering, Immunity/Liability.
 compliance.                                                                Legislature in January 1998.)

CIO: Don Mazziotti, Chief Information Officer, Information Resources Mgmt. Division, Dept. of Administrative Services, 155 Cottage St., N.E., Salem, OR 97310-0315, Phone: 503-378-3161 Fax: 503-
 378-5200 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="185c7776365579626271776c6c71586b6c796c7d36776a366d6b">[email&#160;protected]</a>
Contact: Barbara Jensen, State Year 2000 Project Office, Information Resource Management Div., Dept. of Administrative Services, 155 Cottage St., NE, Salem, OR 97310-0310, Phone: 503-378-5458
 Fax: 503-378-5200 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80c2e1f2e2e1f2e1aecae5eef3e5eec0f3f4e1f4e5aeeff2aef5f3">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             PENNSYLVANIA (Last updated 9/28/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             HB2273, HB2406, SB1434 All
27,446 programs or 469 MC          99%                                     $24M (For mission critical only. The    Considering.                             legislative bills are pending.
 applications.                                                              total estimated cost for all systems
                                                                            is $40M)

CIO: Larry A. Olson, Deputy Secretary, OA/Office for Information Technology, Governor's Office for Administration, 209 Finance Building, Harrisburg, PA 17120, Phone: 717-787-5440 Fax: 717-787-
 4523 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="600c0f0c130f0e200f014e13140114054e10014e1513">[email&#160;protected]</a>
Contact: Charles F. Gerhards, Director, Commonwealth Technology Center, OA/Office for Information Technology, 1 Technology Park, Harrisburg, PA 17110, Phone: 717-772-8000 Fax: 717-772-8113
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42212527302a233026022d236c31362336276c32236c3731">[email&#160;protected]</a>
Contact: Larry A. Olson, Deputy Secretary, Office for Information Technology, Governor's Office of Administration, 209 Finance Building, Harrisburg, PA 17120, Phone: 717-787-5440 Fax: 717-787-
 4523 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1013100f13123c131d520f081d0819520c1d52090f">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              PUERTO RICO (Last updated 7/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
174 (Includes all critical         9% (Includes all critical systems       $12.0M (Amount only includes costs      Yes, reporting mechanism (SR585
 systems reported by the            reported compliant and tested by        reported by agencies supported with     requires agencies to report progress
 agencies.)                         agency.)                                documents.)                             on the critical systems Y2K
                                                                                                                    compliance status and the related
                                                                                                                    costs). See www.senado.gvmt.pr.us/)

CIO: Jorge E. Aponte, CPA, Information Systems Director, Office of Budget & Management, P.O. Box 9023228, San Juan, PR 00902-3228, Phone: 787-725-8646 Fax: 787-724-1374 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="016b60716e6f7564416e66712f7173727560732f6f6475">[email&#160;protected]</a>
Contact: Francisco J. Colon, Associate Director, Office of Budget and Management, P.O. Box 9023228, San Juan, PR 00902-3228, Phone: 787-725-9420 Fax: 787-721-8239 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e4e1edeeedecc2ede5f2acf2f0f1f6e3f0acece7f6">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             RHODE ISLAND (Last updated 7/16/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
n/a                                The major core systems are in the       Less than $10.0M (This year's FY99      No.
                                    process of remediation and              budget contains $2.5M on top of $.5M
                                    implementation. Many depts. are still   allocated for the Y2K effort in
                                    in the remediation process, other       FY98.)
                                    depts. need to upgrade the versions
                                    of software and hardware for smaller
                                    systems.

CIO: Barbara Weaver, Chief Information Officer, Office of Library & Information Services, Dept. of Administration, One Capitol Hill, 4th Fl., Providence, RI 02908, Phone: 401-222-2222 Fax: 401-
 222-4260 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bf9fae9f9ece9dbf7f4e9f2b5e8effaeffeb5e9f2b5eee8">[email&#160;protected]</a>
Contact: Sally J. Spadaro, Year 2000 Coordinator, Office of Library & Information Services, Dept. of Administration, One Capitol Hill, Providence, RI 02908, Phone: 401-222-1229 Fax: 401-222-
 2083 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6c5d7dadacf9b9bc5c6d7d2d7c4d9f6d2d9d798c5c2d7c2d398c4df98c3c5">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                            SOUTH CAROLINA (Last updated 9/29/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             Currently focusing on total mission
440--this total is the number of   42%--percentage of ALL SYSTEMS WHICH    $31.2 million                           No.                                      critical systems. Next report will
 NON-COMPLIANT mission critical     ARE COMPLIANT. Mission critical are                                                                                     contain this information.
 systems.                           included.

CIO: Ted Lightle, Director, Office of Information Resource, Dept. of Budget & Control Board, 1201 Main St., Ste. 1500, Columbia, SC 29201, Phone: 803-737-0075 Fax: 803-737-0069
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c8cdc3ccd0c8c1e4cbcdd68ad7d0c5d0c18ad7c78ad1d7">[email&#160;protected]</a>
Contact: William T. Majors, Assistant Deputy Director, Office of Information Resources, Information Systems Opereration, 300 Gervais St., Columbia, SC 29201, Phone: 803-737-8242 Fax: 803-737-
 9507 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbdb6bab1b4a9a89bbdbfa8f5a8afbaafbef5a8b8f5aea8">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              SOUTH DAKOTA (Last updated 9/8/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
205                                Certified: 15% mainframe, 4% PC/LAN,    $3.7M (This does not include costs for  Considering.
                                    31% network components remediated:      judicial and higher education
                                    38% mainframe, 22% PC/LAN, 57%          systems.)
                                    network components.

CIO: Otto Doll, Commissioner, Dept. of Administration, Bureau of Info. & Telecommmunications, 700 Governors Dr., Kneip Bldg., Pierre, SD 57501, Phone: 605-773-4165 Fax: 605-773-6040
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f706b6b707b5f766c316c6b7e6b7a316c7b316a6c">[email&#160;protected]</a>
Contact: Jan Newman, Year 2000 Project Coordinator, Office of the Commissioner, Bureau of Information and Telecommunications, 1017 18th St. NE, Watertown, SD 57201, Phone: 605-882-5118 Fax:
 605-886-8872 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91fbf0ffffd1f8e2bfe2e5f0e5f4bfe2f5bfe4e2">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               TENNESSEE (Last updated 9/14/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
148 (We are tracking 233 systems   56% (Mission critical systems are at    $15.5M (estimate for total Y2K          Yes, funding (The Appropriation Bill
 of which 148 are classified as     51 percent completion. We are 82        effort).                                for 1997-1998 provided $6M and the
 mission critical.)                 percent complete based on man hour                                              Appropriation Bill for 1998/1999
                                    effort for all applications;                                                    provided an additional $4M for a
                                    remaining applications are scheduled                                            total of $10M.).
                                    for 12/31/1998 completion date.

CIO: Bradley Dugger, Chief of Information Systems, Office of Information Resources, Dept. of Finance & Administration, 318 8th Ave., N., 11th Fl. TN Tower, Nashville, TN 37243-0288, Phone: 615-
 741-2569 Fax: 615-532-0471 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197b7d6c7e7e7c6b5974787075376a6d786d7c376d77376c6a">[email&#160;protected]</a>
Contact: Ray Selvage, Information Systems Manager, Office for Information Resources, Dept. of Finance & Administration, 312 8th Ave. N. 10th Fl., TN Tower, 312 8th Avenue North, Nashville, TN
 37243-0288, Phone: 615-741-7354 Fax: 615-741-4589 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c2e2f39302a3d3b391c313d3530722f283d283972283272292f">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 TEXAS (Last updated 7/17/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
437 (The Texas Year 2000 Project   0% (At this time, there are no          $170.0M (This is the cost to remediate  Considering.
 Office does not manage any of      critical systems that have been         ALL systems in priority agencies--
 these systems-we only provide      through testing. 100 percent of these   those with mission-critical systems.
 oversight and monitoring. We       systems have been assessed, and most    We do not have figures on remediation
 have approximately 19 priority     are in the remediation phase.)          costs specifically for those 437
 agencies who are responsible for                                           systems.)
 managing the remediation efforts
 of these 437 systems.)

CIO: Carolyn T. Purcell, Executive Director, Dept. of Information Resources, 300 W. 15th St., Ste. 1300, Austin, TX 78701, Phone: 512-475-4720 Fax: 512-475-4759 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e28183908d8e9b8ccc92979081878e8ea2868b90cc9196839687cc969acc9791">[email&#160;protected]</a>
  Contact: Shannon Porterfield, Year 2000 Coordinator, Dept. of Information Resources, P.O. Box 13564, 300 W. 15th St., Ste.1300, Austin, TX 78711-3564, Phone: 512-475-4740 Fax: 512-475-4759
                                                                               <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f98a919897979697d789968b8d9c8b9f909c959db99d908bd78a8d988d9cd78d81d78c8a">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 UTAH (Last updated 9/18/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
532 (It is very difficult to       51%                                     $50.0M ($12.0M has been directly        Considering, Government immunity.
 define critical. We have a                                                 appropriated for additional Y2K
 subset that we have called                                                 expense in addition to IT base
 highly mission critical/must not                                           budgets, a majority of which is being
 fail systems that is only about                                            used for Y2K.)
 30 systems.)

CIO: David Moon, Chief Information Officer, Governor's Office, 210 State Capitol, Salt Lake City, UT 84114, Phone: 801-538-1524 Fax: 801-538-1557 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="03676e6c6c6d43646c752d70776277662d76772d7670">[email&#160;protected]</a>
Contact: David Fletcher, Deputy Director, Dept. of Administrative Services, 3120 State Office Bldg., Salt Lake City, UT 84114, Phone: 801-538-3010 Fax: 801-538-3844 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d2d0dad3c2d5ded3f6c5c2d7c2d398c3c298c3c5">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               VERMONT  (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)n/a                        or proposed in your state?             None.
50                                 50-60%                                                                          No.

CIO: Patricia A. Urban, Chief Information Officer, 109 State St., Montpelier, VT, 05609-0210, Phone: 802-828-3322 Fax: 802-828-3320 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f9898c8b9b9897b99a9096d78a8d988d9cd78f8dd78c8a">[email&#160;protected]</a>
Contact: Patricia A. Urban, Chief Information Officer, State of Vermont, Administration / CIO, 109 State St., Montpelier, VT 05609-0210, Phone: 802-828-5846 Fax: 802-828-3398
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a5a5f58484b446a49434504595e4b5e4f045c5e045f59">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               VIRGINIA (Last updated 7/21/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             * We require agencies report on their
*                                  51% (Completed all four phases of       $80-83M                                 Yes, Immunity, liability and             Priority Business Activities. Within
                                    remediation)                                                                    establishing Century Date Change        this framework, we track progress
                                                                                                                    Initiative Project Office and its       and cost based on 5 reporting
                                                                                                                    oversight                               categories and their potential
                                                                                                                                                            impact on a priority business
                                                                                                                                                            activity.

CIO: Donald W. Upson, Secretary of Technology, Office of Technology, 9th Street Office Bldg., Ste. 503, Richmond, VA 23219, Phone: 804-786-9579 Fax: 804-786-9584 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1876776f586b6c796c7d366e79366d6b">[email&#160;protected]</a>
Contact: Bette H. Dillehay, Director, Century Date Change Initiative, Council on Information Management, Project Office, Washington Bldg., Ste. 901, 1100 Bank St., Richmond, VA 23219, Phone:
 804-786-8163 Fax: 804-371-7952 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d6d0ddd8d8d1dcd5cdf4d7ddd99ac7c0d5c0d19ac2d59ac1c7">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              WASHINGTON (Last updated 9/16/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             None.
458                                50%                                     $83.5M                                  Yes, Liability (failed in last
                                                                                                                    session, SB6718-Year 2000 liability
                                                                                                                    of state and local governments)

CIO: Steve E. Kolodney, Director, Dept. of Information Services, 1110 Jefferson St., SE, P.O. Box 42445, Olympia, WA, 98504-2445, Phone: 360-902-3500 Fax: 360-664-0733 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e5d5a4b584b456e4a475d00594f00494158">[email&#160;protected]</a>
Contact: Steve E. Kolodney, Director, Dept. of Information Services, 1110 Jefferson St., SE, P.O. Box 42445, Olympia, WA 98504-2445, Phone: 360-902-3500 Fax: 360-664-0733 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="097a7d6c7f6c62496d607a277e68276e667f">[email&#160;protected]</a>
Contact: John O. Saunders, Manager, Year 2000 Program Office, Dept. of Information Services, 1110 Jefferson St., SE, P.O. Box 42445, Olympia, WA 98504, Phone: 360-902-3526 Fax: 360-586-8992,
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84f7e5f1eae0e1f6f7c4e0edf7aaf3e5aae3ebf2">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             WEST VIRGINIA (Last updated 9/11/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             IS&C will complete its remediation by
59--critical applications          80% of all software that IS&C is        Not Available. Higher education is      None.                                    June 30, 1998. All other agencies
 identified, as of 9/9/98--31 are   responsible for has been completed.     included in the monitoring but cost                                             will complete contracted work by
 compliant.                         No data is available for software       not available.                                                                  December 31, 1998, with the
                                    remediation contracted for by other                                                                                     exception of four critical systems.
                                    state agencies.                                                                                                         These four will be completed on or
                                                                                                                                                            before June 30, 1999.

CIO: Samuel M. Tully, Ph.D., Spec. Asst. to the Gov't & CTO, Governor's Office of Technology, 505 Capitol Street, Ste. 200, Charleston, WV 25305, Phone: 304-558-3784 Fax: 304-558-0136
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5a6a1a0b9b9ac95b2baa3b0a7bbbaa7fbb6bab8">[email&#160;protected]</a>
Contact: N. Michael Slater, Director, IS&C, Dept. of Administration--ISC, Bldg. 6, Rm. B110, 1900 Kahawha Blvd. E., Charleston, WV, 25305, Phone: 304-558-5311 Fax: 304-558-4867
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f598869994819087b5928298949c99db8681948190db8283db8086">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                               WISCONSIN (Last updated 7/22/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\n/a                   (in millions)                           or proposed in your state?             None.
21 (The 43 state agencies in                                               $35M                                    Considering liability.
 Wisconsin state government
 manage 102 critical
 applications, per our own
 definition--see www.state.wi.us/
 y2k/critapps.htm for the
 definition. The identification
 of critical was based on an
 agency perspective.

CIO: Bruce Reines, Director, Bureau of Technology Policy & Planning, Dept. of Administration, 101 E. Wilson, 8th Floor, P.O. Box 7844, Madison, WI 53707-7844, Phone: 608-266-8878 Fax: 608-266-
 2164 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e2c3b37303b293c1e333f3732702d2a3f2a3b702937702b2d">[email&#160;protected]</a>
  Contact: Bill Braham, Information Technology Coordinator, Technology Management, Dept. of Administration, 101 E. Wilson 8th Floor, P.O. Box 7844, Madison, WI 53707-7844, Phone: 608-266-0625
                                                                            Fax: 608-266-2164 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbb9a9bab3bab99bb6bab2b7f5a8afbaafbef5acb2f5aea8">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                WYOMING (Last updated 9/25/1998.)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
How many critical systems do you   What percent of these critical systems  How much do you estimate it will cost?  Has Year 2000 legislation been passed   Comments
 manage? \1\                        are converted? \2\                      (in millions)                           or proposed in your state?             ITD will be meeting with the Joint
26 (17 are managed by the          30%                                     (Not including higher education) WY     Legislation is being considered, but     Appropriation Committee on July 27
 Division of ITD and 9 are                                                  has spent to date $10.5+ million with   noting formal is available at this      to discuss our situation.
 managed by the respective                                                  another $4.7 million obligated. We      time.
 agencies                                                                   are also in the middle of an
                                                                            inventory and assessment validation
                                                                            contract ($1.35 million) that will
                                                                            give us the numbers of what we have
                                                                            to do to complete our Y2K
                                                                            remediation.

CIO: Larry Stolz, Chief Information Officer, Info. Planning & Coordination Division, Dept. of Administration & Information, Emerson Bldg., Rm. 214, 2001 Capitol Ave., Cheyenne, WY 82002,
 Phone: 307-777-6410 Fax: 307-777-3696 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f031c1b0003152f02061c1c0c411c1b0e1b0a411816411a1c">[email&#160;protected]</a>
Contact: A. Evonne Rogers, Year 2000 Project Leader, Information Technology Division, Dept. of Administration, 2001 Capitol Avenue, Rm. 237, Cheyenne, WY 82002, Phone: 307-777-5072 Fax: 307-
 777-6725 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76130419111304361b1f05051558050217021358010f580305">[email&#160;protected]</a>
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ ``Critical systems'' would be defined as systems which effect public safety, public health, and financial and personnel aspects of government services.
\2\``Converted'' would be defined as complete assessment, remediation, and testing.
Note: Survey results reflect ``best guess'' estimates on behalf of the states and is as current as the dates listed in the column ``Date Last Updated.'' They are intended as a reference point
  for NASIRE members and should not be reproduced without permission of NASIRE. Please contact individual state Y2K Coordinators or CIOs for confirmation or updates of survey results.

                                 ______
                                 

        Responses of John Thomas Flynn to Questions Submitted by

                            Chairman Bennett

    Question 1. NASIRE, as representative of 50 state CIO's, has a 
perspective on Y2K problems that is unique. Would you please tell the 
Committee the three to five functional areas where state governments 
are having the most difficulty in Y2K remediation?
    Answer.
                  1. The number of legacy information technology 
                systems is high and many of them are quite old, making 
                it more difficult to find resources with the required 
                knowledge to effect the needed remediation.
                  2. The proliferation of desktop systems has resulted 
                in an almost endless variety of software which runs on 
                those desktop systems, all of which must be assessed to 
                ensure that they are Y2K compliant and replaced where 
                they are not. The costs are expected to be 
                considerable.
                  3. Legislative and federal mandates continue to 
                require resources and effort by the same staff that is 
                heavily involved in the Y2K remediation effort.
                  4. Ensuring that all of the interrelationships 
                between systems, both at the state level and with other 
                external entities, are identified and addressed.
                  5. What we don't know.
    Question 2. The 50 states house the 3,800 counties where all the 
265 million Americans live.
    a. Is there any relationship between state and county governments 
in the Y2K remediation process?
    Answer. Yes, there is. As an example, in the state of California, 
there is an intergovernmental task force chaired by the state CIO and 
includes some County CIO's and/or their representatives.
    b. What are the critical Y2K interfaces and interconnections 
between state and county governments that potentially could have 
serious impact on the public?
    Answer.
                1. Emergency response
                2. Law enforcement
                3. Health and welfare
                4. Revenue
                5. Transportation
    Question 3. Has NASIRE made any arrangements to share technical 
resources between states after the Y2K date if emergencies occur?
    Answer. No.
    Question 4. The Gartner Group presentation seems to rate the State 
Y2K efforts less complete than the NASIRE data. Would you comment on 
the level of accuracy on the NASIRE self-reporting online survey?
    Answer. There is no universally accepted national standard for 
reporting on the Y2K remediation effort. I do not know the source of 
the Gartner statistics. The NASIRE survey represents each individual 
state's assessment of its Y2K effort based on its own standards, and 
was updated immediately prior to my appearance before the Committee. 
However, as you have noted in your question, self-reporting is not 
validated.
    Question 5. Mr. Flynn you made some very telling points in your 
testimony concerning responses to emergency situations like hurricanes 
and power outages that were single events. What do you think will 
happen nationally where multiple information technology breakdowns 
within and between states may occur?
    Answer. This is why all of the states and their departments need to 
address business continuity planning for all high impact scenarios as 
soon as possible. The business continuity planning must also include 
global scenarios addressing potential problems, not just within a state 
but across the nation. In California, our departments are beginning to 
address business continuity planning now. As with other states, we are 
putting a lot of effort into determining with whom we interface and how 
we interact with entities outside of the state departments, whether 
that be local governments, the Federal government, the private sector 
or other states.
    Question 6. The results of the Gartner Group survey which Senator 
Bennett presented today paints a much bleaker picture of overall 
preparedness than does the NASIRE survey which you provided us with 
today. Would you comment on why there might be discrepancies between 
these two surveys? Do you feel that this is a good example of why 
independent verification of an organization's Y2K status is important?
    Answer. As noted above, there is no universally accepted national 
standard for reporting on the Y2K remediation effort. Even within 
individual states, it has been difficult to reach consensus on what 
constitutes a ``system,'' what ``mission critical'' means (what is 
mission critical to one department may not be mission critical to the 
state as a whole), and what are the completion criteria which indicate 
compliance. Independent verification of an organization's Y2K status 
would be more useful if there is universal agreement on the metrics to 
be used to measure the status of the Y2K remediation effort.
    Question 7. Surveys such as that which NASIRE performed are very 
important in assessing how sectors such as state government are 
preparing for Y2K. However, we are concerned that surveys that are not 
carefully controlled and result in a rosier assessment than is 
justified might do more harm than good and can lead to a sense of 
complacency. When we look at the actual data reported, we find wide 
variations, such as New Mexico which reports over 4400 critical 
systems, and New Jersey which reports only 195. Our question for you 
is, in general, what steps has NASIRE taken to validate the data?
    Answer. NASIRE does not have the resources available to validate 
data from individual states. NASIRE has made the assumption that the 
individual states have established their own standards for assessing 
and reporting the progress of their agencies and departments to their 
Legislatures and administration. Since there is no national standard, 
we have to rely on the standards set by the individual states.
                               __________

                   Prepared Statement of Ellen Gordon

    Mr. Chairman and members of the committee: On behalf of the 
National Emergency Management Association, I would like to thank you 
for the opportunity to appear before you today to discuss the Year 2000 
technology issue as it relates to emergency preparedness, response and 
recovery throughout the country. NEMA represents the state directors of 
emergency management in all the states and territories who are 
responsible to their governors for protecting life and property from 
disasters and emergencies.
    State Emergency Managers are aware of Y2K issues and the 
possibility that they may be called upon to respond to the consequences 
of a Y2K technology failure or disruption. NEMA recently conducted a 
survey of state emergency management agencies to determine overall 
awareness of the Y2K issue and this is what we learned:
  --All states have Y2K program for state agencies. State Y2K programs 
        differ in organization and implementation strategies.
  --All state emergency managers indicate their emergency operations 
        centers are or will be compliant by Year 2000.
  --All states are confident that their emergency management systems 
        that are owned and operated by the state will be Y2K complaint.
  --At this time, most states cannot assure that emergency management 
        systems being utilized by local governments will be Y2K 
        compliant.
    NEMA has determined that the resolution of the Y2K problem in 
emergency management systems, especially at local government levels, 
needs focused leadership. NEMA has seen reports indicating that up to 
fifty percent of local governments do not believe they have a Y2K 
problem; therefore, it cannot be determined that all levels of 
government emergency management systems such as 911, communication 
systems, alarms, sensors, or other equipment will continue to function 
properly after Year 2000. Embedded systems may lead to failures in 
electrical transmission, water and sewer systems, medical devices and 
telecommunications. Each of these is critical to public health and 
safety.
    As all disasters typically involve local emergency management 
agencies first, NEMA believes that it is important to determine the 
impact of Y2K on local emergency management systems which could produce 
deficiencies in providing for the public health and safety. As 
President of NEMA, I am in the process of urging all state emergency 
management directors to provide information and assistance, as 
appropriate, to their local emergency management agencies. It is 
imperative that capabilities be in place and ready to respond to the 
consequences of a potential Y2K technology disruption.
    As we determine significant problems in emergency management 
systems, I intend to immediately advise the Director of FEMA of any 
major shortfall in local government emergency management systems and 
seek assistance to preclude adverse impact on the public. Hopefully, 
the partnership of NEMA and FEMA can help local governments avoid 
significant adverse consequences of the Y2K dilemma.
Role of state emergency management in Y2K
    Local government has the front line of authority and responsibility 
for events or emergencies. If the emergency overwhelms local resources 
or capabilities, the State provides assistance and resources as 
determined in the State Emergency Operations Plan. The role of state 
emergency management is to coordinate and provide assistance as 
required during a disaster or emergency regardless of whether the 
disaster is a hurricane, tornado, civil riot or a Y2K related major 
disaster. These responsibilities are common to every state's emergency 
operations plan. Most state agencies have disaster preparedness plans 
that include all-hazards preparedness, response arid recovery 
procedures. All State and local government emergency management 
agencies have emergency management infrastructures in place to 
coordinate their agency's role in disaster response and recovery.
    NEMA anticipates the Y2K problem will be dealt with much the same 
as any other disaster--through an integrated and coordinated emergency 
response system that I just described. The resources and types of 
people needed may differ for a Y2K event, but the emergency response 
system remains the same.
Interstate mutual aid
    NEMA administers the national Emergency Management Assistance 
Compact (EMAC), a system for interstate resources to supplement federal 
disaster assistance when merited or replace federal assistance when it 
is not. The goal of the EMAC is to provide rapid assistance using the 
closest available resources. As an interstate mutual aid agreement, the 
EMAC establishes the legal mechanism and operational procedures to 
facilitate rapid disaster response using the unique resources possessed 
by member states in the form of personnel, equipment and materials.
    Currently, twenty-two states and one territory are signatories to 
the compact. Several more states are planning to introduce the compact 
into their state legislatures in 1999. EMAC has been tested extensively 
this year during the Florida wildfires and Hurricane Bonnie. As we 
speak, a number of EMAC member states are providing assistance to the 
Gulf Coast states impacted by Hurricane Georges. These recent 
activations have proven that EMAC works. It is an efficient and 
effective system for states to help each other during disasters.
    Interstate mutual aid through compacts like EMAC, may prove 
extremely beneficial should the infrastructure fail in a Y2K scenario, 
particularly if only a few areas within a state or a region are 
impacted. However, should all states be impacted in a significant 
manner, mutual aid between states may not be possible. Individual 
states will not be able to spare limited personnel or resources outside 
state boundaries.
Federal assistance to state and local governments
    Should state resources and capabilities be overwhelmed by Y2K 
problems, states would look to the Federal government for assistance. 
At this time, state emergency management agencies through NEMA are 
working with FEMA and other Federal agencies with responsibilities in 
the Federal Response Plan as to the procedures needed in responding to 
a multi-state event due to Y2K technological failures or disruptions.
    In summary, NEMA, with the support of its member states and 
territories and in partnership with FEMA, is working to ensure state 
emergency management systems are Y2K compliant. I am also pleased to 
report that many state emergency management agencies already have plans 
to activate their emergency operations centers on December 31, 1999. 
Many are also planning to ``run up the clock'' on their systems prior 
to December to test the systems. Y2K preparedness activities are in 
addition and complementary to our mission of coordinating and 
facilitating resources to minimize the impact of disasters and 
emergencies on people, property, the economy and the environment.
    The most immediate need is for states to work with their local 
governments to identify potential system failures and develop 
contingency plans to manage the consequences of those failures. In 
addition, the states need more information and guidance from the 
Federal government as to what assistance will be available to state and 
local governments in a Y2K ``disaster,'' particularly if it becomes a 
multi-state event.
    Thank you again for inviting NEMA to provide testimony before you 
today on this important issue. I would be happy to answer any questions 
you may have at this time.
                                 ______
                                 

  Responses of Ellen Gordon to Questions Submitted by Chairman Bennett

    Question. What are your expectations regarding the Federal 
Government's role in assisting states in responding to Y2K disruptions?
    Answer. NEMA suggests that FEMA and other federal agencies support 
states through the same mechanisms as in any other emergency situation, 
whether man-made events or natural disasters. If state and local 
emergency management capabilities are insufficient to manage the 
consequences of Y2K-related disruptions, states will request assistance 
through the Stafford Act.
    In addition, NEMA recommends that FEMA and other relevant federal 
agencies begin identifying high-risk areas and potential threats 
related to the Y2K problem. These agencies should then share this 
information through their outreach efforts with states. Such 
information is important because states and localities may be unaware 
of non-compliant facilities within their jurisdictions.
    Question. As you interpret it, how do potential Y2K disruptions fit 
within the scope of the Stafford Act's definitions of ``disaster'' and 
``emergency?''
    Answer. Disruptions resulting from the Y2K problem may qualify as 
emergencies and disasters as defined by the Stafford Act. The Y2K 
problem has the potential for significantly impacting public health and 
safety and therefore may require state assistance. If the negative 
consequences of the Y2K problem exceed both state and local resources, 
the Stafford Act authorizes the governor to request federal assistance. 
Whether Y2K-related disruptions are considered ``emergencies'' or 
``disasters'' will depend upon the magnitude of each situation.
    Question. What impediments do you see in terms of the federal 
government's ability to respond to Year 2000 related disruptions or 
emergencies?
    Answer. Federal agencies in the Federal Response Plan that are not 
compliant will be impediments to the effective response to any Y2K-
related emergencies. In addition, it is essential that all requests for 
federal assistance be processed in a timely and efficient manner.
    Question. What recommendations do you have for FEMA regarding steps 
that the agency can take prior to the Year 2000 in preparing itself to 
respond to requests for assistance from states or localities suffering 
from Year 2000 problems?
    Answer. FEMA should work to ensure that all federal agencies in the 
Federal Response Plan are Y2K compliant and prepared for any potential 
consequences which may occur. FEMA should also partner with states to 
identify high-risk areas and potential threats within their 
jurisdictions and to develop fail-safe plans in the event any critical 
infrastructure fails.
    Question. What would you consider to be the ``threshold'' beyond 
which we might expect that a state would request assistance from the 
Federal government in response to Year 2000 problems?
    Answer. The ``threshold'' for requesting assistance for Y2K-related 
emergencies should be the same as any other type of emergency as 
defined by the Stafford Act. If state and local emergency management 
capabilities are insufficient to respond to the consequences of the Y2K 
problem, governors can then ask the President to issue a federal 
disaster declaration.
    Question. Describe the efforts being made by state emergency 
managers to assess the state of readiness of the emergency management 
systems at the county and local level?
    Answer. Overall, state emergency management directors have begun 
working closely with local coordinators to improve awareness of the Y2K 
problem, ensure that critical emergency response systems are compliant, 
and assess the threat to local public health and safety. States have 
been asked to survey local coordinators as part of FEMA's and NEMA's 
efforts to increase awareness in the emergency management and response 
community.
    Question. As a state emergency manager, what role do you envision 
for the National Guard in the event of Y2K disruptions?
    Answer. As with any other state emergency, NEMA strongly recommends 
that the National Guard remain state assets. The National Guard should 
be at the governors' disposal should any Y2K-related emergencies occur.
    Question. It was very interesting to hear of the results of the 
NEMA survey of state emergency managers. It is reassuring to hear that 
all 50 Emergency Operations Centers will be Y2K compliant in time. Can 
you tell me how confident you are with these results? Will NEMA take 
any steps to independently verify these results?
    Answer. The survey results represent the opinions of state 
emergency management directors and their staffs on whether their own 
critical systems will be compliant. It is NEMA's understanding that all 
states now have programs tasked with ensuring that state agencies are 
Y2K compliant. NEMA has asked the states to survey their local 
counterparts as part of FEMA's assessment efforts. The results of this 
assessment should be available in November 1998.
    Question. You mentioned that Y2K emergencies will be like other 
emergencies, but that different resources and types of people will be 
needed to respond. When is it likely that you will know what those 
resources and skills are so that you can take steps to assure you will 
have them in an emergency situation?
    Answer. State emergency management agencies across the nation are 
active partners in interagency Y2K councils and task forces. This 
partnering and communication throughout state government provides an 
excellent forum to identify resources and types of personnel needed to 
address this problem.
    Question. You rightly point out that EMAC may fail for a large 
scale problem like a Y2K outage since each participant in the compact 
may be reluctant to share limited resources since they might be 
uncertain of what their own state's needs might be. Does this mean that 
everyone will then be seeking federal assistance?
    Answer. Whether there will be a significant demand for federal 
resources will depend upon the impact of Y2K disruptions and the 
ability of state and local authorities to respond. If states experience 
only minor disruptions, there will only be a few requests and EMAC 
assistance may be adequate. If states experience major emergencies, 
EMAC assistance will probably be inadequate or unavailable. In this 
case, the federal government will be a key response organization since 
state, local and private resources will probably be exhausted.
    Question. You mentioned that many state emergency management 
agencies already have plans to have their Emergency Operations Centers 
up and running on December 31, 1999. Can you tell us how many plan to 
do this, and which states they are.
    Answer. Because EOC's are usually operational only during confirmed 
emergencies, the decision to activate them will depend upon each 
state's own risk assessment and level of preparedness. At least ten 
states have reported plans to activate their EOC's prior to January 1, 
2000, including Delaware, Florida, Idaho, Indiana, Iowa, Maine, 
Maryland, New Hampshire, Washington, and Wisconsin. Other states are 
conducting risk assessments to determine whether full EOC activation 
will be necessary.
                               __________

                 Prepared Statement of John A. Koskinen

    Good morning, Mr. Chairman. I am pleased to appear again before the 
committee to discuss the role of the President's Council on Year 2000 
Conversion in the development of contingency plans and appropriate 
emergency responses to any difficulties that may arise as we make the 
transition to the year 2000 (Y2K).
    Before I discuss this issue, let me express the Administration's 
appreciation for the strong support this Committee has provided in the 
development and passage of the ``Year 2000 Information and Readiness 
Disclosure Act.'' In particular, the assistance you, Mr. Chairman, 
Senator Dodd and Senator Kyl have provided has been an indispensable 
part of the success we have achieved. As the President has said, this 
bipartisan legislation provides us with an important opportunity to 
help our Nation prepare its computer systems for the new century.
    I would also note that this Committee has made a major contribution 
in promoting awareness of, and action on, the Y2K problem with hearings 
that have examined public and private sector progress in important 
economic sectors that range from electric power to transportation to 
telecommunications. While all of us need to continue to support the 
efforts of Federal agencies to prepare their systems--and several 
Federal agencies still face significant challenges in preparing their 
mission-critical systems for the year 2000--the real risk of major 
disruptions comes from possible failures outside the Government, 
particularly among small and medium-sized organizations in both the 
public and private sectors.
    Even with the best efforts of all of us, we need to understand and 
expect that not every system and embedded chip will be found and fixed. 
To minimize disruptions caused by these failures, businesses and 
government agencies must focus on contingency planning in addition to 
their remediation efforts.
                       federal agency activities
    Federal agencies are developing continuity of business plans for 
their core business functions. OMB, in its quarterly progress reports, 
has asked the agencies to report on their progress in this area, and is 
looking closely at their planning activities as it develops the 
President's fiscal year 2000 budget. OMB is also engaged in preliminary 
reviews of possible emergency expenditures should Congress provide such 
funding. OMB has encouraged agencies to review the recent GAO guidance 
on contingency planning along with the plan developed by the Federal 
Government's leader in addressing the year 2000 problem, the Social 
Security Administration. Agencies with the greatest year 2000 
challenges are the ones most in need of business continuity plans.
              promoting awareness of contingency planning
    Through the outreach efforts of our more than 30 sector working 
groups, the Council is encouraging agencies and organizations outside 
the Federal Government to prepare two types of contingency plans. 
First, we are stressing the need for organizations to develop a plan 
that addresses internal system failures. For this plan, an organization 
needs to be asking, and answering, key questions such as: If some of 
our internal systems fail, how will we continue our core business 
processes?
    The second type of plan needs to address the potential for failures 
in external systems upon which organizations depend for their day-to-
day activities. These systems can run the gamut from those that help to 
provide basic services, such as water or power, to those that support 
the activities of key vendors or suppliers. Organization heads need to 
ask themselves: What are our critical external dependencies? Are any of 
those dependencies likely to have problems? How will we function if 
they do?
    Federal agencies have had to confront the second type of 
contingency planning in their relationships with the States. In many 
cases, States help to carry out important Federal programs such as 
Medicaid and unemployment insurance. These programs depend upon 
Federal-State data exchange points, and Federal agencies have been 
working with their State counterparts to ensure that these exchange 
points are compliant. But even if the data exchange points are ready 
for the year 2000, service delivery could still be jeopardized if the 
State systems behind the data exchanges fail. Federal agencies like the 
Labor Department, for the unemployment insurance program, are now 
working with the States to ensure that backup plans are ready to 
support continued service delivery should State systems, or other non-
Federal systems, fail.
             helping to understand what is likely to happen
    One of the Council's most important roles in the coming months will 
be to develop assessments of what is likely to be the impact of the 
year 2000 problem in key sectors of the economy. This information will 
be important to organizations as they develop and refine their 
contingency plans. For example, everyone is concerned about having 
electric power. But that doesn't mean that they should all immediately 
buy their own generators without having a better sense of where outages 
are possible and what their likely duration will be.
    The Council has established cooperative working relationships with 
umbrella groups in electric power and other important sectors. The 
focus has initially been on increasing awareness and the level of 
activity by those operating in each sector. We are also, however, 
developing assessment processes whereby the umbrella groups will be 
surveying their members on a regular basis to determine their state of 
readiness. Summary reports will then be provided to the Council and the 
public. Good examples of this process can be seen with the reports the 
Council received recently from the Electric Power and Oil and Gas 
Working Groups. These assessments provide us, and the public, valuable 
information about the status of these important industries. Over time, 
such information will allow everyone to adjust their contingency plans 
appropriately.
    I might note that the ``Year 2000 Information and Readiness 
Disclosure Act'' will increase our ability to obtain assessments since 
it provides protection to the information provided by individual 
companies to their umbrella groups, thereby increasing the likelihood 
of candid responses.
                 federal emergency response mechanisms
    As you know, the Federal Government, in coordination with State and 
local governments, plays a key role in responding to disasters and 
other emergencies and is looked to for leadership at those times. I 
will let Mr. Suiter of FEMA describe in more detail the Federal 
Government's role, but I would point out that the year 2000 problem 
provides a unique emergency response challenge.
    With most major emergencies, such as hurricanes or blizzards, 
authorities are dealing with one localized problem in a town, county, 
State, or region. With the Y2K problem, however, it is possible that 
emergency response systems could face multiple system failures 
occurring at roughly the same time in different places. For example, in 
a worst case scenario for a city or town, authorities could face the 
failure of the power plant, the water treatment plant, and transit 
systems. And such problems could occur in many different towns, cities, 
or regions at the same time. While no one of them alone may be a major 
problem, simultaneous failures will test the capacity of our emergency 
response systems, and I am pleased that FEMA has agreed to chair the 
Council's Emergency Services Working Group.
    The Federal Government has separate response systems related to 
specific types of emergencies. Internationally, we have an apparatus 
for responding to emergencies such as famine and refugee assistance as 
well as military threats. Domestically, we have the systems and 
relationships that FEMA will discuss with you. We are presently 
reviewing our inventory of emergency response mechanisms and 
authorities to ensure that there is no confusion across organizational 
lines on January 1, 2000 and that we can handle the possibility of 
multiple requests for the same resources.
    In addition to FEMA, which has the lead on domestic emergency 
issues, the Council is working with the National Security Council, the 
Departments of State, Defense, and Justice, and others who are 
responsible for challenges we may face internationally to coordinate 
Federal emergency response efforts. In particular, we are beginning to 
look at scenarios that may involve disruptions in key foreign countries 
as well as difficulties at home so that we can map out plans for 
appropriate Federal action. In foreign countries, we are concerned 
about how Y2K-related disruptions may affect our embassies, American 
citizens living abroad, and American businesses. At home, we anticipate 
that the multiple burdens placed upon State and local disaster 
authorities may result in an increased demand for Federal help.
    The American people have confidence in our ability to respond in 
the wake of natural disasters. As we have seen with the recent 
hurricanes in the Carolinas and the Gulf Region, many are reluctant to 
leave their homes, not only because they want to protect their 
property, but because they are confident that emergency response 
authorities can maintain order and provide key services no matter what 
the situation. Our objective is to ensure that the American people have 
the same level of confidence in the Federal Government's ability, and 
that of their State and local officials as well, to respond to any year 
2000-related disruptions.
               monitoring the transition to the year 2000
    We all want to ensure a smooth transition to the year 2000. For 
most organizations, including Federal agencies, the primary year 2000 
focus up to this point has been on fixing or replacing non-compliant 
systems and embedded chips. But as we enter 1999, that will change.
    The Council is committed to encouraging businesses and helping 
Government agencies to prepare for likely problems and to develop 
viable contingency plans. We have to expect some problems on January 1, 
2000. If we share information and plans, however, we can generate 
public confidence in our preparedness and minimize the impact of those 
problems on everyone.
                                 ______
                                 

   Responses of John A. Koskinen to Questions Submitted by Chairman 
                                Bennett

    Question 1. Mr. Koskinen, everything you say in your statement is 
true regarding what we need to do and the urgency of getting it done. 
However, I must say I am disappointed by the total lack of specifics in 
your testimony. We are now less than 15 months, or 5 fiscal quarters, 
from midnight, December 31, 1999. The country needs a clear action plan 
with leadership from the executive branch to deal with this problem.
    By the end of today, this committee will have heard from 70 
witnesses. Repeatedly, when questioned about the status of contingency 
plans, the response we heard was, ``It's very difficult to plan while 
so much is unknown. We need better information.'' In addition, if the 
witness was from a Federal agency, we frequently were told that they 
were waiting for guidance from the President's Council. Can you tell us 
when we will see sector assessments from the President Council? Can you 
tell us what is taking so long? What is it going to take to accelerate 
the release of these assessments?
    Answer. The Council's working groups continue to work with their 
industry partners to gather information for assessments on the status 
of year 2000 efforts in key economic sectors. As noted in my testimony, 
we have recently received initial industry assessments for two critical 
areas--electric power and oil and gas. These assessments are available 
to the public and will be updated regularly.
    Our goal is to have initial assessments for the other key economic 
sectors, which we will also make available to the public, before the 
end of this year. Once completed, these assessments will have provided 
us a process that we can replicate to update them throughout 1999.
    The time frame for these initial assessments is dictated largely by 
where industries are in the process of remediating their systems. Much 
like the Federal Government, most private sector entities will not have 
completed their testing work until the end of this year or the 
beginning of 1999. That information--where industries are after they 
have completed the bulk of their testing--is what will be most valuable 
in determining where disruptions are most likely to occur and what 
contingency plans are most appropriate.
    The Council is committed to continue to work with umbrella groups 
and industry associations to do whatever it can to expedite their 
information gathering. We have constructed a standard assessment 
template for use in information gathering and are hopeful that the 
recently enacted ``Year 2000 Information and Readiness Disclosure Act'' 
will encourage companies to be more willing to answer queries about 
their progress.
    Question 2. Mr. Koskinen, have you provided any target dates for 
the completion of the remaining assessments? Do you anticipate that the 
assessments will become specific as time moves on and offer more 
insight to where we might experience regional problems? I have told the 
Council's working group chairs that the target date for the completion 
of initial assessments is December 11, 1998. Those that cannot meet 
that time table will advise us when the first assessments provided by 
the private sector umbrella groups and industry associations will be 
available.
    Answer. As we move through 1999, assessments will undoubtably 
become more refined, with information on where in the country 
industries foresee the greatest likelihood for disruptions. The Council 
is also committed to maintaining a dialogue with State and local 
officials on the potential for regional disruptions in the public 
sector services which continue to concern us greatly.
    Question 3. FEMA contends that without assessments they cannot 
begin Y2K emergency preparedness planning. When do you think FEMA can 
expect to have these so they may begin their planning efforts? How 
would you advise FEMA to plan in the absence of such assessments?
    Answer. As was the case for the electric power and oil and gas 
sectors, FEMA will have assessment information as soon as the Council 
does. But as Mr. Suiter testified, while FEMA would like to have the 
most detailed information on the status of year 2000 efforts in key 
sectors as soon as it is available, there are things that it can do, 
and is doing, to prepare for the possibility of emergencies created by 
the year 2000 problem.
    FEMA has met with the Federal agencies that play key roles in 
emergency response and has been working to ensure that those agencies 
will not have difficulties in getting resources to where they need to 
be should emergency situations develop on January 1, 2000.
    FEMA has also been communicating with State and local emergency 
response officials to make sure that systems at those levels will be 
ready for the year 2000. FEMA is beginning a series of regional 
meetings with local response agencies to prepare them for the unique 
aspects of possible year 2000 failures. FEMA plans to report in greater 
detail about the general preparedness of the country's emergency 
systems in the first quarter of next year.
    Question 4. Under the Assignment of Emergency Preparedness 
Functions of Executive Order 12656, the Director of FEMA is tasked to 
act as an advisor to the National Security Council on issues of 
national security and emergency preparedness, including civil defense, 
continuity of government, and technological disasters. In most of our 
hearings we have viewed Y2K as a management problem, do you think Y2K 
would qualify as a technological disaster? Do you think the Director of 
FEMA and the NSC should be discussing Y2K and the possible implications 
it may hold for national security and emergency preparedness?
    Answer. Until January 1, 2000, whether or not the Y2K problem will 
qualify as a technological disaster remains to be seen. However, 
recognizing the unique nature of the problem and the challenges it 
poses, we have coordinated meetings between FEMA, NSC and other Federal 
response agencies such as the State Department, and they have already 
begun to work together to review Y2K impacts on national security and 
emergency preparedness. Senior level officials from the NSC and FEMA 
now meet regularly to discuss how they can best coordinate their 
efforts over the next 14 months.
    Question 5. Mr. Koskinen, you have expressed concern about the 
international sectors. Could you please tell us which portions of the 
world concern you the most?
    Answer. Like businesses and other organizations, countries that are 
paying attention to the problem are of less concern than those that are 
not. Countries that are aware of the problem and are working on it are 
basically doing all we can ask of them. But those that are not paying 
attention, or think the problem doesn't apply to them, are the source 
of our greatest risk.
    That being said, the countries of most concern are developing 
nations around the world, particularly in South and Central America, 
and Africa. We are also concerned, however, about countries whose more 
immediate economic challenges hamper their ability to devote 
appropriate attention to the Y2K problem, as is the case for many South 
Asian nations, Russia, and the Newly Independent States.
    To help bring greater coordination to the work of countries around 
the world, we are arranging with the United Nations to organize a 
meeting of national year 2000 coordinators from around the world in New 
York City on December 11, 1998. But the magnitude of the global 
challenges should not be underestimated.
                               __________

                 Prepared Statement of Senator Jon Kyl

    On Monday night, the Senate passed the Chairman's ``Year 2000 
Information Disclosure Act'' (S. 2392) by unanimous consent, and around 
5:30 p.m. yesterday evening the House passed S. 2392. I would like to 
thank our colleagues in the House for their strong support and fast 
passage of the bill. The rapid bi-partisan efforts to pass this 
legislation demonstrates how serious Congress is about the Year 2000 
computer problem. I think it has become obvious to every member of this 
Committee that prospective Y2K failures present a very serious problem 
for the United States, and for other nations as well. Because of the 
potential adverse consequences for our nation's security, economic 
health, and public safety, we need to do everything we can to keep Y2K 
failures from happening. In every hearing of this Committee, the 
different industry sectors have all asked for help in sharing 
information.
    Chairman Bennett asked me to look into this legal impediments to 
information sharing and to review S. 2392. At my direction, Senate 
Judiciary and Y2K Committee staff hosted a series of industry briefings 
over the summer on their information-sharing concerns, followed by 
negotiations among an ad hoc, bipartisan group of Congressional staff, 
industry, and Administration representatives. The result was a well 
crafted narrowly constructed piece of legislation which enables 
industry to exchange the Y2K information needed to prevent failures.
    The purpose of the legislation is to ensure that concerns over 
liability do not have a chilling effect on sharing essential Y2K 
information. So, for example, if in good faith you provide information 
about what you have done to fix some Y2K glitch, you can't be sued just 
for providing that information if it later proves to be incomplete, 
confusing or misleading to someone else. Of course, if you deliberately 
lie, or are reckless in what you say, this bill won't protect you. It's 
also important to understand that this bill does not absolve anyone of 
responsibility for damages that may arise from Y2K failures.
    Clearly, the Y2K problem has the potential to impact our nation's 
emergency response systems and operations which are heavily dependent 
upon information technology. The ``Year 2000 Information Disclosure 
Act'' will be critical in helping to prevent failure, improve readiness 
and promote contingency planning. However, despite the best efforts of 
industry and government to prepare for Y2K, there may be failures. The 
severity and length of time for these disruptions is not known. 
Indications are that Y2K will be more of an inconvenience that a 
catastrophe. However, we must push beyond complacency and carefully 
consider the contingency planning that may be necessary in the Year 
2000.
    Y2K contingency planing is unique, because of the uncertain 
reliability of the infrastructures we rely on in an emergency. Relying 
on old contingency plans is not enough. From a state and local 
perspective it is critical that law enforcement, firefighters and other 
first responders begin to think broadly about the reactions they may 
encounter in their communities because of the Y2K problem. For example, 
a coincidental failure of an ATM at a local bank could cause people to 
panic thinking that a Y2K problem has put their money is at risk.
    My Subcommittee on Technology and Terrorism has been looking at 
emerging information warfare threats to our nation's critical 
infrastructures, such as telecommunications, power, and transportation, 
and what we need to do to protect them. Our inability to map the 
critical interconnections in our national information infrastructure 
(NII) demonstrates not only a weakness in our Y2K contingency planning 
efforts, but the need for a more reasoned security policy.
    I would like to thank the chairman for this timely hearing. 
Preparation, and not panic, is the key to successfully meeting the 
challenges of Y2K. And hopefully, in the course of meeting these urgent 
Y2K challenges, we will gain insights into how to make America's 
critical infrastructures more robust and secure against other, more 
deliberate, threats.
                               __________

             Prepared Statement of Gov. Michael O. Leavitt

    Thank you Senator Bennett and members of the committee for the 
opportunity to testify about the state of Utah's progress in preparing 
for the Year 2000 technology problem and to provide you, on behalf of 
the National Governor's Association, an overview of the preparedness 
response from the vantage point of the states.
                           the nga standpoint
    Under the leadership of the governors, states are working to 
address the Y2K problem. Progress is varied. For some it is 
significant--advanced to the point where testing is already under way, 
including testing of law enforcement and emergency management systems. 
Other states lag behind.
    There also are varied degrees of collaboration between state and 
local jurisdictions, which will be the front-line entities to deal with 
public safety and emergency management concerns under best and worst-
case Y2K scenarios.
    Most states are aware of the need to work cooperatively with local 
jurisdictions to ensure that critical systems will continue to 
function. At this point, the challenge is to make sure all governors 
and states reach out to local governments to raise the level of 
awareness about the scope and implications of the problem and provide 
assistance.
    As vice chairman of the NGA, I would like to describe some of the 
steps the governor's association has taken to help states meet their 
Y2K responsibilities.
    In July the NGA hosted a ``Year 2000 State Summit'' attended by 
senior-level policy aides and chief technology officers. Discussions 
centered on state, local and private-sector coordination and on a 
common agenda for the states to ensure public confidence in state 
systems and state-regulated industries.
    Additionally, the NGA has published an issue brief titled ``What 
Governors Need to Know About Y2K.'' It outlines the steps governors 
should take as chief executive officers, guarantors of public safety 
and public leaders. NGA also is working with representatives of groups 
representing other state and local elected officials to promote 
cooperation and communication among all levels of government.
    The NGA welcomes the Senate's passage this week of the ``Good 
Samaritan'' legislation authored and sponsored by members of this 
committee. A significant number of large computer systems and embedded 
systems will experience Y2K-related failures. Greater information 
sharing by private and public entities would only help states prepare 
more effectively.
                           what utah is doing
    The state of Utah is moving forward. Our outlook is one of cautious 
optimism. We are not complacent. Nor are we panicked by the complexity 
of a problem with the potential to disrupt lives and with some 
ramifications beyond the state's control. In essence, we can program to 
cover problems that are known, but we must also plan for a myriad of 
possibilities that remain unknown.
    In the realm of the known--compliance--our progress is measurable. 
Utah began its inoculation drive against the Millennium Bug more than 
two-and-a-half years ago. The first steps involved the testing, 
replacement, and reprogramming of more than 600 information technology 
systems.
    At this time, more than 51 percent of those systems are fully 
compliant. The target date for all systems to be compliant is July 
1999.
    Under a previous decision unrelated to Y2K, the state of Utah 
developed an ``alternate site'' for its data center and mainframe 
computing resources to have backup in the case of an earthquake or 
major emergency. The alternate site is in Richfield, about 130 miles 
from Salt Lake City.
    Half of the state's data center and mainframe resources are located 
there, and as of now, there also is a mainframe set up specifically for 
Y2K testing. The Y2K mainframe allows for full-scale tests of large 
systems, applications and databases as if they were running in the year 
2000.
    Utah's Y2K compliance efforts also include identifying the 
information technology systems that are mission critical--those 
pertaining to public health or safety, collection of revenues and 
disbursement of benefits to those in need. Those systems are receiving 
first priority in the coordination and deployment of resources.
    The unknown component of Y2K falls in the area of contingency 
planning.
    For Utah's Y2K efforts, contingency planning deals with two broad 
categories: (1) What the state will do if information technology 
systems are not remedied in time or they unexpectedly fail due to 
unforseen glitches; and (2) how we will maintain essential services in 
the event that critical infrastructure services are disrupted or cut 
off.
    All state agencies have been directed to consider both aspects in 
their contingency planning and to have complete plans submitted by 
December 31, 1998. Every plan must delineate how services are to be 
delivered, including manual processes that might have to be employed.
    The state has coordinated the purchase of a software package to 
help various agencies conduct detailed contingency planning. The 
agencies furthest along in that planning are also the agencies 
reporting the most work to be done with regard to planning. It is the 
same maxim that applies to the Y2K problem in general: The more you 
look, the more you find. And the more you find, the more it costs. 
Total costs for all Y2K efforts in Utah are expected to top $50 
million.
    Like every state agency, the Division of Comprehensive Emergency 
Management (CEM) has undertaken system remediation and will be in 
compliance long before the date change. In its contingency role, the 
division requires some coordination with the Federal Emergency 
Management Agency. In the next couple of months, CEM expects to install 
the upgraded version of the Federal Emergency Management Information 
System (FEMIS).
    Current schedules call for installation in October of a FEMIS 
upgrade at Tooele County Emergency Management and at the Deseret 
Chemical Depot, the Army facility in Tooele County which stores and 
demilitarizes the largest stockpile of chemical weapons in the United 
States. That installation must occur prior to the upgrade at the state 
division, now slated for the end of December. Those systems will be 
certified by FEMA as being year 2000 compliant.
    The state emergency management division also is in the process of 
integrating Y2K contingency planning with the state's existing 
Emergency Operations Plan--which covers response to disasters ranging 
from earthquakes to dam failures. The authority of the governor is laid 
out in the emergency plan, and drastic Y2K scenarios would be covered 
therein.
    Since I assumed the office of governor in January 1993, I have 
activated the Utah National Guard once--when massive snowfall disrupted 
transportation in the most populous counties, overwhelming the capacity 
of local governments.
    Activation of the Emergency Operations Plan is triggered when the 
governor declares a ``state of emergency.'' If the disaster is beyond 
the capabilities of the local jurisdiction or involves two or more 
counties or a wide area of the state, the state assumes responsibility 
for the overall coordination of all state and local government 
emergency relief operations.
    Those state operations may be augmented by military support 
assistance, special forms of disaster assistance available from federal 
agencies acting under their own statutory authorities or in accordance 
with the provisions of compacts with other states.
    While taking care of its own operations, the state also has a 
vested interest in encouraging Y2K preparation within the private 
sector and at the local level. To facilitate those efforts, I have 
appointed the Governor's Coalition For Year 2000 Compliance to track 
the status of city, county, business and industry efforts and to 
promote general awareness by the public. The state has established and 
maintains a web site to disseminate information about the Y2K problem 
to the public.
    We have established year 2000 coordinators in every school district 
of the state and throughout the higher education system. Those entities 
have been encouraged to develop contingency plans as well.
    Contingency preparation is of paramount concern. Scenarios must be 
plausible, yet broad enough to cover an array of potential 
ramifications. What happens at the city and county level if there is a 
breakdown in the 911 system? What about the compliance of monitoring 
systems at refineries or the systems that control manufacturing 
processes. How do we keep essential state buildings running in the 
event of power failures? Is it realistic to obtain emergency generators 
and food supplies for institutional operations like prisons and the 
state hospital?
    The greatest difficulty in ``business recovery'' or contingency 
planning is trying to decide what scenarios to plan for. In another 
year, we will know much more about Y2K readiness on the part of 
infrastructure providers such as utilities and transportation grids, 
and we will likely need to refine contingency plans continually as we 
move closer to the time when they may be needed.
    Part of the unknown relates to how our large computing systems 
exchange data with the federal government, private entities and other 
states. Even if our system is compliant, problems can be introduced if 
the other data exchanges are not compliant. An inventory of all data 
exchanges with the federal government has been created, and we are 
proceeding to evaluate and test them.
    The task moves forward--system by system; step by step, with the 
foresight we have today and the flexibility to modify what we will know 
tomorrow. We undertook this process early and will continue it through 
the date change to 01-01-00. Utah will not be the first location on the 
globe to roll over to 2000, and we will be monitoring other areas for 
electrical failures, infrastructure breakdowns and business disruption 
when the sun rises on the new millennium in our time zone.
    It is the state of Utah's expectation that we will greet that dawn 
informed, confident, and ready.
                                 ______
                                 

     Responses of Gov. Michael O. Leavitt to Questions Submitted by

                            Chairman Bennett

    Question 1. Would you agree with the assessment that the states 
have a long way to go? In your estimation, can the Federal Government 
be doing more to help state and/or local Governments prepare for the 
millennium rollover?
    Answer. While it is accurate to say there is a long way to go 
still, I do not believe that state governments, on the whole, have 
``too far to go''--in other words, the reporting that is occurring 
through the National Association of State Information Resource 
Executives (NASIRE) and other organizations indicates that most state 
governments are making appropriate progress toward completion of 
compliance efforts. Most States are reporting between 30 percent and 70 
percent completion rates. I can really only speak for our State--in our 
case we are now 60 percent complete with remediation and testing of our 
mission-critical systems and feel we will have all of those systems 
compliant in time. I do not know as much about local governments across 
the nation. In our State, our assessment is that larger municipalities 
are well on their way to becoming compliant, but that some smaller and 
medium-sized cities have only recently begun compliance efforts and 
have much to do still. The Federal Government could help local 
governments by assisting their national organizations in efforts to 
raise awareness and assist in compliance efforts. The best thing that 
the Federal government can do for the states is to assure remediation 
of their own mission critical systems, particularly those that heavily 
support State programs and operations. Additional funding for federally 
mandated systems such as unemployment and welfare systems would be 
useful.
    Question 2. Were all 50 states represented at the NGA's ``Year 2000 
State Summit''? Can you tell us what kind of follow up to expect from 
the summit?
    Answer. 48 of 50 states were represented at the NGA Summit. As a 
result, more states have been involved with support for local 
governments, there is an increased level of understanding between key 
Federal departments and their state counterparts, and both State and 
Federal governments are working to complete data exchange projects. 
NASIRE has completed an online status survey to track overall status of 
the states. Most states expect to have their own systems fully prepared 
for Year 2000. States have become involved with PTI, NaCO, and other 
associations to provide outreach to counties and cities. Many States 
are also working through their public service commissions to monitor 
the status of the utility industry. States have also been involved in 
supporting National Y2K Action Week, SBA's small business outreach, and 
outreach to the education community. A funding problem still exists 
with some local governments. Technical resources continue to be a 
challenge. We will need to work together to address these issues into 
the next century.
    Question 3. From your perspective as one of 50 Governors 
responsible for the safety and well-being of your citizens, what more 
should be happening at the Federal level to help reduce the uncertainty 
in making Y2K preparations?
    Answer. One of the things that would be helpful is alluded to in 
your next question. To the extent that the Federal Government is 
assessing the compliance efforts and readiness of various industry 
sectors (transportation, utilities, financial institutions, etc.) it 
would be helpful if the states could receive regular reports about 
progress in those sectors. That would help the states in their 
emergency response planning efforts. Similar reports about the status 
of Y2K compliance by other countries would also be helpful. As the Year 
2000 date change gets closer, the need for timely and accurate 
information and reporting from the federal government level will 
increase. States' contingency and business continuity plans are 
prepared based on a set of assumptions. As certain types of failures 
are eliminated as possibilities, it becomes easier to determine where 
these efforts should be focused. When the actual date change occurs, an 
``early alert'' system with clearly defined communication channels 
about what is working and what is not in various states and at the 
federal level would be important.
    States need to hear from the IRS on their data exchanges and to 
know the scope of Federal contingency plans. Much could be done to 
coordinate on contingency and business continuity issues. States need 
to be informed of the DOD's ``consequence management'' plan to provide 
resources to local government in emergency situations. There should be 
a national database of all Federal applications that are critical to 
States that includes status information about the progress that has 
been made with renovating, testing, and implementing these systems. 
States could also make available to the federal government detailed 
status information on the progress of federally supported State 
systems.
    Question 4. Governor Leavitt, how would the availability of 
national assessments help your state's emergency response community 
prepare?
    Answer. As indicated in the previous response, regular assessments 
of various industry sectors, as well as regular, accurate information 
about Federal Government information systems, would be extremely 
helpful. One of the things we find in discussing this problem with 
local governments, public safety officials, and emergency response 
personnel, is that most ``emergency operation plans'' that exist to 
respond to natural disasters rely heavily on the concept of ``getting 
help from somewhere else.'' The plans for smaller communities is often 
simply to turn to larger communities, community groups, the Red Cross 
or other aid providers for help. The plans for larger communities is 
often to turn to the State, the National Guard, or the Federal 
Government. State plans often talk about turning to other states or to 
the Federal Government or national associations to bring in help, 
supplies, etc. The problem with Y2K is that these kinds of emergency 
operations plans may not be viable--the answer can't simply be to turn 
to someone else for help, because everyone else will be dealing with 
the problem as well! This may create a serious problem in trying to 
carry out existing emergency operations plans. Communities, states, and 
organizations need to be prepared to draw upon their own people and 
their own resources to deal with possible emergencies and 
contingencies. One thing that would be helpful in emergency response 
planning would be to have the Federal Government help prepare 
information for the States on how the Red Cross, FEMA, and other 
national-level organizations are going to divide up and focus their 
resources in the event of emergencies. What will their priorities be? 
Where will they deploy manpower? If this were to turn out to be a 
nation-wide problem, instead of a regionally localized disaster, will 
they be able to respond, or are they even planning to?
    Question 5. Governor Leavitt, what is the single greatest Y2K 
concern you have for your state and continuity of emergency services?
    Answer. My greatest concerns would be that we ensure the 
continuation of electrical power, water, financial, and 
telecommunications services across the state, that we put in place the 
necessary emergency operations plans to deal with possible problems, 
and that we provide adequate and necessary information to the public 
without creating undue concern or panic.
                               __________

         Prepared Statement of Senator Daniel Patrick Moynihan

    I was delighted to see that the House passed S. 2392 (``The Year 
2000 Information and Readiness Disclosure Act'') last night. The Senate 
passed this bill on Monday night and I am proud to be an original 
cosponsor of this most important piece of legislation. This ``Good 
Samaritan'' legislation is intended to promote the open sharing of 
information about Year 2000 (Y2K) solutions by protecting those who 
share information in good faith from liability claims based on the 
dissemination of that information. I want to make it clear that this 
legislation does not address liability that may arise separately from 
actual Y2K failures of systems or devices. The head of the President's 
Council on Y2K, John Koskinen, said that passing this bill is one of 
the most important things that we could do on the Y2K front. I agree.
    Our hearing today will assess how well prepared Federal, state, and 
local governments are for the Y2K problem. The hearing will focus on 
the ability of these governments to continue to provide emergency 
services in the wake of the Y2K problem, and their responsibility in 
addressing potential Y2K related emergencies or disruptions. The 
results so far show that much work remains to be done.
    In a survey of the fifty state governments, the GartnerGroup found 
that none of the states have completed their testing and implemented 
contingency plans. The survey also found that ten percent of state 
governments have not even begun to address the problem yet. Closer to 
home, New York State Comptroller H. Carl McCall released a survey on 
the progress of New York State local governments on the Y2K problem. 
The survey found that many of New York State's local governments, 
particularly smaller ones, are unprepared to face the Y2K problem. I 
commend Mr. McCall for the work he has done on this issue and for doing 
this survey. But the survey reveals that New York, as does the rest of 
the country, has a lot of work to do in a very short amount of time.
    On July 31, 1996, I sent President Clinton a letter expressing my 
views and concerns about Y2K. I warned him of the ``extreme negative 
economic consequences of the Y2K Time Bomb,'' and suggested that ``a 
presidential aide be appointed to take responsibility for assuring that 
all Federal Agencies, including the military, be Y2K compliant by 
January 1, 1999 [leaving a year for `testing'] and that all commercial 
and industrial firms doing business with the Federal government must 
also be compliant by that date.''
    January 1, 1999 is quickly approaching. I believe the ``Good 
Samaritan'' legislation will encourage Federal, state, and local 
governments to work together in addressing the computer problem. I 
remind my colleagues of John Locke's conception of government as a 
fiduciary trust with the obligation to act in the interest of the 
people. If we do not address the Y2K problem, then we have not 
fulfilled our fiduciary responsibilities.
                               __________

           Prepared Statement of Maj. Gen. Edward J. Philbin

    Mr. Chairman, I am Major General Edward J. Philbin, USAF (Ret.), 
the Executive Director of the National Guard Association of the United 
States (NGAUS). I am present to offer opinions on the problems that may 
arise as a result of non-compliant computers and computer dependent 
systems that are unable to transition through midnight, 31 December, 
1999 and the role the National Guard could and probably will play in 
managing emergencies arising from those problems. My testimony 
generally reflects the opinions of the Association and its members, who 
are the commissioned and warrant officers of the Army and Air National 
Guard. It should not be construed as representing the official 
positions of the Department of Defense or of the National Guard Bureau.
    It is increasingly evident that an appreciable part of the nation's 
infrastructure could be adversely affected in some way, by what is 
commonly referred to as the Y2K problem. In general, the National Guard 
has the capacity to provide Military Support to Civilian Authorities 
(MSCA) and can contribute a myriad of human and equipment resources to 
restore essential operations disrupted by Y2K generated incidents.
    Considering the possibilities of a large scale disruption of 
governmental, commercial and other routine daily activities, it is 
certain that the National Guard will be among the first organizations 
activated to assist in the revitalization of the nation's computer 
dependent infrastructure. As with hurricanes, floods and other 
incidents requiring a quick reaction by a well-trained and equipped on-
site team, no other organization will be able to respond in support of 
police, fire fighting and other civilian emergency responders, to major 
crisis situations that may be caused by Y2K disruptions as well as the 
National Guard. The National Guard's practiced interaction with state 
and local organizations and its connections to the National Command 
Authority provide a unique emergency response capability not found in 
any other federal or state organization.
    The immediate need is to determine what responsibilities the Guard 
will be expected to assume in the management of the Y2K related 
problems, that many analysts have forecast, which have the potential to 
trigger the destabilization of societal functions. The National Guard 
needs to be prepared to assist in maintaining or reestablishing 
essential stability in the civil sector.
    I suggest that the Department of Defense (DOD) must develop a clear 
concept of how the National Guard will be required to respond to the 
spectrum of problems that could be created by a Y2K disruption. The 
DOD, through the Chief of the National Guard Bureau (NGB), must now 
coordinate with the Adjutants General and the Governors to determine 
the likely, locality specific scenarios that may arise in a Y2K 
situation.
    The DOD should also assist the Governors and State Emergency 
Response Coordinators to ensure that the National Guard itself will not 
be impaired by the effects of a Y2K incident at a time when it will be 
most needed.
    I suspect that, to date, this has not been a priority effort on the 
part of the DOD, even though to properly prepare for possible Y2K 
disruptions, the OSD must be cognizant of the importance of the 
National Guard being made fully capable of responding to any such 
technical breakdown.
    We must be certain that the National Guard will not itself be a 
victim of any Y2K disruption. All National Guard units in 3,200 
locations throughout the nation, must possess computer dependent 
equipment that is Y2K compliant. Responding to the consequences of a 
Y2K disruption will be futile if the National Guard's operations are 
plagued by the very consequences the Guard is attempting to manage. It 
is critical that the Y2K response requirements of the National Guard be 
fully funded to ensure that it is able to respond quickly and 
effectively to the needs of the community. I respectfully request, Mr. 
Chairman, that this Committee urge the Senate to provide full funding 
for Y2K compliance upgrading of National Guard equipment as one of the 
highest priorities for such funding, since the Guard will be among the 
first responders to a Y2K incident together with police, fire-fighting 
and other civilian emergency response personnel.
    The critical first step in ensuring that the National Guard will be 
fully prepared for a possible Y2K calamity is the collection and 
sharing of information. When I was Commander of the New Jersey Air 
National Guard, the State Adjutant General, for the first time 
requested all of his commanders to conduct a survey to identify all of 
the Army and Air Guard resources that could be made available in 
response to a state emergency. My survey of the New Jersey Air National 
Guard identified a surprisingly long list of both mundane and 
sophisticated equipment which could be useful in responding to a state 
emergency. I strongly recommend that such a survey of the available 
resources of both the Army and Air National Guard of each state and 
territory be conducted prior to midnight on 31 December 1999. Equally 
important, we must determine how the National Guard will interact with 
the Federal Emergency Management Agency (FEMA) and the DOD in response 
to Y2K induced emergencies. Command and control of multiple agencies 
must result in mutual support rather than multiple collisions in 
addressing emergency situations.
    Therefore, a comprehensive study should be conducted on the 
potential roles of and the interaction between the FEMA, the DOD, and 
the National Guard of the various states and territories in response to 
Y2K induced problems. I applaud the recent inclusion of the National 
Guard in the President's Y2K subcommittee on emergency response chaired 
by FEMA and believe that the subcommittee, with the DOD, National Guard 
Bureau (NOB) and the Adjutants General must develop a cohesive strategy 
that prepares this country for any event of mass effect leading up to 
and after midnight, 31 December 1999. Mr. Chairman, let me stress the 
need for the Adjutants General to play an important role in the 
development of this strategy. In most cases, it will be the Adjutants 
General who will integrate the planning efforts for their respective 
states, with those to be developed by the National Command Authority.
    As you are aware, the Quadrennial Defense Review highlighted the 
role of the National Guard in homeland defense of the United States. 
While the Guard stands ready to meet the needs of the citizenry during 
any Y2K incident, it is important that in preparing for that 
eventuality, the National Guard's ability to respond to it's Total 
Force mission of rapidly expanding our Army and Air Force in response 
to a national threat not be denigrated. Funding for current combat 
readiness resourcing should not be used to enhance the Guard's ability 
to respond to a Y2K event. As an example, it is becoming increasingly 
evident that the current structure of the Active Duty Army cannot 
execute the two Major Theater Wars (MTW) strategy without the 
assistance of the Army National Guard Combat Divisions and Brigades. 
This increased dependency on the National Guard requires increased, not 
decreased combat readiness resourcing to enable the Guard to accomplish 
its historic combat mission. Mere reallocation of current funding to 
Y2K missions will have a negative effect upon the National Guard's 
ability to recruit, train and keep our soldiers and airmen combat ready 
to respond at a moments notice to a national threat.
    The Year 2000 challenges present an emergency scenario unlike any 
other in our nation's history. Our technological society has grown 
extremely dependent upon the continuity of computer driven systems and 
networks and as a consequence, the nation's vulnerability has increased 
appreciably. Any significant disruption of our computer dependent 
infrastructure could result in a significant societal disruption. 
However, with the cooperative interaction of federal and state 
governments, the military, the private sector, and with serious advance 
preparation, the impact of such an event on the American people can be 
significantly reduced, if not totally eliminated.
    Mr. Chairman, members of the Committee, I would like to thank you 
for the opportunity to offer the opinion of the National Guard 
Association of the United States on the readiness of the National Guard 
to deal with potential Y2K emergencies. As we have for over three and 
a-half centuries, the National Guard of the United States, Army and 
Air, stands ready to protect the nation against military threats and 
local disasters. This concludes my statement subject to your questions.
                                 ______
                                 

         Responses of Maj. Gen. Edward J. Philbin to Questions

                     Submitted by Chairman Bennett

    Question 1. In your testimony you indicated the criticality of 
fully funding the Y2K response requirements of the National Guard to 
ensure that it is able to respond quickly and effectively. What is the 
amount necessary to fully fund the National Guard's Y2K requirements, 
both Army and Air divisions? You imply that it is not fully funded--can 
you address the current funding budgeted for the National Guard's Y2K 
requirements? Have requests been made for any shortfalls?
    Answer. Full-funding of the National Guard to enable it to 
effectively respond to a Y2K incident is essential. I have received 
estimates that the Army National Guard will require approximately $38 
million for Automation, Logistics, Manpower and TDY support to be able 
to ensure mission capability for Y2K incidents. This amount does not 
include weapon systems but rather those resources that would most 
likely be needed during any such incident. Estimates of Air National 
Guard requirements vary greatly and consequently would be difficult to 
pinpoint at this time.
    Question 2. General Philbin, you make a strong case for the 
importance of the National Guard in a Y2K emergency. Certainly, the 
Guard is used time and time again, such as today in the southern United 
States, to deal with major disasters. I am surprised however that the 
call for a survey such as you're suggesting has never been done. You 
mentioned the survey that was done when you were commander of the New 
Jersey Air National Guard. It seems natural to me that surveys and 
inventories be done to assess readiness. Doesn't anyone have the 
responsibility to do this for the National Guard? Shouldn't someone be 
doing it within the Department of Defense?
    Answer. The National Guard has been successfully providing 
assistance to the American public during natural disasters or civil 
disturbances for more than 360 years. This has allowed the Guard to 
adapt, and review its response to such events in order to provide 
effective Military Support to Civil Authorities (MSCA). Many of the 
traditional MSCA roles of the National Guard can and will be utilized 
during a Y2K event. However, the unique possibilities that could unfold 
during a Y2K event are unprecedented. Surveys have been conducted to 
determine the capabilities of the Army and Air National Guard to be 
able to support events, such as floods, fires, tornadoes, and riots, 
that have a historical precedence. These surveys focus on the premise 
that an interruption will occur to a portion of normal operations of 
the nation's infrastructure. No event, has the capability to disrupt 
governmental, commercial and other daily activities as the Y2K 
millennium bug, shutting down the technological components that drive 
our society. A survey specifically targeted on Y2K events needs to be 
conducted in order to determine what capabilities the National Guard 
can offer to support the return to normal function capability.
    Question 3. Your have strongly recommended that a survey of 
available resources of both the Army and Air National Guards of each 
state and territory be conducted prior to midnight on 31 December 1999? 
Aren't there National Guard documents that already exist which provide 
the requirements for organizations and equipment as well as ones that 
indicate the authorized and actual levels? What would be achieved by a 
survey such as the one you propose that does not already exist? How 
would the results of such a survey be useful?
    Answer. Accountability of all National Guard equipment and 
organizations is maintained by the National Guard Bureau and the 
Department of Defense and is usually focused on the Guards constant 
readiness. However, no study has been conducted to determine 
specifically what the Guard and its resources can contribute on January 
1, 2000. The Y2K millennium bug is significant in that it will provide 
both foreseen and unforeseen challenges. A survey of equipment to 
determine what resources are available for all possibilities during a 
Y2K event will allow the Guard to better organize a response plan. 
Insight as to what assets the Guard can contribute during the following 
hours and days of the Y2K event are essential in order to allow the 
National Guard Bureau and the Department of Defense time and foresight 
to enhance their coordinated response plan.
    Question 4. Your point is well taken that before the National Guard 
can perform any of its emergency response functions it must ensure that 
it will not be impaired itself. Would you discuss the current status 
and milestones of the Army and Air National Guards' Y2K programs? Are 
the programs adequately funded?
    Answer. Being the Executive Director of the National Guard 
Association and not the National Guard Bureau, it would not be feasible 
for me to provide a progress report. The Chief of the National Guard 
Bureau and/or the Army and Air National Guard Directors are better 
positioned to discuss their progress in achieving Y2K compliance. 
However, I am sure the National Guard Bureau and the Adjutants General 
are working diligently to determine their compliance posture and how 
they would support the states in a Y2K situation, should one occur. 
With that said, it is my belief that the National Guard may very well 
require additional funding to support their compliance review and 
response capability, but I must defer to the National Guard Bureau to 
provide specifics.
    Question 5. Both the Army and Air Force active components have 
comprehensive Y2K programs that include their respective National 
Guard. What is the basis of your statement that efforts for fixing the 
guard Y2K problems are not a priority within the DOD?
    Answer. As demonstrated in the past, the Department of Defense 
prioritizes funding as a function of the ``first to fight'' concept as 
it applies to the military forces to execute the National Military 
Strategy. The services are more inclined to insure Y2K compliance as it 
relates to force projection requirements and their ability to engage an 
enemy on the battlefield. I doubt that serious efforts have been made 
by the Department of Defense to address the role of the National Guard 
to support the restabilization of domestic activities due to a Y2K 
event. I am sure that if the services had full funding available, they 
would resource all of their requirements across the spectrum. However, 
threat reduction to the United States over the past decade has also 
entailed a defense budget reduction. The DOD has taken the approach 
that the Y2K millennium bug is a metaphoric enemy set to attack. They 
are focusing on their mission-critical systems, to ensure that the 
services are prepared to perform their duties to defend the nation. The 
National Guard, in addition to defense of the nation, remains focused 
on support of local and state governments in ensuring that society's 
infrastructure is returned to and remains functional during a Y2K 
event. It is equally important for the National Guard to defend 
America's borders from attack, or respond to aid our allies. However, 
with a set time, where our nation will face significant dilemmas due to 
the vulnerability of our technologically dependent society the Y2K 
event requires the full attention of the National Guard and the 
Department of Defense.
    Question 6. In your testimony, you express concern over the issue 
of command and control of multiple agencies in addressing emergency 
situations. Specifically what part of the Federal Response Plan and 
current command and control structure under the plan requires 
refinement or modification? What aspects of possible Y2K scenarios 
would cause a need to change current command and control relationships?
    Answer. Response to Y2K events begins at the local level. Once 
local authorities reach the limit of their capacity, state resources 
will be required, as in other emergency situations. The capability to 
activate the National Guard now becomes a factor for the Governor. The 
command and control relationships are in place to respond to situations 
requiring military support. However, the possible magnitude of a Y2K 
response situation may be greater than local resources can handle. 
Integration with law-enforcement, fire, medical and other state and 
federal agencies will require significant inter-agency cooperation on 
an unprecedented scale. It would be prudent to study the capabilities 
of the National Guard to determine what levels of support they could 
provide along with their ability to respond to a Y2K event.
                               __________

             Prepared Statement of Sergeant John S. Powell

                              introduction
          If the predictions of computer system failures in everything 
        from automobiles and ATMs to the IRS to traffic signal controls 
        and a plethora of other systems that support everyday life are 
        even partially realized, the overload on public safety services 
        will be tremendous. The ``bug'' is insidious, potentially 
        impacting anything with a microcomputer chip--anything that has 
        a keypad or timer, displays a date, stores numbers, or performs 
        calculations. Consider for a moment the possible loss of a few 
        personal items: digital clocks and wristwatch, automatic coffee 
        maker, camcorder, home alarm system, pager, personal computer, 
        radio, telephone, television, thermostats, VCR, and last (but 
        certainly not least) access to ATMs, financial records, and 
        retirement income (if you're lucky enough to have it)! Couple 
        these potential failures for millions of people with increased 
        turn-of-the-millennia activity and the impact on public safety 
        services could be crippling. The last thing public safety 
        agencies will then want to contend with is problems with their 
        own operational systems.

        --The APCO Bulletin

    How big is the overall problem? After reviewing published documents 
and interviewing a number of Y2K experts, ``Silicon Valley Tech Week'' 
concluded in its April 13, 1998 issue: ``None of the mission critical 
sectors in the U.S. are even close to being Y2K compliant, say the 
experts. Not the 9,000 electric utility plants. Not the 11,000 banks. 
Not the telecommunications companies. And certainly not the U.S. 
Government.''
    IRS Commissioner Charles Rossotti told the Wall Street Journal: 
``If we don't fix the century-date problem, we will have a situation 
scarier than the average disaster movie you might see on a Sunday 
night.'' ``Twenty-one months from now, there could be 90 million 
taxpayers who won't get their refunds, and 95 percent of the revenue 
stream of the United States could be jeopardized.'' \1\
---------------------------------------------------------------------------
    \1\ IRS Commissioner Charles Rossotti. ``The Wall Street Journal, 
04/22/98.
---------------------------------------------------------------------------
    FCC Chairman William Kennard, being questioned by the U.S. Senate, 
concluded, ``[I am] * * * concerned that the year 2000 problem has the 
potential of disrupting communications services worldwide * * *. Every 
sector of the communications industry--broadcast, cable, radio, 
satellite, and wireline and wireless telephony--could be affected.''
    There are, however, other dates both before and after January 1, 
2000, that must also be considered. These include:

    1. January 1, 1999: Many spreadsheets and financial applications 
look forward during the current year and will see the next year ends in 
``00.'' Those functions that examine a date range may not be able to 
handle an ending date (``00'') that is lower in value than the current 
date (``99'').
    2. August 22, 1999: GPS rollover (reset to zero). GPS is now the 
most widely used system for public safety person/vehicle location 
applications. Beyond this fundamental application are other 
telecommunications uses, not the least of which is serving as the 
common time base for synchronizing transmitters in wide area simulcast 
systems, including most of the nations large commercial paging 
operations. In addition to geopositioning and telecommunications 
applications, GPS is used in major banks and thousands of financial 
institutions for accurate date and time recording and synchronization.
    3. September 9, 1999: ``Nines end-of-file problem'' in legacy 
systems using 9999 in the date field to denote ``end-of-file'' (EOF). 
Most of these programs are mainframe-based, written in high-level 
computer languages such as COBOL. Pubic safety applications include 
large Criminal Justice Information Systems and motor vehicle/drivers 
license systems.
    4. February 29, 2000: Not a normal leap year (rule: if the year is 
divisible by four but not divisible by 100, or if the year is divisible 
by 400, it is a leap year). Many computer programs perform the first 
two tests (divisible by 4, but not divisible by 100) but do not include 
the last test. Those that do not will be off by 1 day from March 1 
through December 31, 2000.
               local law enforcement agency status report
    The following agency status reports were collected by three of the 
Regional Law Enforcement and Corrections Technology Centers operated by 
the National Institute of Justice during the past 10 days:
Aiken County, South Carolina Sheriff's Department
    This department is in the process of purchasing new dispatch 
equipment and CAD/RMS software based on a modernization assessment done 
by NLECTC-SE in which Y2K compliance was recommended.
Arvada, Colorado Police Department
    The Arvada Police Department is in the process of replacing their 
CAD/RMS system in a previously scheduled system upgrade. Y2K issues are 
a specification in the RFP and the contract for installation and 
operation. They are currently negotiating with their radio system 
provider (they share a trunked 800 megahertz system with an adjacent 
agency) to provide necessary maintenance and upgrades to address Y2K 
issues. This process is already budgeted for and is underway. The City 
information management department has engaged a consultant to assess 
and make recommendations regarding the ``lesser'' information systems 
in the City, including the police department, to address Y2K issues. 
All of the major information systems have already been brought into Y2K 
compliance or are in the process of being brought into compliance.
Charleston, South Carolina Police Department
    This department is in the process of replacing and/or upgrading 
their CAD/RMS system based on a modernization assessment done by 
NLECTC-SE in which Y2K compliance was recommended.
Charlotte-Mecklenberg, North Carolina Police Department
    A county-wide Y2K board is currently reviewing every major system 
that has a computer chip as a component as well as major system 
software packages (including radio, information management, heating and 
air conditioning, elevators, cars and security systems). Thus far, they 
have not identified the magnitude of the problem. As the list is 
completed they are asking manufactures for Y2K certification. They are 
concerned that certain chips in key components have built-in Y2K 
problems that can only be solved by replacement.
La Vista, Nebraska Police Department
    The La Vista Police Department conducted an assessment of their 
internal information management system and found it to be Y2K non-
compliant. They are in the process of spending $18-19,000 for an 
entirely new system that will be Y2K compliant. The police department 
has been provided funding for this by the City of La Vista which has 
taken a very aggressive stance toward ensuring Y2K preparedness. The 
police department is the last department of the City requiring 
compliance upgrades. The City is also coordinating with public service 
providers (electricity, gas, telephones, etc.) to ensure they are 
prepared as well.
Leavenworth, Kansas Police Department
    The Leavenworth Police Department is in the process of building a 
consolidated building and systems with the Leavenworth County Sheriff's 
Department. This consolidated and upgrade is occurring irrespective of 
Y2K issues but contractual specifications will include Y2K compliance 
issues. Current systems are not Y2K compliant. This places a 
significant time constraint on the acquisition and installation process 
to ensure operation of the new systems prior to Y2K.
Medical University of South Carolina Department of Public Safety
    MUSC has a large committee representing a cross section of all 
departments of the university that has been in existence for over a 
year to address the Y2K problem. Systems are being modified, upgraded 
and/or replaced with a completion target of mid year 1999.
Monroe County, Florida Sheriff's Department
    This department has rewritten all their COBOL code to accommodate 
the four digit year and adjusted all chronological date accordingly. 
They have a model of an old Posse Code (Federally funded many years 
ago) that appears to be running fine. All code is now adjusted, but 
they are running in a test mode as a parallel system.
Mount Pleasant, South Carolina Police Department
    This department's vendor has made an offer to upgrade their 
software for Y2K compliance for approximately $30,000. They are 
researching other options and are awaiting a modernization report by 
NLECTC-SE before proceeding with an RFP.
Nashville, Tennessee Police Department
    Their Unisys Clearpath 4400 has a service package to upgrade and 
correct Y2K problems. They have run BIOS checks on all old computers 
and upgraded programs where necessary. They are replacing their central 
hub.
San Diego, California Police Department
    San Diego PD has a full-time effort to head off the Y2K problem 
with 2 people assigned. San Diego describes this as a HUGE problem 
affecting operations across the board, especially Computer Aided 
Dispatch and ARJIS, their regional justice information system. The 
police department is working with the city on a coordinated approach.
Selma, Alabama Police Department
    The Selma computer system was recently destroyed by a lightning 
strike and they are in the process of replacing the entire system to 
link communications, booking, records and eventually other municipal 
government data bases. New system will be Y2K compliant. This 
department is next in line for a NLECTC-SE process review addressing 
their information technology modernization needs.
Saluda, North Carolina Police Department
    This is a four officer department that is totally computerized. 
With their small size (and reducing costs of equipment needed) they 
upgraded on a timely basis and are Y2K compliant internally. Their 
concern is other systems they tie into.
                               statement
    Thank you for this opportunity to provide the Senate Special 
Committee on the Year 2000 Technology Problem with information on what 
I believe to be the ``state of the nation's local public safety 
agencies'' with respect to Y2K issues, as well as what we should be 
doing to better prepare for what was recently described on the national 
news as ``the deadline that not even Congress or the President can 
extend.''
    Two ``wakeup calls'' this year highlight our dependence on critical 
telecommunications services. During the week of April 13, AT&T lost its 
entire frame relay data network for 24 hours. The failure was caused by 
a software glitch in a single network circuit card that was being 
loaded with updated software while still connected to the network. 
6,600 customers, including major financial institutions and their ATM/
credit card networks, lost service. Then on May 19, Hughes 
Corporation's Galaxy IV satellite failed, disrupting paging service to 
millions of paging receivers, including critical notification systems 
used by federal, state, and local public safety agencies.
    We've all seen the horrific predictions being made by some of the 
millennium fundamentalists. Unfortunately, it appears that the majority 
of Americans, if they are aware of the Y2K issue at all, consider it to 
be a ``computer problem.'' The current status of local government 
agencies is somewhere in between, with larger agencies clearly being 
more susceptible to the problem, but at the same time also being more 
aware of the surrounding issues and having more resources available to 
deal with those issues.
    Senator Bennett, Committee Chair, posed a series of five questions 
in his letter of September 16 [See Attachment A]. Each of these is 
addressed in a separate section below.
I. What is the role of APCO and the IACP in assessing the vulnerability 
        of emergency service response agencies to year 2000 problems 
        and any efforts to increase awareness about the problem?
    First, as individual membership organizations, public safety 
associations generally do not have a specific role in assessing the 
vulnerabilities of agencies to pending events. However, the larger 
associations play a major role in promoting awareness and providing 
education to their members and the general public safety community 
concerning events that could impact the provision of services. 
Associations also serve as a statistical resource to those government 
agencies who are responsible for making such assessments.
    Clearly, awareness and education are keys to dealing with the Y2K 
issue. This nation has nearly 19,000 law enforcement agencies at the 
state and local level; Attachment D is a breakdown of state and local 
law enforcement agencies by region across the United States. Ninety 
percent of the law enforcement agencies have fewer than 24 sworn 
officers and fully half have fewer than 12 sworn officers. The United 
States also has over 32,000 fire agencies at the state and local level. 
Eighty percent of the fire agencies are staffed fully by volunteers. 
Many of these agencies are not yet aware that problems may exists, much 
less the potential severity that the Y2K problem could have on both 
their internal and external operations.
    Both associations annually host the world's largest public safety 
conferences in their related fields. At this year's event held this 
past August in Albuquerque NM, APCO conducted seminars to address the 
myriad of Y2K issues facing public safety agencies to ensure consistent 
delivery of service. The IACP will hold its conference at Salt Lake 
City from October 17-22. The Year 2000 Problem will be a topic of 
discussion at the Communications and Technology Committee meeting and 
at other scheduled meetings. John Clark, Deputy Chief for Public Safety 
in the Federal Communications Commission's (FCC) Wireless 
Telecommunications Bureau will be addressing the Major City Chiefs 
specifically on Y2K issues.
    Fortunately for the public safety community, the FCC has been very 
active on Year 2000 issues. Commissioner Michael Powell, the FCC 
Defense Commissioner and agency representative to the President's 
Council on Year 2000 Conversion, convened a Public Safety Year 2000 
Roundtable on June 1 in Washington DC. Panel members included a number 
of state/local public safety officials, as well as representatives from 
federal agencies, public safety equipment manufacturers, and 
consultants dealing with the Y2K problem. Both APCO and the IACP were 
represented on the Roundtable.
    APCO and the National Institute of Justice are discussing the 
development of a series of short (one or two day) Y2K seminars targeted 
at public safety chief officers and upper level management to 
specifically address issues in each of the 4 impact areas discussed in 
the following section. We hope that these seminars could draw from 
subject matter experts within APCO and from our sister associations. 
APCO and NIJ both believe it is critical that such a series of 
seminars, beginning as soon as January, be conduct at little or no cost 
to participants, promoting maximum attendance from the thousands of 
small public safety agencies in the US. The National Institute of 
Justice operates a series of Regional Technology Centers across the US 
that are capable of supporting the logistics for these seminars, but 
the National Institute of .Justice will need a budget augmentation if 
it is to fund these at no cost to participants.
II. Address ways that Y2K problems might impact the operations of local 
        law enforcement agencies. The third area involving other 
        related issues is also discussed in this section
    Local public safety agency response to the Y2K problem has several 
facets. First, internal systems must be made compliant. Nearly every 
agency has at least one system that will need to be checked. In the 
case of law enforcement it is the terminal used to access state and 
federal criminal justice information systems. For fire agencies it is 
probably alarm systems that are commonly used to automatically report 
fires. Additionally, many modern pieces of fire apparatus (including 
both engines and trucks) have microprocessor-based controllers that 
monitor the functions of water pumps, ladder extenders, etc.
    There are several levels of systems that are potentially impacted 
by the Y2K ``bug;'' in general they are:

    1. Legacy firmware-based systems: Difficult or impossible to 
upgrade, but probably not critical unless validating date ranges, these 
systems are extensively used in process control application, including 
traffic signal light controls, elevator controls, and standalone access 
control systems. Early standalone systems (access control, for example) 
had sufficient read-only memory (ROM), but limited random access memory 
(RAM). Programmers went to great lengths to preserve RAM. Many such 
systems are still in use! Formats were designed to store dates in a 
manner that permitted rapid mathematical manipulation. The most common 
(YYDDD or YYMMDD) require 2 bytes (16 bits) for a 2 digit year code. 
Application and report generating programs using date ranges (for age, 
access card validity, etc) can not function across a century boundary 
if they use a 2-digit year code.
    Firmware-based systems also include most of the home electronic 
items mentioned at the start of this Statement: alarm systems, digital 
clocks, wristwatches, automatic coffee makers and similar appliances, 
automatic setback thermostats, pagers, radios, ``smart'' telephone 
sets, televisions, camcorders and VCRs.
    2. Mainframes: Getting much of the attention, but usually 
programmed in higher level languages such as COBOL making updates 
easier, these systems include many federal/state CJIS-type databases.
    3. Mini-computers: More difficult to update because code is often 
written in lower level languages such as C++ and optimized for speed, 
these systems include message switches and older and/or larger CAD/RMS 
systems.
    4. Personal Computers: Finally, PC-based workstations are a common 
man-machine interface to many 9-1-1 and alarm reporting systems, 
Computer Aided Dispatch (CAD), dispatch consoles, Records Management 
Systems (RMS), telecommunications and trunked radio switches and a host 
of related systems. Email systems in LAN, Intranet, WAN and Internet 
applications link personnel and off-site facilities. Mobile Data 
Terminals (MDTs) are a thing of the past; the new game is Mobile 
Computing Terminals (MCTs) based on PC architecture. Within the 
Personal Computer, there are multiple levels to be addressed:
  --Hardware BIOS: Over 90 percent of PCs built before 1997 have a 
        bios-level problem. Many of these should be easy to fix.
  --Operating Systems: Nearly all OS vendors are now addressing date 
        handling problems with patches or the release of compliant 
        upgrades.
  --Applications Software: Many software packages still have a two-
        digit date problem. A test of 5000 general software packages 
        found 64 percent had some problem.
  --Data Within Single Application: most databases and spreadsheet 
        applications have 2-digit dates.
  --Data Shared Between Applications: applications may make different 
        ``guesses'' about the 4-digit year when encountering 2-digit 
        year fields.

    For proposed resolution to these problems, we can again turn to the 
FCC's June Roundtable. All of the consultants agreed that there is a 
quite straightforward process to be used for equipment evaluation. The 
recommended steps include: equipment inventory, analysis for problem 
potential, manufacturer/vendor inquiry and certification, testing 
(independent or in-house), correction or replacement of non-compliant 
systems, and re-testing. A critical recommendation was the testing of 
all components of a system operating together as a final test once 
corrections have been made. Use ``IVE''--Independent Verification of 
Everything!
    The consultants further agreed that in some cases the cost, both in 
time (or lack thereof) and money, is leading agencies to replace 
systems rather than attempt to upgrade an existing investment. In fact, 
many agencies are using the Y2K bug as an opportunity to perform much 
needed replacements of outdated systems.
    Equipment manufacturers present were primarily from the land mobile 
radio community. Several stated that their public safety equipment 
lines are so new that the problem was addressed in the initial design. 
Others, including Ericsson and Motorola, stated they have some embedded 
equipment that may be impacted and offer information on determining Y2K 
compliance of their equipment on their Internet web sites. In 
particular, Motorola provides a search engine that allows access to 
information on Y2K compliance of their equipment in 3 categories: 
tested and passed, tested and did not pass (with additional information 
provided), and not yet tested. Unfortunately, Motorola has more 
recently stated that some older equipment, primarily in the high-level 
encryption arena used by federal agencies, is not compliant and will 
not be updated.
    The best general news from this Roundtable is that the Y2K bug will 
not impact most conventional radio dispatch equipment (radio system 
infrastructure and field subscriber units). However, some radio system 
management equipment and software (report generators, etc) may need 
upgrades, particularly for trunked radio systems. Unfortunately, the 
same is not necessarily true of other critical public safety software 
such as Computer Aided Dispatch (CAD) and Records Management (RMS) 
systems. These systems are widely used; the majority are legacy systems 
in service for some years, and will require upgrades to the point that 
many agencies are considering full replacement. The critical factor for 
these latter systems is the long lead time for government procurements 
coupled with a potential overload on vendors over the next 15 months. 
The attached documents from the City of Oakland, California, 
[Attachments B & C] highlight the problems in dealing with CAD systems, 
and the costs and time elements involved in correcting such problems.
    The next area of impact on state and local agencies is dealing with 
potential disruption of outside services, primarily utilities such as 
power and 9-1-1 services, and the delivery of consumables. The critical 
``72 hours'' of self-reliance that disaster planners generally 
acknowledge as the amount of time before outside help is available at a 
disaster scene might not apply if the problem is indeed nationwide in 
scope. As an example of some of these issues, I will briefly examine 
the East Bay area of Northern California where the University of 
California at Berkeley is located:
    The utility supply is of critical importance:
    (1) Electric power. Nearly all elements of daily campus life would 
be profoundly affected by a prolonged power outage. With the 
predictions that some nuclear-fueled plants will be required to cease 
operations due to the thousands of imbedded systems that can not 
possibly be tested in the next 15 months, utilities will be forced to 
rely in fossil fuel and water-driven plants. Fortunately, both are in 
abundance in Northern California. Nonetheless, Pacific Gas & Electric 
Company generates a significant amount of its power at its Diablo 
Canyon nuclear plant. California, as with most states, is dependent on 
a regional power grid. Most people still recall the massive New England 
power outage caused by the failure of a simple relay. PG&E states on 
its Web site that it has inventoried--but not yet assessed for 
potential Y2K problems--its embedded systems, and that it plans to 
complete repair or replacement of these systems by the 4th quarter of 
1999, which leaves little margin for error.
    (2) Water supply. Another core consideration is water: whether it 
will continue to flow to the campus, and whether it will continue to be 
correctly treated. An adequate supply of water is critical to fighting 
some types of fires, and for treating some types of chemical exposures. 
A complex series of steps is typically used to treat water. Failures 
due to Y2K-related problems at treatment facilities (even those 
involving an excess of treatment chemicals, as is alleged to have 
occurred in a Y2K rollover test at an Australian water utility) could 
affect the health of local residents, as well as heating and cooling 
systems, laboratory experiments, and much more.
    Beyond that, the East Bay Municipal Utility District (EBMUD) is 
dependent on multiple electric utilities to supply power to its pumping 
stations and treatment facilities. Power outages at various points 
throughout its system could thus adversely impact water supply and 
treatment. The treatment facilities all have standby diesel generators, 
as do some of the ``more critical'' pumping stations. In addition, 
there are some portable generator trucks that can be deployed in an 
emergency. These are all dependent on an adequate supply of diesel fuel 
being available to permit operations to continue throughout a 
potentially prolonged power outage.
    In addition, EBMUD relies on a Supervisory Control and Data 
Acquisition (SCADA) system for monitoring and controlling water pumping 
which is not Y2K compliant. However, the vendor of the utility's SCADA 
system appears to have successfully tested Y2K fixes at several natural 
gas utilities during Summer 1998, and these fixes should be applied to 
EBMUD's systems and tested by the first quarter of 1999.
    (3) Telephone systems. The American public relies on a highly 
advanced land and radio-based telephone national telephone network that 
supports virtually all emergency reporting via the almost universally 
available 9-1-1 system. A failure in this complex, computer-driven 
network, as happened to the AT&T network in mid-April would be 
devastating to emergency service providers.
    Medical equipment compliance is another area of concern:
                  Equipment used in local hospitals--and especially at 
                teaching hospitals like UC San Francisco--might 
                potentially be at risk for Y2K failures. Some failures 
                have been reported in these devices, and there is still 
                a great deal of uncertainty in this area.
                  As reported in the Washington Post on September 24, 
                1998, Senator Chris Dodd (D-CT) has taken the unusual 
                step of publicly identifying the nearly 1,200 medical 
                device manufacturers who failed to respond to a June 
                1998 letter from the US Food and Drug Administration 
                asking about possible Y2K problems.
    The third area of impact, and clearly the most difficult to judge 
and plan for, is the additional workload that could be placed on 
agencies by public response to heightened fears toward the end of 1999, 
followed by actual problems after December 31. If even the minimal 
worldwide disruptions that have been predicted should occur, the 
additional workload placed upon public safety agencies, and law 
enforcement in particular, could be significant. This is an 
international problem and I understand that the Association of Chief 
Police Officers in the United Kingdom has already recommended that law 
enforcement agencies in Great Britain cancel all leave over the 
millennium holidays.
    Last, and directly related to the third area, is dealing with the 
special needs of agency employees during the period of impact. It is a 
fact that people do not perform at anywhere near 100 percent if they 
are worried about their families or their homes. As with any disaster, 
public safety personnel will only be effective if they have prepared 
themselves and their families in advance. Year 2000 is inevitable; 
personal preparation is essential. What can you as an individual do to 
prepare? Suggestions include:
    1. IVE--Independent Verification of Everything. Test all of your 
important home appliances by resetting the dates and allowing them to 
roll over the century and leap year dates. If you live by your PC as we 
do it should be at the top of the list, especially if you use it for 
on-line banking, financial management, or email communications with 
your office. Consider buying a small electric generator to support 
critical home electrical needs if power fails; remember to stock up on 
fuel in approved storage containers during December, 1999.
    2. Bank and other financial services systems are linked in huge 
international networks where a single failure could cause network-wide 
problems. While the large banks, brokerage companies, mutual fund 
houses and stock markets state that they will be ready, smaller 
institutions without the fiscal and technical resources to properly 
address the problem may pose a higher risk. Correspond with your 
institutions and obtain written assurance that your data and your money 
will survive; then make sure you keep written copies of all account 
statements!
    Credit card processing has already experienced snags as cards with 
expiration dates beyond 2000 encounter non-compliant processing 
equipment. Again, maintain copies of your account statements. Check 
them carefully and be prepared to dispute inaccurate bills.
    Delays in clearing checks (including pay checks) are predicted. A 
number of Y2K ``experts'' are recommending keeping significant cash (up 
to 2 months worth) on hand as 2000 approaches.
    3. Insurance policies and mortgage documents face similar problems. 
In both cases, obtain written documentation of coverage extending 
beyond 1999. For mortgages, it is important to obtain a lender-issued 
statement detailing payments (interest and principal) already made, as 
well as an amortization schedule showing payments during 2000 and 
beyond in case the lender's computer system is unable to issue payment 
coupons. Both institutions will still expect their payments to be sent!
    4. Finally, but perhaps most importantly, is insuring that you will 
continue to receive income from your employer or retirement system. 
Take an interest in your agency payroll systems and offer advice and 
assistance as appropriate; all of us are dealing with the same problem! 
The Social Security Administration has been working on Y2K compliance 
for a number of years and should be ready for Y2K. Unfortunately, as 
stated above, some other federal government agencies (including the US 
Treasury Department) that must work with Social Security are far 
behind. Since many public safety agencies participate in local or state 
retirement systems, it is important that each of us again maintain 
detailed records of our account(s) and be prepared for disruption in 
payments if you are fortunate enough to be retired.
III. The next question posed by the Committee concerns Y2K issues in 
        the campus policing and security environment
    With one major exception, these issues are identical to the general 
public safety community. That exception is this: campuses, like 
military bases, are cities unto themselves, some small but others very 
large. In the case of UC Berkeley, we have a daily campus population 
that can approach 50,000. Within that ``city'', and unlike a general 
government city, the campus is responsible for all buildings, all 
operations, all services. Based on a detailed outside analysis, I can 
tell you that the University of California appears to be in very good 
shape overall with respect to Y2K.
    Our internal systems are similar to the legacy systems in Oakland 
and other agencies described in the status report above. They include 
CAD, RMS, access control and fire alarm systems. The RMS system has 
been upgraded and now appears to be compliant. The CAD and Access 
Control Systems were first installed in 1984. As with the Oakland CAD 
system, both have seen hardware and software updates, but today 
function in much the same way as they did when first installed. These 
systems have far outlived their initial design lives. Perhaps George 
Orwell was right; however he selected the wrong means to the end!
    The company that provided our CAD system last year contacted all of 
its installed base, providing a list of system hardware and software 
that needed to be upgraded before new Y2K-compliant CAD software could 
be installed. Those changes have been completed and UCPD is in fact 
today installing what should be the final upgrade to the police CAD 
system software. Once installed and thoroughly tested both alone and in 
conjunction with interfaced software such as RMS, the vendor will 
certify the system as Y2K compliant.
    Fire alarms are also being examined. Most new or recently-remodeled 
buildings have microprocessor-based fire detection systems. As with 
fire codes around the country, should these systems fail on January 1, 
2000, these buildings can not legally be occupied.
    In general, outstanding issues within the University of California 
public safety environment have at least been identified and most are 
being addressed. Fortunately for us, the millennia falls during a 
period when classes are not in session. Thus we will have a small 
window of opportunity to correct inside problems. We will, however, 
suffer equally with problems from outside as previously discussed.
IV. Finally, the Committee asked for recommendations.
    In my opinion, the single most important failure to be prevented is 
the widespread loss of electrical services for more than about 72 
hours. Public safety backup generator systems generally have fuel 
supplies sized to support 72 hours of continuous operation. Beyond that 
time, it may be difficult to get fuel delivered and systems begin to 
fail. Every effort must be made to ensure this does not happen because 
the prolonged loss of power will quickly cripple most public safety 
facilities and communications systems.
    The single most important issue is education, both of the American 
public and for those at all levels of government responsible for 
identifying, correcting and dealing with the Y2K Technology Problem.
    As previously mentioned, APCO and the National Institute of Justice 
have started developing a series of Y2K seminars targeted at public 
safety chief officers and upper level management to specifically 
address issues in each of the 4 impact areas mentioned above. To 
conduct these seminars at little or no cost, thus promoting maximum 
attendance from the 10's of thousands of small public safety agencies, 
the National Institute of Justice will need a budget augmentation. 
Congressional support for a program of this type is extremely important 
if state and local agencies are to be properly educated on the wide 
range of Y2K issues that they must address over the next year.
    Last, from the halls of Congress to the Oval Office, elected 
officials must make the Year 2000 Technology Problem a top public 
education priority. The American people need to be aware and be 
involved. We must have ongoing and realistic assessments of the 
potential for problems across the plethora of impacted services. A 
public caught off-guard by major failures on January 1, 2000 could 
result in devastating long-term impact on the welfare of this great 
nation.
    As a Boy Scout and later serving as the Emergency Preparedness 
Officer at Berkeley during the Loma Prieta Earthquake, the drought, the 
floods and the Oakland Hills Fire, I learned the critical meaning of 2 
words: BE PREPARED. We must be prepared.
    Clearly, if there is a potential for failure within major segments 
of the world's public and private infrastructures, the one sector that 
can not be allowed to fail is the provision of public safety services, 
and in particular the delivery of appropriate law enforcement services.
                            about the author
    John Powell has been active in public safety communications since 
1971. He received a BSEE from the University of California at Berkeley 
in 1973. He joined the UC Police Department that same year and was 
promoted to sergeant in 1977. Mr. Powell served as an advisor to the 
California Legislature's Joint Committee on Fire, Police, Emergency and 
Disaster Services, and is a member of the California Law Enforcement 
Mutual Aid Radio System Executive Committee. He is a past-president of 
the Association of Public-Safety Communications Official's--
International (APCO) and has been an APCO representative on the Project 
25 Steering Committee since its founding in 1989. He is a member of the 
Communications & Technology Committee of the International Association 
of Chief's of Police and is IACP's technical representative to the 
National Public Safety Telecommunications Council (NPSTC). He is vice-
chair of the Communications Subcommittee of the Law Enforcement & 
Corrections Technology Advisory Council to the National Institute of 
Justice. In August, Mr. Powell received APCO's highest award for 
``Long-Term Technical Contributions to the Art & Practice of Public 
Safety Communications.'' Mr. Powell is a life member of APCO, a member 
of IEEE and a fellow of the Radio Club of America.
                             [attachment a]
                                       U.S. Senate,
     Special Committee on the Year 2000 Technology Problem,
                               Washington, DC., September 16, 1998.
Sergeant John S. Powell,
University of California Police Department,
1 Sprout Hall Berkeley, CA
    Dear Sergeant Powell: The Special Committee on the Year 2000 
Technology Problem, which I chair, is holding a hearing at 9:30 a.m., 
on October 2, 1998, in Room 192 of the Dirksen Senate Office Building. 
The hearing will encompass the Year 2000 readiness of state and local 
government emergency response agencies, as well as Federal emergency 
response preparedness. I am inviting you to testify on (1) the role of 
APCO and the IACP in assessing the vulnerability of emergency service 
response agencies to year 2000 problems and any efforts to increase 
awareness about the problem, (2) ways in which Year 2000 problems might 
impact the operations of local law enforcement agencies, (3) other Y2K 
related emergency preparedness issues for local law enforcement, (4) 
Y2K issues in the campus policing/security environment, and (5) any 
recommendations for Congressional or other governmental action which 
you believe might have a positive impact in this area.
    Please submit 120 copies of your statement no later than 48 hours 
in advance of the hearing and an electronic copy in ASCII format. This 
will help Committee members and staff better prepare for the hearing.
    Please limit your oral testimony to 5 minutes in length. Your 
written statement may be whatever length you believe appropriate, but 
should be accompanied by a brief written summary. Statements should be 
delivered to the Special Committee. The electronic copy may be provided 
on a disk, or e-mailed to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0a9b5b1a2e2e0e0e090a9e2bbfea3b5beb1a4b5feb7bfa6fe">[email&#160;protected]</a> Due to space 
limitations in the hearing room, there will be reserved seating for you 
and one other person. Other people from your office may use open 
seating. Thank you in advance for your participation. If you have any 
questions concerning the hearing, please contact Mr. Tom Bello, 
Committee staff, at (202) 224-5224.
            Sincerely,
                                         Robert F. Bennett,
                                                          Chairman.
                             [attachment b]

                            CITY OF OAKLAND

                           Interoffice Letter

TO: Avon Manning, Administrative Services Agency Director
FROM: Stephen Ferguson, Director Office of Communications & Information 
Services
DATE: September 16, 1996
SUBJECT: The ``Year 2000'' and Information Systems in the City of 
Oakland
                                summary
    At midnight on December 31, 1999, when the calendar changes to 
January 1, 2000, many information systems around the world will either 
fail or not function properly. In some cases, the failure will occur 
long before 12/31/99, e.g., when a system must project or make 
calculations into the future for dates or payment schedules beyond 12/
31/99.
    In the City of Oakland, a number of business systems have been 
implemented over the past 15 years that will be affected by the ``Year 
2000'' problem and must be addressed as a high priority. The three most 
critical areas needing immediate attention are: (1) Payroll/Personnel 
system, (2) Police Computer Aided Dispatch (CAD) system, and (3) PC 
software and hardware. In addition, there are many other systems in the 
City which will require modification; however, we believe these systems 
can be modified using existing staff within the course of their on-
going maintenance duties.
    The overall impact of the Year 2000 problem on the City should not 
be underestimated. The high priority, mandatory workload comes at a 
time when the information technology needs of the City are expanding 
and resources have been significantly reduced. Consequently, staff's 
ability to support new technology and systems demanded by agencies and 
departments will be curtailed at a critical time.
    A detailed study of over 70 systems conducted by the Office of 
Communications & Information Services (OCIS) staff estimates that 
correcting the problems in systems affected by Year 2000 issues would 
take over 24,000 staff hours at a cost of $3,000,000. While this 
corrective approach specifically addresses the Year 2000 problem, there 
is little general benefit to the City. In other words, staff can spend 
about 18,000 hours correcting the Police CAD and Payroll/Personnel 
systems, but when completed, the City will continue to have both a CAD 
System that is over 17 years old, and a Payroll/Personnel System that 
is 11 years old, with minimal new functionality, despite the efforts 
expended.
    Therefore, key recommendations include:
    (1) Replace the Payroll/Personnel system at an estimated cost of 
$1,000,000.
    (2) Replace the Police CAD system at an estimated cost of $300,000 
to $500,000.
                               background
    The reason for concern over the Year 2000 problem is often not 
easily understood by individuals outside information technology 
organizations. However, a general understanding of the issue is 
critical for senior management to support the commitment of resources 
necessary to solve the problem.
    There are two factors that exacerbate the Year 2000 problem: the 
aging of many of the City's information systems, and the historical 
failure of systems developers to anticipate or acknowledge the problem.
    Many systems currently in use in the City are based upon design 
specifications dating back to the late 1970's and early 1980's. The 
systems are sometimes referred to as ``legacy systems.'' When the 
systems were originally developed, the designers assumed that these 
systems would last for seven to ten years and would then be replaced. 
Instead, many of these systems have been incrementally modified to meet 
changing business requirements and are still in use 10, 12, and even 15 
or more years later.
    A good example is the City's Police CAD System. The system was 
originally purchased by the City as a turnkey application in 1976. In 
1983, staff began an effort to replace that system. The replacement 
project was built upon the premise that the new system had to function 
exactly like the old. The only changes were in the underlying hardware 
platform which involved newer, more reliable technology providing 
increased capacity to store and retain a greater volume of data on 
calls for service. Therefore, design considerations related to date 
issues were carried forward into the new system without regard for the 
Year 2000 (a date too distant to be considered a factor).
    The second part of the problem relates to the way programmers were 
taught to handle dates required in systems. As a rule, programmer 
training totally ignored the Year 2000 problem. Historically, 
programmers and systems analysts have been taught to handle dates in a 
specific format. For example, the date ``September 10, 1996'' would be 
stored as 96/09/10. By storing the date in this two-digit (year/month/
day) format, sorting information in date sequence was easier, and 
calculations of the time periods between two dates could be made in a 
standard way.
    The Year 2000 problem results from the two-digit year used in the 
date field. For example, 1951 is stored as ``51,'' 1996 is stored as 
``96,'' and 2000 would be stored as ``00.'' The computer is programmed 
to calculate the number of years between these dates by subtracting the 
first year from the second year, i.e., 96-51 = 45. In the year 2000, 
the calculation would be 00-51 = -51, an obvious error. In order to 
correct the calculation error, every program must be examined first to 
see if dates are used in this way, and, if so, then the logic changed 
accordingly. Furthermore, every data base must be changed to expand the 
year portion of the date field from two to four digits in order to 
include the century number.
    Another aspect of the problem that is far more difficult to analyze 
and assess is the impact at the personal computer (PC) level. Staff has 
tested a number of systems in the City and found two problems. First, 
some PC's have logic chip problems with the internally stored date when 
changing to the Year 2000. As a test, we set the internal clock date to 
December 31, 1999, at 11:59:00 PM. When the system clock reached 12:00 
AM, the date was erroneously set back to the default date of January 4, 
1980. This condition will be a particular problem when a PC is used as 
a network server, e.g., Animal Control, Automated Purchasing, etc., or 
where a PC supports a departmental application using the system date.
    The second PC problem is similar to the Year 2000 problem 
previously cited for legacy systems. While a PC may be capable of 
handling a date after 1/1/2000, an application/data base may not. This 
problem exists for in-house developed as well as purchased 
applications, e.g., LOTUS version 2.0 is not capable of working 
properly with the Year 2000.
    As a result of these two problems, with the logic chip being the 
more serious, staff estimates the need to replace approximately 700 
personal computers and numerous software packages prior to July 1999.
                            recommendations
    Staff recommendations are grouped into four areas: (1) Payroll/
Personnel, (2) Police CAD, (3) PC hardware/software, and (4) Other 
Systems. Following the summary of recommendations for the Payroll/
Personnel and CAD Systems (No. 1 & No. 2), a procurement methodology 
section has been included summarizing acquisition recommendations.
(1) Payroll/Personnel
    Staff should immediately begin the process of selecting and 
implementing a new Payroll/Personnel System. The estimated cost for 
this project is approximately $1 million.
    Selection of a new Payroll/Personnel System must take into 
consideration the following key factors:
  --The system must be flexible in order to meet the City's payroll 
        rules.
  --The system must be part of an integrated suite of software that 
        includes other financial systems.
  --Given the short time line for successful implementation, the rapid 
        procurement methodology outlined in recommendation No. 3 below 
        should be followed.
(2) Police CAD
    Staff should immediately begin the process of selecting and 
implementing a new Police CAD System The estimated cost for this 
project is $300,000 to $500,000.
    A major consideration in the Police CAD project should be 
interoperability with the Police Records Management System. The project 
must also use the rapid procurement methodology outlined in 
recommendation No. 3 below.
(3) Procurement methodology for the payroll/personnel and police CAD 
        systems
    The time frames required to implement these systems are too short 
to use a formal bid or Request for Proposal (RFP) process. Therefore, 
staff recommends using a three-step methodology proposed by the 
Purchasing Division combined with an SMS cross-functional team. The 
steps in the process would be as follows:
                  For the Payroll/Personnel System, select a cross-
                functional team with representation from the Office of 
                Personnel Resource Management, Office of Budget & 
                Finance, Risk & Retirement Administration, City 
                Auditor, and OCIS to run this project. For the Police 
                CAD System, select another cross-functional team with 
                representation from appropriate work units.
                  Each team would then be responsible for completing 
                the following steps:
                          --Define major systems requirements including 
                        a high level check list of major functions to 
                        be incorporated in the system. Document the 
                        requirements. Develop a complete project plan 
                        outlining all steps in the process, 
                        responsibilities, and time frames.
                          --Conduct a survey of available systems using 
                        an informal RFP process. Attention should be 
                        paid to any selection processes recently 
                        completed by other agencies such as the City of 
                        San Jose, Oakland Unified School District, and 
                        the Port of Oakland. Evaluate each potential 
                        system's capability against the requirements 
                        and using various types of interviews, 
                        presentations and ratings, select a preferred 
                        vendor.
                          --Negotiate an agreement with the preferred 
                        vendor for purchase and implementation of the 
                        system. Present the final recommendation to the 
                        City Council for approval of the contract.
(4) PC hardware/software
    The City should establish a policy immediately requiring that all 
new personal computer systems and software purchases be Year 2000 
compliant.
    Each Agency should inventory all personal computer hardware and 
software and assess Year 2000 compliance no later than January 1, 1997. 
After completing the inventory and assessment, each Agency is 
responsible for developing a system replacement schedule to meet their 
needs.
(5) Other systems
    OCIS staff will develop and implement a detailed work program 
illustrating how each of the other systems, not specifically addressed 
in this report, which require Year 2000 modifications, will be changed 
to meet the processing requirements of each system.
    If there are potential resource conflicts, OCIS staff will 
formulate a proposal to resolve the resource conflict using outside 
services.
                             [attachment c]

                            City of Oakland

                             Agenda Report

TO: Office of the City Manager
ATTN: Craig G. Kocian, City Manager
FROM: Avon Manning, Director, Administrative Services Agency
DATE:December 10, 1996
RE: IMPLEMENTATION OF THE YEAR 2000 CONVERSION PROJECT
                                summary
    On January 1, 2000, many information systems around the world will 
either fail or not function properly. This is not a trivial issue, but 
a serious problem which, by some estimates, will cost American 
businesses more than $200 billion over the next four years. This is an 
informational report intended to acquaint the Council with the year 
2000 problem as it applies to the City's business systems and computer 
equipment.
                               background
    The dilemma generated by the Year 2000 problem has three parts:
    1. At the time many applications and systems were developed, 
computer storage was limited; therefore, dropping redundant data 
whenever possible saved valuable storage space. Consequently, the first 
two digits of the century designation were not included and many 
software programs currently in use assume that all dates begin with 
``19'' and use only two digits to denote the year, such as ``96'' for 
the year 1996. Accordingly, the year 2000 will be interpreted by these 
programs as the year 1900.
    2. Since systems developers did not anticipate that programs 
written in the 1960s, 1970s, or even the 1980s would still be in use as 
we enter the 21st century, some programs were purposely coded to 
interpret the numbers ``99'' and ``00'' in the year field as special 
control codes. In addition, some systems may not recognize the year 
2000 as a leap year. As we move into a new century, use of the two-
digit year, as found in many City systems will produce skewed data, 
generate unusable or unreadable screens and reports, or may cause 
systems to fail completely.
    3. The final aspect of the Year 2000 problem exists at the personal 
computer (PC) level. Most PC's will have logic chip problems with the 
internally stored date when changing to the Year 2000. When the 
internal clock reaches 12:00 am on January 1, 2000, the system will 
erroneously reset to January 1, 1980 or January 3, 1982. This is true 
even for some PC's acquired earlier this year. A second PC problem is 
associated with the inability of PC software programs to properly 
handle dates after December 31, 1999. For example, LOTUS version 2.0 
does not properly handle Year 2000 dates.
    The overall impact of Year 2000 should not be underestimated. The 
City is challenged with meeting year 2000 compliance objectives while 
avoiding major system failures and the possibility of failed mission 
critical applications. Specifically, the most serious Year 2000 impact 
facing the City is that the Payroll/HR system can not properly generate 
paychecks after DECEMBER 31, 1998, due to the programming issues 
previously identified. In addition, many other application software 
programs and the majority of the PC hardware currently in use will not 
be operable as we move into the new century, i.e., past December 31, 
1999.
    The Administrative Services Agency's Office of Communications and 
Information Services has completed an initial study of over 92 systems 
in use throughout the City. An interdepartmental team has been 
established to guide and direct the Year 2000 Conversion project to 
bring computer equipment, desktop software, and department applications 
into compliance with Year 2000 requirements.
    A detailed report is attached for presentation to the Finance and 
Legislation Committee, recommending a course of action the goals and 
objectives of the Year 2000 Conversion. The plan includes cost 
projections for staffing, department applications replacement and 
modifications, and desktop software and hardware. This high priority, 
mandatory workload comes at a time when the information technology 
needs of the City are expanding and resources have been significantly 
reduced and stretched. Consequently, staff's ability to support new 
technology and systems required by agencies and departments will be 
severely limited at a critical time. Therefore, staff must be back 
filled and subsidized with contractors and consultants.
    In addition, the financial and budget systems' (FMS/BDS) audit 
report for the fiscal year 1994-95 by Deloitte and Touche recommended 
its replacement to a fully integrated, centralized system. Consistent 
with the OCIS information technology model, the payroll/human resources 
application and FMS/BDS need to be implemented as an integrated package 
with a payroll interface. By combining their requirements processes and 
purchase an integrated package the City's can better meet its 
financial, payroll, and human resources systems needs. A combined Proof 
of Concept or Request for Proposal for a new comprehensive package 
gives the City strong leverage to drastically reduce the overall cost 
of the financial investment of required software.
                             recommendation
    No Council action is recommended at this time; this is an 
informational report.

            Respectfully submitted,
                                           Avon G. Manning,
                           Director Administrative Services Agency.
                                       Prepared by:
                                           Marilyn Varnado,
                              Year 2000 Conversion Project Manager.

Approved for forwarding to the Finance & Legislation Committee:

--------------------------------Office of the City Manager 
[GRAPHIC] [TIFF OMITTED] T2OC98G.003


                                 ______
                                 

        Statement of Association of Public-Safety Communications

                        Officials-International

    Founded in 1934, the Association of Public Safety Communications 
Officials-International, Inc. (APCO) is the world's oldest and largest 
public safety communications organization. Perhaps most widely known 
for standardizing, in 1936, the ``10-codes'' used by radio users for 
over 60 years, APCO is today recognized as the world's leading 
association on public safety communications issues. Most of its 13,000 
individual members are state or local government employees involved in 
the management, design, and operation of police, fire, emergency 
management, emergency medical, local government, highway maintenance, 
forestry conservation, and other public safety communications systems. 
APCO serves as the Federal Communications Commission's (FCC) certified 
frequency coordinator for over 80 percent of the land mobile radio 
frequencies allocated for state/local government public safety use, and 
is the sole coordinator for public safety frequencies in the 800 MHz 
bands.
    With the approach of the new millennium, attention from all sectors 
of business, industry and government has begun to focus on the Year 
2000 (Y2K) Technology Problem. There are predictions of major 
catastrophes in everything from banks to electrical services. One area 
that cannot afford to have any type of system failure is this nation's 
public safety service providers. For this reason, APCO is committed to 
doing all that we can to assure that the public safety communications 
infrastructure this country depends upon will continue to function 
after December 31, 1999.
    APCO has been working with the FCC to share our data and 
experiences regarding public safety communications and Y2K. APCO 
actively participated in the FCC's Public Safety Year 2000 Roundtable 
on June 1, 1998. We will be supplying the FCC with pertinent 
statistical data concerning the nation's over 20,000 Public Safety 
Answering Points (PSAP's) and Communications Centers in order to better 
coordinate the overall response to the Y2K issue.
    Over the past few months APCO has done much to ensure that our 
members are aware of the potential problems that they could face due to 
Y2K. Each year, APCO hosts the world's largest Conference and 
Exposition devoted entirely to public safety communications. At this 
year's event held this past August in Albuquerque NM, seminars were 
conducted to address the myriad of Y2K issues facing public safety 
agencies to ensure consistent delivery of service. Our monthly 
publication The APCO Bulletin--Public Safety Communications, widely 
distributed within the public safety community, continues to publish 
articles describing Y2K problem identification and potential solutions. 
Copies of the articles Protecting Public Safety Communications from the 
Year 2000 by FCC Commissioner Michael Powell and Public Safety 
Preparation for the Year 2000: Dealing with the Y2K ``Millennium Bug'' 
that appear in our October issue are attached. Special alerts and 
articles related to the Year 2000 problem have also been published in 
newsletters directed to APCO's leadership.
    To further educate the public safety communications community, APCO 
has established a Y2K Forum on its Web site. This Forum is dedicated to 
allowing members to work together, sharing information and resources to 
help resolve their Y2K problems. APCO's web site can be found at: 
http://www.apcointl.org.
    APCO is now designing a series of regional seminars specifically 
addressing Y2K to begin in early 1999. We are hoping to be able to 
conduct these seminars in conjunction with the National Institute of 
Justice and our sister public safety professional associations, 
targeting the chief officers and management level staff of law 
enforcement and other public safety first-responder agencies at the 
federal, state and local levels.
    Public safety communications is the vital link between the public 
and those tasked to protect their lives and property; it is essential 
that this link remain functional. APCO is committed to ensuring that 
the delivery of public safety services is not disrupted by the Year 
2000 Technology Problem.

                                 Christopher Bevevino, CAE,
                                                Executive Director.
                                 ______
                                 

                 [From the APCO Bulletin, October 1998]

       Protecting Public Safety Communications From the Year 2000

                [By Michael K. Powell, FCC Commissioner]

    In the last few months, much public attention has been drawn to the 
effects that the millennial date change will have on unprepared 
computers, intelligent systems, and microprocessor-controlled machines 
and appliances. At the Federal Communications Commission (FCC), we have 
been aware of the Year 2000 Problem or so-called ``Millennium Bug'' for 
several years because of our concern for the country's critical 
communications infrastructure.
    We are particularly concerned about the integrity of the 
communications systems upon which police, fire, emergency medical and 
other public safety service providers rely to accomplish their all-
important missions. Although it appears that conventional radios and 
radio systems are generally not at risk for Year 2000 failure, the same 
cannot be said of many computer-aided dispatch systems, records 
management systems, control systems, trunking systems, or electronic 
security systems. In addition, public safety agencies must be prepared 
for possible disruptions in transportation service and even electric 
power service to their agencies and in their communities that may occur 
at the turn of the century.
    Many public safety service departments nationwide have already 
acted to prepare for the Year 2000 Problem. Yet, we are concerned that 
some public safety entities, particularly smaller or rural agencies 
without the personnel, technology and financial resources available to 
larger agencies, may not even now realize the seriousness of the 
problem and may not have begun taking the necessary steps to prevent 
system disruptions.
    With fewer than 500 days to January 1, 2000, it is apparent that no 
public safety agency can afford to put off attending to this issue. 
Often we hear that Year 2000 remediation efforts are hindered by the 
notions that ``it's someone else's problem,'' or that an eleventh-hour 
magic pill will be developed to fix the problem.
    Unfortunately, there are no magic or universal solutions. America's 
public safety entities and the communications systems upon which they 
rely must not only make sure that they themselves will be ready for the 
year 2000, but must also be prepared to help others address the 
emergencies and public service disruptions that this problem may cause 
in their communities.
    While the measures necessary to address the millennial date change 
problem (and other similar computer date change issues of which we are 
all becoming aware) frequently reach well beyond the communications 
jurisdiction of the FCC, we do take very seriously our responsibility 
to alert the entities we license and regulate to the various aspects of 
this problem and those interrelationships that can also affect other 
mission-critical aspects of public safety service providers.
    As a consequence, we strongly encourage public safety service 
providers to use all available resources to develop a comprehensive 
picture of the potential impact of computer date change problems on 
every aspect of their operations. Many manufacturers have already done 
mass mailings to apprise customers of their Year 2000 efforts, have set 
up special Internet sites that list compliant and non-compliant 
products, and have created 24-hour telephone support hotlines.
    Establishing an open dialogue with these, and other, equipment 
suppliers and manufacturers can be very helpful.
    In addition to developing a comprehensive understanding of the 
effects of date-related changes on all of their operations, departments 
should also develop a readiness program to troubleshoot potential 
problems and examine all mission-critical systems. Such a readiness 
program should include complete audits of all critical systems, careful 
remediation of each problem identified, thorough testing of each 
solution, and the formulation of contingency plans that includes the 
acquisition of those resources that will be necessary to address the 
contingencies that have been identified.
    The FCC has established a Year 2000 Task Force to coordinate 
internal Year 2000 compliance efforts and to assist the communications 
industry on this issue. The FCC's Year 2000 website at <www.fcc.gov/
year2000/>, serves as an information resource on the Year 2000 Problem 
and telecommunications, including public safety communications. The FCC 
is also an active participant on the President's Council on Year 2000 
Conversion. The efforts of this government-wide group are described in 
detail on the World Wide Web at <www.y2k.gov>.
    Finally, the FCC is working closely with other Federal departments 
and agencies, including the Federal Emergency Management Agency (FEMA) 
and the U.S. Fire Administration (USFA). In that regard, the USFA has 
developed informational materials, along with a self-assessment process 
for determining if a computer system is Year 2000-ready, that is posted 
at <www.usfa.fema.gov/y2kfaq.htm> and <www.usfa.fema.gov/y2kcom.htm>, 
respectively.
    The challenge of implementing public safety Year 2000-readiness 
rests with public safety managers and officers, including police, fire 
and emergency medical and emergency management departments, nationwide. 
Time is of the essence. We cannot extend the Year 2000 deadline. Our 
national well-being literally depends on the reliability of public 
safety services and the communications networks that support them.
    The FCC is committed to taking whatever actions it can to assist 
public safety agencies across the country in this important effort.
                                 ______
                                 

                 [From the APCO Bulletin, October 1998]

                  Dealing with the Y2K Millennium Bug

                  [By John Powell and David Buchanan]

    If the predictions of computer system failures in everything from 
automobiles and ATM's to the IRS to traffic signal controls and a 
plethora of other systems that support everyday life are even partially 
realized, the overload on public safety services will be tremendous.
    The ``bug'' is insidious, potentially impacting anything with a 
microcomputer chip--anything that has a keypad or timer, displays a 
date, stores numbers, or performs calculations. Consider for a moment 
the possible loss of a few personal items: digital clocks and 
wristwatch, automatic coffee maker, camcorder, home alarm system, 
pager, personal computer, radio, telephone, television, thermostats, 
VCR, and last (but certainly not least) access to ATM's, financial 
records, and retirement income (if you're lucky enough to have it)!
    Couple these potential failures for millions of people with 
increased turn-of-the-millennia activity and the impact on public 
safety services could be crippling. The last thing public safety 
agencies will then want to contend with is problems with their own 
operational systems.
    How big is the overall problem? After reviewing published documents 
and interviewing a number of Y2K experts, Silicon Valley Tech Week 
concluded in its April 13 issue: ``None of the mission critical sectors 
in the U.S. are even close to being Y2K compliant, say the experts. Not 
the 9,000 electric utility plants. Not the 11,000 banks. Not the 
telecommunications companies. And certainly not the U.S. Government.''
    Tim May, the retired Intel physicist who discovered the damaging 
effects of nuclear radiation on computer chips, concluded, in the same 
issue of Silicon Valley Tech Week: ``* * * financial collapse will 
occur when investors wake up and realize what's coming. July 1, 1999, 
is the start of the IRS fiscal year 2000. The IRS won't be able to 
process W2s and 1099s at that time. It has 100 million lines of code 
and isn't even awarding a Y2K conversion contract until October 1998. 
Jan. 1, 2000 may be an opportunity for terrorists, millennium 
fundamentalists, and others out to take advantage of a weakened 
infrastructure.''
    IRS Commissioner Charles Rossotti told the Wall Street Journal: 
``If we don't fix the century-date problem, we will have a situation 
scarier than the average disaster movie you might see on a Sunday 
night.''
    In the April 22 edition of the Wall Street Journal, Rossotti was 
quoted as saying, ``Twenty-one months from now, there could be 90 
million taxpayers who won't get their refunds, and 95 percent of the 
revenue stream of the United States could be jeopardized.''
    There are, however, other dates both before and after Jan. 1, 2000, 
that also must be considered. These include:
    Jan. 1, 1999: Many spreadsheets and financial applications look 
forward during the current year and will see the next year ends in 
``00''. Those functions that examine a date range may not be able to 
handle an ending date (``00'') that is lower in value than the current 
date (``99'').
    Aug. 22, 1999: GPS rollover (reset to zero). GPS is now the most 
widely used system for public safety person/vehicle location 
applications. Beyond this fundamental application are other 
telecommunications uses, not the least of which is serving as the 
common time base for synchronizing transmitters in wide area simulcast 
systems, including most of the nations large commercial paging 
operations. In addition to geopositioning and telecommunications 
applications, GPS is used in major banks and thousands of financial 
institutions for accurate date and time recording and synchronization.
    Sept. 9, 1999: ``Nines end-of-file problem'' in legacy systems 
using 9999 in the date field to denote ``end-of-file'' (EOF). Most of 
these programs are mainframe-based, written in high-level computer 
languages such as COBOL. Pubic safety applications include large 
Criminal Justice Information Systems and motor vehicle/drivers license 
systems.
    Feb. 29, 2000: Not a normal leap year (rule: if the year is 
divisible by four but not divisible by 100, or if the year is divisible 
by 400, it is a leap year). Many computer programs perform the first 
two tests (divisible by four, but not divisible by 100) but do not 
include the last test. Those that do not will be off by 1 day from 
March 1 through Dec. 31, 2000.
    Public safety decision makers need to begin planning for the 
potential problems that could be caused by major failures in electrical 
utilities, wireline and wireless telecommunications systems and 
financial institutions, among others. At the same time, they need to 
ensure that their own critical systems will survive the Y2K date crisis 
and will remain operational despite failures of other major systems 
such as electrical utilities and the telecommunications infrastructure.
                            the bottom line
    If there is the potential for everything else failing, then the one 
thing that absolutely cannot fail is the provision of public safety 
services. Key to the survival of public safety services is receiving 
emergency calls from the public and relaying those calls for service to 
units in the field.
                        the pieces to the puzzle
    There are several levels of systems that are potentially impacted 
by the Y2K ``bug.'' In general they are:
    Legacy firmware-based systems: Difficult or impossible to upgrade, 
but probably not critical unless validating date ranges, these systems 
are extensively used in process control application, including traffic 
signal light controls, elevator controls, and stand-alone access 
control systems. Early stand alone systems (access control, for 
example) had sufficient read-only memory (ROM), but limited random 
access memory (RAM). Programmers went to great lengths to preserve RAM. 
Many such systems are still in use! Formats were designed to store 
dates in a manner that permitted rapid mathematical manipulation. The 
most common (YYDDD or YYMMDD) require 2 bytes (16 bits) for a 2-digit 
year code. Application and report generating programs using date ranges 
(for age, access card validity, etc) cannot function across a century 
boundary if they use a 2-digit year code.
    Firmware-based systems also include most of the home electronic 
items mentioned at the start of this article: alarm systems, digital 
clocks, wristwatches, automatic coffee makers and similar appliances, 
automatic setback thermostats, pagers, radios, ``smart'' telephone 
sets, televisions, camcorders and VCRs.
    Mainframes: Getting much of the attention, but usually programmed 
in higher level languages such as COBOL making updates easier, these 
systems include many federal/state CJIS-type databases.
    Mini-computers: More difficult to update because code is often 
written in lower level languages such as C++ and optimized for speed, 
these systems include message switches and older and/or larger CAD/RMS 
systems.
    Personal Computers: Finally, PC-based workstations are a common 
main-machine interface to many 9-1-1 and alarm reporting systems, 
computer aided dispatch (CAD), dispatch consoles, records management 
systems (RMS), telecommunications and trunked radio switches and a host 
of related systems. E-mail systems in LAN, Intranet, WAN and Internet 
applications link personnel and off-site facilities. Mobile data 
terminals (MDT's) are a thing of the past; the new game is mobile 
computing terminals (MCT's) based on PC architecture.
    Within the personal computer, there are multiple levels to be 
addressed:
    Hardware BIOS: More than 90 percent of PC's built before 1997 have 
a bios-level problem. Many of these should be easy to fix.
    Operating Systems: Nearly all OS vendors are now addressing date 
handling problems with patches or the release of compliant upgrades.
    Applications Software: Many software packages still have a two-
digit date problem. A test of 5000 general software packages found 64 
percent had some problem.
    Data Within Single Application: Most databases and spreadsheet 
applications have 2-digit dates.
    Data Shared Between Applications: Applications may make different 
``guesses'' about the 4-digit year when encountering 2-digit year 
fields.
    At least two software packages are available to evaluate Y2K date 
compatibility of personal computers. Y2000 is available for Internet 
download at no cost from National Software Testing Labs (www.nstl.com/
downloads/y2000.exe). Y2000 downloads as a zip file containing the 
executable program and a Read me text documentation file. The program 
tests hardware and BIOS for proper Jan. 1, 2000 rollover; it also 
checks for proper leap year calculations for the years 2000 through 
2010.
    Another program, Check2000, is available at modest cost from most 
software suppliers. Check2000 performs similar hardware/bios testing to 
Y2000, but continues with more in-depth testing, reportedly checking 
some applications software as well.
                    public safety telecommunications
    FCC Chairman William Kennard, being questioned by the U.S. Senate, 
concluded, ``[I am] * * * concerned that the year 2000 problem has the 
potential of disrupting communications services worldwide * * * . Every 
sector of the communications industry--broadcast, cable, radio, 
satellite, and wireline and wireless telephony--could be affected.''
    Two ``wakeup calls'' this year highlight our dependence on these 
critical telecommunications services. During the week of April 13, AT&T 
lost its entire frame relay network for 24 hours. The failure was 
caused by a software glitch in a network circuit card that was being 
loaded with updated software while still connected to the network. 6600 
customers, including major financial institutions and their ATM/credit 
card networks, lost service. Then on May 19, Hughes Corporation's 
Galaxy IV satellite failed, disrupting paging service to millions of 
paging receivers, including critical notification systems used by 
federal, state and local public safety agencies. Automated teller, 
point-of-sale and other VSAT-based services also were disrupted.
    Recognizing these potential problems, FCC Commissioner Michael 
Powell convened a Public Safety Year 2000 Roundtable on June 1 in 
Washington, D.C. Panel members included a number of state/local public 
safety officials, as well as representatives from federal agencies, 
public safety equipment manufacturers, and consultants dealing with the 
Y2K problem.
    Interestingly, all of the consultants agreed there is a quite 
straightforward process to be used for equipment evaluation. The 
recommended steps include: equipment inventory, analysis for problem 
potential, manufacturer/vendor inquiry and certification, testing 
(independent or in-house), correction or replacement of non-compliant 
systems, and re-testing. A critical recommendation was the testing of 
all components of a system operating together as a final test once 
corrections have been made. Use ``IVE''--independent verification of 
everything!
    The consultants further agreed that in some cases the cost, both in 
time (or lack thereof) and money, is leading agencies to replace 
systems rather than attempt to upgrade an existing investment. In fact, 
many agencies are using the Y2K bug as an opportunity to perform much 
needed replacements of outdated systems.
    Equipment manufacturers present were primarily from the land mobile 
radio community. Several indicated their public safety equipment lines 
are so new that the problem was addressed in the initial design. 
Others, including Ericsson and Motorola, said they have some embedded 
equipment that may be impacted and offer information on determining Y2K 
compliance of their equipment on their Internet web sites. In 
particular, Motorola provides a search engine that allows access to 
information on Y2K compliance of their equipment in 3 categories: 
tested and passed, tested and did not pass (with additional information 
provided), and not yet tested. Unfortunately, Motorola has more 
recently stated some older equipment, primarily in the high-level 
encryption arena used by federal agencies, is not compliant and will 
not be updated.
    The best general news from this Roundtable is the Y2K bug will not 
impact most conventional radio dispatch equipment (radio system 
infrastructure and field subscriber units). However, some radio system 
management equipment and software (report generators, etc) may need 
upgrades, particularly for trunked radio systems. Unfortunately, the 
same is not necessarily true of other critical public safety software 
such as computer aided dispatch (CAD) and records management (RMS) 
systems.
                              a case study
 San Bernardino County, California
    San Bernardino County, California, encompassing 20,080 sq. miles, 
is the largest county in the continental United States. It has a 
resident population of 1.6 million people. The county contains the 
Mojave National Preserve, Joshua Tree National Park, the San Bernardino 
National Forest and many recreational areas along the Colorado River. 
The county also is home to the U.S. Army's National Training Center at 
Ft. Irvin and the Marines--29 Palms Air/Ground Training Center.
    San Bernardino County's radio system is an 800 MHz integrated 
Motorola SmartNet II trunked/conventional system serving more than 130 
public safety and public service agencies and departments. It provides 
interoperability with several state and federal government agencies. 
There are more than 10,000 mobile and portable radios on the system. 
Currently, 26 sites are used to provide coverage, with new sites being 
added each year.
    The county's microwave system has four DS3 loops with many spur 
routes. This system supports data, radio and telephone transport 
throughout the San Bernardino County.
    San Bernardino County also operates a 900 MHz paging system with 
2900 pagers and 26 sites. This paging system is the primary fire 
dispatch alerting for many of the county's fire agencies. It also 
provides administrative and operations paging for most county and city 
agencies.
    San Bernardino County's Y2K Team developed a comprehensive test and 
evaluation plan. Similar to the steps recommended in the FCC's 
roundtable, the steps in their plan included:
  --Completing an inventory of all models and versions of equipment 
        used in radio, microwave and telephone systems.
  --Evaluating equipment to deter mine which was not Y2K impacted 
        (equipment without microprocessor chips, primarily older radio 
        equipment).
  --Contacting all manufacturers and asking for certifications of Y2K 
        compliance. In some cases this was obtained from the Internet. 
        The methodology that each manufacturer used to determine Y2K 
        compliance was also solicited.
  --Conducting in-house testing based on the manufacturer's methods 
        and/or locally developed methods.
    As a parallel effort, the county's information services is 
independently testing all PC's for Y2K compliance. Because all dispatch 
consoles are PC based, this is critical. There is a known problem with 
the Microsoft Windows NT operating system used in many of these 
applications. Microsoft has promised a fix within the next few months.
    San Bernardino County's findings parallel those of the consultants 
and vendors who made presentations at the FCC roundtable. Generally, 
these are:
  --All microwave equipment is Y2K compliant as there are no date 
        specific functions in the firmware/programs.
  --With the exception of the PC-based consoles mentioned earlier, 
        nothing has been found with the radio system infrastructure or 
        subscriber units that would disrupt system operation; however, 
        system management functions will be impacted.
  --Some radio system trunked management computer programs require an 
        upgrade.
  --Telephone systems are still under scrutiny and will probably 
        require some upgrades.
    As this article went to press, a detailed analysis of the San 
Bernardino County Sheriff's CAD system found major changes would be 
required to bring the software into compliance. It is probable that it 
will be most cost effective to replace the CAD system; this option is 
receiving careful consideration.
                              be prepared!
    As with any disaster, public safety personnel will only be 
effective if they have prepared themselves and their families in 
advance. Year 2000 is inevitable; personal preparation is essential. 
What can you as an individual do to prepare? Suggestions include:
    IVE: Test all of your important home appliances by resetting the 
dates and allowing them to roll over the century and leap year dates. 
If you live by your PC as we do it should be at the top of the list, 
especially if you use it for on-line banking, financial management, or 
e-mail communications with your office. Consider buying a small 
electric generator to support critical home electrical needs if power 
fails; remember to stock up on fuel in approved storage containers 
during December 1999.
    Banking and other financial services systems are linked in huge 
international networks where a single failure could cause network-wide 
problems. While the large banks, brokerage companies, mutual fund 
houses and stock markets state that they will be ready, smaller 
institutions without the fiscal and technical resources to properly 
address the problem may pose a higher risk. Correspond with your 
institutions and obtain written assurance that your data and your money 
will survive; then make sure you keep written copies of all account 
statements!
    Credit card processing has already experienced snags as cards with 
expiration dates beyond 2000 encounter non-compliant processing 
equipment. Again, maintain copies of your account statements. Check 
them carefully and be prepared to dispute inaccurate bills.
    Delays in clearing checks (including pay checks) are predicted. A 
number of Y2K ``experts'' are recommending keeping significant cash (up 
to two months worth) on hand as 2000 approaches.
    Insurance policies and mortgage documents face similar problems. In 
both cases, obtain written documentation of coverage extending beyond 
1999. For mortgages, it is important to obtain a lender-issued 
statement detailing payments (interest and principal) already made, as 
well as an amortization schedule showing payments during 2000 and 
beyond in case the lender's computer system is unable to issue payment 
coupons. Both institutions will still expect their payments to be sent!
    Finally, but perhaps most importantly, is ensuring that you will 
continue to receive income from your employer or retirement system. 
Take an interest in your agency payroll systems and offer advice and 
assistance as appropriate; all of us are dealing with the same problem!
    The Social Security Administration has been working on Y2K 
compliance for a number of years and should be ready for Y2K. 
Unfortunately, as stated above, some other federal government agencies 
(including the U.S. Treasury ) that must work with Social Security are 
far behind. Since many public safety agencies participate in local or 
state retirement systems, it is important each maintain detailed 
records of our account(s) and be prepared for disruption in payments if 
you are fortunate enough to be retired.
                              conclusions
    Clearly the Y2K problem poses significant risk, both internal and 
external, to public safety agencies and to the general public. 
Furthermore, determining compliance can require significant time and 
resources. Correcting problem systems could require significant 
financial investment, up to the cost of replacing entire systems. 
Recommendations made at the FCC roundtable included:
  --Encouraging all users to develop and implement identification and 
        test procedures similar to those used by San Bernardino County.
  --Thoroughly testing critical telecommunications systems off-line 
        NOW. Take advantage of new/spare computers by copying current 
        live data, and then resetting the date to observe the rollover.
  --Encouraging manufacturers to develop web sites that list hardware 
        and software (by version number) that have been tested and 
        found to be compliant.
  --Establishing an index on the FCC's web site with direct links to 
        the manufacturer's Y2K web sites.
    Finally, don't plan on getting any time off from work to celebrate 
the millennium!
                               __________

                   Prepared Statement of Bruce Romer

    Good morning, Senator Bennett and members of the committee, I'm 
Bruce Romer, Chief Administrative Officer for Montgomery County, 
Maryland, and Chair of the Metropolitan Washington Council of 
Governments' CAOs Committee. I am here today, also representing the 
National Association of Counties (NACo). It is my privilege to meet 
with you today and thank you for the invitation.
    Montgomery County, Maryland has a population of approximately 
840,000 citizens and an annual operating budget of over $2 billion 
which ranks it sixth among the nation's counties in operating revenues. 
Montgomery County is one of three counties with a AAA bond rating from 
all three rating agencies. The County spends almost $100 million 
annually on technology, is highly invested in it and depends on 
technology to achieve its mission. Earlier this year the County was 
honored to accept the 1998 National Association of Counties (NACo) 
Annual Achievement Award for its Year 2000 program.
    We in Montgomery County consider the coming of the Year 2000 as a 
very serious and significant problem. This so-called Year 2000 or 
``Y2K'' Glitch when computers may fail to recognize ``00'' (zero-zero) 
as the Year 2000 is more than just a technology problem; we believe it 
constitutes a business management problem of enormous proportions 
competing for precious local government resources. If not fixed, this 
problem threatens public safety, emergency response, health and human 
services, finance, taxation, permitting, and even the operation of 
traffic management systems. In combination, problems in these areas 
could lead to challenges for public safety organizations, stoppage of 
critical services, loss of revenue, and enormous potential litigation 
costs.
    In 1995-1996 Montgomery County formulated a plan to resolve its Y2K 
problem by December 31, 1998, with the entire calendar year 1999 
reserved for contingency planning and testing. This included the 
establishment of a participative management and communications 
structure including a Project Office for a County-wide program in an 
otherwise independent and autonomous multi-agency enterprise. 
Montgomery County's agencies include general government, public 
schools, community college, parks and planning, water and sewer, 
revenue authority, and the Housing Authority. The County's Year 2000 
Compliance Program Timeline is shown on Display #1 and is included in 
Attachment #1. The County's Year 2000 Decision Structure is shown on 
Display #2 and is included along with the County's website address in 
Attachment #2. We have been working diligently to manage the effects of 
the Year 2000 problem on the County and its citizens. In the process we 
have gained significant experience and knowledge which we have shared 
with other local jurisdictions under the auspices of the Metropolitan 
Washington Council of Governments (COG). This information is contained 
in Year 2000 Best Practices Manuals (Attachment #3) produced by the 
COG's CAOs Committee of which I am the chair.
    After almost two years of intense efforts, the County finds itself 
in a unique position. Through its comprehensive multi-agency, multi-
phase, multi-platform effort, the County has identified over 200 
systems that are the focus of its Y2K program. These systems--spread 
over seven agencies--were carefully assessed; prioritized through a 
rigorous triage process (see Attachment #4 for the County's triage 
process); are being remediated through repair, replacement, or 
retirement; tested; and must be certified to be ready to operate 
properly in the new millennium. For its Y2K efforts, the County has 
appropriated approximately $35 million to date, allocated significant 
staff resources, and passed special legislation to adopt fast-track 
administrative processes in areas such as procurement and budget. See 
Display #3 for the Appropriations Summary (Attachment #5).
    The County's most recent list of projects identifies 204 registered 
projects as shown in Attachment #6. The categorization and status 
summary are regularly monitored. Examples of these projects are shown 
in Display #4 (also Attachment #4) which include E-911 Emergency 
Dispatch, traffic management, academic computing, building permitting 
systems, fueling systems and point-of-sale systems for the County's 
liquor sales. See Display #5 for a Systems Status Summary which is also 
shown in Attachment #7.
    Recently, the County's program has expanded to four concurrent 
phases, namely: systems compliance and certification, business 
continuity assurance, contingency planning, and community outreach. 
(See Attachments 8, 9, 10 and 11, respectively, for documentation 
developed by the County for each of these phases). The community 
outreach program was most recently initiated when County government 
hosted all the County's municipal governments for a Y2K session (see 
Attachment #11). A meeting of the Chambers of Commerce is planned next. 
The County has also extended its previously strong regional role in 
emergency preparedness to Y2K. The County's Emergency Management Group 
(EMG) is expected to conduct a Y2K disaster exercise sometime in early 
December.
    A continuous review of the program is conducted by committees of 
top managers from the Executive and Legislative Branches of government. 
See Display #6 for a Scorecard used by the County's Y2K Policy 
Committee to de-bottleneck projects. (See also Attachment #12 for a 
copy of the Scorecard and a sample internal memorandum dated October 
22, 1997, from me to the County's Executive Branch department heads 
establishing Y2K responsibility and priority). All this is necessary in 
order to ensure that essential services will be available to our 
citizens in the coming months. Having done this much--and finding more 
to do everyday (such as embedded systems which are much more difficult 
to identify and assess)--I admit that this is a real strain on the $2 
billion enterprise that is Montgomery County, Maryland. But any one 
municipality alone cannot assure the success of a region or the nation. 
NACo will continue to work with the counties to find appropriate 
remedies to assist them with their compliance efforts, meanwhile, this 
is a matter of grave concern to NACo and poses a major problem for the 
entire nation.
    While the national media has done a good job of highlighting the 
challenge of remediating 7,343 critical Federal systems, the local 
challenge of addressing Year 2000 is less well understood. With local 
governments responsible for providing so many direct services to the 
nation's citizens, any failure of local government services will hit 
much closer to home for each of us.
    As you may know, local government, in total, is larger and more 
dependent on information technology than the Federal government. Local 
Governments including municipalities, townships, school districts, and 
other jurisdictions, total as many as 87,259 in number. Federal 
government employment totals 4.2 million, while local government 
employs about 12 million people. Likewise information technology 
spending for the Federal government in 1997 was $28.6 billion compared 
to state and local government IT estimated spending of $41.9 billion. 
Clearly, while the Federal challenge for the Year 2000 is sizeable; the 
local governments' Year 2000 challenge is even greater.
    How are we in the Washington region governments attempting to deal 
with Y2K related issues beyond our jurisdictional boundaries? The COG 
is providing regional leadership and coordination. COG's 17 member 
jurisdictions have identified the following six critical interlocking 
functions that must be assessed in order to codify region-wide 
contingency planning assumptions for Y2K preparedness: Utilities, 
Public Safety, Public Health, Transportation, Business/Commerce, and 
Communications. Through a division of labor, member jurisdictions are 
expected to complete an assessment of their assigned areas by January 
1999. Utilizing the auspices of the COG will improve the quality of the 
information provided by those surveyed, assure information 
confidentiality and improve the economy of effort through coordination. 
In many respects the COG and Montgomery County Y2K programs may 
potentially serve as models for the nation.
    Problem solutions are normally preceded by a period of awareness, 
knowledge-transfer, discussion, and dialog. But that discussion and 
dialog must do more than just ``admire the problem.'' We believe that 
five key elements, supported by Congress, could significantly enhance 
the Nation's understanding of, and attack on, Y2K. These are:

    1. Establishment of a FEMA-like National Y2K Emergency Fund to help 
finance local governments' Y2K remediation and contingency planning 
efforts. The attached proposal (Attachment #13) recommends that 
Congress immediately appropriate $7.3 million to facilitate the efforts 
of the National Capital Region. If this region is not ready, the 
ability of Federal Government to function will be seriously impacted. 
The proposed Y2K fund will finance Y2K initiatives in each of the six 
functions identified by COG as listed above. This includes $5 million 
required immediately for the regional transportation infrastructure 
managed by WMATA and efforts to extend Montgomery County's Y2K disaster 
preparedness model to the National Capital Region.
    Another $1.5 billion should be appropriated as seed funding for the 
other local governments to apply the best practices developed by the 
National Capital Region. The NACo through its Public Technologies, Inc. 
(PTI) relationship would serve as the vehicle for providing 
programmatic assistance to the nations 3,069 counties. At the same time 
NACo would assist the federal government by proposing application and 
eligibility rules for the Y2K fund.
    2. Passage of immunizing legislation to allow known Y2K information 
to be shared without fear of lawsuit and to hold responsible public and 
private officials harmless against the threat of crippling litigation. 
Current efforts of the House of Representatives in this regard should 
be accelerated in order to encourage timely availability and sharing of 
objective information without fear of litigation. The immunizing 
legislation should not, however, relieve any party from negligence or 
deficient Y2K work quality.
    3. Establishment of a National Y2K Program Office to complement the 
efforts of the President's Y2K Advisory Council. The focus of this 
office will serve to aggregate and disseminate information to local 
governments. It will also be key in providing national coordination to 
all regions while they plan for Y2K; it will also provide status 
reports on Federal efforts to mitigate Y2K risk to regional and local 
systems.
    4. Formation of a National Y2K Help Desk available to all local 
municipalities for best practices and compliance information from 
nationally maintained databases and assistance regarding Y2K 
contingency planning.
    5. Affirmation of continued Congressional leadership to highlight 
Y2K local government issues and solutions.

    Other actions which Congress could take may include:
  --Organizing and executing at least one National Y2K Day, where 
        normal business is set aside as much as possible and Y2K 
        solutions are tested, documented, and reported for the common 
        good before January 1, 2000.
  --Instituting a National Y2K Internet Web Site devoted to the 
        responsible discussion of local Y2K issues and solutions 
        thereby encouraging inter-governmental information exchange.
  --Producing and promoting a series of professional, compelling, high-
        quality TV documentaries about local Y2K issues and solutions 
        and their impact on local government services. This will 
        supplement the work already done by NACo, ICMA, NLC and PTI in 
        their program titled ``Y2K and You.'' This would also 
        supplement the proposed National teleconference seminar 
        scheduled to air on October 7, 1998, to 47 local sites.
  --Disseminating tool kits or ``How To'' manuals such as those 
        published by the COG (see Attachment 3) which help local 
        government officials identify the steps they need to take to 
        address Y2K issues.
    Looking at just one of the recommendations, a National Year 2000 
Program Office, to complement the efforts of the President's Y2K 
Advisory Council, the Federal government can provide local government 
with much needed Y2K data aggregation and coordination. A large amount 
of data is being generated, but local governments need help in 
accumulating, analyzing, and understanding this data. As an example, 
using the information gathered for the 34 functional categories 
currently monitored by the Y2K Advisory Council, a National Year 2000 
Program Office could assist each region in ascertaining the readiness 
of area hospitals. Providers of critical emergency medical equipment 
are known to be lagging in the Y2K race. This information is essential 
in operating our local emergency medical systems. It can assist in 
projecting the necessity of the efforts of the national guard to assist 
state and local law enforcement agencies; and provide input to a 
national ``disaster'' exercise on Y2K much like the one Montgomery 
County has planned for December of this year. The most critical 
functions are the performance of the electric utilities and health care 
systems and providing information on risk assessment to local 
governments. An office of this nature would be instrumental in 
promoting dialog among the 87,259 jurisdictions in the nation.
    To ensure a community's economic stability through this difficult 
period, each local community needs a Y2K business continuity program to 
assure that business partners, suppliers, contractors, and vendors will 
still be in business after 12/31/1999. Montgomery County has such a 
program and is sharing much of its information with regional 
governmental bodies and business entities but remains concerned about 
potential litigation should reliance be placed upon its disclosures. 
The immunizing legislation mentioned above would go a long way toward 
allowing those who have accumulated regional supplier information to 
share that knowledge without fear of retribution.
    Montgomery County recognizes its obligation to the community, not 
only as the local governmental entity having the duty to inform and 
protect the citizens and businesses within its immediate boundaries, 
but also as a partner in a larger regional community. Y2K failure in 
any County's power, transportation, health care, or communications 
infrastructure will have tremendous rippling effects on all neighboring 
communities.
    A county has the obligation to repair and test all critical systems 
and processes to ensure that it can continue to deliver services and 
that local businesses can continue to operate unimpaired. Montgomery 
County is committed to undertaking special efforts to minimize the risk 
of failure to its community but, at the same time, to plan for the most 
likely regional failures. This means government should prepare to be 
the direct provider of services in the event the business community is 
disabled, such as in the distribution of food or water, should the 
local supermarket be closed or overrun. Contracted service providers 
must be on standby. A community contingency plan is as important as 
those we are developing for our automated systems.
    The potential effect of Y2K on county governments nationally 
requires the redirection of resources and manpower to ensure the health 
and safety of citizens, to maintain law and order, to initiate action 
plans for the restoration of business-as-usual, while minimizing 
negative impacts. Planning contingencies are essential in the event of 
power outages, failure in water and sewer systems, traffic controls, 
and telecommunications to note a few. Community health, safety, and 
welfare are County governments' highest priority, and potential Y2K 
impacts in this area must be identified and mitigated in short order. 
NACo is doing everything it can to ease the transition to the next 
century.
    The nationwide extent of Y2K failure is still unknown. But whatever 
it is, it will affect everyone at the same time and some earlier. The 
Y2K deadline is immovable. No silver bullet solution will be found. As 
I stated earlier, while many of the Nation's local governments are 
engaged in Y2K assessment and repair, many are very late in starting. 
For many counties, local resources are scarce and funding is critical 
to the success of Y2K repair efforts. This may prove to be one of our 
biggest obstacles. Awareness must be increased and every community must 
plan now, because we are running out of runway.
    Lessons learned by Montgomery County lead us to offer the following 
advice to those who are just starting:

    1. View Y2K as a business management problem, not a technical 
problem.
    2. Insist on the highest level of executive leadership.
    3. Make someone in your organization responsible for Y2K.
    4. Consider suspending or postponing new, non-Y2K initiatives.
    5. Make funding available; divert funds from current programs where 
possible; plan for uncertain buys.
    6. Perform a full inventory, triage and prioritize.
    7. Engender a sense of urgency; streamline procurement and budget 
processes.
    8. Where possible, don't reinvent the wheel; adopt industry best 
practices such as those of the Metropolitan Washington COG.

    Thank you, Senators, for your time and attention. I will be happy 
to answer any questions.
                            list of displays
    1. Montgomery County's Y2K Compliance Program Timeline
    2. Montgomery County's Y2K Decision Structure
    3. Montgomery County's Y2K Appropriations Summary
    4. Examples of Montgomery County Projects by Categories
    5. Montgomery County's Y2K Systems Status Summary
    6. Montgomery County's Y2K Scorecard Report 
    [GRAPHIC] [TIFF OMITTED] T2OC98G.004
    
    [GRAPHIC] [TIFF OMITTED] T2OC98G.005
    
    [GRAPHIC] [TIFF OMITTED] T2OC98G.006
    
    [GRAPHIC] [TIFF OMITTED] T2OC98G.007
    
    [GRAPHIC] [TIFF OMITTED] T2OC98G.008
    
    [GRAPHIC] [TIFF OMITTED] T2OC98G.009
    
    List of Attachments--Montgomery County, Maryland & Metropolitan 
                 Washington Council of Governments \1\

              year 2000 program--illustrations & proposal
 1. Montgomery County's Y2K Compliance Program Plan
 2. Montgomery County's Y2K Decision Structure and Website Address
 3. Metropolitan Washington Council of Government's Year 2000 Best 
        Practices Manual
 4. Montgomery County's Triage Process and Risk Rating Form
 5. Montgomery County's Y2K Program Funding Summary
 6. List of Montgomery County's Year 2000 projects
 7. Montgomery County's Year 2000 Systems Status Summary
 8. Montgomery County's How to Develop a Y2K Action Plan
 9. Montgomery County's Business Continuity Assurance Planning 
        Guidelines
10. Montgomery County's Contingency Plan Preparation Guidelines
11. Montgomery County's Session with its Municipalities
12. Montgomery County's Scorecard and (Internal) CAO's Responsibility 
        Memorandum
13. Metropolitan Washington Council of Government's Funding Proposal 
        for a National Y2K Emergency Fund.

    \1\ To obtain copies of these attachments please contact the 
Montgomery County, MD, Year 2000 Project Office.
                               __________

               Prepared Statement of Senator Gordon Smith

    Thank you Mr. Chairman. I appreciate your leadership in preparing 
for today's hearing.
    First, I would like to thank all the distinguished witnesses before 
us today for taking time to testify, and for helping us address the 
challenges facing the emergency services sector. You especially, along 
with many other leaders in this industry, are critical to ensuring the 
safety of our families as the year 2000 approaches.
    I am also very pleased to see Mr. John Koskinen, the President's 
Special Assistant on the Year 2000 problem, here to testify again 
before the committee. Thank you Mr. Koskinen. I am particularly 
interested in hearing about the President's involvement in preparing 
our national emergency systems for the year 2000. As leaders of the 
free world, I hope we all continue to focus on the safety of America 
and make preparations to safeguard against worst case scenarios. Along 
with my interest on our domestic emergency preparedness, I am also 
interested in preparations being made on the international front.
    After hearing from several agencies on this issue, it has become 
apparent that a priority must be placed on establishing a coordinated 
central Y2K emergency service center. It would make sense for every 
emergency program to dispatch from, and report to, a central Y2K 
emergency center when the average 300,000 9-1-1 calls a day increases 
into the millions on January 1, 2000? An emphasis should be placed on 
developing a response to all these worst case scenario emergencies. I 
look forward to hearing how these needs are being met and in what way 
our committee can help.
    No one will know the impact of this problem until the beginning of 
the new millennium. I have heard the Y2K problem being characterized as 
anything from a simple bump in the road to the second coming of Christ. 
With only 456 days left, there is no more time for anyone to be 
dragging their feet or dodging this critical problem. We need to assure 
the American public that our emergency systems are prepared for any 
scenario that may arise.
    In my state of Oregon, the Y2K issue has been made a top priority 
at every level of government. Local task forces are organized in every 
region, county, and city by private citizens who have volunteered their 
time. Every time I am back in Oregon, I make it a priority to 
participate with these task forces in as many local Y2K forums as 
possible, to learn more about the local problems and efforts going on 
in my state, and finding ways to help.
    Information sharing has been extremely beneficial to everyone in 
Oregon, because we are working together to deal with the problem as a 
community. Working together prevents unnecessary panic, provides 
everyone an opportunity to understand the severity of the problem, and 
brings the community together as we work toward a common goal. 
Information sharing is working, as the citizens of may state are 
proving, and I hope we can continue the open, honest dialog today at 
this hearing, and in these final months to come.
    Thank you Mr. Chairman, I look forward to learning more about the 
specific Y2K challenges facing our emergency services sector and the 
specific steps being taken to address them.
                               __________

                   Prepared Statement of Lacy Suiter

    Mr. Chairman and Members of the Committee: Good morning. I am Lacy 
Suiter, Executive Associate Director for Response and Recovery, Federal 
Emergency Management Agency. FEMA Director James Lee Witt has asked me 
to testify at this hearing on his behalf and I am pleased to have this 
opportunity to appear before you. I would like to describe FEMA's 
efforts to address the potential threat posed by the Year 2000 (Y2K) 
technology problem for fire services and emergency management within 
the United States.
        fema's role in the president's council on y2k conversion
    FEMA has a role as one of thirty-four sector coordinators 
supporting the President's Council on Y2K Conversion, chaired by 
Presidential Advisor, John A. Koskinen. FEMA chairs and coordinates 
efforts of the Emergency Services Sector (ESS) working group. Primary 
member agencies include FEMA, the Departments of Agriculture, Commerce 
(mainly the National Oceanographic and Atmospheric Administration), 
Defense, Health and Human Services, Interior, and Transportation. The 
American Red Cross participates as an honorary member. FEMA and the 
other Emergency Services Sector members are responsible for increasing 
awareness of emergency services providers throughout the Nation and for 
encouraging them to assess the readiness of their technology-based 
systems to support operations before, during, and after the clock rolls 
over to the year 2000. It is important to clarify that FEMA does not 
have a role in prevention or response to the causes of computer 
disruption. FEMA does not have authority or the technical expertise 
required to perform those types of missions.
    The goal of the Emergency Services Sector is to facilitate efforts 
to ensure that all members of the nation's emergency services community 
will be able to operate normally through the Y2K conversion period. The 
other sectors are working toward the same assurances in their areas, 
with the shared goal being that Y2K disruptions will be of minimal 
consequence. The objectives of the Y2K Emergency Services Sector 
Working Group are to:
  --Develop coordinated outreach plans and communications to State, 
        local, and private sector groups in fire and emergency services 
        (including the volunteer agency community);
  --Monitor progress of the sector; and
  --Prepare for inevitable disruptions.
     brief assessment of government preparedness for the year 2000
    The Emergency Services Sector, which met most recently on September 
16th, will be providing reports to the President's Council in the 
coming months on the readiness of the sector as a whole. Readiness 
assessments are being conducted throughout the 34 sectors on the 
Council.
    At the Federal level, all of the agencies are in the process of 
increasing awareness and fostering readiness self-assessments among 
their stakeholders. These user communities cut broadly across the 
Nation's infrastructure, involving both the private and the public 
sector. And the agencies themselves must be ready to cross the year 
2000 threshold with high confidence that their own systems will work 
well. To this end, FEMA and the other Federal agencies report directly 
to the Office of Management and Budget (OMB), on a monthly or quarterly 
basis, regarding the progress being made with their own systems.
            outreach to the emergency services sector on y2k
    FEMA is working with other agencies in the Emergency Services 
Sector to develop an outreach action plan. The action plan will include 
three categories of activity:
  --Meetings on Y2K convened by Federal Agencies;
  --Outside meetings which Federal officials will attend in order to 
        spread the word about Y2K; and
  --Other communications on Y2K, such as letters, public notices, web 
        site information, and brochures.
    FEMA plans to post this information on its Y2K web pages during the 
next month, and to make all of this information accessible through 
www.fema.gov, as it becomes available.
    The Emergency Services Sector members are actively reaching out to 
their respective constituencies. For example, HHS is in contact with 
hospitals, clinics, and other health-related facilities across the 
country. DOD's Corps of Engineers is working with the private sector 
contractors who provide services such as debris removal. These Federal 
agencies are heightening awareness and will provide assessments in the 
fire services community, emergency medical services community, the 
National Guard, and, of course, emergency management services, 
including the volunteer agencies supporting disaster response.
    FEMA's outreach to the fire services community and State and local 
emergency management is described in more detail below.
Fire services
    FEMA's United States Fire Administration (USFA) has initiated a 
multi-phased plan to raise awareness and assess readiness on the Y2K 
technology problem. This approach was selected to take greatest 
advantage of the decentralized and independent structure of the fire 
services community.
    Fire Administration staff issued a suggested article for the fire 
and emergency services publications on Y2K preparedness. Staff have 
also been interviewed by a variety of fire and emergency services 
publications for articles on the Y2K issue.
    In August, FEMA developed a list of frequently asked questions 
regarding Y2K and their answers, and formatted them into a Y2K 
brochure. The brochure is made available to students attending classes 
at the National Fire Academy. The brochure has been mailed to the major 
fire service organizations and the State Fire Marshals, along with a 
cover letter asking them to help get the word out to fire and emergency 
services nation-wide. The brochures are available for local 
distribution. FEMA also sent materials to associations of fire and 
emergency service equipment manufacturers and distributors, and asked 
them to share information on actions their members are taking to ensure 
that their products are Y2K compliant. FEMA is currently in the process 
of direct-mailing the Y2K brochure along with a cover letter to each of 
the approximately 33,000 individual fire departments across the 
country.
    The Y2K brochure also directs people to related web sites, 
including the USFA web site. The web site includes a Y2K section which 
provides general information, frequently asked questions and answers, 
as well as basic testing tips that individuals and organizations can 
apply to determine if their equipment and systems are Y2K compliant.
    Over the next few months, the Fire Administration plans to enlist 
the aid of State Fire Marshals in determining local fire service 
readiness for the Year 2000. Throughout fiscal year 1999, Y2K will be 
featured as an important topic in speeches and conference displays 
developed for the fire and emergency services community.
State and local emergency management
    FEMA's Preparedness, Training, and Exercises Directorate provides 
grants, guidance, training, and exercise assistance to State and local 
governments to help them to prepare for all types of emergencies. FEMA 
has initiated activities to address the Y2K problem and is pursuing 
outreach activities with its primary constituents, the State and local 
governments, through their national organizations, the National 
Emergency Management Association (NEMA) and the International 
Association of Emergency Managers (IAEM). A main emphasis of this 
outreach effort is to heighten awareness of State governments, and 
indirectly of local governments, on the criticality of this issue and 
to provide Y2K emergency preparedness guidance and information.
    At the September 1998 NEMA Annual Conference in Charleston, South 
Carolina, the new NEMA President led a discussion of Y2K and identified 
it as a priority area for the coming year. In fact, NEMA has already 
initiated dialogue with its membership on Y2K, and has assigned the 
NEMA Preparedness, Training, and Exercises Committee to review and 
coordinate efforts with FEMA. Committee officials participated in 
discussions with FEMA's Associate Director for Preparedness, Training 
and Exercises, and the Presidents of NEMA and IAEM on the importance of 
developing emergency preparedness measures and guidance to deal with 
potential Y2K issues. As a result, FEMA will work in partnership with 
NEMA, IAEM, and other organizations over the next several months to 
develop emergency preparedness guidance for the entire emergency 
preparedness community. Information on model State and local Y2K 
programs and practices will also be collected and shared.
    FEMA's Regional Directors have been asked to contact the State 
Emergency Management Directors in their region to support this effort. 
The personal contacts will reinforce the importance of preparedness and 
compliance at the State level, emphasize the necessity of State 
outreach to local governments, and help to identify areas where 
additional specialized assistance is needed.
    As part of FEMA's training activities, the Emergency Management 
Institute (EMI) has instituted a ``Y2K Show-of-Hands Survey'' at the 
beginning of every class, which includes the following questions:
  --Are you aware of the potential problem facing all computer systems 
        called ``Y2K'' that involves the computer's ability to 
        accommodate the change to the year 2000?
  --Is your organization actively working to ensure that its computer 
        systems are able to deal with this potential problem?
  --Are the computer systems in your organization currently fully 
        prepared to successfully accommodate the change to the year 
        2000?
    The survey provides immediate feedback on Y2K preparedness at all 
levels of government. More importantly, it raises the awareness of 
students at EMI and highlights the need for action. EMI is examining 
ways to insert Y2K considerations into the exercise scenarios for the 
Integrated Emergency Management Courses. Y2K considerations add value 
to an all-hazards curriculum by focusing attention on consequences and 
operational requirements that could also emerge during other types of 
technological emergencies. All students attending EMI resident classes 
receive copies of the Y2K brochure developed for the fire service 
community.
    In November, FEMA's Associate Director for Preparedness, Training 
and Exercises will address the IAEM 46th Annual Conference in Norfolk, 
Virginia, to urge local emergency managers to participate in efforts to 
raise Y2K preparedness.
    In February 1999, Director Witt will address the National Govemor's 
Association on the status of several FEMA initiatives, including Year 
2000 outreach, and offer suggestions on what the Governors can do to 
further the efforts to raise awareness, promote personal 
responsibility, and ensure operational readiness at all levels of 
government.
         fema's responsibility under the federal response plan
    The final element of our strategy, for which I am responsible as 
Executive Associate Director of Response and Recovery, is to ensure 
that if preventive measures fail, the signatory agencies to the Federal 
Response Plan are primed and ready to assist State and local 
governments with response to consequences of a Y2K problem affecting 
lives, property, and public health and safety. It is has been our 
experience that consequences of an order of magnitude to require 
assistance under the Federal Response Plan fall into a consistent set 
of functional areas, regardless of the type of hazard that caused the 
emergency. The Plan is organized to provide assistance to State and 
local governments in transportation, communications, public works and 
engineering, firefighting, information and planning, mass care, 
resource management, health and medical services, hazardous materials, 
food, and energy.
    A Y2K technology problem will create two sets of needs. The first 
includes technological support to the owner/operator of the disrupted 
system, such as advice on technical work-around options, and repair or 
replacement of disrupted hardware, software, or networks. The Federal 
Response Plan is not designed to meet this need. This is the job of 
information technology professionals in each owner/operator 
organization, public and private, to address through internal business 
continuity plans, with the assistance of the President's Council on Y2K 
Conversion. The second set of needs includes emergency assistance to 
State and local governments, to enable them to continue to perform 
essential community services, such as issuing emergency warnings, 
disseminating public health and safety information, carrying out health 
and safety measures, reducing immediate threats to public heath and 
safety, providing temporary housing assistance, and distributing 
medicine, food, and other goods to meet basic human needs.
    It is difficult to determine the exact nature and extent of the 
threat posed by the Y2K problem. Reports in print and television media 
and on the Internet range from predictions of business-as-usual to some 
form of cyber winter. To identify and prioritize actions to take to 
ensure we are able to provide assistance to State and local 
governments, we need credible assessments from authoritative sources 
that describe specific vulnerabilities, areas at highest risk, and 
potential consequences that could lead to activation of the Federal 
Response Plan. We believe the President's Council on Y2K Conversion is 
an authoritative source for information on this hazard.
    The Council is scheduled to release a report later this year that 
narrows down the risks and describes a plausible worst-case scenario. 
John Koskinen, Chairman of the President's Council on Y2K Conversion, 
attended our August meeting of the primary Federal Response Plan 
agencies, and stated that, domestically, he is most concerned about 
small-and medium-sized organizations (public and private); and over-
reaction by the public. He believes that the basic infrastructure will 
work and that there will be no major nationwide catastrophic 
disruptions, but that there may be needs for Federal response in some 
service sectors and in some geographic areas.
    Our primary operational objective will be, in accordance with the 
Robert T. Stafford Disaster Relief and Emergency Assistance (Stafford) 
Act, to respond to physical consequences on lives, property, and public 
health and safety. It is difficult to imagine a Y2K scenario that would 
trigger widespread physical consequences that threaten lives and 
property. However, a Y2K scenario could cause scattered disruptions in 
critical systems such as traffic control, communications, or power, 
which would complicate local, State and Federal efforts to provide 
disaster response. I am particularly concerned about rural areas in 
northern and western states in December and January, which is severe 
winter storm season. Our operations concept will be to activate 
monitoring operations through the critical conversion period here in 
Washington and in our regional operations centers, and to request 
information technology liaisons with access to FEMA internal and 
interagency sources of technology support. We may not be able to 
respond to requests for technology support, but we can use the Federal 
response system to provide a backup network to ensure that such 
requests from State and local governments are referred to the 
appropriate public/private coordination channels that have been 
established through the efforts of the President's Council on Y2K 
Conversion.
    As we wait for the official assessment from the President's 
Council, I am continuing my monthly meetings with officials of the 
primary agencies of the Federal Response Plan to focus attention on 
potential needs and options. Agencies have reported that the majority 
of mission-critical facilities and support systems necessary to conduct 
Federal Response Plan operations will be functional through the Y2K 
conversion period. Agencies are developing work-around options for 
those that will not be ready by March 1999. FEMA is doing all that it 
can, as the lead agency for the Federal Response Plan, to encourage 
Federal Response Plan agencies to work with their partners in the State 
and local emergency management and fire service communities, to promote 
awareness and business continuity planning for Y2K.
    The Y2K technology problem involves several dimensions and touches 
upon nearly every aspect of day-to-day business in the world. The 
efforts of emergency management and fire service organizations cannot 
be viewed as a substitute for personal responsibility and personal 
preparedness. Every organization and every individual, in public and 
private life, has an obligation to learn more about this problem and 
their vulnerability, so that they may take appropriate action to 
prevent a problem before it occurs. As elected leaders, you also play 
an important role in increasing public awareness and promoting personal 
initiative through a range of activities, such as this hearing. We in 
FEMA respect your concern and your commitment to this issue. At the 
same time, FEMA is working with the emergency management and fire 
services communities to raise awareness, to increase preparedness, and 
to stand ready to provide Federal response assistance to State and 
local governments, if required. We will keep you informed on our 
progress as the countdown to the new millennium continues.
                                 ______
                                 

  Responses of Lacy Suiter to Questions Submitted by Chairman Bennett

    Question 1. Does FEMA plan to preposition any core reserves of 
personnel, supplies and equipment to aid local governments or is it 
planning to coordinate Federal Government and State government 
resources? Please explain.
    Answer. At this point, FEMA does not plan to preposition personnel, 
supplies and equipment. We are planning to activate monitoring 
operations through the critical conversion period from December 29, 
1999 through January 4, 2000. This includes activating the interagency 
Emergency Support Team at FEMA Headquarters and our 10 interagency 
Regional Operation Centers (ROCs) which will operate from each of the 
10 FEMA Regional Offices. Appropriate Federal assets such as the Mobile 
Emergency Response Support Detachments will be placed on alert.
    Question 2. Mr. Suiter, I would like to thank you for coming 
today's hearing. We realize that this is an incredibly busy time for 
FEMA. FEMA cannot deploy IT professionals to Y2K system failures. 
Unfortunately, our concern is that physical effects of computer 
problems could result in failed water systems, loss of power etc. which 
could be scattered so widely that States could become overwhelmed. What 
consideration has been given to how FEMA would respond to the request 
for help from multiple States (eight or more)?
    Answer. The current Federal response structure as implemented 
through the Federal Response Plan is designed to provide assistance in 
response to emergencies and disasters in multiple locations throughout 
the United States and its territories when Federal assistance is deemed 
necessary. The Federal response structure relies heavily on its Federal 
regional response structure to deliver assistance to State and local 
communities.
    Question 3. If a Governor were to seek, and the President were to 
issue, a declaration of emergency for a particular state or region as a 
result of major Y2K disruptions: What types of assistance might FEMA 
reasonably be able to make under current authorities? Would these 
requests all likely be made under the Stafford Act/Federal Response 
Plan, or would additional or alternative channels of relief potentially 
be available through other emergency preparedness authorities?
    Answer. Upon a Presidential declaration of an emergency under the 
Stafford Act, FEMA may give mission assignments to other Federal 
departments and agencies that comport with their day to day missions to 
utilize their authorities and the resources granted under Federal law. 
Resources available include personnel, equipment, supplies, facilities, 
managerial, technical and advisory services. These assets are utilized 
to support State and local emergency assistance efforts to save lives, 
protect property and public health and safety, and lessen the threat of 
a catastrophe. Individual Federal agencies have their own statutory 
authorities through which they may provide Federal assistance to State 
and local governments that fall outside of the scope of the Stafford 
Act/Federal Response Plan.
    Question 4. Mr. Suiter, how effective do you think a Y2K warning 
system would be? Would 17 hour advanced notice help FEMA response or 
preposition equipment?
    Answer. Although FEMA agrees that a Y2K early alert system will be 
effective, it is premature to determine to what degree at this point. 
Effectiveness will depend on the nature of the emergencies and the type 
of Federal assistance that can be provided in a timely manner. The 17-
hour advance notice will help FEMA assess the nature and 
characteristics of the Y2K-related emergencies and enhance our ability 
to relay to the public what types of emergencies are mostly likely to 
occur. At the same time, 17-hours advance notice may give us a better 
idea of the scope and order of magnitude of the emergencies that occur 
overseas. The extent to which the Federal Government's reaction will be 
enhanced is uncertain.
    Question 5. I understand that FEMA is currently working on an 
appendix to the Federal Response Plan which will specifically deal with 
Y2K. Could you please elaborate on what this Y2K appendix will contain 
and when we might expect to see this document?
    Answer. In January 1999, an outline of a Y2K Supplement to the 
Federal Response Plan will be developed based on input from the FRP 
agencies and their regional counterparts. Assessments from the 
Emergency Services Sector and the President's Council on Y2K Conversion 
will influence the content of the Supplement. At this point, we 
envision that the Supplement will include a Basic Plan and functional 
annexes for the appropriate Emergency Support Functions. We plan to 
develop, publish, and distribute the Supplement by July 1, 1999.
    Question 6. The Federal Response Plan depends heavily upon the 
Federal Agencies such as the Department of Defense and the Department 
of Agriculture. How will FEMA cope if the supporting agencies have not 
considered their emergency response assets considered mission critical? 
Has FEMA received any indication that agencies are addressing this 
problem?
    Answer. FEMA is hosting monthly meetings of the FRP Primary 
Agencies to collect and track information on the progress of the Y2K 
compliance status of the 12 Emergency Support Functions. This 
information will be used to conduct a vulnerability assessment of the 
interoperability gaps that may arise as a result of Y2K operational 
issues and shortfalls. Planning is underway to conduct a national level 
seminar or tabletop exercise in the May/June timeframe to run through 
an operational simulation of our response to a Y2K related emergency. A 
national level exercise enables us to work with the FRP agencies and to 
examine the interoperability shortfalls among the FRP agencies so that 
back-up systems can be put into place by December 31, 1999.
    Today, I cannot determine that all of the 28 signatory agencies to 
the Federal Response Plan will be Y2K compliant by March 31, 1999. 
Based on responses FEMA has received from the FRP Primary Agencies in 
response to an Emergency Services Sector Y2K Standard Questionnaire, a 
number of agencies will not be Y2K compliant by March 31, 1999. 
However, no agency has reported that it will not be Y2K compliant 
before December 31, 1999.
    Question 7. Has FEMA tried to ascertain the types of relief that 
states might need, and consider which of the 12 Emergency Support 
Functions it would most likely need to activate in response to Y2K-
related emergencies?
    Answer. FEMA is in the process of planning a series of regional 
tabletop exercises to ascertain the needs of the States resulting from 
a Y2K-related emergency. Although the Y2K Supplement to the FRP will 
detail the special operations and preparedness measures, it has been 
our experience that consequences requiring assistance under the Federal 
Response Plan fall into a consistent set of functional areas, 
regardless of the type of hazard that caused the emergency. The FRP is 
robust , flexible and organized to provide assistance to State and 
local governments in transportation, communications, public works and 
engineering, firefighting, information and planning, mass care, 
resource management, health and medical services, hazardous materials, 
food, and energy.
    Question 8. What are the thresholds and guidelines that would 
govern FEMA's involvement in managing consequences of primary failures 
of critical infrastructure services. What criteria would be applied to 
determine the conditions under which relief or aid would be afforded?
    Answer. From a technical viewpoint, FEMA may not be able to respond 
to requests for technology support. However, we can use the Federal 
response system to provide a backup network to ensure that requests 
from State and local governments are referred to the appropriate 
public/private coordination channels that have been established through 
the President's Council on Y2K Conversion. From a consequence 
management perspective, our primary operational objective and criteria 
will be to respond to physical consequences on lives, property, and 
public health and safety as a result of a Presidential declaration of 
an emergency or major disaster. This is in accordance with the Robert 
T. Stafford Disaster Relief and Emergency Assistance (Stafford) Act.
    Question 9. Existing authority appears to permit FEMA, under 
appropriate circumstances, to preposition key assets in anticipation of 
a major disaster or emergency. Which of these authorities might be 
relevant to pre-positioning the resources most likely to be in demand 
in the aftermath of widespread Y2K-related failure? What conditions 
must be met in order to allow the pre-positioning of these resources 
under these existing authorities?
    Answer. In accordance with several federal laws and existing 
executive orders, each federal department and agency has assigned roles 
to fulfill emergency preparedness and planning. These statutory and 
presidential mandates require each department and agency to budget for 
its own preparedness and planning. Should there be an event resulting 
in a presidentially declared emergency or disaster, the operations of 
the agencies are funded from the President's Disaster Relief Fund 
unless other funds are available. Because of the geographic uncertainty 
with respect to Y2K, planning for pre-positioning is not being 
conducted by FEMA at this time.
    Question 10. Existing authority may allow for the Director of FEMA 
to initiate non-conventional forms of pre-preparation, such as 
providing grants to states for emergency plan development and training, 
or requesting from States reports on State plans and operations for 
emergency preparedness. Has FEMA undertaken any efforts to make grants 
or other forms of funding available to the states, in advance, for 
specialized Y2K preparedness programs? Has it made any requests of the 
states to review Y2K-related plans? Are these authorities generally 
suited to this purpose? If not, would modifications be advisable?
    Answer. FEMA did not request additional funds for Y2K planning and 
preparedness as part of our initial request for fiscal year 
1999appropriations. Public Law 105-277, the Consolidated Omnibus and 
Emergency Supplemental Appropriations Act for fiscal year 1999, 
provided additional funds to the President for Y2K issues.
    In general, FEMA gives maximum flexibility to the States relative 
to the use of the State and local assistance funding they are provided 
so that they can determine how best to meet their emergency management 
needs. If a State decides to do so, some of this funding could be used 
to help address Y2K issues. The existing authorities are sufficient to 
undertake Y2K preparedness activities at the State level.
    As part of our preparedness efforts, FEMA has discussed the Y2K 
problem with the National Emergency Management Association (NEMA), 
which represents State emergency managers, and with the International 
Association of Emergency Managers (IAEM), which represents local 
emergency managers. Both groups have pledged to work in full 
partnership with FEMA to address the Y2K issue. In addition, the ten 
FEMA Regional Directors have been directed to personally discuss with 
the State Emergency Management Directors the Y2K situation in the 
States and local jurisdictions. The Regional Directors are to report 
the results of these meetings in mid-November and a summary assessment 
of the State and local preparedness will be provided to the President's 
Council on Year 2000 Conversion in December. Future actions and 
guidance will be based on the results of the State surveys by the 
Regional Directors.
    Question 11. If there are widespread failures and substantial 
portions of a state's population is deprived of critical services, it 
is foreseeable that a large number of states may request some form of 
Federal assistance. Has FEMA planned for this possibility, and if so 
how will state requests be evaluated or prioritized? Are there any 
means by which the states may be able to notify FEMA of their 
anticipated needs in advance of the event?
    Answer. The Catastrophic Disaster Response Group (CDRG) is a 
National-level coordinating group comprised of senior representatives 
from all the FRP signatory agencies. The CDRG has the primary 
operational mission of resolving policy, resource allocation and 
prioritization issues that cannot be resolved at the Federal regional 
level. This also includes resource and allocation issues that arise 
between Federal regions.
    Under FEMA's leadership, the CDRG is addressing the potential 
impact that Y2K failures could have in responding to the consequences 
of Y2K failures. The Chair of the President's Council on Year 2000 
Conversion has asked that FEMA co-sponsor with DOD a National Y2K Table 
Top Exercise to be held next spring. One of the goals of the exercise 
is to identify issues that that may impact the Federal Government's 
ability to manage the consequences of Y2K failures. Exercise activities 
will be held at the regional level with Federal and State level 
participants to help prepare for and address Y2K issues.
    Other outreach to State and local jurisdictions is being conducted 
through the ten FEMA Regions to survey and assess State and local 
preparedness for the Y2K conversion. FEMA is coordinating and working 
with the National Emergency Management Association and the 
International Association of Emergency Managers to address Y2K issues 
and to identify areas in which State and local jurisdictions may need 
assistance. Through these State and local contacts it may be possible 
to identify anticipated needs in advance of the event. As part of these 
outreach efforts, preparedness, training, and exercise assistance and 
guidance will be provided as necessary to State and local jurisdictions 
to assist them in preparing for the Y2K conversion and to help mitigate 
anticipated problems.
    Question 12. S. 2361, the Disaster Mitigation Act of 1998, will, if 
passed: (1) expand FEMA's pre-disaster mitigation authorities; (2) 
reduce the types of facilities and activities that can receive Federal 
assistance following from a disaster; and (3) modify current cost-
sharing arrangements pertaining to disaster relief and emergency 
assistance. How will this bill, if passed, impact FEMA and the Federal 
Government's ability to address foreseeable Y2K-related requests for 
relief and assistance? Are there some portions of this legislation that 
might be more applicable than others and that might be considered for 
expedited treatment?
    Answer. The primary purpose of S. 2361, the Disaster Mitigation Act 
of 1998, was to promote mitigation; that is, to reduce loss of life and 
property from natural hazards both before and after disasters strike. 
It also proposed some changes to FEMA's disaster recovery programs to 
facilitate a more efficient recovery and to meet the needs of both 
public and individual disaster victims better. The amendments were not 
drafted with the Y2K-related requests for disaster relief in mind. Had 
the Disaster Mitigation Act of 1998 passed, we do not believe that it 
would have impacted FEMA's and the Federal government's ability to 
address foreseeable Y2K-related requests for relief and assistance.
                               __________

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

                                ------                                


 Statement of R. Michael Amyx, Executive Director, Virginia Municipal 
           League, on Behalf of the National League of Cities

    My name is R. Michael Amyx and I am the Executive Director of the 
Virginia Municipal League. I am pleased to be able to submit this 
testimony on behalf of the National League of Cities. The Virginia 
Municipal League is a statewide, non profit, non partisan association 
of city, town and county governments established in 1905 to improve and 
assist local governments through legislative advocacy, research, 
education and other services. The membership includes all 40 cities in 
the state, 155 towns and 15 urban counties. As Executive Director, I 
serve as the CEO of the Virginia Municipal Liability Pool and the 
Virginia Municipal Group Self Insurance Association. These 
organizations provide low cost insurance to municipalities.
    NLC was founded in 1924 by state municipal leagues that sought 
national representation before Congress on municipal issues. NLC is the 
largest and oldest national organization representing municipalities 
and their elected officials. NLC represents 135,000 mayors and council 
members from municipalities across the country. Over 75 percent of 
NLC's members are from small cities and towns with populations of less 
than 50,000. A significant number of small cities and towns are in the 
Commonwealth of Virginia.
    First, I am grateful to Chairman Bennett and the members of the 
Senate's Special Committee on the Year 2000 Technology Problem for 
their leadership role in drafting and efforts made towards the passage 
of The Year 2000 Information and Readiness Disclosure Act (S. 2392). 
NLC thanks the Special Committee for the opportunity to provide input 
during the drafting process regarding the needs of municipalities. Our 
nation's cities and towns consider the millennium bug to be a very 
serious matter with potentially dire consequences. Many applications 
and systems in local communities are not Year 2000 compliant today. 
Critical systems including E-911 services, water and wastewater, 
traffic signals, electric and communications, if disrupted, could cause 
severe problems for citizens who rely on these vital services
    The Year 2000 Information and Readiness Disclosure Act will allow 
companies and municipalities to disclose and share information that 
will help to avert major system failures brought about by the 
millennium bug. It is critical that cities and towns know what measures 
are being taken by the computer industry and state and federal 
governments to avoid Year 2000 problems and what methods are working 
well. We hope that the House of Representatives will follow suit and 
pass this bill in the coming week.
    There are several other crucial areas of concern to cities and 
towns where assistance from Congress is desired. We are willing to work 
with you to see to it that cities and towns are doing all that is 
necessary to avert a major crisis.
    First, we need legislation requiring insurance companies to 
disclose how they plan to respond to Year 2000 claims. To date, the 
industry as a whole has kept its cards close to the vest causing much 
uncertainty with respect to coverage and defense costs in the event 
claims are filed. Cities and towns could lose millions of dollars in 
costs to fix equipment. Of equal concern is the fact that cities and 
towns could be sued for failing to adequately deal with the Year 2000 
problem in liability lawsuits ranging from public safety issues to the 
issuing of welfare checks.
    Second, we are concerned that small cities and towns do not have 
the information, resources, awareness, and time left to implement 
compliance programs. Many of these small cities are already struggling 
financially and they do not have the infrastructure resources that 
larger cities have. We need help with disseminating information to them 
about the Year 2000, assisting them with their compliance efforts, and 
helping them to pay for this process.
    Third, despite the successful efforts of the Senate to address 
information disclosure, liability remains a concern of our nations 
cities and towns. Frankly, even with preparations and test runs, we 
still do not have the answer on whether all municipal systems will work 
within a city on January 1, 2000. This presents a challenge for cities 
and towns because we are responsible for public safety. If a large 
number of lawsuits are brought against cities on the grounds of failure 
to provide adequate public safety due to such things as glitches on 
ambulances, fire trucks, global positioning systems, or electronic 
communications related to saving lives, we believe that cities will be 
faced with budget deficits. Even more chilling is the possibility that 
the fear of liability will manifest in a reluctance on the part of 
cities and towns to respond to disasters and routine emergencies. We 
would like to work with you to address this concern for both our 
citizens' lives and the fiscal future of our cities and towns.
    The Virginia Municipal League has conducted some research that 
indicates that local governments are aware of the problem and of the 
potentially severe consequences of not solving it. Many local 
governments, in particular small to medium sized jurisdictions, do not 
have the internal expertise necessary to move forward and are, to some 
extent, relying on outside vendors to achieve compliance. Some cities 
and towns are way ahead of others. Limited resources and increased 
demand for services continue to make funding an issue. We are confident 
that most local governments will be ready when we reach January 1, 
2000. However, invariably some applications and systems will not be 
compliant. Local governments are prioritizing systems for scrutiny, and 
we hope that disruptions will be minimal.
    At this point the Virginia Municipal League is in the process of 
educating Virginia's cities and towns on the Year 2000 issues. It is no 
secret that while most cities and towns are dealing with the problems, 
information, and resources are beyond the reach of small cities. We 
have a seminar planned for next week at our annual conference to 
explore the liability issues for municipalities associated with Y2K and 
also to explore the scope of the problem. Within the 49 state municipal 
leagues, the National League of Cities, and the members of the Big 7 
state and local government interest groups a network exists to provide 
information directly to cities and towns. Unfortunately, there is no 
single prescribed cure for this problem, and the costs of addressing 
the problem are well beyond the reach of many small cities and towns.
    From a municipal perspective, cities and towns have multiple 
software and hardware vendors which have been used for numerous years. 
Cities and towns rely on these businesses for solutions to software and 
hardware dilemmas, but we cannot control the outcome. Further, some of 
these vendors are already out of business, and the vulnerability of 
those still in business is great. Additionally, electronic chips and 
devices embedded into machinery may suffer from the Y2K problem--
imagine all of the public works equipment that may be effected by this.
    NLC's Local Officials Guide The Year 2000 Problem * * * When the 
Clock Turns Be Ready!, addresses the problem for municipalities and the 
steps to take to implement a plan. This publication says that our 
nation's cities and towns face the following threats if we do not fix 
or are unsuccessful at fixing theY2K problem:
  --Threats to human life and safety are likely to occur if systems 
        fail to alert authorities to crisis situations or provide 
        incorrect information about the nature or local of a crisis;
  --Sharp increases in local taxes may be needed to defray Y2K 
        expenses, including the litigation expenses which may continue 
        for more than a decade into the new century;
  --Elected and appointed city officials may be held personally liable 
        for violation of fiduciary responsibility, breach of expressed 
        or implied warranty, errors and omissions, or malpractice; and
  --Extensive amounts of computer programmer time for both 
        implementation of a plan and data repair costs, especially for 
        data intensive agencies.
    I think that all of the state and local government witnesses 
testifying here today can agree that the longer we delay, the greater 
the cost will be, more normal processes will be disrupted, and the less 
likely we are to be able to solve problems as time runs out. Cities and 
towns can prepare for the Year 2000, but we need help getting the right 
information and the resources. NLC and the state leagues can serve as a 
repository of information for cities, but we need to ensure that the 
information out there is correct.
                              legislation
    At the state level, we are pursuing legislation that would extend 
sovereign immunity to local governments for liability arising out of 
the Year 2000 issue. Several states have passed such legislation 
(Nevada, Florida, Georgia, Iowa, and New Jersey) and others are 
currently considering similar bills (California, Hawaii, Illinois, 
Minnesota, New Hampshire, Pennsylvania, South Carolina, and Utah).
    The Virginia General Assembly passed legislation during the 1998 
session extending such immunity to the Commonwealth, but did not 
include local governments. It is our view that local taxpayers deserve 
to be protected from unpredictable financial impact which could be 
catastrophic. This is particularly true if insurance companies do not 
step forward to provide funding for defense of claims and claim 
payments as required. Cities and towns need advance warnings to arrange 
for other coverages or potentially increased expenses. The 32 local 
government insurance pools that participate in the NLC--RISC (Risk 
Information Sharing Consortium) and primarily represent small cities 
that otherwise would have problems finding affordable insurance have 
looked to proactively address this problem, but need the information 
from insurance companies too.
                      threat to emergency services
    Arlington County, Virginia has one of the most advanced emergency 
preparedness programs in effect to date. Arlington County has set up an 
emergency management team whose function is to simulate all types of 
``what if'' emergency situations, including systems failures due to Y2K 
problems. Emergency drills are performed regularly and are sometimes 
performed in conjunction with other local jurisdictions. There are two 
major areas of focus--information systems, which encompasses 
traditional computer hardware and software problems, and embedded 
chips, which comprises on-board systems in ambulances and police cars. 
To give the Committee an idea of the cost of implementation of a top-
notch program, Arlington County has allocated $15.5 million just on the 
information systems portion of Y2K preparedness. This figure does not 
include monies for embedded chips issues or traffic signals, and is 
expected to increase drastically due to the sheer magnitude of the Y2K 
preparedness undertaking.
    Currently, Arlington County has utilized Y2K coordinators who are 
looking to identify where the Y2K bug may occur. With respect to the 
embedded chips issue, assessments and inventories are conducted and 
each department is required to come up with contingency plans, even if 
the Y2K-compliant systems fail. Deadlines have been established both 
for conducting the inventories and for designing and testing 
contingency plans.
    Despite the care taken by Arlington County to effectively complete 
its Y2K emergency preparedness efforts it, along with other local 
jurisdictions faces three major concerns. First, no matter what local 
governments do to prepare internally for Y2K, many critical 
governmental functions are tied to the private sector and are only 
viable if the private sector is ready for Y2K too. For example, a 
municipalities' E-911 response system may be Y2K compliant, but if the 
local hospital's systems are not Y2K compliant, there will be problems. 
Second, local governments must respond to emergencies caused by outside 
entities when there's a systems failure. For example, local police will 
be summoned if burglar alarm companies are not Y2K compliant and 
homeowner alarm systems go off en masse. Third, the fiscal impact upon 
local governments in the event of Y2K systems failures in the private 
section cannot be underestimated. If a local business goes out of 
business due to Y2K problems, that business is not paying taxes to the 
local government.
    One way to help with solutions to these problems raised by 
Arlington County, but also applicable to local jurisdictions, is for 
Congress to focus on providing more resources to help coordinate Y2K 
preparedness on the local level. Whether this is better accomplished by 
federal involvement in increasing manpower at the local level or by 
simply providing more funding at the federal level is not known. What 
is known is that the federal government must become involved in some 
meaningful way. Even the most prepared local governments are worried 
about the ability of the private sector to adequately prepare for Y2K 
emergencies and the impact that this will have on local governments. We 
believe that some compliance accountability standards are needed to 
provide reassurance to local governments that all will be ready on 
January 1, 2000.
                               nlc action
    The National League of Cities has assisted in disseminating 
important information to local governments with Public Technology Inc., 
the International City/County Management Association, and the National 
Association of Counties. These organizations have mounted a national 
campaign to raise awareness and provide resources and other tools to 
local governments because of the serious impact that the Y2K problem 
could have on local governments. Most recently, NLC distributed over 
6,000 copies of the ``Y2K and YOU Information Kit'' developed by these 
organizations. These kits will be disseminated through state leagues at 
annual conventions, state league special meetings focusing on Y2K, and 
sent to member local governments of these organizations. The Virginia 
Municipal League plans to distribute this kit to all members of our 
insurance program, which numbers about 500 cities and towns.
    ``Y2K and YOU'' provides the tools necessary for cities and towns 
to develop remediation strategies. The kit contains best practices that 
cities have implemented, information on helpful organizations, Y2K do's 
and don'ts, and a checklist for coping with the Y2K problem. The intent 
of this kit is to avert potential problems that have the potential of 
crippling local economies, compromising public safety and health, and 
stifling local government revenues. Additionally, a video is included 
in this kit that highlights the steps necessary to implement a plan to 
address the Y2K problem.
    Though the kit provides a good deal of useful help and guidance, 
local governments still have to contend with the high costs of 
addressing the Y2K problem proactively, finding the right information 
and solutions, and finding the actual manpower and technical expertise 
needed to avert a potential problem. The first step is helping local 
governments recognize that Y2Kis an issue that they must confront. 
Cities and towns across the country are all over the map when it comes 
to assessing what kinds of systems have been put in place to avert a 
problem.
                        state municipal leagues
    From my perspective, state municipal leagues are at a distinct 
advantage in disseminating and sharing information on Y2K remediation. 
At this point, many leagues have begun programs that give local 
governments the tools to get started at a local level on addressing 
potential Y2K problems.
    My colleague, Jim Miller, the Executive Director of the League of 
Minnesota Cities has convened a task force within the Minnesota League 
that is addressing Y2K. The League of Minnesota Cities will be 
conducting several regional meetings in the coming two weeks that will 
assist cities in addressing things like what do to do if wastewater 
treatment and emergency services are effected by the problem and how to 
plan to prevent problems. Additionally, The Minnesota League has 
developed its Minnesota specific Action Guide that outlines the 
necessary steps, samples of tools and important documents for planning, 
and checklists for issues to address.
    While the Minnesota League has taken many steps and began this 
process relatively early, one of the things that Mr. Miller noted was 
that he wished that they had begun the process earlier, because the 
League keeps learning about new issues and new concerns. More than half 
of the counties in Minnesota have populations of less than 10,000. 
Community hospitals, utility commissions, and wastewater commissions 
just don't know where to turn to for help.
                             city examples
    In my testimony today, I can tell you about some great things that 
cities and towns are implementing, but I cannot tell you about who is 
not complying and what is not being done. We frankly have no foolproof 
way of determining which cities and towns have not developed and 
implemented effective compliance programs for Y2K. Further, the 
information that we do know is coming from large cities that have the 
revenue and access to information and technology that compares to 
Fortune 500 companies. The information is not out there with regard to 
those small cities and towns who don't know about the problem and who 
have not addressed it. We are concerned that these cities and towns 
will be forgotten. They need help, or they are likely to have 
catastrophic failures that compromise public safety and life as well as 
their town's economic survival.
    While the concern remains for the cities that have not yet acted, I 
do want to tell you about some of the innovative things that are being 
done.
  --The City of Plano, Texas' (Population 128,713) purchasing division 
        required a ``Year 2000 Compliance'' warranty from vendors 
        providing the City with hardware and software products. Vendors 
        must sign the document guaranteeing that their products can 
        accurately process date between the 20th and 21st centuries.
  --The City of San Diego, California (Population 1,110,550) formed a 
        team that began addressing Y2K issues in 1995. The focus of 
        their attack is the City's internal software and assessing off-
        the-shelf software problems.
  --Albuquerque, New Mexico (Population 384,736) developed a process to 
        identify and remediate those things adversely effected by Y2K 
        problems. The city's Information Systems Division reorganized 
        to three interrelated teams--City Services, Finance, and Public 
        Safety. These teams will address the needs of programming and 
        infrastructure during the process and also plans to hire five 
        additional contract programmers for the effort.
  --Seattle, Washington (Population 516,259) plans to spend more that 
        $50 million to reprogram major applications affected by the 
        problem and plans to replace the city's accounting system.
    Thank you again on behalf of the NLC for providing us the 
opportunity to present our views to the Committee.

                                <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
